<html>
<title> - HEARINGS ON H.R. 701 AND H.R. 798</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                   HEARINGS ON H.R. 701 AND H.R. 798

=======================================================================

                                HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT ASSISTANCE TO STATE 
 AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER CONSERVATION FUND 
 ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY ACT OF 1978, AND 
THE FEDERAL AID IN WILDLIFE RESTORATION ACT TO ESTABLISH A FUND TO MEET 
 THE OUTDOOR CONSERVATION AND RECREATION NEEDS OF THE AMERICAN PEOPLE, 
 AND FOR OTHER PURPOSES. ``CONSERVATION AND REINVESTMENT ACT OF 1999''
 H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                               ----------                              

                  MARCH 9 AND 10, 1999, WASHINGTON, DC

                               ----------                              

                           Serial No. 106-14

                               ----------                              

           Printed for the use of the Committee on Resources



 
                   HEARINGS ON H.R. 701 AND H.R. 798

=======================================================================

                                HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT ASSISTANCE TO STATE 
 AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER CONSERVATION FUND 
 ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY ACT OF 1978, AND 
THE FEDERAL AID IN WILDLIFE RESTORATION ACT TO ESTABLISH A FUND TO MEET 
 THE OUTDOOR CONSERVATION AND RECREATION NEEDS OF THE AMERICAN PEOPLE, 
 AND FOR OTHER PURPOSES. ``CONSERVATION AND REINVESTMENT ACT OF 1999''
 H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                               __________

                  MARCH 9 AND 10, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-14

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 9, 1999.......................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statment of.......................   106
    Dingell, Hon. John, a Representative in Congress from the 
      State of Michigan..........................................     7
    John, Hon. Christopher, a Representative in Congress from the 
      State of Louisiana, prepared statement of..................     5
    Maloney, Hon. James, a Representative in Congress from the 
      State of Connecticut.......................................    10
        Prepared statement of....................................    11
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     4
        Press releases and background information on H.R. 798....   108
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     2

Statement of Witnesses:
    Caldwell, Jack, Secretary, Louisiana Department of Natural 
      Resources, Baton Rouge, Louisiana..........................    17
        Prepared statement of....................................   248
    Campana, Sam Kathryn, Mayor, Scottsdale, Arizona, 
      Representing U.S. Conference of Mayors, Washington, DC.....    53
        Prepared statement of....................................    97
    Castro, Bernadette, Commissioner, New York State Parks, 
      Recreation and Historic Preservation, Albany, New York.....    18
        Prepared statement of....................................    78
        Written answer to questions from the Committee...........    42
    Chasis, Sarah, Senior Attorney, Natural Resources Defense 
      Council, prepared statement of.............................    85
    Coleman, Hurley, Jr., Director, Wayne County Division of 
      Parks, Westland, Michigan..................................    60
        Prepared statement of....................................   100
    Hansen, Paul, Executive Director, Izaak Walton League of 
      America, Gaithersburg, Maryland............................    55
        Prepared statement of....................................    98
        Additional material submitted by.........................    58
    Norquist, Grover, President, Americans for Tax Reform, 
      Washington, DC.............................................    61
        Prepared statement of....................................   103
    Norton, Edward, Vice President of Public Policy, National 
      Trust for Historic Preservation, Washington, DC............    63
        Prepared statement of....................................   104
    Waller, David, Director, Georgia Wildlife Resources Division, 
      Social Circle, Georgia.....................................    20
        Prepared statement of....................................    81

Communications submitted:
    National OCS Coalition, prepared statement of................    89

Hearing held March 10, 1999......................................   259

Statement of Members:
    Christian-Christensen, Hon. Donna M., a Delegate in Congress 
      from the Territory of Virgin Islands, prepared statement of   283
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, prepared statement of....................   338

Statement of Witnesses:
    Boxer, Hon. Barbara, a United States Senator from the State 
      of California..............................................   260
        Prepared statement of....................................   262
    Carper, Hon. Thomas R., Governor, State of Delaware..........   313
        Prepared statement of....................................   410
    Chambliss, Hon. Saxby, a Representative in Congress from the 
      State of Georgia...........................................   266
        Prepared statement of....................................   269
    Chasis, Sarah, Senior Attorney, Natural Resources Defense 
      Council, New York, New York................................   275
        Prepared statement of....................................   325
    Cobb, Hon. David, Mayor, City of Valdez, Alaska..............   284
        Prepared statement of....................................   379
    Cove, Thomas, Sporting Goods Manufacturers Association, 
      Washington, DC.............................................   290
        Prepared statement of....................................   330
    Front, Alan, Senior Vice President, The Trust for Public 
      Land, San Francisco, California............................   288
        Prepared statement of....................................   328
    Gonzales, Hon. Javier M., Commissioner, Santa Fe County, 
      representing the National Association of Counties, 
      Washington, DC.............................................   272
        Prepared statement of....................................   319
    Grossi, Ralph, President, American Farmland Trust, 
      Washington, DC.............................................   305
        Prepared statement of....................................   335
    Marlenee, Hon. Ron, Safari Club International, Bozeman, 
      Montana....................................................   274
        Prepared statement of....................................   323
    McGovern, Hon. James, a Representative in Congress from the 
      State of Massachusetts.....................................   263
        Prepared statement of....................................   265
    Paap, Kevin, Vice President, Minnesota Farm Bureau, 
      representing the American Farm Bureau Federation, 
      Washington, DC.............................................   301
        Prepared statement of....................................   334
    Parravano, Pietro, President, Pacific Coast Federation of 
      Fishermen's Associations, San Francisco, California........   307
        Prepared statement of....................................   420
    Shaffer, Mark L., Vice President, Defenders of Wildlife, 
      Washington, DC.............................................   303
        Prepared statement of....................................   402
    Van Putten, Mark, President/CEO, National Wildlife 
      Federation, Vienna, Virginia...............................   286
        Prepared statement of....................................   391
    Wallop, Senator Malcolm, (ret.), Chairman, Frontiers of 
      Freedom, prepared statement of.............................   338

Additional material supplied:
    Private Property Congressional Vote Index submitted by Safari 
      Club International.........................................   350
    Summary of H.R. 701 and H.R. 798, submitted by Mr. Young.....   346
    Text of H.R. 701, submitted by Mr. Young.....................   200
    Text of H.R. 798, submitted by Mr. Young.....................   124

Communications submitted:
    Report to the OCS Policy Committee from the Coastal Impact 
      Assistance Working Group, Coastal Impact Assistance,.......    23
    Davis, Mark, Executive Director, Coalition to Restore Coastal 
      Louisiana, prepared statement of...........................   341
    Hove, Hank, Mayor, Fairbanks North Star Borough, letter to 
      Mr. Young, submitted by....................................   390
    Letter from miscellaneous coastal and ocean protection groups 
      and fishing industry.......................................   390
    Letter to environmental groups by Congressmen Young, Dingell, 
      Tauzin, and John...........................................   376
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association, letter to Mr. Young, submitted by.............   409
    Paxton, Gary L., Administrator, City and Borough of Sitka, 
      letter submitted by........................................   389


H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT ASSISTANCE TO STATE 
 AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER CONSERVATION FUND 
 ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY ACT OF 1978, AND 
THE FEDERAL AID IN WILDLIFE RESTORATION ACT TO ESTABLISH A FUND TO MEET 
 THE OUTDOOR CONSERVATION AND RECREATION NEEDS OF THE AMERICAN PEOPLE, 
 AND FOR OTHER PURPOSES. ``CONSERVATION AND REINVESTMENT ACT OF 1999''



 H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                              ----------                              


                         TUESDAY, MARCH 9, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 11:03 a.m., in 
Room 1324, Longworth House Office Building, Hon. Don Young 
[chairman of the Committee] presiding.
    Mr. Young. The Committee will come to order.
    I have an opening statement. I am sure Mr. Miller and Mr. 
John will have opening statements and then, hopefully, we will 
get to our witnesses. We have, actually, three panels today. 
Unfortunately, some of the people to testify today, because of 
this outstanding large snowfall we have, won't be able to be 
here. God, I wish they lived in Alaska, they really would 
experience something. But those that cannot be here, we will 
give them an opportunity a little later on.
    The hearing today will be on H.R. 701 and H.R. 798, my bill 
and, of course, Mr. Miller's bill. I want to thank you for 
coming today for the hearings on the Conservation and 
Reinvestment Act and the Permanent Protection of American 
Resources known as Resources 2000. I am going to use most of my 
time to discuss my bill, CARA, with the anticipation Mr. Miller 
plans to do the same with his legislation.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Last summer, Billy Tauzin, John Dingell, Richard 
Baker, Chris John--who is with us--Saxby Chambliss, and I 
circulated a discussion draft of the Conservation and 
Reinvestment Act. After receiving many comments and making 
appropriate changes, we introduced the bipartisan CARA bill in 
the 105th Congress as H.R. 4717. We continued to work with that 
draft as the baseline for a reintroduction in this Congress.
    On February 10, 1999, we reintroduced CARA with the 106th 
Congress as H.R. 701. You may ask, why H.R. 701? Mr. Shuster, 
who is the chairman of another committee, had a bill named H.R. 
700 after a flight. It was delayed so, being discretion is the 
better part of valor, it was a Northwest flight, so I gave him 
the H.R. 700 number. We are joined by more than 30 original 
cosponsors and they have now grown to nearly 60 cosponsors. 
What is particularly rewarding is that this bill is bipartisan. 
Our nearly 60 sponsors are evenly distributed between 
Republicans and Democrats and this is a sign of the 
bipartisanship in this legislation and the intent of this 
legislation.
    Not only do the supporters range in ideology, but we are 
widely dispersed in geography. CARA has congressional 
supporters from Alaska to Rhode Island, and from California to 
Florida. Cosponsors range from urban members like Congressman 
Charlie Rangel of Manhattan and Congressman Towns of Brooklyn 
to members from very rural districts, like Congressman Collin 
Peterson of northern Minnesota and Congressman Watkins of 
southeastern Oklahoma.
    What brings us together? I believe the answer is twofold. 
First, this bill proposes to take revenue from Federal offshore 
oil and gas production and reinvest in our coastal communities 
while also funding valuable conservation programs in all 50 
States and territories. This revenue comes from our Nation's 
nonrenewable resources and should be responsibly reinvested 
into renewable resources which benefit all Americans. Onshore 
host States share in revenue derived from Federal production 
within their States. However, there is no direct revenue 
sharing for offshore Federal production. This bill corrects 
this inequity, while providing for conservation programs in all 
States and territories.
    Second, we provide for conservation and recreation 
opportunities in all 50 States and territories. Whether you are 
an urban or rural resident, this bill will benefit you. CARA 
provides for inner-city students to play basketball after 
school or a park to study in. CARA also allows rural sportsmen 
the opportunity to commune with wildlife in their natural 
settings. No matter where you live, the Conservation and 
Reinvestment Act will provide you with recreational 
opportunities. Too often these needs go unmet because of a lack 
of funding. Our bill works to correct that problem by utilizing 
funding which ought to be reinvested for these purposes.
    I have mentioned before that this bill is a work-in-
progress. And I want to stress that. The gentleman from 
California, Mr. Miller, and I discussed this. We will be 
discussing his bill as well as my bill. This is a two-day 
hearing, certainly an aggressive endeavor which will look at 
both bills comprehensively. It is only the first hearing. We do 
not have a mark-up scheduled and do not anticipate holding one 
until late spring. In the meantime, I hope to continue to work 
with all interested members and groups while continuing our 
centrist approach to pass this important initiative.
    I would like to take a moment to clarify two areas of the 
legislation which seem to be the focus of much attention. These 
areas are incentives for additional oil and gas development and 
private property concerns. While we have made changes to 
address each of these concerns, groups on each side continue to 
withhold their support. That is fine, as we do not need a quid 
pro quo from these groups to validate our efforts. However, we 
hope that they will work with us in a manner to help provide 
funding for national conservation programs and our coastal 
communities.
    The allegation that this bill contains incentives for new 
oil and gas production is simply false. Throughout our lengthy 
process, we have asked for comments, specifically to address 
the perception that this bill contains drilling incentives. 
When we began this process, the environmental community asked 
that we include all Federal offshore revenue, even though the 
MMS Policy Committee report, which we based Title I upon, 
included revenues only from new production. The advantage of 
including only new revenue was to lessen many of the budgetary 
implications. However, our friends in the environmental 
community thought this would prescribe an incentive for coastal 
States and communities to increase OCS development. To remove 
this perception, our bill always included all OCS revenues, no 
new incentives.
    On a parallel note, there has also been a fear that the 
Conservation and Reinvestment Act will unravel moratoria in 
some areas of the Federal OCS. For me, this bill is a revenue 
reinvestment measure, not legislation to provide incentives or 
disturb current moratoria. So, again, at the request of the 
environmental community, we happily included language which 
would preclude areas in current moratoria from both revenue 
sharing and as a factor in the distribution formula.
    Also, many thought that our eligible uses for funding 
coastal impact assistance was too broad. To address that 
concern, we have limited the eligible uses, within Title I, to 
five specifically contained within the bill.
    The other area of controversy associated with this bill has 
been with the property rights groups. To be the focus of such 
criticism from individuals I have worked with for decades has 
been troubling me personally and somewhat confusing. Let me 
explain exactly what CARA does regarding property rights. CARA 
provides annual and dedicated funding for payment in lieu of 
taxes, PILT, and Refuge Revenue Sharing. CARA provides funding 
for conservation in all 50 States and 5 territories. CARA also 
allows for Federal acquisition within boundaries of areas 
established by an Act of Congress. CARA only allows for Federal 
acquisition with willing sellers. Condemnation authority is 
removed for the purposes within this bill. CARA does not 
provide a $1.5 billion for land acquisition. Our bill provides 
near the historical average of the Land and Water Conservation 
Fund appropriation, $300 million. Frankly, other proposals do 
not have these protections. And we continue to ask for 
constructive comments from members and groups interested in 
private property rights.
    Again, this hearing is only the beginning of these bills' 
legislative lives. We continue to solicit comments from all 
interested individuals and groups. A very real issue with this 
legislation is the budgetary implications. Regardless of our 
ideology, that fight needs to be our unifying force. Should we 
make this lasting investment in our coastal communities and for 
national conservation? I personally think we should make that 
investment.
    We currently face a unique budgetary climate here in 
Congress and we are looking reinvest funds which should have 
been going to the purposes within the CARA for decades. 
Recreation and livability are going to be buzzwords of the 
future. CARA is our opportunity for action. I hope this hearing 
provides a catalyst to continue this progress to pass 
conservation legislation and create a lasting heritage for 
American conservation.
    And I yield to the gentleman from California.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. I thank the gentleman very much for yielding 
and, Mr. Chairman, I thank you for holding this hearing. In 
fact, for holding both days of this hearing, to give a very 
diverse group of witnesses an opportunity to be heard on these 
two bills. I believe that today's hearing is an historic step 
toward reasserting a legacy of resource protection and 
improvement that has been largely ignored on a bipartisan basis 
for too many years. Restoring that commitment to use the 
exhaustible resources of this country to provide permanent 
protection to public lands, marine and coastal resources, 
wildlife, historic preservation, and urban recreation is a gift 
this Committee and this Congress can truly provide to the 
Nation on the eve of the new century.
    It is with that goal that I introduce H.R. 798, the 
Resources 2000 bill. Last month, together with 50 cosponsors 
and the support of several dozen major organizations, we 
introduced that legislation. You and Congressman Tauzin and 
Congressman John and others share a similar objective with your 
legislation. There are different approaches in our bills, but 
the major purpose is quite similar. While these hearings, 
naturally, will help clarify the differences between our two 
bills, I hope the hearings serve a more important purpose, to 
build a national constituency for the passage of a negotiated 
package that achieves our common and urgent goals.
    Let us not allow this debate to descend into sniping on one 
another's bills or motives. We can either have a partisan 
debate for a few months or permanent protection of these public 
lands and wildlife resources forever. If we succeed, there will 
be plenty of credit to go around.
    I would note that perhaps, contrary to popular thought, we 
have proven that this Committee can enact major legislation 
when working in a bipartisan and reasonable fashion, as we did 
in the last Congress with the refuges and the parks bills. The 
great national parks and the public lands system is, for many 
Americans, the greatest achievement of the Federal Government, 
was born at the beginning of the current century under 
Republican President Theodore Roosevelt. The environmental 
movement was born in mid-century by both Democratic and 
Republican administrations and Congresses that passed 
legislation ranging from the Endangered Species Act to the 
Coastal Zone Management Act to the National Environmental 
Policy Act.
    Now, at the end of this century, Congress has an 
opportunity to address other urgent needs. All across America, 
we see parks closing, recreational facilities deteriorating, 
open space disappearing, historic structures crumbling, and 
fisheries vanishing. These losses have a tangible impact on 
every American. We need to invest in the future of America's 
public resources.
    We have taken the first step with the introduction of these 
two bills. The President has proposed his own public lands 
initiative. We take another important step with these hearings. 
We can and we must continue to move forward together if we are 
to succeed in enacting this sweeping but overdue commitment 
during the 106th Congress. I have pledged my full cooperation 
to you, Mr. Chairman, and to the cosponsors of your legislation 
and to the many organizations that have taken the time, the 
trouble, and the expenditure of resources to be with us today 
and tomorrow.
    I must say that many people never believed that this kind 
of hearing would come to pass in this Committee with you and I 
sitting alongside of one another, talking about a common goal 
and a common interest. I would tell them not to fret. We still 
bring very diverse views and ideologies about this subject 
matter.
    [Laughter.]
    And you bring the gavel, of course, Mr. Chairman, which we 
all recognize.
    [Laughter.]
    But in some ways, maybe, the fact that this hearing is 
taking place in the manner in which it is is a welcome sign in 
terms of the opportunities for the passage of comprehensive and 
historic legislation to deal with the most urgent problem in 
every region of this country. And, again, Mr. Chairman, I thank 
you very, very much for calling these hearings.
    Mr. Young. Are there any other opening statements? If not, 
I would like to have my first panel take Chair. I see my good 
friend John Dingell, the chairman. I still call him my 
chairman. We did more legislation in this arena than many times 
in the past and we hoped to do in the future. Mr. John Dingell. 
And Saxby Chambliss unfortunately is stuck in the snow 
somewhere. And is James Maloney here? Is Jim here? Mr. John?
    Mr. John. Yes, Mr. Chairman, if you don't mind. If you 
would yield. I have a statement that I would like to enter into 
the record as to my support of this hearing and about the two 
bills.
    Mr. Young. Without objection, so ordered.
    [The prepared statement of Mr. John follows:]

  STATEMENT OF HON. CHRIS JOHN, A REPRESENTATIVE IN CONGRESS FROM THE 
                           STATE OF LOUISIANA

    Mr. Chairman, I want to thank you for demonstrating your 
commitment to move forward with legislation aimed at 
conserving, enhancing and restoring America's precious natural 
resources by holding two days of hearings on H.R. 701, ``The 
Conservation and Reinvestment Act of 1999,'' and H.R. 798, the 
``Resources 2000 Act.'' In particular, I want to commend your 
decision to make these hearings bipartisan by including 
witnesses requested by our Ranking Member, Mr. Miller, for I 
believe that Democrats and Republicans alike share the core 
objective of both bills: reinvesting revenues from non-
renewable resources into assets of lasting value to our nation.
    As one of the principle sponsors of H.R. 701, I am eager to 
hear testimony from the many witnesses who have taken time out 
of their schedules to appear before the House Resources 
Committee. I believe the diversity of the participants and the 
contrasting viewpoints they represent will provide this 
Committee with valuable insight into the needs, concerns and 
objectives that must be met to ensure that the 106th Congress 
passes legislation guaranteeing future generations of Americans 
the opportunity to enjoy the commercial, social, recreational 
and aesthetic benefits of our lands, waters and wildlife in the 
21st century.
    For the past year, Mr. Chairman, you and I have worked with 
Congressman Billy Tauzin and Congressman John Dingell to craft 
a bipartisan bill that will create a lasting legacy of 
stewardship and conservation of our natural resources. I am 
proud of the effort that has brought us to this point in the 
process since few people a year ago put this issue on the top 
of their agenda for 1999. Remarkably, today we find legislative 
proposals with bipartisan support in the House and Senate, and 
the ``Lands Legacy Initiative'' from the Administration. I hope 
we can build upon this momentum today and tomorrow with these 
hearings, so that outstanding areas of disagreement can be 
resolved and consensus reached on a proposal that we can 
expeditiously move towards mark-up in the coming months.
    My primary interest and involvement in H.R. 701 stems from 
a great need within my home state of Louisiana to reverse the 
alarming rate of coastal erosion and wetlands loss that now 
jeopardizes communities, our economy, wildlife and fisheries 
habitat, and a unique way of life that is supported by south 
Louisiana's coastal ecosystem. Having witnessed first-hand the 
catastrophic loss of barrier islands and the degradation of 
fresh water marshes due to saltwater intrusion, I know the 
needs within my District alone are great.
    However, while the impacts of Louisiana's disappearing 
coast are being felt the hardest by the residents of 
Louisiana's coastal zone, the value of coastal Louisiana is not 
limited to my constituents. Over 25 percent of the nation's 
coastal wetlands and 40 percent of all salt marshes in the 
lower 48 states are in Louisiana. Moreover, Louisiana's 
commercial fisheries provide 25-35 percent of the seafood catch 
in the lower 48 states. Louisiana's ecosystem is a national 
treasure that provides economic, environmental and recreational 
benefits to our entire nation, but it requires immediate and 
substantial Federal assistance if future generations of 
Americans are going to enjoy these benefits.
    Louisiana is not alone in its coastal needs. The National 
Oceanic and Atmospheric Administration (NOAA) recently 
estimated that, nationwide during the next 20 years, coastal 
counties' cumulative populations will soar from 80 million to 
127 million. I strongly support establishing a coastal impact 
assistance fund that provides resources to all coastal states 
and territories so that current strains on our coastline such 
as offshore oil and gas development and future strains caused 
by population demographics are accounted for in our Federal 
budget priorities. History has often shown that the cost of 
inaction is far greater than the cost of action.
    From this perspective, I joined with my fellow sponsors of 
H.R. 701 to create a legislative proposal that would provide a 
comprehensive game plan for meeting our conservation objectives 
into the next century. ``The Conservation and Reinvestment Act 
of 1999'' (CARA '99) will ensure that all 50 states and 
territories--be they coastal, inland, upland, island or 
arctic--have permanent access to Federal resources for meeting 
their long-term environmental goals. I truly believe that this 
Congress will have fallen short of its responsibility if we do 
not pass legislation that encompasses the objectives set-forth 
in the three titles of H.R. 701: (1) coastal protection, 
restoration and impact assistance; (2) Federal and state parks 
and recreation funding; and (3) wildlife conservation and 
education.
    If there is one misconception that I hope will be cleared 
up over the next two days, it is that using revenues derived 
from Federal OCS production constitutes an incentive for new 
oil and gas drilling. The sponsors of H.R. 701 and H.R. 798 
have gone to great lengths to assure people that these bills 
are about revenue sharing, not oil and gas incentives. The 
Federal Government has used the proceeds from oil and gas 
royalties to fund the Land and Water Conservation Fund (LWCF) 
for over 30 years and I have yet to meet an oil executive or 
Federal Government official who suggested that the LWCF had any 
bearing on their decision to authorize or drill new leases. The 
fact is, revenues from Federal OCS leases will continue to come 
into the Federal Treasury with or without H.R. 701 and H.R. 
798--the only difference is that without congressional 
legislation, these funds will not be dedicated to meet our 
nation's conservation needs.
    I realize that H.R. 701 and H.R. 798 take somewhat 
different approaches in identifying and prioritizing 
conservation initiatives, but I am convinced that our Chairman 
and Ranking Member can use the Committee process to forge 
consensus. Both bills deserve the scrutiny, commentary and 
constructive criticism that will arise from these hearings and 
I look forward to the testimony of our witnesses today and 
tomorrow. In particular, I want to acknowledge and thank two of 
the witnesses who have agreed to appear before us.
    First, I want to welcome the Louisiana Secretary of Natural 
Resources, Mr. Jack C. Caldwell. Secretary Caldwell has been a 
champion of coastal impact assistance for Louisiana and all 
coastal states and I know that he can share with the Committee 
a wealth of knowledge about this issue. In addition, as a 
member of the Outer Continental Shelf Policy Committee which 
provides advice to the Secretary of the Interior through the 
Minerals Management Service, I particularly look forward to his 
discussion of the report prepared by the Coastal Impact 
Assistance Working Group on October 29, 1997 which forms the 
basis of Title I of H.R. 701. I have been asked many times by 
Members of Congress about the allocation levels and 
distribution formula for H.R. 701 and I believe Secretary 
Caldwell's testimony will provide Committee members with 
critical insight into these matters.
    I would also like to acknowledge Mr. Mark S. Davis, the 
Executive Director of the Coalition to Restore Coastal 
Louisiana. Mr. Davis will be testifying tomorrow about the 
magnitude of coastal loss in Louisiana and will share with the 
Committee his expertise on coastal restoration efforts and the 
significance of Federal intervention to combat the challenges 
facing coastal states. I have known Mr. Davis since my days as 
a State Representative in the Louisiana Legislature and I 
greatly appreciate him making the journey to Washington to 
testify before the House Resources Committee.
    In closing, Mr. Chairman, I want to thank you again for 
calling these important hearings. It is my intention to work 
with you and Ranking Member Miller to move legislation through 
this Committee so that the full House of Representatives can 
consider a bill by the August recess. An investment in 
America's natural resources today will yield unquantifiable 
benefits in the future and I believe today's hearings are right 
beginning for attaining this worthwhile goal.

    Mr. Young. And that goes for any member that would like to 
submit a written statement.
    Mr. Miller. Yes. Mr. Chairman, if I might, I have some 
letters of support that I would like to put into the record.
    Mr. Young. Without objection, so ordered.
    [The information may be found at end of hearing.]
    Mr. Young. Mr. Dingell, you are the first one up. I am 
sorry. The other members apparently got hung up in these 
snowstorms and I am glad to see you made it here. So you have 
got the floor for as long as you want it.
    [Laughter.]

 STATEMENT OF HON. JOHN DINGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. I learned a long time 
ago, when I was a young lawyer, I should curtail my talking 
when I am in a friendly forum and I don't intend to breach that 
very desirable rule.
    First, Mr. Chairman, I want to thank you and I want to 
thank Mr. Miller and Mr. John and the others who have worked so 
hard on this. And I want to remind all and sundry that you and 
I have a long friendship which goes back through the enactment 
of an awful lot of legislation, which you now guard in this 
Committee and which, very frankly, Mr. Chairman, makes me feel 
good. And I want to tell you how grateful I am for a chance to 
work with you again on this and also with my good friend 
Congressman Miller and Mr. John and the others who were 
interested in this legislation.
    This is a piece of legislation which is a part of a process 
in which, if we all do our jobs right, is going to result in 
some landmark legislation which will protect the natural 
heritage of this country. The Committee has invited many 
witnesses to speak on a number of issues and needs which arise 
from H.R. 701, your bill and mine, and H.R. 798, the Miller 
bill. And I will, therefore, keep my remarks brief and address 
as much as I can the issues that I find in these two pieces of 
legislation.
    Thirty-five years ago, as you recall, Mr. Chairman, in good 
part with your leadership, the Congress created a land and 
water conservation fund. That has created an astonishing record 
of accomplishment. Better than $10 billion has been spent to 
help conserve 7 million acres of land in 40,000 projects. The 
country has reason to be grateful to you and to us for what we 
did on that. We preserved many areas within our Federal land 
systems and provided crucial funding to States to ensure that 
State acquisitions continued to meet our resource conservation 
needs.
    More than 60 years ago, the Congress started the Pittman 
Robertson program, which contributed mightily to the States 
wildlife conservation programs. It was under this model that my 
old dad worked to establish the Dingell-Johnson program nearly 
50 years ago, later to be amended for additional conservation 
purposes by two good friends of yours and mine, Senators Wallop 
and Breaux, both of whom, incidentally, are playing a 
significant role in the development of this legislation. H.R. 
701, the Conservation and Reinvestment Act, is based on the 
legacy of accomplishment the Federal Government has achieved in 
finding workable partnerships with the States and with local 
governments to solve tough problems related to wildlife 
diversity, sustainable growth, environmental protect, and, very 
frankly, the enjoyment of our natural resources by the people 
of this country.
    During the past few years, there have been a number of 
worthy efforts by a coalition of organizations which call 
themselves Teaming with Wildlife. These outstanding people are 
dedicated to the idea that Pittman-Robertson and Dingell-
Johnson programs need to be expanded so that the fish and 
wildlife species not currently receiving biological attention 
may begin to receive it. It was their push for a dedicated 
funding source that intrigued me and I believe you also, Mr. 
Chairman, to try and find a funding mechanism by which this 
could pass the Congress. By dedicating 10 percent of all the 
Outer Continental Shelf revenues to meet unmet wildlife needs, 
State fish and wildlife agencies would begin to be able to 
count on about $300 million a year to protect more species and 
more habitat not currently receiving the protection that they 
need under the traditional approach of managing and protecting 
game resources.
    For land and water needs, the Land and Water Conservation 
Fund has been enormously successful. During the life of the 
program, close to $13 billion in authorized funds have remained 
unappropriated. This is a serious problem and it has 
significantly impaired the success of that program. So by 
dedicating 23 percent of all Outer Continental Shelf revenues 
for the Land and Water Conservation Fund, State and Federal 
side, Congress can take the lead in closing that gap and 
ensuring that we really move forward in this area.
    Mr. Chairman, I note that H.R. 701 is a fine piece of 
legislation and that any member of this body should be proud to 
support it. There are other good ideas, however, that have been 
brought to the table, by our friend and colleague Mr. Miller 
and by the President and by the Vice President in the 
administration. There has been and will be much debate 
concerning the use of Outer Continental Shelf funds for impact 
aid to coastal States. The Committee is going to hear testimony 
today and tomorrow and at other times which will make a strong 
case for renewed Federal commitment to coastal areas. Likewise, 
Mr. Miller has offered competing ideas for assured funding for 
coastal and marine resource conservation; farm, ranch, and open 
space protection; Federal and Indian land restoration; and, 
quite frankly, for historical preservation.
    I likewise wish to offer a word of praise to the 
administration, both for what it has done and what it hasn't 
done during the legislative process. First, the President and 
the Vice President came forward with a series of credible 
proposals. Second, and most important, the President has 
dedicated himself to working with the Congress to achieve 
permanent funding for the Land and Water Conservation Fund. 
Just as important, however, to this legislative process is the 
fact that the administration has not laid out a series of 
demands. Perhaps they are on the way, but for now it has given 
the Congress a set of principles to give us room to craft good 
legislation.
    Why is this legislation important? First of all, Mr. 
Chairman, I don't have to tell you. I think everybody is going 
to get plenty of answers today, including testimony from my 
good friend, the director of parks for Wayne County Michigan, 
Mr. Hurley Coleman. A few weeks ago in my office, I spent about 
an hour with Hurley as well as with Barry Tindall from the 
National Recreation and Park Association and from others who 
understand the tremendous benefits to our urban, suburban, 
exurban and rural residents that they would receive under this 
legislation. We concluded that, in order to make this happen, 
two things are necessary: a lot of cooperation in the Congress, 
a high volume of grassroots support from as many organizations 
as possible throughout the Nation. Working together, I know we 
can make this happen.
    And I want to commend you, Mr. Chairman, and the Ranking 
Member, Mr. Miller, for bringing us to this point. This is a 
fine example of the kind of cooperation that the Congress can 
show. And, Mr. Chairman, and, Mr. Miller, I want you to know 
that your leadership in this matter is going to make it 
possible for us to work together, to come together on a bill 
which will be in the broad, general, and overall public 
interest of this country. It is not hard to do it and I am 
satisfied that you are the two who can bring this about. I look 
forward to working with you and being helpful in whatever way I 
can.
    And I just want to say as a personal matter, I am so 
pleased to work again with my old friend Mr. Young who used to 
work with me a long time ago in the Subcommittee on Fisheries 
and Wildlife Conservation over in Merchant Marine Fisheries in 
the old days when we used to write good legislation. As a 
matter of fact, right in this very room, as you will remember, 
Mr. Chairman, and the consequences were always good from the 
standpoint of the public. And a lot of that stands as a 
monument to what you and I and a lot of other good people did. 
I am satisfied we have the same opportunity here and I am 
satisfied we have the people on this Committee who will do it. 
Thank you, Mr. Chairman.
    Mr. Young. Thank you, John, and thanks for those kind words 
that we go back a long ways and we have accomplished a great 
deal. I hope we can accomplish more. Mr. Maloney, you are now 
at the table so if you would like to make your presentation, 
then we will have questions from any of the people who would 
like to ask questions.

 STATEMENT OF HON. JAMES MALONEY, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF CONNECTICUT

    Mr. Maloney. Thank you, Mr. Chairman. Chairman Young and 
Ranking Member Miller, members of the Committee, thank you for 
the opportunity to testify before you this morning. I have 
written testimony for the record, which I would like to submit. 
And, Mr. Chairman, if I might, I would like to summarize.
    Mr. Young. Without objection, so ordered.
    Mr. Maloney. Very good. Thank you.
    I represent a 27-town district in Connecticut, a 
combination of mid-sized cities and many suburban communities. 
It is, in fact, the battlefront on the open space war. Every 
single town that I represent currently is engaged in an open 
space issue of major concern. Part of that is because 
Connecticut ranks dead last in Federal open space. The State of 
Connecticut has one national park, consisting of 53 acres and 
has a total of 12,000 of federally owned land. That includes 
everything, including the Federal prison. All of that Federal 
land totals less than one-quarter of 1 percent of all of the 
land in the State of Connecticut.
    The open space issue is one that is of great concern. For 
years and years, all of the cities and towns along the 
coastline outside of the New York area were known as the Gold 
Coast. People lived there, prospered well, commuted to the 
city. The Gold Coast has now become the congested coast and it 
is having a very adverse affect, both on people's quality of 
life and on the environment. A little further to the north, 
which is my district, we see a huge boom in house construction. 
We are happy with that. We are delighted that the economy is 
doing well. But the people who live in those towns now and the 
new people who will be living there want to make sure that they 
maintain a quality of life. Central to that is the preservation 
of open space.
    Congressman Miller has submitted H.R. 798, which I think is 
an excellent piece of legislation and I know that there are 
other proposals that are on the table for consideration. The 
common goal is to address this issue.
    In Connecticut and, perhaps, in other communities, we face 
another pressure which is the deregulation of many of the 
utility services means that utility companies are putting on 
the market large tracts of open space. In my home town, the 
city of Danbury has the largest lake in the State of 
Connecticut. And in Connecticut everything is to scale, so it 
is 14 miles by 1 mile, but it is the largest lake in the State 
of Connecticut. And all of that lake, that entire lake, is 
going to be sold as part of electrical deregulation. Well, if 
it is going to be sold, fine, but we need to make sure that 
that largest lake is preserved and that we continue to enjoy 
the environmental benefits that that lake has given to us.
    So let me just conclude by saying that this open space 
legislation is critically important to my communities. It is 
critically important to the State in which I reside and to, I 
know, many, many States all around the country. The central 
thought I would leave you with is last year we preserved the 
Highway Trust Fund. We did the right thing in my opinion by 
preserving the Highway Trust Fund. We made the Highway Trust 
Fund do what it was supposed to do. This year we are working in 
a similar direction on social security. We are trying to make 
sure that social security is preserved for its purpose. The 
Land and Water Conservation Fund deserves equal treatment.
    For 25 years, there has been a commitment of the Federal 
Government that the resources that go into the Land and Water 
Conservation Fund get used for Land and Water Conservation 
purposes. That has not been happening. Ladies and gentlemen, we 
have a great opportunity in this session of the Congress to 
make sure that that happens. I encourage you in doing so. I 
pledge you my support any way I can be of help to do that. And 
I commend the Committee's attention to this very, very 
important issue.
    [The prepared statement of Mr. Maloney follows:]

 STATEMENT OF HON. JAMES H. MALONEY, A REPRESENTATIVE IN CONGRESS FROM 
                        THE STATE OF CONNECTICUT

    Thank you Chairman Young, Ranking Member Miller and 
Committee members for allowing me to offer testimony on the 
issue of open space.
    The two bills we have come to discuss today, H.R. 798 and 
H.R. 701 are important steps towards preserving our environment 
for future generations. Both bills take the important step of 
restoring the Land and Water Conservation fund. I commend both 
Congressman Young and Congressman Miller for taking this step.
    Resources 2000 (H.R. 798), the bill proposed by Congressman 
Miller, includes provisions for preserving our nation's open 
spaces. These provisions are essential to protecting the nature 
and heritage of our country, and ensuring a healthy environment 
to host future economic growth.
    My state of Connecticut is a perfect example of the need 
for funding directed at open space preservation.
    Connecticut ranks LAST in federally owned open spaces. We 
have only 1 national park, Weir Farm, which covers a mere 53 
acres, about one thousandth of a percent of Connecticut's total 
3 million acres. In total, Federal land holdings in Connecticut 
total around 12,000 acres, one quarter of one percent of our 
state's total acreage.
    Opportunities abound for Open space preservation. In my 
district alone there are six possible projects that would 
utilize the open space funds suggested in Congressman Miller's 
Resources 2000 bill.
    Candlewood Lake: The future of this resource is brought 
into question by the divestiture by Connecticut Power and 
Light. The possibility exists that the lake will be sold. Open 
space funding could be used to purchase the lake and 
surrounding land or acquire appropriate conservation easements 
and ensure its accessibility and use for future generations.
    Ansonia/Birmingham Utilities Property: Some of the last 80 
acres of open space in Ansonia will, like Candlewood lake, be 
for sale as a result of utility company divestiture.
    Trout Brook/Bridgeport Hydraulic property: This resource 
was rescued from becoming a housing development and purchased 
by the state of Connecticut, Nature Conservancy, and other 
groups interested in protecting the environment. However, they 
still need around $3 million to complete the project, a perfect 
example of an under-funded, local effort to preserve open 
spaces.
    Naugatuck River: As the State updates 7 sewage treatment 
plants along the Naugatuck, the once polluted river becomes a 
valuable natural resource, and a prime piece of real estate. 
River authorities are working with localities to purchase land 
along the Naugatuck, creating a new greenway. Time is of the 
essence as the land grows more valuable once the river is 
clean. Open space money could be used in this situation to help 
localities along the Naugatuck coordinate and fund parks and 
recreational areas alongside the river.
    Meriden Flood Control: The Army Corps of Engineers project 
to create flood relief for the residents of Meriden also 
presents an opportunity to preserve urban open space. Part of 
the draft plan includes ``daylighting'' the Harbor brook, an 
environmentally preferable arrangement to the current 
underground path the brook now takes. ``Daylighting'' the brook 
will also create a scenic urban park in Meriden, a win-win 
situation.
    Ridgefield/Bennett's Farm: Over 600 acres including 
wetlands could become open space using Federal funding. Right 
now the price of this property is set at around $13 million, as 
the owners are currently planning a housing community and 
conference center. Only a few years back the same property was 
purchased for around $8 million, an example of the time 
sensitive nature of our dwindling supply of open space.
    Each of these examples in my district highlights the many 
aspects of Open Space needs in this country. There are so many 
communities taking the initiative to preserve their open space, 
but they lack the resources to take such progressive actions.
    In conclusion, I think it is evident from the examples in 
my district that Americans across the nation desire and need 
funding for open spaces in their communities. This issue 
requires Federal participation so that our country as a whole 
has environmental resources to offer future generations.
    As the Committee prepares to act on these bills, I hope you 
will take into consideration the vast number of needs for open 
spaces in our country. Thank you for your consideration of this 
matter.

    Mr. Young. Thank you for your testimony. John, I just have 
one question for you. This is the beginning and I am going to 
ask you--and I hope, because you are the sponsor of H.R. 701 
that, as we go through this process, you not only just testify 
today, that we continue to have your oar in the water. Because 
without it, it is going to be very difficult to achieve the 
goal which I am seeking to do. So that is the only thing, are 
you willing to go to bat and to work on legislation? I am not 
locking you in, necessarily, to a fixed bill, but the goal here 
is, I think, what all of are seeking is going to take a lot of 
heavy lifting. Because, otherwise this is not going anywhere.
    We had a hearing in a meeting the other day with one of the 
appropriators. And you would think I had him by the I don't 
know what, but he was sure squealing.
    [Laughter.]
    And, you know, because he is losing part of his authority 
to appropriate money. But they haven't done what they should 
have done to begin with, so it is going to take a lot of heavy 
lifting. I just want to make sure you are on board with me on 
this one.
    Mr. Dingell. Mr. Chairman, I know that you and this 
Committee have the ability to do that. I am, as you know very 
well, sponsor of that legislation, very proud of it. I think we 
have done an outstanding job in terms of meeting the concerns 
of everybody and I think, as far I am concerned, we could pass 
that bill just as it is and wouldn't complain. But the 
legislative process is going to require a certain amount of 
give-and-take.
    I have got to say, in your leadership in this matter, Mr. 
Chairman, you have demonstrated some extraordinary 
bipartisanship and it is a great example. I know you and I are 
not known as bipartisans, but when we get right down to it, 
sometimes we have done some extraordinary work in that area and 
I want to say Mr. Miller has come a good way in working with 
us. And we did a few things like this last year and in the 
previous Congress, as you will remember, and they were good for 
the country and they were good for the people and I think all 
three of us are proud of what we did there. So I see no reason 
that the process, with you two working on it, is not going to 
move forward. And I certainly look forward in my small way, 
outside this Committee, trying to be as helpful as I can in 
what it is you are doing.
    Mr. Young. Thank you, John. The gentleman from California.
    Mr. Miller. Thank you. And I have no question. Again, I 
want to echo what you said, Mr. Chairman and Chairman Dingell, 
to thank you for your pledge of involvement.
    Chairman Young and I met some weeks ago, quite a while ago, 
and talked about this and I think we fully appreciate that this 
is going to be about legislating, which means an awful lot of 
people are going to have to be involved and Congressman Maloney 
has been involved in this before the bill was written. And we 
need that kind of involvement. It is very clear that there is 
very diverse views on this. The devil is in the detail, because 
people do have different approaches and different views about 
what should and should not be done. But that is the art of 
legislation is to try to sort those things out and I think the 
track record of the parties involved here is pretty good, but, 
clearly, your sustained interest and involvement is important 
to this. And I thank both of you for your testimony.
    Mr. Young. Any other questions from any of the members? Any 
comments? Helen.
    Mrs. Chenoweth. Thank you, Mr. Chairman. And I do want to 
say for the record that I believe that this chairman has gone 
all out for his sportsmen. He has really worked very, very hard 
for them and it is obvious in this bill. But I do have to say 
that rarely would I oppose anything my chairman would do. But 
this bill is one that I have to oppose because I believe that 
we are moving away from the legacy of Ronald Reagan and all of 
those who have gone before us in the fight for private property 
and the fight for the rights of States and local units of 
government to sovereignly manage their own units and to carry 
out the people's trust, who elected them.
    I do want to say that, in looking over the witness list, I 
am disappointed that it is not more balanced. And while we are 
holding two days of hearings, I would like to officially ask 
for another day of hearings to be held to at least include 
those witnesses who were able to be heard in 1988 when this 
bill came up and was soundly defeated. I do want to say that I 
think everyone should be heard and I understand that there is 
going to be a hearing in Louisiana on this. I would also like 
to ask if we could have a hearing in the West on this 
particular bill, maybe in California or in Idaho.
    As I look this bill over, I find that the PILT money, while 
PILT provisions are in the bill, nevertheless there is already 
PILT authority and we are only funding PILT at 50 percent. This 
bill does nothing to mandate the appropriators to fund PILT, 
nor could it do that. And the condemnation authority certainly 
is in the bill, condemnation of private property. The only 
thing that isn't in the bill is, under this bill, monies 
generated would not go to pay for private property that has 
been condemned; it would only go to pay for private property 
that has been transferred by a willing buyer or a willing 
seller.
    And I have to ask the chairman that, if a private landowner 
is faced with the choice of suffering with regulations enacted 
by the Federal agencies under congressionally approved statutes 
like this one, does this really constitute a willing seller? I 
don't think so, Mr. Chairman. And I think that this bill that 
was soundly defeated and you worked to help defeat it in 1988 
is one that we should take a long and careful look at.
    In the name of the sportsmen, I think there are many ways 
that we can help the sportsmen. One would be weighing in on 
legislation to correct the decision out of New Jersey that 
enforces or implements product liability on gun manufacturers, 
because that ultimately will affect our hunters.
    But I would like to ask Mr. Dingell, who I have great 
respect for, you know, Michigan will receive about $45,477,000 
in one year from this, but I have to ask you, sir, how much oil 
and gas leasing really takes place in the Great Lakes?
    Mr. Dingell. We won't allow any gas leasing in the Great 
Lakes because of the unique and precious character of them, but 
there will be very large gas leasing and oil leasing in 
Michigan. Michigan is a rather large producer of both natural 
gas and oil.
    Mrs. Chenoweth. But right now there is virtually none, 
right?
    Mr. Dingell. We don't do it out in the lakes, themselves.
    Mrs. Chenoweth. Or is there any offshore drilling or oil or 
gas production off of----
    Mr. Dingell. Not in the lakes. Remember the lakes, although 
there are the largest reservoir of fresh water and one of the 
most precious in the world, are still rather small. They are 
confined. And the interchange in water in the Great Lakes 
occurs very, very slowly. The two lakes that have the greatest 
interchange are Erie and Ontario and I think the water changes 
in them in about 20 years. So if we had a major oil spill in 
the Great Lakes, we would have big problems. The clean up of it 
would not be anything that could be done in any acceptable 
fashion.
    Mrs. Chenoweth. So if there are proposals for directional 
drilling, would you support that?
    Mr. Dingell. I don't have any problems with directional 
drilling if you are going to drill from offshore out under the 
lake, that is not something that causes me any particular 
difficulty. It is setting up the rig and having a spill that 
goes into the lakes.
    We have just achieved, after years and years of massive 
problems, a clean up of Erie, which was going to be a dead sea. 
We have got it now to the point where Erie is one of the finest 
walleye and muskie fishing lakes in the world. We have salmon 
in there. And they are enormous national treasures. Every one 
of those salmon brings to the State of Michigan $70 in tourist 
revenues. So, I mean, these are great things and our people 
want to protect them.
    And I have supported offshore drilling and have usually 
opposed constraints on offshore drilling because I view that as 
being an unwise energy policy in the United States. That tends 
to differ me from some of my colleagues and some of the 
environmental organizations, but I think those things can be 
done safely. And I think the risk is unacceptable inside the 
Great Lakes and our people think so. You can't find anybody in 
the Great Lakes, in the United States or Canada, that wants 
drilling inside the Great Lakes by offshore platforms.
    Mrs. Chenoweth. Mr. Chairman, I see that my time is up and 
I thank Mr. Dingell for his comments. I just simply want to say 
that if there was offshore drilling and revenue generated, well 
then that would justify Michigan receiving the $45.5 million 
per year. And I also want to say that the salmon that is now in 
Lake Michigan actually came from the Pacific Northwest.
    Mr. Dingell. That is true, but we do have Atlantic salmon 
in there.
    Mr. Young. Specifically, from Alaska if you really want to 
know where I think it is.
    [Laughter.]
    And it is an irritation to me that they hold the world's 
record now for the largest silver salmon caught. It is not in 
Alaska, but it is Alaska DNA.
    [Laughter.]
    Mr. Dingell. I can't quarrel with anybody from Alaska about 
what a great place that is and what great fishing the salmon 
are out there.
    Mr. Young. Yes. I would just like to respond for a moment. 
This is a hearing and the condemnation of the bill I can 
understand. But we hopefully will work together and can relieve 
some of the anxiety of the lady's concern about this 
legislation. If we cannot, then we will still go forth, because 
I do believe that there is an opportunity to reinvest. This is 
not about who gets what or where it goes, but reinvest in the 
fish and wildlife of this great Nation of ours.
    And I don't do that just for our sportsmen. I will just 
digress little bit. Now you have heard me say this, the 
gentlelady has before, if you want to retain our freedoms, if 
you want to retain a society that has some sanity, you have to 
have the availability to hunt and to fish. If you lose that 
availability, then you lose what remaining sanity is left in 
this great Nation. Because we face urban tyranny. I listen to 
Maloney talk about his urban sprawl. That creates urban 
tyranny.
    Now how we solve that problem is really what these hearings 
are all about because we cannot continue to have this lack of 
access to those lands and access to fish and wildlife. If we 
lose that, we lose the freedoms which I think are so crucial to 
this Nation. This is what my interest is about. This is why I 
am pushing this bill. This is a chance to go into the year 2000 
with an opportunity to provide every man, woman, and child the 
chance to participate in what I think is our legacy, and that 
is the ability to hunt and fish.
    Now, with that, anybody else? Mr. John.
    Mr. John. Yes. I don't necessarily have a question, Mr. 
Chairman, but I do have a couple of comments. First let me pile 
on to the accolades of the chairman for holding this meeting, 
this hearing, for the next two days in a true spirit of 
bipartisanship. We sit here with two bills that ultimately go 
after the same goal in somewhat different directions, but the 
willingness of the chairman and the Ranking Member, Mr. Miller, 
to sit down and have both bills put on the table and talked 
about is a great tribute to their willingness to put together a 
piece of legislation.
    This bill is going to become, in reality, one of the most 
comprehensive, wide-sweeping, environmental pieces of 
legislation in many, many years. It has been said so many 
times. This piece of legislation is all about finding a revenue 
source for reinvestment and conservation. This bill is not 
about oil and gas drilling. It simply is not. If you think 
about it in its purest form, what does this bill do? It takes a 
revenue stream that is presently collected from activities off 
coastline and reinvests it back into our coastal marshes and 
into our estuaries; back into conservation, wildlife and other 
important programs.
    So, as we move through these hearings, I want to reiterate 
that this bill is about making a commitment to reinvest some 
portion of revenues--from a non-renewable natural resource--
back into our estuaries and our environment; the kind of thing 
that all of us on this Committee wants to do.
    Why am I involved? I mean, I think it is pretty obvious. 
Thirty-five miles a year of my district get washed away in the 
Gulf of Mexico. So that is why I am involved. As a young boy, I 
used to hunt a lot in the marshes of Louisiana and where I used 
to fish is now two or three miles out in the Gulf of Mexico. So 
that is why I am involved. We have been trying to deal with 
this issue for many, many years. I know that Senator Johnston--
former Senator Johnston of Louisiana--and other people had 
tried to put together legislation to come up with a funding 
stream to not only protect our coastline, but also to preserve 
and protect our wildlife and our fisheries of this great 
Nation. And this issue, I think, is so much more broad than a 
lot of the issues that we are dealing with. I think it is going 
to become a paramount piece of legislation.
    As we look at H.R. 701 and H.R. 798, there are some good 
ideas in both of the bills. For example, H.R. 798 includes 
funding for the operation and maintenance of our national 
parks; this is a good idea and we ought to explore this idea 
further. That is what this hearing is all about.
    I am honored to be sitting at the table with the chairman, 
the Ranking Member, and also the dean of the delegation, Mr. 
Dingell, who has offered his staff and has worked very, very 
hard to try to put this together and make it a reality. So I am 
looking forward to the next couple of days and I appreciate the 
chairman putting these hearings together.
    Mr. Young. If there are no other comments, I would like to 
thank the two gentlemen for being with us today. And we have 
open eyes and open ears and most of the time open hearts. I 
have to check that out, but we will see what happens. So thank 
you very much, John. Thank you, Mr. Maloney.
    The next panel will be Mr. Jack Caldwell, secretary of the 
Louisiana Department of Natural Resources, Baton Rouge, 
Louisiana; Ms. Bernadette Castro, Commissioner, New York State 
Parks, Recreation and Historic Preservation, Albany, New York; 
Mr. David Waller, Director, Georgia Wildlife Resources 
Division, Social Circle, Georgia--social circle?. Ms. Sarah 
Chasis is stuck in snow. So we will try to fit her in sometime 
tomorrow if possible, if we can.
    Mr. Caldwell, you are up first. And I do thank you. And if 
we can--just a moment. You are up first and have at it.

STATEMENT OF JACK CALDWELL, SECRETARY, LOUISIANA DEPARTMENT OF 
           NATURAL RESOURCES, BATON ROUGE, LOUISIANA

    Mr. Caldwell. Mister Chairman, honorable members of the 
Committee, I very much appreciate this opportunity to testify 
on the greatest conservation bills of this century. Not since 
Theodore Roosevelt has the conservation effort moved so 
strongly onto the national stage.
    As secretary of the Louisiana Department of Natural 
Resources, I serve on the Outer Continental Shelf Policy 
Advisory Committee, comprised of Federal and State officials, 
industry representatives, and other interested OCS parties. And 
our function is to give advice to the Secretary of the Interior 
through the Mineral Management Service. And my testimony this 
morning will cover the background leading up the concepts that 
are today incorporated into Title I of H.R. 701.
    As you know, for many years, as Congressman John pointed 
out, the issue of assistance to coastal impact States has been 
debated in Congress and, so far, the only legislation that has 
been adopted was the 8(g) amendment to the Outer Continental 
Shelf Lands Act in 1986. And, under this bill, Louisiana's 
share has, through the years, been about $1 billion out of the 
$80 billion that has been produced through the years.
    And, by 1993, the Outer Continental Shelf Policy Committee 
developed a position paper which called for a sharing of a 
portion of revenues among all the coastal States, the Great 
Lakes, and the territories. It was based on a finding that, 
although the benefits of the OCS program was shared nationally, 
a disproportionate share of the environmental, economic, and 
social costs were local. So, consequently, the committee 
appointed a working group on which I had the honor to serve, 
along with representatives from Alaska, Oregon, California, 
Texas, and North Carolina, to come up with a specific plan.
    This group worked diligently for almost a year and the 
fundamental principle that the group worked on was the one just 
mentioned by you this morning and that is the idea of 
reinvestment of nonrenewable oil and gas resources into 
renewable and sustainable resources in the coastal region. Now, 
because the impacts of OCS operations on coastal States is 
difficult to separate out and quantify and because all of the 
coastal States are subject to similar stresses from storms, sea 
level rise, overdevelopment, and pollution, we included all of 
the coastal States and the Great Lakes, but came up with a 
formula that weighted the fund distribution toward the impact 
States which were sustaining the larger share of the adverse 
impacts of OCS operations.
    So acting on this principle, the Committee came up with the 
basic concepts--this was back in 1997--that are presently 
incorporated in the bill. And that is that 27 percent of the 
revenues should be shared. That it should be weighted on a 50 
percent proximity, 25 percent population, and 25 percent 
coastal. That the funds should be stable and not subject to 
annual appropriation. And that it should be administered by the 
States under oversight from the Secretary of the Interior, 
relying on the audit system for enforcement.
    Now this is my testimony this morning regarding this 
background and I welcome any questions from the Committee.
    [The prepared statement of Mr. Caldwell may be found at the 
end of the hearing.]
    Mr. Young. Mr. Caldwell, you just did a remarkable thing. 
You stayed within your time and you never read anything. So I 
want to congratulate you.
    [Laughter.]
    That is remarkably well-done and well-presented. I just 
want to congratulate you.
    Mr. Caldwell. Thank you, Mr. Chairman.
    Mr. Young. Ms. Castro, you are next.

 STATEMENT OF BERNADETTE CASTRO, COMMISSIONER, NEW YORK STATE 
 PARKS, RECREATION AND HISTORIC PRESERVATION, ALBANY, NEW YORK

    Ms. Castro. Thank you so much, Mr. Chairman. I am 
Bernadette Castro, commissioner of the New York State Office of 
Parks, Recreation, and Historic Preservation. I also serve on 
the legislative committee for the National Association of State 
Park Directors and I am a board member of NASORLO, which is the 
national group that actually administered this program for the 
30 years when it was active with the States from 1965 to 1995.
    I want to thank you Chairman Young for your leadership on 
this issue. It is a vital issue. It one that we feel has to 
reinstate the promise that was made in 1964, the promise that 
all States would benefit, the promise that States would share 
equally with the Federal needs. And, indeed, that promise was 
completely broken in 1995. From 1995 to present, the States 
have received zero funding from the stateside portion of the 
Land and Water Conservation Fund.
    It is a wonderful, wonderful fund, if it really was a fund. 
It is a word that was used in 1964 and it leads people to 
believe that don't understand the issue that there is this 
money, this $900 million a year, that is deposited somewhere 
for use in land and water. And, indeed, that is not the case. 
So there is a lot of misknowledge by the public at large, 
misunderstanding, and lack of knowledge. So I am going to sort 
of sidestep my official testimony and I ask that my written 
testimony be accepted as part of the record, Mr. Chairman.
    Mr. Young. Without objection, so ordered.
    Ms. Castro. Thank you very much.
    You have heard about all of the wonderful things that this 
has done at the national level, the figures on acreage and 
parks. I guess what I need to do is to just focus on my State, 
if you will, as stateside part of this funding is critical. And 
I think the States, indeed, know best how to spend this money. 
If you look at the diversion just here, Mr. Chairman, Alaska, 
California, New York, Louisiana, Connecticut. It would be 
impossible for any of us to know how the other States should be 
spending the stateside money. It would be less likely that the 
Federal Government, with all due respect, even the National 
Park Service, would know best how to administer this money.
    It is critical, of course, that it remain, as we would 
call, a block grant. It is critical that when this programming 
goes through, that the States, each of us, with our very 
different needs, have the capability to direct this funding.
    In New York State, we have two what we call flagship parks 
under my jurisdiction. The Adirondacks and the Catskills are 
not under my jurisdiction. They are under the jurisdiction of 
the Department of Environmental Conservation.
    But Commissioner Cahill, indeed, wishes he could be here 
today, as does Secretary of State Treadwell who runs the 
Coastal Management Program, as does Theodore Roosevelt IV, 
great-grandson of Teddy Roosevelt, who was here in Washington 
and who is out of the country or would be here today. He fully, 
fully supports this effort.
    But in New York State, I had two flagship parks that are 
worldwide famous. One, Niagara Falls, one of the great wonders 
of the world. The other, Jones Beach State Park, the largest 
public bathing facility in the world. Millions of dollars have 
come to both of these flagship parks over the years, to the 
Land and Water Conservation Fund. From everything from serious 
infrastructure work to things such as boardwalks and 
recreational facilities.
    It would be impossible for New York State over the years to 
have brought those projects along, both Robert Moses projects, 
along without the help of this Federal matching grant program. 
And I think that is very important for everyone to remember. We 
are leveraging funds here. Not just local funds, indeed about 
60 percent of everything New York got in that 30-year period 
went to municipalities, through a matching grant program.
    But we are also leading the way, in New York, by leveraging 
private money. There are private corporations that would love 
to invest in parks, but they want to do it where they know they 
are not the only game in town. So when a municipality or the 
city of Syracuse or the city of Buffalo goes for funding under 
this Federal program, part of their match could be a giant 
corporation. It could be a Pepsicola or a Coca-Cola.
    Saturn retailers have put in parks, have put in playgrounds 
within my parks. Ford Motor Company is giving us $100,000 for a 
nature center at Jones Beach. And the list goes on and on. But 
municipalities could approach their local banks and say, wait a 
minute, there is Federal match money out there.
    In New York State, we are very lucky to have Governor 
George E. Pataki who is such a champion of this cause. He has 
given us environmental protection fund money in his budget 
every year. That is a matching program. He saw to it and worked 
hard to pass our Clean Air, Clean Water Bond Act, again, a 
matching program. But I can tell you that there are 800 
projects in New York State--am I out of time already? Is that 
what that means? We are in trouble. Okay. Eight hundred 
projects that we couldn't fund. Eight hundred projects on the 
shelf, ready to go, if you give us back this program. Thank you 
very much and I would be happy to take any questions.
    [The prepared statement of Ms. Castro may be found at the 
end of the hearing.]
    Mr. Tauzin. [presiding] Ms. Castro, we appreciate very much 
your testimony as well as the testimony of my dear friend from 
Louisiana. Louisiana is not used to snow, Jack. I just had a 
real tough time getting in to hear you this morning.
    [Laughter.]
    We are now pleased to welcome Mr. David Waller, the 
director of Georgia Wildlife Resources Division, Social Circle 
in Georgia. Mr. Waller, welcome and we will appreciate your 
testimony. Again, recognize the time limits. We apologize for 
that.

STATEMENT OF DAVID WALLER, DIRECTOR, GEORGIA WILDLIFE RESOURCES 
                DIVISION, SOCIAL CIRCLE, GEORGIA

    Mr. Waller. Okay. Thank you, Mr. Chairman. I have submitted 
testimony and so I will just hit the high points from that. My 
name is David Waller and I am director of the Georgia Wildlife 
Resources Division and vice president of the International 
Association of Fish and Wildlife Agencies. I really appreciate 
the opportunity to appear before you today and would like to 
use this opportunity to convey the International's strong 
support of H.R. 701.
    We believe this bill is the most sweeping wildlife funding 
bill in this half of the century and will go a long way towards 
conserving our Nation's fish and wildlife and providing much-
in-demand conservation education and wildlife-associated 
recreation. We appreciate Mr. Young's leadership and that of 
Congressmen Dingell, Tauzin, and John in sponsoring this 
landmark legislation. The International would also like to 
recognize Congressman Miller for addressing some of the same 
needs in H.R. 798.
    There is a compelling need to fully fund State wildlife 
conservation efforts in time to prevent species from becoming 
endangered. Many species in this country are declining and 
heading rapidly towards endangered species lists. And we have 
the opportunity now to act in a non-regulatory, incentive-based 
manner while there is still time and at much less cost to 
conserve our Nation's wildlife legacy. Dedicated, reliable, and 
adequate funding would not only allow States to conserve 
species and preclude the social and economic impacts associated 
with listing species, it would also generate significant new 
economic opportunities for local communities.
    A wildlife-rich outdoor experience is vital to communities; 
it is vital to States' nature-based tourism; and vital to 
related outdoor industries. Wildlife watchers spent over $29 
billion in State and local economies, generating more than one 
million jobs. This bill provides funding for State 
conservation, recreation, and education efforts which makes 
good economic sense.
    States are the front-line managers of fish and wildlife in 
this country and have broad authority for fish and wildlife 
within their borders, including most Federal lands. Because of 
a consistent, dedicated source of funds, we have successfully 
restored many game species like the white-tailed deer and the 
wild turkey, the striped bass, pronghorn antelope, and on and on. 
All of these are wonderful success stories. We are ready to do 
the same thing now for some of the non-game species such as the 
Baltimore oriole, the American goldfinch, box turtles, and many 
other declining species that are not yet endangered. The needs 
of State wildlife agencies to attend to these declining species 
exceeds $1 billion, but even half that amount would go a long 
way toward producing significant, on-the-ground results.
    Mr. Chairman, as you know, for the past seven years, we 
have built up a national coalition of over 3,000 organizations 
and businesses that we call the Teaming with Wildlife 
Coalition. We believe Title III of H.R. 701 fulfills the basic 
goals of Teaming with Wildlife, but with a different funding 
source.
    We strongly support H.R. 701 for the following reasons. It 
provides permanent and consistent funding, which is important. 
It is administered through the Pittman-Robertson Act, which is 
tried and proven. It allows States to determine their 
priorities, their conservation priorities. And it brings equity 
to wildlife conservation funding, giving all Americans the 
opportunity to join sportsmen in paying for conservation.
    Mr. Chairman, in addition to these comments, the 
International respectfully urges you to raise the minimum level 
for a State from one-half of 1 percent to 1 percent to address 
the needs of some of the smaller States that have some of the 
greatest needs, including Hawaii and some Northeastern and Mid-
Atlantic States.
    Let me now briefly mention some things on H.R. 798, the 
Resources 2000 Act. Again, the International is pleased that 
Title VII of H.R. 798 provides funding for State-level wildlife 
conservation. We are also encouraged by the spirit of the 
cooperation between Chairman Young and Congressman Miller, that 
they have pledged to moving forward together toward a strong 
bipartisan solution that can pass Congress this year. We are 
very pleased with that.
    Some of the concerns are, in H.R. 798, are the elaborate 
planning requirements; the term ``native fish and wildlife,'' 
which could be problematic; the fact that conservation, 
education, and wildlife-associated recreation needs are not 
addressed; and a six-year phase-in from $100 million to $350 
million. Let us not wait six more years to address these 
critical conservation needs.
    In closing, Mr. Chairman, State wildlife agencies across 
the country stand ready to work hand-in-hand to assure a future 
for America's wildlife and help millions of people enjoy and 
appreciate wildlife from their backyards to the back woods. 
Thank you.
    [The prepared statement of Mr. Waller may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you very much, Mr. Waller. And we regret 
that Ms. Sarah Chasis, senior attorney, Natural Resources 
Defense Council, could not be with us today, I believe.
    [The prepared statement of Ms. Chasis may be found at the 
end of the hearing.]
    Mr. Tauzin. So this completes the panel. The Chair 
recognizes himself briefly for a round of questions and we will 
ask all members to abide by the five-minute rule.
    First of all, Mr. Caldwell, in your statement, you cite, of 
course, the 1993 policy committee report which, by the way, I 
have in my hand and I would ask unanimous consent be made a 
part of the record today.
    Without objection, then, it will be so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6081.001
    
    [GRAPHIC] [TIFF OMITTED] T6081.002
    
    [GRAPHIC] [TIFF OMITTED] T6081.003
    
    [GRAPHIC] [TIFF OMITTED] T6081.004
    
    [GRAPHIC] [TIFF OMITTED] T6081.005
    
    [GRAPHIC] [TIFF OMITTED] T6081.006
    
    [GRAPHIC] [TIFF OMITTED] T6081.007
    
    [GRAPHIC] [TIFF OMITTED] T6081.008
    
    [GRAPHIC] [TIFF OMITTED] T6081.009
    
    [GRAPHIC] [TIFF OMITTED] T6081.010
    
    [GRAPHIC] [TIFF OMITTED] T6081.011
    
    [GRAPHIC] [TIFF OMITTED] T6081.012
    
    [GRAPHIC] [TIFF OMITTED] T6081.013
    
    [GRAPHIC] [TIFF OMITTED] T6081.014
    
    [GRAPHIC] [TIFF OMITTED] T6081.015
    
    [GRAPHIC] [TIFF OMITTED] T6081.016
    
    [GRAPHIC] [TIFF OMITTED] T6081.017
    
    Mr. Tauzin. And you decided to explain why we should share 
OCS revenue with all 30 coastal States and the 5 territories, 
rather than the 6 producing States. Can you summarize for us 
the good reasons why the committee came up with this idea?
    Mr. Caldwell. The primary reason is that all coastal 
States, producing and non-producing, are under severe stress 
today. Half of the population of the country lives in the 
coastal regions today and all coastal regions have been 
suffering severe storm damage in recent years, pollution 
damage, have been destroying and harming the estuaries, 
fisheries are under stress, everywhere. And we felt that to 
attempt to separate out and separately quantify the adverse 
impacts from offshore drilling would generate more controversy 
and would be basically impracticable. So we felt it was better 
to include all the coastal States and adopt a weighting formula 
in order to take care of the impact States.
    Mr. Tauzin. Also, Mr. Caldwell, you mentioned, and I want 
to refer to it too, that the policy committee was interestingly 
made up of industry representatives and environmental community 
representatives, State government representatives, pretty broad 
ranging. Would you comment on the importance of that and the 
meaning in terms of their recommendations to us?
    Mr. Caldwell. Yes, from Alaska, the chairman was from 
Alaska, Mr. Jerome Selby, the mayor of Kodiak, served as 
chairman. From Oregon, we had Mr. Eldon Hout, who works for the 
State government in the Environmental Department of Oregon. 
From California, we had Mr. Chabot, who is very active in 
environmental matters in San Francisco. From Texas, we had Mr. 
Paul Kelly, who represented the oil industry. And you had 
myself. I am secretary of natural resources. And from North 
Carolina, we also had a State official in that State's 
environmental department.
    Mr. Tauzin. So we had a pretty range of contributors.
    Mr. Caldwell. Yes, sir.
    Mr. Tauzin. Let me ask you the question that keeps coming 
to us all the time. Is this bill likely to incentivize oil and 
gas development where it otherwise would not occur? Has that 
happened in Louisiana with OCS coming in?
    Mr. Caldwell. No, sir. Louisiana has had 8,000 wells 
drilled offshore in the last 50 years and I don't think that 
there is any chance at all that Louisiana would change its 
views no matter what happened.
    Mr. Tauzin. Ms. Castro, you also commented about the 
importance of this bill for all the good things that it does. 
Are you concerned that it is going to incentivize drilling that 
might not otherwise occur?
    Ms. Castro. No, I am not. Not with the language that I 
think that Chairman Young has put in there. And I think that 
the no new incentives is very critical to the success of this 
legislation and I am confident that the language will take care 
of that.
    Mr. Tauzin. Mr. Waller, you mentioned the importance of 
this Act, particularly as the States struggle to preserve 
species and wildlife habitats and what have you. One of the 
visions of Title III is, indeed, to conserve species and to 
help generate numbers of species before they ever reach a 
status that they might have to be listed under ESA as 
threatened or endangered. Do you see this Act contributing to 
that vision? And how?
    Mr. Waller. Well, there is no question we want a preventive 
maintenance program to keep species from becoming endangered. 
And this certainly provides the funding that would allow that 
to happen. The States' biggest need right now is funding for 
our non-game programs. And when I say non-game, anything we do 
for wildlife conservation in the field affects game and non-
game. So I don't want to get hung up with this non-game and 
game scenario. But we have the expertise on staff, we know what 
needs to be done, we just need the resources to make it happen 
with.
    Mr. Tauzin. All of you commented about the importance of 
permanent funding in this effort. Why is that so critical?
    Mr. Waller. We have very successful wildlife programs. The 
most successful wildlife program in the world, all the States 
do. And it is simply because we had a dedicated funding source 
in the form of the Pittman-Robertson Act. It has been in place 
for six years. It is a wonderful model. And we have done great 
things restoring game species. And we need additional funds to 
broaden our agencies to manage these other species that aren't 
being addressed.
    Mr. Tauzin. My time has expired. The Chair will now not 
only recognize the chairman back to the Chair, but also 
recognize the Ranking Minority Member Mr. Miller with, again, 
you have already mentioned, Mr. Waller, our sincere thanks for 
his efforts in his own version of this legislation. Mr. Miller.
    Mr. Miller. Thank you. Thank you very much, Mr. Tauzin.
    Just a couple of questions because we have quite a few 
members here. I don't see it in your testimony and I don't know 
if you know it off the top of your head, Ms. Castro, here. You 
said you had about 700 projects off the shelf that are ready to 
go because you would be able to put together the funding source 
for those. Do you know what part of that is attributable to 
historic preservation or not? How that breaks down? Or, if you 
don't, if you could supply it for the Committee, I would 
appreciate it.
    Ms. Castro. I will definitely supply it for you. And I must 
say, as you have brought up historic preservation, I ran out of 
time. I am the State historic preservation officer and I think 
it is really an important element that we not forget to fund 
historic preservation. When the Historic Preservation Fund was 
created, it was created with a funding stream of $150 million 
that, indeed, was coming from Land and Water. So, certainly, in 
the Governor's program, the Environmental Protection Fund, 
there is a percentage which goes to historic preservation. And 
the 800 projects that are out there, I don't want to give you 
an inaccurate percentage, but I will get it to you.
    Mr. Miller. That would be helpful. And Mr. Tauzin asked and 
Mr. Waller answered the question on one of the things both 
bills do is try to provide permanent funding. I assume that, 
one, that allows you to develop a schedule in terms of 
priorities, because, obviously, some things are more urgent 
than others. And also the question of scheduling the ability to 
raise matching funds and private funds and the rest of that if 
you know kind of what is coming on line over the next five 
years or what have you, as opposed to the sort of hit-and-miss, 
you know, annual decision either sometimes we provide money and 
sometimes we don't.
    And I know, in our area in California, that very often, you 
know, we have raised a substantial effort in the private 
sector, but there are those gaps and those gaps just remain 
because, like you say, people want to make sure that other 
people have the same interest and involvement in these 
projects, but you don't have any ability to close them and get 
on with the next one.
    Ms. Castro. That is right. That is exactly right. And I was 
handed a correction by one of our senior staff members from 
Albany. The 800 projects, that 800 number, does not include 
historic preservation projects.
    Mr. Miller. Does not include. Okay.
    Ms. Castro. We have additional historic preservation 
projects ready to roll that are also on the shelf and I will 
get that number to you.
    [The information follows:]

                             Bernadette Castro,    
                        New York State Office of Parks,    
                      Recreation and Historic Preservation,
                                                    April 19, 1999.


Hon. Don Young,
U.S. House of Representatives,
Rayburn House Office Building,
Washington, D.C. 20510
Dear Chairman Young.
    Thank you for the opportunity to testify before the House Resources 
Committee on March 9, 1999. I very much appreciate the leadership that 
you and the other members of the Committee have demonstrated to re-
establishing the Land and Water Conservation Fund state side program, 
As you know this program is extremely important to all Americans 
interested in outdoor recreation that is close to home and can be 
accessed on a daily basis.
    During my testimony questions were raised relative to our New York 
Historic Preservation and Heritage Areas System grant programs. Mr. 
Miller specifically asked that I provide some additional information on 
this subject and this I am delighted to do.
    For Outer Continental Shelf revenues to be authorized for use in 
State-administered historic preservation projects within the context of 
legislation that would permanently fund the program, is a commendable 
suggestion. As the Historic Preservation Officer for New York State I 
have been frustrated by our inability to fund all the worthwhile 
historic preservation projects for which application is made annually 
in New York State. To this end, I strongly recommend that a provision 
be added to the Conservation and Reinvestment Act for Outer Continental 
Shelf revenues to be used for State-administered historic preservation 
projects. This additional funding source would help us conserve those 
projects listed on the National Register of Historic Places.
    Since 1995, the Environmental Protection Fund, and more recently, 
the Clean Water/Clean Air Bond Act have provided state funding for 
historic preservation with heritage area projects. In that time, we 
have received a total of 691 applications for such projects, requesting 
almost $101 million; that figure represents $319 million worth of total 
projects cost. Unfortunately, we were able to fund only 200 of these 
projects. This means, despite a vigorous, fully-funded and highly-
regarded state grants program, approximately 60 percent of these worthy 
projects remain unfunded.
    Historic preservation projects are important in preserving our 
heritage and provide a key to securing both economic resurgence and 
quality of life for our communities. The tourism industry, the revival 
of neighborhoods and an enhanced, distinctive sense of place all stand 
to benefit from permanent funding to the Historic Preservation Fund. 
Historic preservation is an economic development program that 
strengthens communities. The tourism industry is New York's second 
largest sector of our state's economy and heritage tourism is its 
fastest growing segment. This is very good news indeed for increased 
employment and environmentally-friendly economic growth throughout New 
York. Essential to the success of this trend, however, is continued 
encouragement and support for investment by State and local governments 
and the not-for-profit sector in new or improved attractions, be they 
parks or historic sites and structures, and in protecting what we 
already have. This is the public purpose that vitalizes New York's 
historic preservation grants, historic sites and heritage areas 
programs, and we need all the help we can get.
    My colleague, the Virginia State Historic Preservation Officer, has 
detailed this tellingly:
    States and localities leverage the Federal program with added 
incentives to increase public benefit. Each $1 appropriated to the 
States generates an investment of $55 by State and local governments 
and the private sector, States and localities know that:

        <bullet> every million dollars spent on rehabilitating historic 
        sites creates 29.8 new jobs (15.6 in construction and 14.2 in 
        the professions and ancillary fields) and generates $779,800 in 
        household income;
        <bullet> that same million dollars creates 3.4 more jobs and 
        adds $53,000 more to household incomes that a million dollars 
        spent on new construction;
        <bullet> many companies, especially those employing high paid 
        knowledge workers, prefer to locate in communities with 
        historic character and interest;
        <bullet> preservation pays dividends to homeowners, since 
        property values rise faster in historic districts than 
        elsewhere; and
        <bullet> historic attractions form the basis of America's 
        burgeoning heritage tourism industry.
    Here in New York we continue to make it known that full state-side 
funding of the Land and Water Conservation Fund is essential to 
preserve our important and valuable natural resources. What an added 
benefit it would be if permanent funding could benefit our rich 
cultural heritage as well!
            Most sincerely,
                                         Bernadette Castro,
                                                       Commissioner

    Mr. Miller. Thank you, that would be helpful.
    Ms. Castro. Right.
    Mr. Miller. Mr. Waller, thank you for your testimony and I 
have read and will continue to read the concerns you raise, 
because I think they are very legitimate. Let me just ask you 
on this question of game, non-game, native, wildlife and all 
that. If I read your concerns correctly, you have concerns with 
how we do it in our legislation. But you do agree with the 
general theory that it can't just be concentrated on what 
people historically think is a game species. That really, as 
you said, when you do one thing out there in the habitat, it 
affects both. But there is this need for broader protection of 
species or creation of habitat for those species. Is that a 
fair statement?
    Mr. Waller. Yes, sir, there is a huge need for that. And 
that is what we are all about. We want to be comprehensive 
wildlife managers where we can address all the wildlife needs 
out there. And that is where we fall way short on our funding. 
And these proposals provide that for us.
    Mr. Miller. So you see that as a resource problem.
    Mr. Waller. Yes, sir.
    Mr. Miller. All right. Well, we will work on those 
concerns. Thank you for your testimony. Mr. Caldwell, also, 
thank you.
    Mr. Young. [presiding] The gentlelady, I believe.
    Mrs. Chenoweth. How do you mean that, Mr. Chairman?
    Mr. Young. From Idaho. Yes. I mean, Barbara--Helen's going 
first. Yes. Okay.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I wanted to 
associate myself in large part with the comments from Ms. 
Castro. They are very, very well-taken. And the fact is that we 
promised States money out of the Land and Water Conservation 
Fund and then we whacked it off. And we broke a promise there. 
I really feel the resolution should come in refunding and 
keeping our promise to the American people. I have been working 
with Yvonne Farrell who is our director of the Idaho Parks and 
Recreation Department, a very, very capable lady. Looks very 
much like you and you sound like her.
    Ms. Castro. Yes, she is. I know her quite well. Thank you 
for the compliment.
    Mrs. Chenoweth. So I really do identify with your problems 
and the concerns that you have. But I do believe that this bill 
is totally, totally overreaching in terms of allowing a 
partnership or mandating a partnership by Federal statute with 
the States and the local units of government.
    And, you know, a very recent study by Dr. Samuel Sailey of 
the Reason and Public Policy Institute helps put this whole 
issue into perspective. He stated that less than 5 percent of 
the United States land base has actually been developed. And it 
is developed in terms of urbanization. Niney-five percent of 
our land base is still open spaces. And so my concern is, in 
the name of fish and wildlife and saving the species, what are 
we doing to our land base and our productive basis in this 
country?
    I think we need to keep our promises, but we need to do it 
in a way that will assure the States that they still have their 
sovereignty. The parks departments can operate in as sovereign 
a manner as humanly possible and take care of their own States.
    I do want to ask Mr. Caldwell, doesn't the State of 
Louisiana, won't they be receiving about $361,874,000 a year 
from this? The highest amount of money that will be coming into 
any State will be coming into Louisiana?
    Mr. Caldwell. Yes and I would be delighted to address that.
    [Laughter.]
    Mrs. Chenoweth. And were there--to receive it. I am too. 
And were there any members on your commission from Texas? You 
mentioned one from Alaska, because----
    Mr. Caldwell. Yes.
    Mrs. Chenoweth. [continuing] Texas has--you know, I thought 
so, because Texas comes in with $204 million.
    Mr. Caldwell. Yes.
    Mrs. Chenoweth. And you already mentioned Alaska. One of 
the interesting things, Mr. Caldwell, is that your State, 
Louisiana, has about 1.6 percent Federal ownership. And Georgia 
has about 4.4, 4.5 percent Federal ownership. New York has 1.3 
percent Federal ownership. Which means everything in addition 
to that is a productive base for you to generate income. Idaho 
has 62 percent in Federal ownership.
    So I hope you understand why I am fighting this, because, 
first of all, I didn't come to Congress to see more land taken 
over and private property rights abused, which I think could 
happen in this bill. And, secondly, the federalization of our 
land base really does affect our sovereign ability to govern as 
a State and to produce. America grew to be the Nation that we 
did because of our ability to produce from our land base. And I 
think that, with just 5 percent of our land being involved in 
urbanization, I think this bill is a huge solution looking for 
a problem.
    I do want to say, with regards to Mr. Waller's comments 
about non-game species, I tried in Boise, Idaho, to sell a 
house one time that some little squirrels had moved into the 
eaves and I had to go through--I shouldn't say it on the 
record--but it was literal hell trying to get my home sold 
because a non-game species had taken up homemaking in my eaves 
in my house.
    Once this bill is passed and we give the status to non-game 
species, we are virtually increasing the Endangered Species Act 
that will affect real estate development, it will affect the 
ability of willing buyers, willing sellers to sell and to 
really utilize the marketplace freely. And it will, ultimately, 
affect States and local units of government and their tax base.
    I want us to think really carefully about this. When we 
look at the definitions of what wildlife is in the bill on page 
40 and wildlife-associated recreation, my gosh, you know, we 
are asking to have duck blinds and trails and all kinds of 
things mandated by the Federal Government. We are entirely 
overreaching in this. I hope you will take a look at this 
again. Thank you very much.
    Mr. Young. Any of the panel like to respond? David.
    Mr. Waller. I would, Mr. Chairman. The neat thing about 
this bill, it gives the States the prerogative to make the 
decisions on how the funds are spent. For instance, western 
States most likely wouldn't spend any money for land 
acquisition, but some of the eastern States, like Georgia, 
might. We have less than 8 percent of the land in Georgia under 
any kind of government ownership, including Federal Government, 
state government, and all government ownership. So that could 
be a priority in Georgia, to acquire some much-needed lands for 
hunting and fishing and other outdoor-related, wildlife-related 
activity.
    But, in the West, that is totally their choice and that is 
the nice thing about this bill. And, again, some of our non-
game species are declining in numbers. And what we would want 
to do is to go out and census those species and find out what 
the problems are and to solve those problems before they reach 
the Endangered Species list. Because when they reach the 
Endangered Species list, it kicks in all kinds of negative 
implications to landowners, to us in government that works with 
wildlife conservation. So we want to avoid that. And that is 
our whole emphasis is managing wildlife to keep them off that 
list.
    And right now, we have good funding for a State wildlife 
agency to work on game species and I think we have done a very 
good job. There are huge numbers of success stories across the 
country where we have restored in Georgia the wild turkey and 
deer and out West antelope and elk and those kinds of things. 
And what we want to do, what we need, is additional funds to 
manage some of the species that we haven't had funding for in 
the past. And that is what this is all about.
    Ms. Castro. Yes, I would like to respond. Over the 30-year 
period, Congressman, when New York received its money, three-
quarters of the money received over the 30-year period, went to 
recreation projects. And I just wanted to speak on behalf, just 
for one second, the need for development money for parks and 
rehabilitation money. That is critical. I mean, an urban 
swimming pool. I can tell you, to rehab one urban swimming 
pool, you are looking at a minimum of $1 million, just for new 
filters. This is not just a coat of paint. So I want to just 
remind all of us that a great deal of this money will go for 
other than acquisition and money that is sorely needed and, 
again, matching funds. It is a partnership, but for a very good 
reason.
    Mr. Young. The gentleman from Louisiana.
    Mr. John. Thank you, Mr. Chairman. I appreciate it and Mr. 
Secretary, I am going to definitely give you an opportunity to 
answer the gentlelady from Idaho's question.
    But let me quickly begin--I have got a host of questions. I 
want to get through them very rapidly. We only have five 
minutes. I know that you have given that presentation often as 
a member of the MMS's OCS Policy Committee. You had some 
visuals that showed the need and the impact in Louisiana. Have 
you brought those here today.
    Mr. Caldwell. Yes, sir.
    Mr. John. Okay. I would like for you, if you have just one 
minute, to share them with the Committee and discuss what has 
happened in our State. This will be somewhat unique to 
Louisiana, however, it is also prevalent in a lot of the other 
coastal States for somewhat different reasons. But these are 
the kinds of issues that we are tackling. If you could just 
spend a little time to explain your charts to the Committee.
    Mr. Caldwell. I want to show you what I call my poster 
child. The town itself is 24 miles from the Gulf Canal, runs 
from the town to the Gulf. You see the land that has eroded in 
that short period of time. It amounts to 10 square miles. This 
is one we can quantify that is a direct result of OCS 
operations. This is just a portion. The total impact on 
Louisiana is shown by this other map in which we have lost, in 
the last 50 years, 1,000 square miles, which is marked in red, 
shown in red on the map. We anticipate that, in the next 50 
years, we are going to lose another 1,000 square miles, as 
shown in yellow. That is an area the size of the State of 
Delaware. We believe that, with the funding provided by this 
bill, we can prevent 90 percent of that projected loss.
    Mr. Tauzin. Would the gentleman yield?
    Mr. John. One question and then I will yield. Although the 
magnitude is quite evident in Louisiana, is this a unique 
situation to Louisiana or does it apply to other States on the 
East Coast, West Coast?
    Mr. Caldwell. No, sir, on the East Coast, there is 
substantial loss occurring in the estuaries. There is 
degradation in the Chesapeake Bay program, for example, the 
Florida Everglades, in California, in the bays around San 
Francisco, deterioration is going on all over the country and 
this bill will address that.
    Mr. John. I will yield to the gentleman from Louisiana.
    Mr. Tauzin. Just so that I might ask unanimous consent to 
introduce into the record, in connection with this testimony, a 
video entitled The Sounds of Silence which we have produced 
regarding the 35-square-mile annual loss of land in Louisiana 
and a letter from one of the broadcasters in Louisiana who saw 
it, saying, I had no idea of the magnitude of the problem. We 
don't realize it even in Louisiana, it is so enormous.
    Mr. John. I thank the gentleman. The gentleman asked 
unanimous consent.
    Mr. Young. Without objection, so ordered.
    [The information will be kept on file at the Committee 
office in the Longworth House Office Building.]
    Mr. John. Thank you. Next question. There has been a lot of 
concern raised about the distribution formula in H.R. 701. Mr. 
Secretary, where did the formula come from? As a member of the 
OCS policy committee, and this kind of talks right into the 
gentlelady from Idaho's question and concern about the amount 
of money that Louisiana is getting, I have a twofold question; 
first of all, where did the formula come from? And, secondly, 
why was it tied to the proximity of the production of a 
platform?
    Mr. Caldwell. Well, let me answer the last question first.
    Mr. John. Okay.
    Mr. Caldwell. The reason it is tied to proximity is because 
the closer you are to the well, the more onshore impact that 
there is. Ninety percent of the production is offshore of 
Louisiana, but, under this provision, we are only getting 8 
percent. But we think that is enough----
    Mr. John. Would you restate the percentage again?
    Mr. Caldwell. Eight percent of the 90 percent goes to 
Louisiana.
    Mr. John. Ninety percent of the production takes place off 
Louisiana?
    Mr. Caldwell. Yes. Ninety percent of offshore production is 
off of the Louisiana coast.
    Mr. John. Okay.
    Mr. Caldwell. So we think that is fair enough.
    Mr. John. Okay. I have a couple of other real quick 
questions. We are running out of time. Does Louisiana plan on 
using Title I money to buy up private property?
    Mr. Caldwell. No.
    Mr. John. That is a concern that I hear often from private 
property groups.
    Mr. Caldwell. No. My department has no expropriation 
rights. In fact, we don't even buy property from willing 
sellers. We don't have the money. If they don't donate land 
rights to us, we don't do a restoration project. So, you know, 
property rights are not an issue at all in Louisiana.
    Mr. John. Okay. That is all I have. Thank you Secretary 
Caldwell.
    Mr. Young. Gentleman from Pennsylvania.
    Mr. Sherwood. Thank you, Mr. Chairman. I am delighted to be 
able to work with you and the Committee on a bill that will 
reinvest the funding stream generated by the depletion of a 
non-renewable resource into our habitat and fish and wildlife. 
I understand very well that fish and wildlife habitat in wild 
and semi-wild areas, how important they are to our future and 
our national well-being.
    But you have got to remember that I represent Pennsylvania. 
And, while we have the largest population designated as rural 
in the country and that we have our most forested acres at any 
time since 1840, we have great problems that came as a result 
of an industrial heritage. While we are talking about the money 
now that comes from our present use of oil, I have to live with 
the problems every day that were generated by the scarring of 
the land from the mining of coal to supply the energy needs of 
the Northeast in years past, when there weren't any panels like 
this that were interested in what happened with the land after 
we raped it.
    And so I am very interested in this, but I would like to 
say that my district represents a whole lot of the watershed of 
the Chesapeake. And I appreciate you mentioning, Mr. Caldwell, 
that estuary and how important it is. And we are spending money 
every day in the State of Pennsylvania to try and keep the 
water quality of the Chesapeake up and the silt down and all 
the problems that we all face.
    But this bill, it worries me a little bit, Mr. Young and 
members of the panel, that this bill will not address 
Pennsylvania's problems very well and it may make it harder for 
us to access our Federal mine reclamation money. So, while I 
want to work very enthusiastically with it, those things are on 
my mind.
    Mr. Young. I thank the gentleman and I can assure you, as 
you go through the bill and see we can be helpful, we will be 
so because we don't want you to lose that reclamation money. 
You are absolutely correct. But this is not a quid pro quo; 
this is a new monies that were being spent outside on other 
programs other than the reclamation money and all the other 
things that we shouldn't have been doing. But I thank the 
gentleman.
    Any--the gentlelady. I apologize, you were talking when----
    Mrs. Cubin. I know. It was my fault, Mr. Chairman. I would 
like to yield my time to Congresswoman Chenoweth.
    Mr. Young. Without objection, so ordered.
    Mrs. Chenoweth. I thank the chairman and the gentlelady. As 
Mr. Caldwell aptly pointed out, clearly there are legitimate 
concerns and certainly Louisiana has legitimate concerns, as 
does New York and all the other States. But, Mr. Chairman, Mr. 
Caldwell, we should address these legitimate concerns through 
existing programs like many that are already in place, through 
the appropriations process and not through off-budget 
entitlements. We are taking away the power that the Congress 
does have to hold the purse strings in trust for the people of 
this country and it should be done through the appropriations 
process.
    If we were to put a map up there of Idaho, I can tell you 
that thousands of square miles would be in red because of the 
distress of our forests and our communities dwindling. And, you 
know, I would be the last to go even propose a program like 
this because I believe that we should take our solution through 
existing appropriations procedures. So that is one of the main 
reasons why I am not supporting this bill and would like to 
call your attention to that.
    I do want to ask Mr. Weller, also, to carefully and with a 
critical eye, review pages 25 through 27 of the existing bill 
because the States will not be free to make their own 
decisions. Neither will local units of government. Local units 
of government who wish to go around the State on various 
programs, can go around their own governors and form alliances 
with the Federal Government. That is very alarming. I would 
like it, sir, if you would look at those pages and I would like 
to talk to you about it in the future. Okay?
    Mr. Waller. I would be delighted to talk with you about it.
    Mrs. Chenoweth. Thank you. I yield back that balance of my 
time.
    Mr. Young. The gentleman----
    Mrs. Cubin. I yield back the balance of my time.
    Mr. Young. Thank you. Then, Mr. Simpson.
    Mr. Simpson. I thank you, Mr. Chairman. I appreciate the 
panel's input on this. Having served on the city council and 
used Land and Water Conservation Funds for golf course, 
swimming pool, other activities in Idaho, it is very important 
and I would like to make sure that we maintain that fund or 
reestablish that fund because recreation in all communities is 
very vital.
    Mr. Caldwell, you mentioned that you would like to see this 
not subject to appropriation. That it would be a dedicated 
fund. It has been my experience either in a legislative body or 
in Congress that dedicated funds generally lose accountability. 
Are you concerned about that?
    Mr. Caldwell. No, sir. Not under the proposal. The reason 
for the dedicated fund is we know that the average coastal 
restoration project takes three years, so you are on a 
continual roll. And, particularly with respect to onshore 
infrastructure, there has got to a bonding source to rebuild 
the infrastructure. So those are the two primary reasons for 
the dedication. Plus the fact that Louisiana is a small State 
and I think if we came up here with our hat in our hand every 
year, we would go home pretty empty. And that is the practical 
answer to that. Whereas this time, we think we have built a 
coalition that can really get it done. That is on the dedicated 
funding. What was the other question?
    Mr. Simpson. You mentioned that you have built a coalition. 
And I guess what I am trying to establish in my mind, are we 
building a coalition of coastal States--some coastal States, 
some non-coastal States--that are going to have access to this 
fund so that we can build enough support to pass it, that has 
actually nothing to do with mitigating the offshore drilling 
impacts on the coast? Just so that we can have enough funding 
in this to fund those States?
    In other words, what I am saying is, you mentioned that all 
States are under great stress, just not the six that are 
producing the oil. All States are under great stress whether 
they are coastal States or non-coastal States. So why haven't 
we included all 50 States? Why just the coastal States?
    So, I guess my question is, is this to address the unique 
concerns of the coastal States and we are just using this 
offshore drilling money as a funding source, not really having 
any relevance to the impact caused by the drilling?
    Mr. Caldwell. No, sir. My testimony this morning was 
limited to Title I, but the coalition, the three titles are 
built on the fundamental principle that we have advocated, 
which is the reinvestment of nonrenewable resources into 
renewable resources. That is why we have always supported 
designating the environmental projects into which you can make 
capital investments. That is the idea behind the whole bill and 
that is where the strength comes from. The coalition is not 
just about votes; it is about people who believe in this 
reinvestment principle. That is the basic underlying idea for 
all 50 States to share in. That is the rationale.
    Mr. Simpson. Well, I agree with you in reinvesting. I think 
that is a good idea. I am not from a coastal State. I still 
believe in that principle. Your coalition seems to have left me 
out, even though I agree with that principle. I am curious why 
the Great Lakes States were included. And I love the Great 
Lakes States, don't get me wrong. I am curious why they were 
included. Great Salt Lake is probably closer to having 
something similar to a coast than many of the Great Lake 
States.
    Mr. Caldwell. Yes. That proposal was made to include Great 
Salt Lake. But the Great Lakes, of course, are subject to these 
same stresses. That is the idea, that all of the coastal 
regions have similar severe stresses that are degrading our 
coast at an alarming rate. And this is where half the 
population lives and, plus, they have immeasurable values that 
can be corralled by this reinvestment process and rebuilding 
our estuaries, rebuilding the fisheries, rebuilding the 
wildlife habitat, rebuilding our marshlands. The Louisiana 
marshlands are worth at least $10,000 an acre, even though they 
serve no purpose except to feed the little critters.
    Mr. Simpson. But I guess, back to the basics. We are trying 
to separate--and I guess it is best to do this--this money is 
not just being reinvested to mitigate the costs caused by 
offshore drilling?
    Mr. Caldwell. Oh, no, sir.
    Mr. Simpson. It is to be used for the unique problems that 
the coastal States have. Is that a correct statement?
    Mr. Caldwell. Yes, sir. All of it is environmental, capital 
type, investment, the vast majority of it. There might be some 
exceptions. But that is the thrust of the legislation and I 
hope it will stay that way.
    Mr. Simpson. I appreciate your comments.
    Mr. Young. The gentleman from Louisiana.
    Mr. Tauzin. I thank the Chair. Just for a second, to point 
out that the gentleman says that we are talking only about 
Title I. Title II and Title III share with all 50 States, don't 
they, in PILT funding and urban recreation and renewal and all 
these, land acquisitions for parks and recreation? Isn't that 
shared with all 50 States under the bill?
    Mr. Caldwell. Yes, sir.
    Mr. Tauzin. All right. I thank the gentleman.
    Mr. Young. Are there any other questions of this panel?
    Mr. Miller. Mr. Chairman.
    Mr. Young. The gentleman from California.
    Mr. Miller. This in response to the point raised by Mr. 
Simpson. I think that there are two approaches here on the 
question of how much of the total pot is shared and in what 
manner. Clearly the coastal States, my own State of California 
and others, have argued over the years of an adverse impact 
from the development of the OCS and over the years we have 
tried to deal with that and this bill does that also. The other 
one, clearly, is the notion that the Federal leases belong to 
all of the people of all of the Nation. And that was the 
tradeoff in why Land and Water Conservation was there.
    I think both of these bills are trying to figure out how 
you address both of those problems. Because you can argue that 
there is clearly less coastal impact, absent something going 
terribly wrong as happened in Santa Barbara during the 1970s. 
But, in California, then there is, where you had to make 
changes to the coastline in Louisiana for barge canals and all 
of the coastal activity, there is a much larger industry there 
than offshore California.
    So trying to balance the needs for those States to do that, 
but also make sure that we recognize this is a national asset, 
this pool, and that is why stateside, so many local communities 
have participated in that. And eventually, I guess, you know, 
this bill will come down about formulas and how those formulas 
are developed because, as the gentleman pointed out.
    You know, you have different visions of how big the 
Chesapeake watershed is, depending upon where you live, just as 
in California, some people think of San Francisco Bay as San 
Francisco Bay, but we now know it runs almost to the Oregon 
border in terms of the impacts that happen in that bay. That 
all of the communities are looking for ways for mitigation, for 
protection, for creation of different kinds of assets. So, 
eventually, I think, while these two bills in intent are very 
much on track, the formulas are different and that is obviously 
going to be the question coming from all over the country.
    Mrs. Chenoweth. Will the gentleman yield?
    Mr. Miller. Yes.
    Mrs. Chenoweth. Thank you. I do want to say that, for 
Idaho, under Title I, there is absolutely zero funds for 
impacts and I am not asking for any. My seatmate was right. 
Title II, involving land acquisition, it would be funded at in 
excess of $6 million. Title III, involving non-game species, it 
would be funded at in excess of $5 million. So more Federal 
presence in land acquisition, non-game species is not what we 
want in Idaho. We want our forests fixed.
    Mr. Young. Mr. Tauzin.
    Mr. Tauzin. I thank the gentleman. I simply want to point 
out that may be true, but in the cost to the States, most of 
the Federal mineral development is offshore. In many of the 
interior States, the Federal mineral development is inshore. On 
the inshore Federal mineral development, your States and others 
would receive 50 percent of the revenue. If we were to get 50 
percent of the revenues from the Federal lands offshore that 
goes to the States, we would be the richest Arab nation east of 
the Mississippi River.
    [Laughter.]
    It doesn't even come close to that in this bill. We are 
talking about 8 percent, I think, where we produce 90 percent 
of the funding. So the 50 percent----
    Mrs. Chenoweth. Would the gentleman yield?
    Mr. Tauzin. I don't have the time.
    Mrs. Chenoweth. For the record?
    Mr. Tauzin. If I could complete, then I will yield back. 
The 50 percent interior sharing is indeed meant to compensate 
States, as I understand it, because of the fact of these 
interior mineral developments on Federal land does have the 
impact on the State, on its citizenry, on the infrastructure. 
The development of offshore properties across the coastal 
States have enormous impacts. Mr. Caldwell just point one out 
where I have lost scores of, thousands, hundreds of miles of 
land in my district. I am going to represent fish pretty soon. 
I will have to move to your State just to have a district.
    The point I am making is that the law has always treated 
the coastal States will all of these impacts relatively 
unfairly. That it literally left the----
    Mr. Miller. If I can reclaim a little bit of my time on 
that. We also have developed over the years funds that have put 
in, you know, $.5 billion at a minimum into some of these 
coastal States to mitigate that impact. But we will get the 
formulas eventually----
    Mrs. Chenoweth. Would the gentleman yield? Would the 
gentleman yield, please?
    Mr. Miller. At my own peril, yes.
    [Laughter.]
    Mrs. Chenoweth. Thank you, Mr. Miller. I do want to say 
that, in Idaho, because of the Federal policies, we are not 
able to generate any revenues from mining because mining has 
been shut down. We are not able to generate PILT funds because 
logging has been shut down. We are not able to generate funds 
from recreation because roads have been closed. We have a 
serious problem out there in the Western States and now we are 
faced with more land acquisition from private property----
    Mr. Miller. Well, the wonderful thing about this bill is 
this requires none of that to happen for you to share in the 
benefits.
    Mrs. Chenoweth. And we don't even have such things as 
spotted owl funds; not that we would ask for it, but it would 
help our counties. Thank you.
    Mr. Young. I want to thank the panel. I can assure you that 
we do appreciate your testimony and we will be pursuing this. 
As you can see, there is some difference of opinion, but I 
think we all have our eye on the goal and that is reinvestment 
into fish and wildlife; rehabilitation of the lands that are 
needed for fish and wildlife; and the protection of private 
property rights. I do believe this does much better than 
existing law and the existing action of the Appropriations 
Committee.
    I cannot believe my good lady friend is supporting the 
Appropriations Committee that has done such a dastardly job, I 
mean, over the years, of trying to solve problems. And I am 
crushed that the 13 Czars who sit over there on those 
committees and decide how things should be split up and where 
it should go. And that is why I am supporting the dedicated--
yes.
    Mr. Miller. The notion that somehow the appropriations 
process is the check on accountability----
    [Laughter.]
    It doesn't look that way to the other 400 members of 
Congress. Let me just say that.
    Mr. Simpson. Well, Mr. Chairman, if I could just respond to 
that, I will tell you that at least there is some check that is 
elected, rather than no check that is clear.
    Mr. Miller. Well, we can work that out. But these guys are 
just--they are good highway robbers.
    Mr. Young. I want to thank the panel for sitting there very 
patiently.
    [Laughter.]
    Mr. Simpson. As long as it is a personal check.
    Mr. Young. Yes. And thank you for your testimony and please 
feel free to keep in communication with this Committee as we go 
through this process. Thank you very much.
    The next panel--the votes have been canceled because of the 
snow. It is a snow day. So we will go ahead with panel three. 
Ms. Sam Kathryn Campana, mayor of Scottsdale, Arizona; Mr. Paul 
Hansen; Mr. Hurley Coleman; Mr. Grover Norquist; and Mr. Edward 
Norton. If there is enough room for all of you up there, if you 
are all there. Who are we missing? Ms. Campana is here. Mr. 
Hansen is here. Mr. Coleman is here. Mr. Norquist. Mr. 
Norquist. Mr. Norton. Mr. Norton, whoever you are, if you would 
get down to the end of the table there.
    I welcome the panel and Ms. Campana. How do I pronounce 
that?
    Ms. Campana. Campana.
    Mr. Young. Campana. All right. You are first. From Arizona.

 STATEMENT OF SAM KATHRYN CAMPANA, MAYOR, SCOTTSDALE, ARIZONA, 
     REPRESENTING U.S. CONFERENCE OF MAYORS, WASHINGTON, DC

    Mayor Campana. That is right. Thank you, Mr. Chairman. 
Members of the Committee, and it is on behalf of 1,100 cities 
represented by the U.S. Conference of Mayors that I am here 
today and I want to thank you for this opportunity to appear.
    Mr. Young. Would you move the mike closer please? This is a 
bad room sometimes. Thank you.
    Mayor Campana. Thank you. Thank you for allowing me to 
appear today--although I must say I left 85 degree weather back 
in Scottsdale, so it is tempered a bit by that fact--to present 
testimony supporting the increased funding for the Land and 
Water Conservation Fund and for the Urban Parks and Recreation 
Recovery Program, UPARR.
    For far too long, we believe the Federal Government has not 
fulfilled the commitment it made over 30 years ago when it 
created the Land and Water Conservation Fund program to ensure 
that all Americans would have access to nearby parks and 
recreation resources. So we applaud the leadership of you, Mr. 
Chairman, in forging this bipartisan bill that would restore 
funding to the statewide program of the Land and Water 
Conservation Fund and UPARR. We also applaud the Ranking 
Minority Member, Congressman George Miller, for his passionate 
leadership on this issue for many years and the proposals that 
he has made in this legislation.
    The benefits of the Land and Water Conservation Fund and 
UPARR can deliver to local communities and neighborhoods many 
assets. The urban parks, recreation areas, and open space are 
critical to the vitality of the Nation's cities and the 
citizens we serve. Urban sprawl is threatening our natural open 
space. The demand for parks has skyrocketed and the backlog of 
necessary maintenance and repairs continue to grow. The Land 
and Water Conservation Fund and UPARR will help provide for the 
park down the street where parents play ball with their sons 
and daughters, where toddlers explore a playground, and where 
the neighborhood soccer team practices, where our teenagers go 
to just blow off steam, and where seniors can walk along these 
park paths.
    In my hometown of Scottsdale, Arizona, there are several 
examples of the direct community benefit resulting from the 
Land and Water Conservation Fund. Remember Arizona is a 
conservative, Western State and, as I travel through 
Scottsdale, I don't have to go far without encountering these 
community amenities. For example, the Land and Water 
Conservation Fund provided funding for the park where 
Scottsdale's first community swimming pool is located. Since 
then, Chestnut neighborhood park, Eldorado Park's lake, 
Jackrabbit Park, Scottsdale Bikeways, Chapparal Tennis Court 
lighting, and Vista Del Camino spray pads were funded in part 
through Land and Water Conservation funds.
    Scottsdale received 20 Land and Water Conservation Fund 
grants from 1965 through 1984, totaling $2.1 million, but these 
funds were leveraged into $4.4 million. In Arizona alone, $46 
million worth of Land and Water Conservation Funds accounted 
for $92 million of projects since the inception of the fund. 
And those are only small examples of many worthy projects 
throughout the country that have been supported by these funds.
    But, without question, the greatest current concern of the 
Scottsdale community is the preservation of thousands of acres 
of pristine Sonoran Desert and mountains that are undeveloped 
and lie within Scottsdale city limits. As a matter of fact, our 
citizens were so committed to preserving this land that in 
1995, they took the unprecedented step of approving by a wide 
margin, of .2 percent sales tax increase to preserve over 
16,000 acres of the scenic McDowell Mountains and Sonoran 
Desert.
    Three years later, 80 percent of the proposed area has been 
preserved, using $132 million in voter-approved sales tax 
dollars. In November, the Scottsdale community overwhelmingly 
approved another measure to expand the current preserve by 
19,000 acres. Clearly, the preservation of this unique open 
space, with desert, mountains, Saguaro cactus, and wildlife, is 
a natural resource that Scottsdale citizens want to leave as a 
legacy for future generations. As a matter of fact, one-third 
of Scottsdale land mass, 60 of the 185 square miles, will be 
held forever in perpetuity.
    So we urge you to revitalize Land and Water Conservation 
Fund and the UPARR programs so that these Federal dollars can 
be matched with millions in local dollars. When the Nation's 
mayors gathered for our 66th annual conference of mayors last 
June in Reno, we unanimously passed a resolution in support of 
the funding of the Land and Water Conservation and UPARR 
programs. While we strongly support funding for the statewide 
program of the Land and Water Conservation Fund that are called 
for under H.R. 701 and H.R. 798, we also encourage Congress to 
allow cities to apply directly for these funds, rather than 
just relying on the States to pass them through. In addition, 
we would ask you to allow UPARR funds to be used for land 
acquisition and maintenance of local parks and recreation 
programs.
    In closing, I want to pass along a theory to which local 
officials subscribe. Former U.S. Conference of Mayors President 
and Knoxville Mayor Victor Ashe is fond of saying that our most 
important park is not Yellowstone, but the one that is down the 
street that serves our children every day. The importance of 
our parks and open spaces cannot be underestimated.
    The State and local assistance of Land and Water 
Conservation Fund and UPARR are two resources we should pursue 
and utilize so all Americans can continue to enjoy the Nation's 
wonderful natural resources and the outdoors. So, again, on 
behalf of the U.S. Conference of Mayors, we thank you for your 
interest in this revitalization and offer any assistance that 
we can provide as you draft this important legislation. Thank 
you for this opportunity.
    [The prepared statement of Mayor Campana may be found at 
the end of the hearing.]
    Mr. Tauzin. [presiding] Thank you very much, Mayor Campana. 
And now we are pleased to welcome Mr. Paul Hansen, executive 
director of the Izaak Walton League of America in Gaithersburg, 
Maryland. Mr. Hansen.

  STATEMENT OF PAUL HANSEN, EXECUTIVE DIRECTOR, IZAAK WALTON 
           LEAGUE OF AMERICA, GAITHERSBURG, MARYLAND

    Mr. Hansen. Thank you, Mr. Chairman, members of the 
Committee, I am Paul Hansen, executive director of the Izaak 
Walton League. I am here today with the League's conservation 
director, Jim Mosher, and I appreciate the opportunity to 
present the views of the Izaak Walton League on these 
legislative proposals, which we believe offer a truly historic 
opportunity to significantly advance conservation of important 
natural resources. The Izaak Walton League is now in its 77th 
year. We have 50,000 members working nationwide and 325 
chapters. It is our members who set our conservation policy and 
it is on their behalf that I provide these comments.
    It is our view that this is an especially critical and 
auspicious time to secure a reliable and overdue financial 
commitment to our Nation's natural resources. These legislative 
proposals demonstrate exactly the kind of leadership, 
determination, and cooperation necessary to accomplish this 
task. I would like to share with you my wish and that of all of 
our members that we see parties work together to achieve this 
goal--a major victory for natural resources--in this session of 
the Congress. We are deeply committed to working with you and 
others to that end.
    We have a special stake in this debate. The Land and Water 
Conservation Fund was a project of the Izaak Walton League of 
America 35 years ago. Our conservation director Joe Penfold 
first conceived of the fund and wrote much of the original 
legislation as part of the outdoor recreation resources review 
committee. Our members fought for the fund hard then and 
continue to fight for it today.
    We have, however, over the years, been very distressed to 
watch as the original promise of this program was robbed, year 
after year, in the appropriations process. We have watched in 
dismay how $13 billion of important land conservation efforts 
have gone unmet while these funds were diverted for unintended 
purposes. I cannot overstate the importance to our members of 
full and permanent funding for this program. If we are to take 
advantage of this historic opportunity, I think we need to all 
put our cards on the table and do it soon and come to terms on 
a bill we can all agree to because, as we all know, our great 
hurdle will be with the appropriators.
    We certainly understand the concern of western States 
regarding Federal land acquisition, especially where some 
States already have large portions of their acreage in Federal 
ownership. However, we are concerned about the provision in 
section 202 of H.R. 701 requiring that two-thirds of the funds 
for Federal acquisitions be spent east of the 100th meridian. 
We think that this provision creates an unwise and, we think, 
unnecessary restriction that could well result in lost 
opportunities to conserve important and critical western big 
game habitat and other resources.
    The Payment in Lieu of Taxes provision in Title II should 
alleviate many of the concerns relating to the financial impact 
of Federal land ownership in these States. And we should 
acknowledge these public lands provide an economic resource to 
the States, a significant one, and to the local communities as 
well. They contribute to quality of life that draws visitors 
from around the country who support many local economies, 
whether for hunting and fishing or other forms of outdoor 
recreation.
    The Land and Water Conservation Fund also provides for 
important State conservation and outdoor recreation needs. And, 
as you know, funding for this portion of the fund has been 
neglected in recent years. These stateside programs can provide 
resources that States and localities need to help control and 
mitigate urban sprawl, an important limiting factor in hunter 
access.
    For the record, it is fair to say that, given a choice 
between the funding levels provided for in H.R. 701 and H.R. 
798, we would predictably choose the latter, which provides 
more funding for both Federal and State sides of the program.
    Our States do have the lion's share of responsibility to 
provide for the needs of wildlife under their stewardship. 
Indeed, they have a legal obligation to do so. With a few 
notable exceptions, the States are not meeting this 
responsibility. Twenty States currently contribute no general 
or dedicated funds to their fish and wildlife agencies and 21 
other States provide less than 20 percent of the budgets. These 
agencies are entirely supported by hunters and anglers, through 
license fees and through the existing Federal aid programs.
    Of course, the end result of this is that non-game species 
are not adequately supported and we need to see that these 
programs will be targeted to non-game species. The State 
matching provisions should provide incentive for States to do 
better in their job of managing fish and wildlife.
    We feel that the proposed 90-10 Federal-State initial 
matching ratio misses an opportunity. We would encourage a 
matching requirement on the order of 25 percent at the onset, 
in order to challenge States to do their fair share, consistent 
with the existing formulas in Pittman-Robertson and Dingell-
Johnson. We don't want this to be a Federal giveaway; we want 
it to be a partnership for wildlife and land acquisition with 
the States. It is equally important that State matching funds 
be made available.
    Last, given the realities of budget constraints, we want to 
reiterate our opposition to seeking any budget offset that may 
be necessary from other important programs in Function 300, the 
Natural Resources Environment account. Robbing Peter to pay 
Paul is not an acceptable solution.
    Finally, last October, Chairman Young and myself and 
others, Representative Miller, you were there as well, were in 
the Oval Office for the signing of the historic Act, for the 
National Fish and Wildlife Refuge Administration Act, which 
passed in this chamber with only one dissenting vote. We think 
we have an opportunity to repeat history with the legislation 
proposed here today and we would like to challenge all parties 
to try to set aside politics, organizational and personal 
agendas, and to work together on this important initiative. We 
have a unique and fragile window of opportunity to accomplish 
an historic conservation measure. If we do it boldly, not 
shrinking from the size of the task or the magnitude of the 
financial need and if we do it right, not trading one valued 
resource for another, then we can do it now and in a way that 
will allow us to celebrate together.
    Finally, we are concerned about possible incentives for 
increased oil and gas development that might be created by this 
bill. We hear the concerns of some of our coastal colleagues. 
We are certainly reassured by statements by both bills' 
sponsors that were willing to continue cooperative efforts to 
resolve these concerns and we would like to encourage you in 
that direction.
    [The prepared statement of Mr. Hansen may be found at the 
end of the hearing.]
    [Additional material submitted by Mr. Hansen follows:]

    [GRAPHIC] [TIFF OMITTED] T6081.018
    
    [GRAPHIC] [TIFF OMITTED] T6081.019
    
    Mr. Tauzin. I thank the gentleman very much.
    The Chair and I are pleased to welcome Mr. Hurley Coleman, 
Jr., the director of Wayne County Division of Parks of 
Westland, Michigan, for his statement. Mr. Coleman.

   STATEMENT OF HURLEY COLEMAN, JR., DIRECTOR, WAYNE COUNTY 
             DIVISION OF PARKS, WESTLAND, MICHIGAN

    Mr. Coleman. Thank you, Mr. Chairman, and to Chairman 
Young, to Representative Miller, and to all of the members of 
the Committee. I am very happy to be here. I appreciate the 
support that I have received even this day and comments from 
Congressman Dingell who is a good friend. And I hope my anxiety 
doesn't show through here because I am really, really nervous 
and I will have spent all this time stuttering and won't make 
my points.
    I am sitting here with about absolutely thousands of local 
park and recreation agency leaders who are invisible by their 
presence, physically, but are certainly supportive of the 
position that you are taking. I think that this Committee and 
this issue has energized public parks and recreation in a way 
that I haven't seen in the 23 years I have been involved in 
this field. I am sort of like the psalmist who mused while the 
fire burned inside and the fire is excitement that I feel that 
is generated because of these two bills, because they speak so 
closely to what is really happening on the local front, at 
home.
    Three years ago in Wayne County, which is the sixth largest 
county in the country, there is a city called Detroit. You may 
have heard of it. It is a very large city. It has an older park 
there, Chandler Park, and next to it is one of the oldest 
housing developments in the country. And in this park, the 
condition of the park had deteriorated significantly and all 
those inherent problems with an old park, but it created the 
perfect haven for things like gang activities and drugs and 
strip dancing and one of the highest lists of police calls in 
the whole community.
    Wayne County wanted to dedicate some funding to parks and 
recreation division because we are one of the oldest county 
park systems in the country. In our efforts, I had met with the 
city director, Ernest Burkeen, and talked about needs and it 
turned out that there is a significant need for a swimming 
facility in that part of town. Wayne County didn't have any 
park facilities in the city. We went to community meetings and 
met with a lot of individuals to determine if this was the 
right way to go.
    It turns out that there was enough support throughout all 
of Wayne County to pass a piece of legislation in Wayne County 
to support parks and we invested in a multi-million dollar 
family aquatic center. We built a pool and opened it up and the 
first season, police calls were reduced by 85 percent. We saw 
an absolute culture of activity change in that park and in the 
neighborhood and in the vicinity that surrounded it.
    And what this points out is not unique in Wayne County, but 
communities across the country have similar stories. We are all 
competing for local funding. We are competing against police 
and fire and health care. And crime prevention--these terms--
crime prevention and alternatives to anti-social behavior--have 
now become a part of the lexicon of everyone that is looking 
for funding. At one time that was what parks and recreation 
folks talked about all the time but now everybody is saying it. 
We do know that the most aggressive solution to negative anti-
social elements in a park is the family picnic and that there 
are no geographic or economic boundaries to the things that 
people consider important recreation, which is why this moment 
is so important.
    One of the reasons I am so excited is because I think this 
is one of the most historic moments of a discussion that could 
ever occur because the Land and Water Conservation Fund and the 
Urban Park And Recreation Recovery Act are examples of what can 
happen if the will, the political will, the process, and public 
involvement work together to make things happen. Because it is 
funding that is outside of the normal budget process that 
really makes things happen. And the reason that it is so 
important to occur here is because the Federal Government is so 
important to local service delivery.
    If the Federal Government can work with us on a local 
level, it would decrease the pressure on the Federal system to 
create new Federal open spaces for recreation and open space. 
It would provide the most efficient use of national dollars by 
placing the delivery responsibility close to the needs. It will 
assist in the Federal Government; it will assist us in 
responding to two important issues: crime prevention and health 
care. And there is a natural connection between enhanced local 
recreation opportunities and crime reduction, along with the 
promotion of good health care habits.
    I have submitted testimony that covers a lot of details and 
I hope that that will be included in the proceedings here 
because I knew I would be too nervous to remember everything. 
But as someone who has dedicated their career to improving the 
quality of life in a major metropolitan area, I consider this 
to be one of the most important moments in our Nation's history 
for us and recreation. It has been a long time since so much 
energy has been focused on improving the lot of Americans at 
home and I am trusting that you and the other members are going 
to make the decisions that will match the significance of this 
moment. I am trusting that you are going to support full 
funding of these important items and make a decision for 
tomorrow, today. I sit here hoping that I will have an 
opportunity to answer questions because I knew I wasn't going 
to be able to say everything. Thanks again for allowing me this 
opportunity.
    [The prepared statement of Mr. Coleman may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you, Mr. Coleman. I want to hear you when 
you are not nervous. That was a very excellent presentation.
    [Laughter.]
    Mr. Coleman. Thank you very much.
    Mr. Tauzin. And now we are pleased to welcome--just 
arrived--Mr. Grover Norquist, the president of the Americans 
for Tax Reform, Washington, DC. Mr. Norquist.

  STATEMENT OF GROVER NORQUIST, PRESIDENT, AMERICANS FOR TAX 
                     REFORM, WASHINGTON, DC

    Mr. Norquist. Hi. Thank you. Sorry. Came across town with 
all the nice snow. I have submitted written testimony. I would 
just like to say a few words as to why, on behalf of Americans 
for Tax Reform, we oppose this legislation. Obviously it costs 
money and it gets the government doing new things that it 
either hasn't done in the past or hasn't done so much in the 
past.
    But Americans for Tax Reform does the no-tax increase 
pledge. We ask candidates for office to commit opposition to 
higher taxes. And the answer is that, both at the Federal and 
at the State level, the Federal Government already takes more 
money and more resources from American families than families 
should be required to pay and more than the government needs 
for the legitimate functions of the government. So we have 209 
members of the House, 41 members of the Senate, and 1,120 State 
legislators who sign that pledge. I think, both in terms of tax 
revenue being taken from the American people and spent by 
Washington and State capitals, we are spending more than can be 
credibly asked.
    The same is true of State and government ownership of land. 
There is not an argument for more land. The government may want 
to surrender some of the land that it controls or owns now, 
particularly in the West, which for too long this city and this 
government has treated as if it was a colony in the way that it 
has dealt with not allowing people out West to own land the way 
people in the East do. I grew up in Massachusetts. We didn't 
have to get permission from Washington to use or privately own 
land in Massachusetts the way people do in Alaska and Nevada 
and other States.
    So the idea of putting more taxpayer dollars into taking 
land out of private ownership, private stewardship into the 
hands of the government is exactly the opposite of what we do 
when we invite people from Poland and Czechoslovakia or the 
Czech Republic and the Slovak Republic and the former Soviet 
Union and they ask for advice on how one should run their 
economy. The first thing we do is we tell them you shouldn't 
have the government running steel mills and owning land and 
doing things, because historically it doesn't work. And this 
something the Poles and the Rumanians have learned over time.
    And the government does not do a good job as a steward of 
land. It does not do as good a job as private individuals do. 
P.J. O'Rourke made the observation if you don't understand 
this, go visit a public restroom and a private restroom. They 
are different institutions and they are treated differently 
based on who owns them and who is or isn't responsible for 
them.
    I don't see an argument for Federal ownership of land 
outside of the military and national parks. We ought to be 
moving in the opposite direction from government ownership to 
private ownership and private stewardship in order to better 
protect both the economy of our rural areas, but also the 
environment of our rural areas. Thank you.
    [The prepared statement of Mr. Norquist may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you, Mr. Norquist. And, finally on this 
panel, Mr. Edward Norton, the vice president of public policy 
for the National Trust for Historic Preservation here in 
Washington, DC. Mr. Norton.

 STATEMENT OF EDWARD NORTON, VICE PRESIDENT OF PUBLIC POLICY, 
    NATIONAL TRUST FOR HISTORIC PRESERVATION, WASHINGTON, DC

    Mr. Norton. Thank you very much. My name is Edward Norton. 
I am the vice president for public policy at the National Trust 
for Historic Preservation. The mission of the National Trust is 
protecting the irreplaceable. And I am here today to speak for 
the historic resources in America.
    I should begin by saying that I share my colleague's 
enthusiasm--my colleagues to my right's--enthusiasm for this 
hearing today.
    [Laughter.]
    I wish to thank both the Chairman and Congressman Miller 
for introducing their legislation and for providing this 
hearing today.
    If I could use what I think is an appropriate metaphor, I 
hope that, at the end of this process, we will have truly 
landmark legislation in which Congress provides full and 
permanent funding for protecting both our natural and our 
historic resources. I have worked on these issues now for 
almost 20 years, both as an advocate for the natural 
environment and the built environment. And, like my colleagues, 
I agree that we have a very special window of opportunity here 
that we should seize.
    I am really here today on behalf of the National Trust and 
the historic preservation community to make special plea for 
the historic preservation funds. The National Trust, of course, 
supports full and permanent funding for the Land and Water 
Fund. We recognize the importance of protecting open space; 
providing parks both national parks, State parks, and local 
parks for recreation, wildlife protection, watershed 
protection, and a number of other benefits.
    But we are here to say that that historic environment and 
the built environment is just as important as the natural 
environment. And to make our case that the Historic 
Preservation Fund be included in any bill, full and permanent 
funding for the Historic Preservation Fund be included in any 
bill that comes through this Committee.
    The Historic Preservation Fund, which was established under 
the National Historic Preservation Act, provides a very 
critical funding mechanism for protecting our historic 
resources. It is the keystone of the partnership created by the 
National Historic Preservation Act between the Federal 
Government, State government, State and local government, and 
also the private sector. It is really a program that is the 
model of federalism. It achieves its benefits with very little 
regulation, no land acquisition, and with a very heavy reliance 
on the private sector. It is really a model, as I said, of the 
relationship between the Federal Government, State and local 
governments, and the private sectors.
    It leverages hundreds of millions of dollars from State 
governments and the private sector. And, most important, you 
can see the benefits and you can experience the benefits of 
historic preservation programs in almost every community in the 
United States, in every one of your districts and the great 
landmarks that have been saved, the buildings and historic 
districts that have been preserved, and in the communities that 
have been revitalized. And you can see the need and the 
opportunity to continue this work and the benefits that it will 
provide.
    When I was preparing my testimony, I happened to look again 
at a book called With Heritage So Rich. It was written in 1966, 
sponsored by the United States Conference for Mayors and the 
book is now out of print. Actually, the National Trust is going 
to try to have this reprinted and if we do we will give it to 
each one of you, because I really think, as it did then, it 
sounds a clarion call for the importance of historic 
preservation and what it can do to revitalize our communities.
    This book was written at a time when the urban renewal and 
the interstate highway system was having a very devastating 
impact on many of our stable communities in cities and towns 
both large and small across the United States. And it talked 
about the importance of reversing those trends. If you read the 
paper today and heard in some of the testimony this morning the 
threat of so-called sprawl and disinvestment in our cities, 
towns, and neighborhoods and our historic landscape. The 
Historic Preservation Fund really is a modest but very highly 
efficient Federal program for investing and reinvesting in our 
existing communities. It provides monies for the reuse of 
existing housing, commercial, and transportation 
infrastructure.
    I really believe that if you look at the very modest levels 
of authorization for the Historic Preservation Fund, $150 
million a year, and the benefits that it confers, that it at 
least stands in equal importance to the Land and Water 
Conservation Fund. And it is a fund and the use of that monies 
that has been undervalued, underappreciated, and, I would 
submit, underfunded. And we urge the Committee to look at this 
very carefully and to provide for full and permanent funding 
for the Historic Preservation Fund in this legislation. Thank 
you very much.
    [The prepared statement of Mr. Norton may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you very much, sir. That completes the 
panel. The Chair recognizes himself briefly and all members for 
five minutes.
    Let me first ask you, Mayor Campana, I know you would like 
to have funding directly to the cities. One of the concerns 
that is constantly raised here, however, is that this allows 
for all sorts of new State acquisitions of land, particularly 
in States where there is an awful high percentage of State-
owned property already. I was a former State legislator. I 
recall, often, how the State had, in our State, the process of 
providing 50-50 matches for Land and Water Conservation Fund 
purchases. Doesn't that process, by and of itself, serve as a 
barrier to inappropriate funding for acquisitions of land in a 
State? Isn't it pretty tough to get the State to agree on those 
kinds of thing and put up the money, Ms. Campana?
    Mayor Campana. We haven't found that to be true, Mr. 
Chairman. As a matter of fact, again, I will underscore that we 
are this conservative Western State and our governor most 
recently created the Arizona Preserve Initiative that is going 
to set aside matching funds and we intend to take advantage of 
that. These are not government programs; these are citizen-
voted-on mandates that are happening, I think, all over the 
countryside. And we see it at the local level over and over 
again. That is why the mayors think it is so important.
    Mr. Tauzin. So there is a process where the local folks 
through their legislature, through the process of providing 
funds either decide it is appropriate or inappropriate to add 
to any land or water acquisitions. Is that correct?
    Mayor Campana. I believe so.
    Mr. Tauzin. Mr. Hansen, you obviously are concerned, 
literally, for, I think, permanent funding for many of the 
goals of your organization. Aren't you concerned that the 
legislation you have chosen to support does not contain 
permanent funding while the one you have not chosen to support 
does?
    Mr. Hansen. Well, we are certainly not here to pick 
winners. As I emphasized, we do want to really encourage both 
approaches. I was speaking more directly to the approach by 
which the funds are obtained when I gave a little more of a 
high-sign to Mr. Miller's----
    Mr. Tauzin. But permanent funding is important to you, is 
it not?
    Mr. Hansen. Permanent funding is very important.
    Mr. Tauzin. In fact, Mr. Coleman, how important is 
permanent funding for the extraordinary circumstances you 
described to us of the deterioration of parks and recreation 
systems?
    Mr. Coleman. As a matter of fact, that probably rings very 
loudly on the local level, primarily because we always have 
this battle of trying to figure out what we are going to be 
able to do with the little funds we get in our normal fiscal 
processes. It is only when there is a revenue potential outside 
of the normal budgeting process that we can really look at 
making improvements and that takes some time to develop and 
plan to look forward to. In the State of Michigan, we have 
developed a trust fund for our statewide funding and it is set 
aside and dedicated for that purpose and I think that 
restoration to a trust fund type of situation is really 
important.
    Mr. Tauzin. Let me turn to Mr. Norquist. Does the Americans 
for Tax Reform oppose all entitlement spending in America?
    Mr. Norquist. Well, we would certainly argue that we 
shouldn't be getting in the business of adding additional ones. 
I was pleased that Congress voted to reform welfare and move 
decisions out to the States and that ended a certain 
entitlement----
    Mr. Tauzin. The point I am making is, some of them are not 
so bad, are they? I mean, some of them make sense. Why not 
conservation programs, particularly for coastal States that are 
losing so much as we are in Louisiana? Why is that such a bad 
idea to make sure there is a source of funding on a permanent 
basis to make sure you can begin addressing what are macro 
conditions out there?
    Mr. Norquist. I understand that sometimes people in 
Washington look at it from the standpoint of permanent funding. 
I represent taxpayers. This is a permanent cost you are talking 
about. There are two sides to this. If somebody is going to be 
handing out money to other people, they first have to take it 
by force from other people. And the idea that we have permanent 
funding means we have a permanent hand in people's pockets. And 
that is the objection.
    I mean, I am not sure that we want all of the permanent 
trusts or spending programs that we have today. Certainly we 
are finally getting out from under the damage that was done by 
the welfare programs by this city, out from under the damage 
that was done by the agriculture programs that were run by this 
city. I think we should be looking to get less spending and 
less control and less resources flowing through the political 
process and more in the hands of individuals who create the 
wealth and who own it.
    Mr. Tauzin. Well, I am not going to win you over on this, I 
know. But let me point out a couple of things. One, it is not a 
fund for 34 States. All 50 States and all 5 territories share. 
The National Governors Association has, in fact, endorsed it on 
that basis.
    Mr. Norquist. The National Governors Association is a 
government-funded, taxpayer-funded, lobby that we wish was not 
using taxpayer funds to lobby for these sorts of things.
    Mr. Tauzin. I understand. I also want to point out that the 
private property right protections in this bill go beyond 
current law. That current law allows for expropriation, 
condemnation authority. Now that is eliminated in this bill. It 
allows for condemnation authority for adjacent properties to 
inholdings. That is eliminated. It is only acquisitions within 
inholdings that are permitted from willing sellers.
    And, most importantly, I want to point out, you mention 
that it would hurt the tax base. This bill actually provides 
for full funding to the local communities, whereas it, the PILT 
program, has been funded at 60 percent. So that actually the 
tax base is enhanced in here. I understand you don't like the 
money spent because the money has to come from someone, but the 
tax base is actually reestablished in the bill.
    And, finally--and I will let you comment and we will end 
it--that this also provides for a great deal of State-based 
programming, as opposed to Federal-based programming, which I 
know has, again, it is just the same dollars, but the point I 
am making is that it does fit the conservative mold of having 
the decisions being made on the local level rather than so much 
on the Federal level. Those are simple points I want to make, 
recognizing I am not going to win you over in spite of that. 
And you can respond and then I will yield.
    Mr. Norquist. Yes. From the taxpayers' perspective, this is 
a particularly horrid bill. It gets the government in the 
business of owning more resources and more land, rather than 
less. If we were talking to people from Poland, we would be 
giving them the opposite advice, not telling them to move 
towards greater State ownership and State control both of the 
means of production and of land.
    I did fill out the form that was sent to me. Here. The 
Americans for Tax Reform does not receive any government money 
and I think the people who are arguing for spending more 
government money might want to be up on the table as to whether 
or not they are getting government money now. The Americans for 
Tax Reform is particularly concerned that in this town we have 
whole institutions that take taxpayer money, Federal, State, 
and local, and then come and lobby with that taxpayer money to 
argue for more taxpayer money. That is why the taxpayers have 
been losing for so long and it has been so expensive for 
taxpayers.
    But, as you know, you talk about property rights being 
guaranteed, we can have the property rights groups from around 
the country bring to you examples of people who have found 
their voluntary sale of property to the government to be less 
than voluntary because of harassment from bureaucracies and 
from various agencies that would do justice to some other 
country in another time, rather than American principles.
    Mr. Tauzin. I thank you. I don't have any quarrel with 
that. In fact, I respect your position a great deal in some of 
those respects. I would only point out I would rather ride on a 
Federal highway system in America than the one in Poland.
    [Laughter.]
    I yield to my friend from California, Mr. Miller.
    Mr. Miller. I thank the gentleman for yielding and, Mr. 
Hansen, if I might--just because obviously one of the purposes 
of this hearing is to try to find out what changes or 
amendments that need to be thought about to the text of both of 
these bills--and back to the issue of game, non-game, native 
species, what have you, what is your position now? Because I 
think your testimony is a little different than a previous 
letter we had on how to make sure that this range of habitat 
needs and species protection is taken care of.
    Mr. Hansen. Thank you, Mr. Miller, Mr. Chairman, the Izaak 
Walton League has been quite consistent in that we realize, as 
Mr. Waller and others have pointed out to you, that non-game is 
the overwhelming need for the State agencies. Game species are 
currently supported by license fees, by the Pittman-Robertson 
fund, and non-game, there are maybe $10 million out of $100 
million need that is funded in any fashion. So we believe that 
these funds need to be primarily applied to non-game.
    Mr. Miller. Okay. That is helpful because the previous 
witness and I am just trying to--because, obviously, this is an 
area we have discussed among ourselves and discussed with many 
of the organizations to try to figure out how you do this 
properly.
    Mr. Hansen. Right. We have indicated our acceptance of 
having this be a subaccount of the PR fund because the PR fund 
has been around now for 60 years. It is functioning. It is 
functioning well. It has been highly successful. And so we 
think that it would just be----
    Mr. Miller. Okay. Well, we obviously would like to continue 
this discussion after the hearing about how this is done with 
you and others about this.
    Mr. Coleman, I want to thank you for your testimony. You 
know, one of the early supporters of UPARR, obviously, has been 
law enforcement that has just, you know, demanded of cities and 
others that they have a sort of an additional arrow in their 
quiver, if you will, in dealing with young people, in dealing 
with the problem that so many parents are concerned about what 
happens to children, you know, in the late afternoon. My 
generation grew up with recreational programs and young kids 
today don't necessarily have that available to them.
    And that kind of support, really universal from the cities 
and others about UPARR, I think, is very important to this 
legislation. And I think the case you cite in Detroit on the 
large and small scale can be cited elsewhere where the 
opportunity to change the dynamics of that neighborhood, of 
that facility, of making it into a first-class facility changes 
people's behavior throughout the neighborhood. It becomes 
really an engine for change. So thank you very much for your 
support and for your testimony.
    And Ms. Campana, I want to thank you also on behalf of the 
Conference of Mayors. I think, you know, you make a very 
important point here. I would say, contrary to what Mr. 
Norquist suggests, people are voting all of the time with their 
pocketbooks about these issues with bond issues for parks, 
whether they are local parks or whether they are regional or 
State facilities; the setting aside of open space is rather 
dramatic in this country and is growing at a significant rate.
    This was a fund that was, in fact, under our democratic 
process, it was promised to this Nation to protect these and 
provide for the acquisition and development of these resources. 
If there is a faulting of this democratic process, it is that 
the Congress went back on its promise when the OCS development 
was put in place in 1964. So I want to thank you also for your 
testimony.
    Finally, before my time runs, I just want to say, Mr. 
Norquist, your comment here about Federal ownership of land and 
stewardships of land is fairly contrary to the record. In fact, 
we are a model worldwide for what we have been able to do in 
this country with the foresight and the development of these 
lands and the protection of these lands. In fact, we have a 
list much longer than we will ever be able to satisfy from 
emerging democracies all over the world who look at our 
national park system, who look at our wilderness systems, who 
look at our regional systems, and are now coming to us to say 
how can we develop and how can we provide this kind of 
protection elsewhere in the world?
    Actually, Mr. Norton, I read the other day you are leaving 
to go off to China, right? To try and help develop a park 
system, or a park, I guess, not a----
    Mr. Norton. Park system.
    Mr. Miller. Park system there. And this is coming from all 
over the world, because they have recognized a number of 
things. Not only is this about good resource management, these 
also have become huge engines of economic activity as the 
population becomes more mobile, has the ability to travel, and 
all the rest of it, that these, in fact, are now major 
contributors to the GNP, if you will, of those nations. And it 
is about good stewardship. And I think, you know, very, very 
proud of what this Nation has done with the history of the 
stewardship of these Federal resources and also the partnership 
in helping States and localities develop their resources. Thank 
you.
    Mrs. Cubin. [presiding] Mrs. Chenoweth. You are recognized 
for five minutes.
    Mrs. Chenoweth. Thank you, Madam Chairman. I do want to 
make some comments with regards to the previous chairman's 
select comments about the condemnation of private property. 
Actually the bill, I am sorry to say, does not extend authority 
for protection of private property rights beyond existing law 
because, actually, it does acknowledge the fact that nothing in 
this Act shall be construed to limit any right to compensation 
that exists under the Constitution or any other laws. It 
doesn't do anything to reign in the rules and regulations under 
which the agencies are imposing a de facto condemnation without 
paying landowners under the wetlands provisions, under 
provisions drafted in the form of rules and regulations under 
the Endangered Species Act, and many other Federal programs.
    In fact, the bill does state that no monies available--this 
is on page 21 of the bill--it says, you know, you can't condemn 
unless, I mean, you can go through the Constitution to condemn. 
But it also states that no monies available--under this 
paragraph for Federal purposes--shall be used for condemnation 
of any interest and property. So what we are doing here, you 
have got to understand, is we are allowing for condemnation, 
but we just don't allow for payment to the landowners. We are 
only allowing payment to a willing seller, under coerced 
conditions. And I think that is very, very sad.
    In addition, the chairman, previous chairman-select, had 
mentioned that this bill's only purpose is to pay inholdings. 
It goes far beyond that. There is a little two letter in their, 
beyond the word inholdings, it says, ``or any other Federal 
program authorized by Congress.''
    And, finally, the PILT payments. The fund will be 
controlled wholly at the discretion of the Secretary of 
Interior or the Secretary of Agriculture. So I am less than 
sanguine about what this bill will do for PILT.
    I do want to ask Ms. Campana. You are from a State that has 
only 3.5 percent private property, I think, or some very small 
number. Isn't there a need to look at funding for the State 
component of the Land and Water Conservation Fund, instead of 
involving a piece of legislation that may impose more 
restrictions on your ability to govern in your States and in 
your cities?
    Mayor Campana. Actually, about 16 percent of Arizona is 
held in private hands and the rest of it is public, including 
even Indian reservations along with national, State, local 
parks. And possibly compelling was your argument about 95 
percent of the land is undeveloped, only 5 percent developed.
    But in a community like Scottsdale, where if none of my 
citizens are around, I will confess to you, that 10,000 people 
moved to Scottsdale last year. One hundred thousand people to 
the valley. So the open space that is next to the people who 
were there before is critically important and preservation of 
these historic lands and landscapes, they are overwhelmingly 
supporting these by 65 percent, 70 percent, the most recent 
election that we had was 75 percent of the people are 
supporting these.
    Mrs. Chenoweth. Let me ask the gentlelady. How are your 
counties funded? I know that in some of your counties--and I 
stand corrected on that percentage--but some of your counties 
have only 3.3 percent private ownership. How do these counties 
fund their schools and their roads?
    Mayor Campana. Our counties, Ms. Chairman and Congresswoman 
Chenoweth--and I am an Idaho girl by the way--some of them 
don't even have home rule. As a matter of fact, we don't have 
county home rule. So this really is a State and local issue, 
which is why, again, representing the U.S. Conference of 
Mayors, I would like to ask for consideration that these be 
able to be applied for at the local level.
    Mrs. Chenoweth. I agree with you there. I do want to ask 
Grover Norquist--sometimes I think we are falling through the 
looking glass backwards with proposals such as this. I know 
that you are very involved in what this Congress is talking 
about in truth in budgeting. We talk about truth in budgeting 
and trust funds and many other things. I would like you to 
elaborate as to whether this bill comports in its funding 
mechanism with our concern about truth in budgeting.
    Mr. Norquist. Well, short answer is no. I think that the 
challenge here, though, is we are creating additional 
entitlements, we are spending other people's money. I mean, 
everybody seems to be all excited about all the wonderful 
things they are going to do with money they take from other 
people. Then we are told everybody at the local level is 
willing to spend this money. Well, fine, then spend it at the 
local level, but somehow we are going to get the Federal 
Government to take it all because everybody at the local level 
is so excited about doing this so we are going to make them do 
it.
    Somehow, the argument that everybody wants to do it so the 
first thing we have to do is make them do it strikes me that 
perhaps the first part was disingenuous or perhaps they are 
doing something that everybody is going to do anyway on this.
    I mean, this question of spending these quantities of money 
to take land out of private stewardship and put it in the hands 
of the Federal Government and, again, if Mr. Miller was here, 
we could have people from California and the rest of the 
property rights movement around the country give examples of 
how Federal ownership of land is not the same thing as good 
stewardship of land. There seems to be this religious belief 
that if you put something in the hands of the government, they 
will take care of it.
    For too long, this city did that to poor people and did an 
awful lot of damage to poor people with their welfare state, 
claiming they were helping people all the time while they were 
destroying families, destroying neighborhoods, and killing 
people's futures. Just because the government does it, doesn't 
mean it happens or it works well.
    Mr. Miller may make the case that we are less destructive 
of our Federal lands than other countries. That is probably 
true. I wouldn't doubt that. But when you put stuff in the 
government's hands, nobody is in charge of it, at the same time 
that everybody is in charge of it.
    You also end up, we are going to put this--I mean, you are 
talking about certain individuals are going to making these 
decisions, the opportunity for corruption and buying property. 
A business school professor once said there are two ways to get 
rich: sell something to the government or buy something from 
the government. And this is an opportunity for a lot of people 
who make political contributions to get very rich. This is 
written to create political corruption.
    Mrs. Chenoweth. Thank you, Madam Chairman.
    Mrs. Cubin. Mr. John, the chairman yields you five minutes.
    Mr. John. Thank you very much, Mrs. Cubin. First, a couple 
of comments and observations for Mr. Coleman. Of all the 
testimony that we have heard today, yours had the most profound 
and realistic impact when you talked about the park over in the 
city of Detroit, about how it is in a real sense, a 
representation of why we are here today.
    In your 23 years working these issues, can you maybe give 
us a synopsis of where the funding has come from; has it been a 
funding stream that you could count on to develop parks and 
havens for helping kids and giving them, the children of 
America, a little place to play, rather than to get in trouble? 
Would you share with the Committee your experience with parks 
and the funding streams to construct them.
    Mr. Coleman. Thank you to the Chair and to the Congressman, 
the one important thing that has to be remembered, especially 
in the urban areas, is that most of the park systems were 
initiated because an individual or some individuals donated 
park lands for the communities to be preserved and used as open 
space. From that, the communities then took the responsibility 
of maintaining them. The development of those facilities and 
the expansion of those facilities came as a result of 
specialized programs of development through grants, in the most 
part in most communities, through grants that came from Federal 
Government or came from the State government programs or it 
came from the private sector.
    The dollars that are dedicated to operate are very finite 
because most of the public agencies are general fund. The 
service level never decreases, but the opportunity for 
resources from the general fund is always limited. And, over 
the years, even as the Land and Water Conservation fund and 
UPARR were developed, in the initial development of them, it 
was really exciting to know that there would be a pool of 
resources that we could apply for, we would have to come up and 
match those grants, and then use them to make improvements in 
restoration and acquisition.
    Over the years, those funds dwindled because the dollars 
dedicated to the Land and Water Conservation Fund and UPARR 
dwindled to almost nothing. This is the most aggressive 
opportunity that we have seen at least in the last 10 or 15 
years to try to put some dollars aside. The last time I think 
was about maybe seven years ago that I saw an opportunity for 
UPARR to be funded. It was funded at $5 million for the entire 
country. Five million dollars for over 50,000 agencies to apply 
for to match their dollars, match with local dollars. Now that 
is minuscule.
    I think, as one of the other panelists indicated, all over 
the country local issues are being passed because the local 
citizens realize the importance of parks and recreation. And, 
in our case, there was a millage passed for the first time in 
the history of Wayne County to support parks and recreation. 
And Wayne County's funding had been deteriorating forever. So 
that deterioration on the local level can only be supplemented 
when there is a source outside of the local funding source to 
provide for those special projects' renovation, restoration, 
and acquisition.
    Mr. John. Right. Thank you very much. And, Mayor Campana, I 
would just like to also comment on your presence here today 
which I think has been very eye-opening. One of the differences 
between the two bills is the operation and maintenance money in 
H.R. 798 which is provided for national parks. Do you believe 
that the operations and maintenance funding should become a 
part of House legislation or should funding be provided for 
acquisitions, as is provided for in both of those bills.
    Mayor Campana. Operation and maintenance is critical, I 
think. I, again, don't want to have to pick and choose between 
these bills and hope that there will be a consensus reached 
that will address all of this.
    Mr. John. Right.
    Mayor Campana. But it would be critical for us for 
operation and maintenance. Again, in some of these western 
States where there is a large amount of open space available, 
but there really aren't the funds set aside for maintenance or 
enhancement, you know, or renovation as was talked about back 
East. So I do think that is critical.
    Mr. John. Okay. Thank you very much.
    And finally, Mr. Norquist, do you believe that monies which 
are collected for a specific purpose should be used for that 
specific purpose?
    Mr. Norquist. It depends what the purpose is. That is not a 
yes or no question.
    Mr. John. Do you believe in trust funds?
    Mr. Norquist. I believe they exist, yes. I have seen them.
    [Laughter.]
    Mr. John. I believe that too. That is an easy one.
    Mr. Norquist. When you talk about raising money for a 
specific purpose, this is a challenge----
    Mr. John. If I may continue. I want to make clear that we 
are not talking about raising any additional monies. These are 
monies that are already being collected as Federal offshore oil 
and gas royalties. This is not money coming out of individual 
taxpayers' dollars that you were speaking of earlier. This is 
from original revenues that are going to be redistributed into 
a trust fund for a specific purpose. Go ahead.
    Mr. Norquist. Well, and if it wasn't done that, it would be 
used to pay down the national debt or to save social security 
as President Clinton wants. So this money is coming from 
somewhere and taxpayer monies will fill in the void somewhere. 
When you tax oil production, that is not free money, that 
raises the cost of oil to every American consumer. So when you 
raise the price to consumers, either through regulatory burdens 
or through tax burdens, consumers and individuals eventually 
pay that. This is not free money somehow. This doesn't come 
from nowhere. It comes out of the pockets of the American 
people at one level or another.
    I think there is a real challenge because politically we 
see this in State, local, Federal Government. Politicians say 
let us spend money over here and let us allocate money for this 
particular item, rather than any sort of effort to prioritize 
between them or whether or not----
    Mr. John. But don't you think that, by setting up 
particular trust funds, as in the transportation trust fund as 
we did last year, i.e. the social security trust fund that we 
are talking about now. We are prioritizing. A prime example is 
the social security trust fund that we all want to preserve. 
Don't you think that a trust fund signals to the taxpayers and 
the people that we represent that these are our priorities, and 
that is why we set these things up? Today this Federal offshore 
money, $4 billion of it, goes into the National Treasury and is 
spent on a myriad of things that you and I would not agree 
with, including some wasteful Federal programs.
    What we are attempting to do here is to identify a need--
and everyone here and, I believe, in America, recognizes 
conservation as a need. You say you represent taxpayers. I 
represent 4 million taxpayers in Louisiana that all are in 
support of this piece of legislation because of the damage 
being done to our State. Don't you think that sets a priority 
of spending in a way that is consistent with the wants and the 
needs of the taxpayer?
    Mr. Norquist. Well, if people wanted to do something, they 
do need the Federal Government to come in with money to do it. 
They can do it on their own. This land is not not there. It 
exists. It is just privately owned. People are talking about 
having the government buy it, but what is going to happen is, 
instead of having land privately owned, the State or the Feds 
are going to by it. There is not more land. The same amount of 
land. It is just a question of who is in control and this city 
has a history of wanting to move that control out of the hands 
of towns and communities and individuals and into the hands of 
States and Federal Governments.
    I think that is a mistake. I think private people take care 
of land than the government does. I mean, if your goal is to 
help take care of land.
    Mr. John. Well, and, again, an underlying fact in this 
piece of legislation is that there must be a willing seller and 
a willing buyer before that transaction takes place.
    One final question----
    Mr. Norquist. I made the point that that isn't always the 
case. And Mr. Tauzin suggested it wasn't necessary to have the 
property rights people come in to walk through that, but we can 
if you are not aware of cases where taxpayers have been coerced 
into selling, their property taken away and diminished by 
Federal regulations, not voluntary.
    Mr. John. There is no person in Congress more supportive of 
the rights of property owners than myself. And I respectfully 
disagree with your contention in this particular case. And, of 
course, that is what this hearing is all about.
    One final observation, just to try to see where you are 
coming from. Recently the Federal Emergency Management Agency, 
FEMA, stated that it was going to get involved in some coastal 
projects because they felt that they could save taxpayers 
dollars by being more proactive in support of coastal 
restoration. When a hurricane hits Federal taxpayer's dollars 
are provided for disaster assistance. By getting involved in 
some of these coastal projects, that they could maybe prevent 
or actually save dollars by reducing the amount of damage 
inflicted. Do you think that it is a good stewardship of the 
taxpayers' dollars to be doing things like this?
    Mr. Norquist. I am not an expert at what FEMA is talking 
about doing, so I don't know.
    Mr. John. Well, the fact is by funding coastal restoration 
projects and making sure that we preserve barrier islands that 
shield coastal communities from being flooded or dismantled by 
a hurricane we actually are saving taxpayers' dollars. And that 
is the point that I am trying to get across, that these are the 
kinds of projects that we are looking at in H.R. 701.
    Mr. Norquist. Okay. I am not an expert on that. I would 
defer to some of the people who have lived through it. I know 
FEMA has a checkered history on how it has treated people and 
that it is a question of whether you want the Federal 
Government running an insurance program in the first place, or 
at least running it the way they do now.
    Mr. John. Thank you.
    Mr. Tauzin. [presiding] The gentleman's time has expired. I 
thank the gentleman. Let me thank the panel, unless the 
gentlelady has additional time. Let me just wrap by a couple of 
observations. One, I think the gentleman from Louisiana is 
trying to make the point, and I want Mr. Hansen to comment on 
this, that there is some connection between the money being 
derived and its purpose, as we collect highway taxes to build 
highways.
    If the money that is being derived is income from Federal 
lands, isn't it a good purpose to use some of that money to, in 
fact, prevent the loss of lands and Federal lands or to enhance 
through maintenance and proper spending, the quality of that 
land? As long as it is owned by all the people, why have it 
deteriorate and go to waste and lose 35 square miles a year in 
Louisiana if, in fact, the money coming from production of 
Federal lands might be used to preserve and protect that land 
from further loss and degradation? Isn't maintenance, 
therefore, Mr. Hansen, a key ingredient of this formula?
    Mr. Hansen. Mr. Chairman, I think we would all agree that 
maintenance is a key component of how we want to see our public 
lands treated. I think there are certainly some concerns that 
this program not take the place of existing programs. That this 
be an additional program.
    Mr. Tauzin. Yes.
    Mr. Hansen. Certainly, the basic premise of the Land and 
Water Conservation Fund in both of these bills is that we take 
the depletion of a non-renewable resource and we take part of 
the revenue from that to use to support renewable resources.
    Mr. Tauzin. Isn't it much like income from a rental 
property being used to refurbish the rental property so it can 
be maintained in its income capacity or in its current state? 
Isn't that the kind of analogy we are talking about here? These 
are Federal lands producing Federal money and the concept is to 
turn this Federal money back into preserving and protecting 
these lands. In fact, to make sure that the purpose for which 
these lands were acquired in the first place is maintained, 
that they do what they were supposed to do, enhance the quality 
of natural life on this property.
    Mr. Hansen. Exactly. We are keeping some seed for next 
year.
    Mr. Tauzin. And the final thought, Grover--again, I know I 
am not going to convince you----
    Mr. Norquist. You are talking about buying more land not 
taking--I mean, the Federal Government doesn't take very good 
care of the land it does own.
    Mr. Tauzin. Well, but let me make the final point, Grover, 
and I will let you respond.
    Mr. Norquist. And you guys want to use other people's money 
to buy more of it.
    Mr. Tauzin. Yes. I happen to agree with you, you know, as 
an advocate for property rights when Federal regulations take 
away a person's right to use his property, that that is a 
taking under the Fifth Amendment. You know of our efforts to 
make that the law of our land in legislative language rather 
than requiring everybody to go to court on an individual basis 
and win that civil right. It is a civil right. We think there 
ought to be procedures and processes for people to protect 
their civil rights in the ownership of private property.
    But such being the case, the argument we have always made 
is that if someone has some property that the Federal 
Government has said is so important for the national interest, 
it is a beautiful wildlife preservation area, that, rather then 
allowing you to destroy it, we are going to have rules and 
regulations that say you can't. We are going to keep it for 
that purpose.
    Wouldn't it be much better to have a fund where the 
government can acquire it rather than simply tell people you 
can own it and pay taxes on it, but we are not going to let you 
use it? Wouldn't it be better to have a system whereby that 
person, having been deprived of their property, in fact, can 
simply surrender the title and be compensated as in an 
acquisition, rather than the current state of the law?
    What I am saying is, I know the perfect. Perfect would be 
that, in those kinds of circumstances, that person should have 
a right to seek compensation for the damages those regulations 
did to the use of his property. But is, absent a perfect world 
where we can win those battles, wouldn't it be better to have a 
world where at least people could be compensated as in an 
acquisition for property whose right they only have left is to 
pay taxes on it?
    Mr. Norquist.
    Mr. Norquist. Well, we have in the United States some 30 to 
40 percent of the land in the country owned or controlled by 
government now. The land that is just timber land or grazing 
land and other land could be sold off to have the revenues to 
allow people to buy some land that was perceived as important 
to the government that they haven't stolen or confiscated yet. 
I mean, there is a whole bunch out West. When you fly over the 
West, it is empty out there. And there is an awful lot of land 
that the Federal Government owns or controls that would be 
under much better stewardship in private hands. Sell that off 
and use those resources.
    Unfortunately, some people, for ideological reasons, the 
same people who thought that the steel mills in Poland should 
be run by the government, think that land should be owned by 
the government. And that is just wrong. Historically it is 
wrong; economically it is wrong. And there has been an effort 
to go after and denude the rural areas of people and economic 
activity. There are a lot of people who don't like rural areas 
and this is part of that drive, to drive people off those lands 
and, as Al Gore wants, into cities.
    Mr. Tauzin. Well, if we could win a land swap agreement in 
this bill and we could win that on the floor, I suppose that 
might a worthwhile venture. My point, however, is that, 
recognizing the political realities of what can be 
accomplished, it seems to me that if the Federal Government is 
going to have an enormous cost one day because Homer has to get 
relocated and FEMA has to spend enormous sums out there to 
relocate hundreds of thousands of Cajuns who won't be able to 
live any more in South Louisiana because all of the land has 
eroded away. If we can spend, if you will, a penny now to save 
it instead of the dollar later that it is going to cost us to 
go through all of this process, that is good government, wise 
use of the penny. Particularly if it is derived from the land 
itself.
    And, secondly, if, in the process of preserving this land, 
we can tell those landowners for whom we literally have already 
taken their rights of use away, at least you can get 
compensated in a government purchase. It seems to me there are 
some benefits there that we have to weigh in the balance of 
where we are today.
    I know that is no perfect answer. I know Ms. Chenoweth has 
gotten excited enough to want to join us here and I want to 
yield to her now, at this time. Mrs. Chenoweth.
    Mrs. Chenoweth. Well, Mr. Chairman, I just wanted to 
comment about your Cajuns. I am sympathetic about your Cajuns 
not having any more land because it is being eroded away, but I 
think the point that Mr. Grover Norquist and I am making is the 
fact that these same Cajuns or Native Americans or people who 
come to America because of the hopes and dreams of being able 
to own private property, they are not going to be able to live 
on the land because we have eroded away the land that they 
could purchase under private property agreements.
    And I think, yes, in Louisiana, we need to take care of how 
your State has suffered because of the public benefit, as we do 
in Idaho. I would like to see map of Michigan, though, and see 
how many red spots appear on the map of Michigan because of the 
impact of this same program. So I don't think it would exist to 
near the degree. But we don't want to erode private property 
rights nor our private property land base.
    Mr. Tauzin. Well, I don't argue with the gentlelady. In 
fact, I see this legislation as advancing in significant areas 
the cause of private property. But we can, as I said, we will 
debate these things as we move along.
    Let me thank you on behalf of the chairman, who had to run 
early. This continues, as you know, tomorrow so that we will 
keep up the process of public hearings until the Committee is 
prepared to act. But I can assure the gentlelady and others, 
these concerns are taken seriously. We will continue to work on 
the legislation to correct it. With that, the Chair declares 
this hearing adjourned.
    [Whereupon, at 1:53 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

 H.R. 701 Testimony Submitted through March 30, 1999, will be held in 
     the Committee files at 1324 Longworth House Office Building, 
                            Washington, DC.

Chizewski, Nicholas A.Bisbee, AZ

Nageak, Benjamin P.Mayor
Barrow, AK

Brabec, Dennis J.
People for the USA

Asbury, Donna L.
Project Wild

Thornton, Gordon
Thornton Dairy and Sheep Ranch

Baruch, Mary Ann
Mimbees, NM

Keeler, Judy
New Mexico State People For the USA

Vogler, Nancy
Lawson's Landing

Allen, W. Ron
National Congress of American Indians

Beard, Daniel
National Audubon Society

Rodgers, Julie
Eureka, CA

Torcaso, Roy
Wheaton, MD

Lamson, Susan
National Rifle Association

Scenic America Board
Washington, D.C.
Speakes Jr., Leland
The Foundation for North American Wild Sheep

Baughman, John
Director
Wyoming Game and Fish Department

Geringer, Jim
Governor
State of Wyoming

Schlecht, Eric V.
National Taxpayers Union

Davis, Mark
Committee to Restore Coastal Louisiana

McCollough, Mark
Maine Chapter of the Wildlife Society

Wichers, Donna
COGEMA Resources, Inc.

Franklin, Thomas M. and Thompson, Edith R.
Maryland's Team Wildlife

Miller, James
The Wildlife Society

Special Committee on Fisheries
Alaska State Legislature

Mumma, John
Western Association of Fish and Wildlife Agencies

Mumma, John
Colorado River Fish and Wildlife Council

Kitzhaber, John
Governor
State of Oregon

Williams, Nora
County Commissioner
Monroe County, Florida

Case, David J.
DJ Case & Associates

Kimball, John
Utah Department of Natural Resources

Peterson, Everett
Roseburg, OR

Johnson, Dave
Missouri Breaks Chapter, National Audubon Society

Perry, Gerald L. and Gayle L.
Tuscon, AZ

Baicich, Paul J.
The American Birding Association

Dann, Donald
Bird Conservation Network

Roell, Michael J.
Harrisburg, MO

Faulkner, Paul J.
Idaho Falls, ID

Weeks, W. William
The Nature Conservancy

Bennett, Carolyn
Evansville, IN

Winegrad, Gerald
American Bird Conservancy

Blythe, Dick
Indiana Grand Kankakee Marsh Restoration Project

Kropp, Marian
Boise Parks and Recreation

Meiklejohn, Brad A.
The Conservation Fund
                                ------                                


    STATEMENT OF BERNADETTE CASTRO, COMMISSIONER AND STATE HISTORIC 
 PRESERVATION OFFICER, NEW YORK STATE OFFICE OF PARKS, RECREATION AND 
                         HISTORIC PRESERVATION

    Thank you Chairman Young and Members of the Committee for 
this opportunity to testify before you on the Conservation and 
Reinvestment Act and the Resources 2000 Act. My name is 
Bernadette Castro and I am the Commissioner of New York State 
Office of Parks, Recreation and Historic Preservation.
    I speak to you today not only as the Commissioner of New 
York State Parks, but also as a member of the Board of 
Directors of the National Association of State Outdoor 
Recreation Liaison Officers, as co-chair of the Legislative 
Committee of the National Association of State Park Directors 
and as co-chair of Governor George E. Pataki's Empire State 
Task Force for Land and Water Conservation Funding.
    I commend you, Mr. Chairman, for your leadership to re-
establish the Land and Water Conservation Fund ``state side'' 
program through the introduction of this legislation, H.R. 701, 
that will benefit urban, suburban and rural areas throughout 
the country. My compliments to your Ranking Minority Member, 
Mr. Miller from California for his commitment to working with 
you on this important issue.
    My testimony today will focus on the provisions of your 
bill that would re-establish the Land and Water Conservation 
Fund ``state side'' program.
    As you know, in 1964 Congress created the Land and Water 
Conservation Fund (LWCF) to preserve, develop and ensure that 
all Americans had access to quality outdoor recreation and to 
strengthen the health and quality of life in our communities. 
It was a simple idea: a ``pay as you go'' program using 
revenues from resource use, primarily from Outer Continental 
Shelf oil and gas receipts that were to be used to support the 
creation of national and community parks, forests, wildlife 
refuges and open spaces.
    Since its inception, LWCF has been responsible for the 
creation of nearly seven million acres of parkland, water 
resources, open space and the development of more than 37,000 
state, municipal and local parks and recreation projects; 1,100 
projects were undertaken in New York and resulted in 65,000 
acres being acquired for recreational use. From playgrounds and 
ball fields, scenic trails and nature preserves, LWCF has been 
the key to providing places for all Americans to recreate, 
relax and get outdoors.
    Let me give you some examples of how ``state side'' money 
has been used in New York.
    Over the years we have applied millions in LWCF state side 
funding to projects at Niagara Falls Reservation (State Park). 
Without this funding this oldest continuously operated state 
park in the nation, which sees nearly 7 million visitors 
annually would not be the treasure that it is today. These 
projects included the development and construction of a new 
visitor/information center, reconstruction of walkways, 
renovation of electric service and creative landscaping which 
interprets the system of Great Lakes.
    At Jones Beach State Park, the largest public bathing 
facility in the world, we have invested millions in Land and 
Water Conservation Funds. Together this funding has restored 
this jewel to its historic splendor. Each year, 8 million 
visitors from around the world, enjoy this recreational 
resource on the Atlantic Ocean. Projects at this facility 
included total reconstruction of the 2-mile Jones Beach 
Boardwalk, restoration of the East End and West End Bath Houses 
(swimming pools and related facilities) and improvements to our 
parking areas and sewage treatment facilities.
    In our urban areas we supported an application for a very 
special park, ``A Playground for All Children.'' LWCF funding 
($400,000) made it possible for the Flushing Meadow, Queens 
community to construct a playground for all children; for those 
that have physical challenges, as well as for other children to 
enjoy. It has served as a creative facility that was undertaken 
well before the era of the Americans With Disabilities Act. It 
included interpretive trails, playground apparatus, a sports 
and game area, a water wheel, sports courts, a ``rolling'' hill 
and sports track.
    Working with Onondaga County, we directed LWCF funding to 
the Bumet Park Zoo in the city of Syracuse; $1.1 million 
dollars was applied to bring this aging facility up to modern 
standards for the public to enjoy in a park setting. LWCF 
funding helped complete this $12 million dollar project.
    As you can see, state side funding has supported a variety 
of projects that appeal to the diversity of our population.
    Governor Pataki has been a leader in the effort to renew 
``state side'' funding. Last year, the Governor called for the 
creation of the Empire State Task Force on Land and Water 
Conservation Funding to educate the public on the importance of 
state side funding, what it has accomplished and what it could 
accomplish in the future and to support those efforts in 
Congress to re-establish this Federal funding source. On 
January 20, 1999, the Governor, through the Task Force, hosted 
over 400 leaders of parks and openspace advocacy groups in 
Albany for a summit to educate and advance reinstating ``state 
side'' assistance. Governor Pataki has also contacted many 
Members of Congress in the past to express his commitment to 
this vital program and what it means to New York State. The 
membership of the Task Force is diversified and includes 
Laurance S. Rockefeller as honorary Chairman, John P. Cahill, 
Commissioner of NYS Department of Environmental Conservation as 
my co-chair, NY Secretary of State Alexander F. Treadwell who 
is responsible for New York's Coastal Zone Management program, 
Theodore Roosevelt IV, Mark Rockefeller son of Nelson, several 
municipal organizations including the NY Conference of Mayors 
and Association of Counties, The Conservation Council 
representing sportsmen, and a variety of enviromnental 
organizations from the National Audubon Society NY Office to 
the Nature Conservancy, Open Space Institute and Trust for 
Public Land, just to name a few.
    It is critical that a stable source of funds for the LWCF 
be established. As you know, LWCF has been critically 
underfunded at approximately one-third of its annually 
authorized level of $900 million, with no funding provided to 
the state-side matching grant program in recent years.
    In New York, Governor George E. Pataki has been a leader in 
providing for the creation of recreation and open space lands 
and providing support for localities to develop outdoor 
recreation facilities. Through the Governor's efforts we have a 
fully dedicated Environmental Protection Fund and a Clean 
Water/Clean Air Bond Act, each contributing financial support 
to localities wishing to expand their openspace and 
recreational resources. New York State has done its share to 
provide some of the necessary resources for outdoor recreation 
and conservation.
    However, we can not meet the need for local parks alone. 
Since 1995, State Parks has received 1,050 applications for 
park projects. Communities have sought to invest over $600 
million in recreational facilities. Although most of these 
projects are solid, worth while park projects, 800 of them have 
yet to be undertaken. Federal support of these projects will 
help New York leverage the investments we have made through our 
Environmental Protection Fund and Clean Air/Clean Water Bond 
Act.
    We want to continue to build on success stories in New York 
such as restoring the beautiful beaches on Long Island, to 
building shaded parks in New York City, to helping revitalize 
waterfront areas and small town parks throughout the state. Mr. 
Chairman, we applaud your efforts and your commitment to re-
establishing a Federal/state/local partnership by providing 
revenues for the revitalization of the ``state-side'' grant-in-
aid Land and Water Conservation Fund.
    Let me share with you what I believe should be included in 
any legislation that is advanced by the House:

    1. The legislation should permanently provide $900 million 
dollars annually to support both the Federal and state side of 
LWCF without the need for annual appropriations.
    2. This funding should be evenly split between the Federal 
and state side programs. These two programs complement each 
other and any new legislation should assure that they do not 
compete with each other for funding, nor should it place new 
limitations on the use of the funds that would reduce their 
effectiveness.
    3. The legislation should provide for full funding for the 
Land and Water Conservation Fund state side program and address 
important wildlife needs and coastal zone issues.
    4. The state side program should fund acquisition, 
planning, development and capital rehabilitation. It is worth 
noting that the state side program has in the past supported 
capital rehabilitation. These types of projects should be 
authorized by the plain language of the Act and not left to 
interpretation. I note that the Urban Park and Recreation 
Recovery Act (UPARR) provides for this type of project and the 
Senate version of CARA includes language in this regard that we 
believe should be added to the House version.
    5. The allocation of all state side funds should be based 
on a formula that recognizes the recreational needs of the 
state's residents placing emphasis on population and land mass 
with a lesser component to be shared equally between all the 
states.
    6. Projects should be prioritized based on a state 
implemented public process. In New York we are proud of these 
public processes that we use to review projects and establish 
priorities for our openspace program. We look forward to 
applying these processes to state side funding and the creation 
of our State Action Plan as required by H.R. 701. At this point 
I would also offer as an aside, that considering the effort 
that will be put into the creation of a state action agenda, at 
a minimum, the National Park Service should coordinate with the 
state prior to awarding UPARR grants to ensure a cooperative 
approach.
    7. Any legislation which deals with revenues derived from 
the extraction of natural resources on the Outer Continental 
Shelf should not create incentives for that extraction. As a 
coastal state, New York is very interested in sharing an 
equitable portion of outer continental shelf revenues with 
other coastal states which will help fully fund the Land and 
Water Conservation Fund. Revenue derived from this national 
asset should be reinvested into initiatives which provide 
benefits for future generations. I congratulate the Chairman in 
recognizing this issue and taking steps to address the concerns 
that were expressed with last year's bill and I encourage the 
sponsors to take those additional steps necessary to eliminate 
the issue completely. However as a representative of a coastal 
state, I do not believe eliminating the entire program as 
proposed in Resources 2000 is the best solution.
    8. Most importantly, funding for this program must not come 
at the expense of other Federal dollars which are provided in 
support of the states.
    It is apparent from the outpouring of interest from groups 
throughout New York State that there is a great deal of 
momentum toward seeing a renewal of state-side funding for the 
LWCF and full funding for the entire Land and Water 
Conservation Fund.
    For one moment, I must make some comments as New York's 
State Historic Preservation Officer. While we have been 
primarily focused on the use of the Land Water Conservation 
Fund for support of Federal land acquisition and the state side 
program, in the past Outer Continental Shelf revenues have also 
been used to support state activities to enforce the National 
Historic Preservation Act. I hope that any successful 
legislation will include a component to provide this funding to 
the Historic Preservation Fund and to increase funding over 
current amounts, so that we may be able to provide grants to 
preserve historic treasures which are on the National Register 
of Historic Places.
    Thank you for this opportunity to testify.
                                ------                                


 STATEMENT OF DAVID WALLER, DIRECTOR, GEORGIA DIVISION OF WILDLIFE FOR 
      THE INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Thank you, Mr. Chairman. My name is David Waller, Director 
of the Georgia Division of Wildlife and Vice-President of the 
International Association of Fish and Wildlife Agencies. As you 
know, all 50 State fish and wildlife agencies are members of 
the Association. I appreciate the opportunity to appear before 
you today with the strong support of the Association for H.R. 
701, the Conservation and Reinvestment Act. The Association 
sincerely appreciates your efforts and those of Cong. Dingell, 
Cong. Tauzin, Cong. John and the other co-sponsors, in bringing 
this far-sighted conservation proposal to the table, which will 
provide consistent and dedicated funds to the states to 
conserve our fish and wildlife resources, provide for the 
protection and restoration of our coastal habitats and living 
resources, fund land and water conservation activities at all 
levels of government, and provide much-in-demand recreational 
opportunities for our citizens, thus resulting in economic 
growth to our communities. The Association is also encouraged 
that Cong. Miller and others have recognized many of these same 
needs in introducing H.R. 798, the Resources 2000 Act. We do 
have concerns about the focus, legislative construct, and 
funding levels in H.R. 798 which I will share later with you in 
my testimony. However, we strongly endorse the efforts of you 
and Cong. Miller to identify common ground in a bill that can 
pass Congress and be enacted into law this year. As you know, 
the need for these programs in the states are significant, they 
enjoy wide public support, and our children and their children 
will thank us for the commitment we make to ensure the 
conservation and vitality of America's natural resources.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Association's governmental members include the fish and 
wildlife agencies of the states, provinces, and Federal 
Governments of the U.S., Canada, and Mexico. All 50 states are 
members. The Association has been a key organization in 
promoting sound resource management and strengthening Federal, 
state, and private cooperation in protecting and managing fish 
and wildlife and their habitats in the public interest.
    Mr. Chairman, I know that you are well aware of the 
longstanding commitment and priority of the Association to 
secure the necessary funds so that the State fish and wildlife 
agencies can address the needs of all fish and wildlife species 
in their states, including conservation education and wildlife 
associated recreation needs. As you know, the states have 
principal and broad authorities for the conservation of fish 
and resident wildlife within their borders, even on most public 
lands. Congress has given the Federal executive branch agencies 
(USFWS and NMFS) certain statutory conservation obligations and 
responsibilities for migratory birds, anadromous fish and 
listed threatened and endangered species, but this 
responsibility remains concurrent with State jurisdiction. As 
Secretary Babbitt once remarked, States are the front-line 
managers of fish and wildlife within their borders.
    You are also well aware of the long history and strong 
commitment of support for funding state fish and wildlife 
programs by the sportsmen and women of this country through 
their purchase of hunting and fishing licenses, and 
contributions from excise taxes they pay on sporting arms and 
ammunition, fishing tackle and other equipment, import duties 
on fishing tackle and pleasure boats, and gasoline excise taxes 
on outboard motor and small engine fuels. These funds are 
apportioned to the States under permanent appropriation in the 
form of matching grants under the Pittman-Robertson Act of 1937 
and the Dingell-Johnson/Wallop-Breaux Act of 1950 and 1984, 
respectively. These license and excise tax funds are the 
principal source of funds for State fish and wildlife programs. 
Our successes under this legislation are well known from 
restoration of white-tailed deer and pronghorn antelope to wild 
turkey and wood duck and striped bass. There have been 
corollary benefits to species other than those that are hunted 
and fished, from the conservation of habitat, etc. However, 
there simply have not been either sufficient or dedicated funds 
for the State fish and wildlife agencies to adequately address 
the conservation needs of these so-called ``nongame'' species, 
which constitute approximately 90 percent (over 2,000 species) 
of the vertebrate species in the United States. H.R. 701 will 
position the State fish and wildlife agencies to duplicate the 
tried and true success of the Pittman-Robertson and Wallop-
Breaux programs with species such as the cerulean warbler, 
bluebirds, loggerhead shrike, American goldfinch, bog turtle, 
and species of frogs and salamanders that are declining. 
Responding to early warning signs of decline in these species 
by addressing life needs and habitat requirements through 
cooperative non-regulatory programs with private landowners 
will not only conserve the species but also help avoid the 
social and economic disruption associated with listing species 
as threatened or endangered. Most threatened and endangered 
species come from this universe of so-called nongame species, 
which makes sense if you think about it, because we have not 
had adequate funds to address these nongame species needs, 
whereas we have had the funds for game and sportfish species 
conservation. The more we know about declining species the 
quicker we can respond with a broad array of incentive-based, 
non-regulatory programs that gives us maximum flexibility in 
working with the landowners to allow them to meet both their 
land management objectives and fish and wildlife conservation 
objectives. This preventative conservation approach just makes 
good biological sense and good economic sense.
    Seven years ago when the Association made a commitment to 
secure funding for comprehensive wildlife programs in the 
states, we began to enlist a support coalition that has now 
grown to over 3,000 conservation, business and other 
organizations. Our ``Teaming With Wildlife'' initiative, as we 
called this endeavor, built up tremendous grassroots support 
around a funding mechanism patterned after Pittman-Robertson 
and Wallop-Breaux that would extend existing excise taxes on 
sporting arms, ammunition and fishing equipment to other 
outdoor recreational gear at a very modest level. However, this 
user-fee approach did not gain the bipartisan political support 
in Congress needed for success. There was broad bipartisan 
recognition of the need for these funds and the merits of the 
proposed state based wildlife conservation, conservation 
education and wildlife-associated recreation programs, but not 
for the funding mechanism. Through the dedication, creativity 
and support of you and your sponsoring colleagues you have 
married these needs with those of coastal habitat and living 
resource conservation, and a recommitment of Congress to 
funding the Land and Water Conservation Fund and Urban Parks 
and Recreation Recovery Act, all from a portion of revenues 
from gas and oil leases and royalties from the Outer 
Continental Shelf. We applaud your far-sightedness and 
appreciate your commitment to addressing all of these needs at 
the state level.
    Before I comment on H.R. 701 and H.R. 798 specifically, let 
me summarize again for you the needs in the States for wildlife 
conservation, conservation education and wildlife associated 
recreation. The Association is currently updating our State-by-
State needs assessment, and more specific information should be 
available soon.

        <bullet> Less than 10 percent of state fish and wildlife agency 
        funding is available for the conservation of 86 percent of our 
        nation's nongame wildlife species. State agencies have barely 
        enough funding from established game species funding sources to 
        support vital conservation programs. While game species budgets 
        for all 50 states add up to approximately $1 billion annually, 
        nongame programs, lacking a similar dedicated funding source, 
        fall short of $100 million. Thirty-two states operate nongame 
        conservation, recreation, and education programs on less than 5 
        percent of their fish and wildlife budgets. H.R. 701 will 
        provide the states with the funds to achieve preventative 
        conservation through collecting good information (from fish and 
        wildlife surveys and inventories), implementing appropriate 
        management and habitat conservation endeavors, and retaining 
        the State fish and wildlife agencies ability to work with 
        greater flexibility with private landowners in a non-
        regulatory, incentive based manner.
        <bullet> Dwindling fish and wildlife species and habitat 
        directly affect some of the fastest growing forms of outdoor 
        recreation. Wildlife viewing is the number one outdoor activity 
        in the United States and has become a billion-dollar industry. 
        Hiking participation has rise 93 percent and camping 73 percent 
        in the past 12 years. Nature-based tourism is escalating at a 
        higher rate than any other segment of tourism worldwide.
          Impressive participation statistics translate into billions 
        of dollars of economic activity each year:

        -- Wildlife watchers spent $29 billion in state and local 
        economies during 1996, a 39 percent increase over 1991 
        spending, according to the latest U.S. Fish and Wildlife 
        Service survey.
        -- Watchable wildlife recreation supports $22.7 billion in 
        salary and wages and more than one million jobs.
        <bullet> A documented upswelling of interest in conservation 
        education programs is both good news and represents a challenge 
        as state fish and wildlife agencies are hardpressed to keep up 
        with the public demand for technical assistance for private 
        landowners, developers and local governments, informational 
        materials on wildlife, landscaping for wildlife, and requests 
        on where to view wildlife. Innovative wildlife education 
        programs enjoy positive responses, but often lack sufficient 
        funding. Funds under the Conservation and Reinvestment Act will 
        enable all 50 states to support increased recreation and 
        education participation. Local communities will benefit from 
        increased tourism. Nature tourists will extend their stay an 
        extra day or two if they discover more wildlife watching 
        opportunities during their visit. Finally, a caring citizenry 
        is essential to the success of all wildlife conservation 
        efforts and maintaining the natural systems that support us.
    The Association estimates $1 billion or more in additional funding 
needs annually for all 50 states for these programs. However, even a 
half billion dollars will have a significant positive benefit for 2,000 
nongame species, as well as benefit many other species as well. Often 
game and nongame species share the same habitat and both benefit from 
conservation efforts such as restoring wetlands, stream rehabilitation 
or habitat restoration.
    Funding state conservation, recreation and education efforts 
together makes economic and social sense. To sustain the growth in 
nature-based tourism and outdoor recreation requires an investment in 
our nation's wildlife and land and water base. Particularly, 
opportunities close to urban and rural communities for fishing, hiking, 
wildlife viewing and outdoor recreation programs are becoming 
increasingly important for families and communities. Enhanced 
conservation education efforts will facilitate better-informed citizens 
and assure a high quality of life for people and wildlife.
    H.R. 701 will provide the appropriate funds to the States to 
satisfy these very vital needs.
    Mr. Chairman, here are the reasons the Association strongly 
supports H.R. 701.

        <bullet> H.R. 701 re-commits the United States to a policy of 
        dedicating revenues from the exploitation of non-renewable 
        resources into securing the status of living renewable 
        resources, conserving land and water resources, and providing 
        recreational opportunities for our cities and local 
        communities, through a permanent, indefinite appropriation to 
        fund state-based programs. We appreciate and support the 
        language in H.R. 701 which addresses the question of whether 
        any of these revenues could be a potential incentive to states 
        to encourage more drilling. Your language, we believe, 
        appropriately ensures that no incentive is in the bill and that 
        with regards to drilling in OCS waters, the bill is ``drilling 
        neutral.''
        <bullet> H.R. 701 builds on the support the states have relied 
        on for decades from our Nation's hunters and anglers to finance 
        state fish and wildlife programs by broadening this funding 
        support to a permanent, indefinite appropriation from a general 
        revenue source, the leases and royalties on Outer Continental 
        Shelf gas and oil extraction. We support the use of the very 
        successful Pittman-Robertson Act as the means of apportioning 
        the funds to the States under a separate subaccount, to be used 
        for the purposes of enhanced comprehensive fish and wildlife 
        conservation, conservation education, and wildlife associated 
        recreation programs. This is a proven, efficient system.
        <bullet> H.R. 701 positions the States to avoid the economic 
        and social disruption from listing species as endangered by 
        taking preventative conservation measures early on to address 
        life needs and habitat requirements of declining fish and 
        wildlife species before they reach a level where listing is 
        necessary to protect them.
        <bullet> H.R. 701 focuses decisions on spending priorities at 
        the local (not Washington) level, where states and communities 
        are in the best position to know what those needs and 
        priorities are. We must facilitate local identification of 
        issues and problem solving, not top-down prescriptive 
        solutions.
        <bullet> H.R. 701 allows States to work with private landowners 
        in a non-regulatory, incentive-based manner to achieve their 
        land management objectives consistent with good conservation 
        for fish and wildlife species.
        <bullet> H.R. 701 allows and positions local communities to 
        take best advantage of robust fish and wildlife populations 
        through nature-based tourism opportunities (bird watching 
        tours, hiking tours to natural vistas, etc.) thus providing 
        local economic support to those communities.
        <bullet> H.R. 701 builds on our citizens' strong sense of 
        stewardship about their land by making them a part of the 
        problem solving and implementation of solutions.
        <bullet> Through ensuring the conservation of good habitat for 
        fish and wildlife, the programs funded by H.R. 701 will ensure 
        the quality of life for our citizens and future generations, 
        since we all rely on the same life support systems.
        <bullet> H.R. 701, in addition to wildlife programs, will 
        provide funds for coastal restoration and enhancement programs, 
        wetlands restoration, coastal zone management efforts, and 
        environmental remediation from the impacts of on-shore landing 
        of OCS gas and oil, through the proper location, placement and 
        mitigation of pipelines, roads, and other infrastructures 
        needs.
        <bullet> H.R. 701 restores certainty to the state-side aspect 
        of the Land and Water Conservation Fund program so that 
        conservation and recreation projects of highest state and local 
        priority are satisfied.
    Mr. Chairman, the Association strongly encourages you to make one 
change in Title III of H.R. 701. In order to appropriately fund 
programs where the needs are the greatest, we respectfully request that 
the minimum funding level for a state be raised from 1/2 of 1 percent 
to 1 percent. This will greatly benefit some of our smaller primarily 
mid-Atlantic and northeastern states and Hawaii where pressures on 
wildlife and habitat are great and demands for recreation and education 
program are high. The apportionment to the other States will be reduced 
only very minimally, but the benefit will be great to the fish and 
wildlife resources and citizens in the smaller states. We urge your 
favorable consideration of that change.
    Let me now comment on H.R. 798, the Resources 2000 Act. The 
Association is encouraged that H.R. 798 has a title that contains 
provisions for funding to the states for State-based enhanced wildlife 
conservation. We are also encouraged that H.R. 798 seeks to use certain 
OCS revenues under a permanent, indefinite appropriation. Finally, as I 
indicated, we are further encouraged that you and Cong. Miller have 
both publicly stated your interest and willingness to work together to 
find common ground between your proposals to move forward towards 
enactment of a bill this year.
    However, we do have several serious concerns about some specific 
provisions of H.R. 798. First, the OCS source funds in H.R. 798 is 
limited to only royalties and revenues from wells in Western and 
Central Gulf of Mexico OCS waters that are producing as of January 1, 
1999. We understand that this is the bill sponsors' way of ensuring 
that this bill is in no way a potential incentive to encourage further 
OCS drilling, and even though further (after January 1, 1999) OCS 
exploration and drilling will continue both within and outside of these 
areas, none of the revenues will go to fund the programs under this 
bill, rather, they will be deposited in the Federal treasury. We 
believe that the treatment of the incentive question in H.R. 701 is 
adequate and appropriate, and the consequence of the H.R. 798 language 
would be very self-limiting and guarantee substantial reductions over 
time in the amount of money available to fund conservation efforts. We 
believe that the price and supply of oil and natural gas is the driving 
determinant of new exploration and drilling, which is corroborated in 
the recent Congressional Research Service report on OCS Oil and Gas 
Leasing and Revenue (IB10005, January 1999).
    Our second concern is that the native fish and wildlife 
conservation and restoration title in H.R. 798 amends the 1980 Fish and 
Wildlife Conservation (Federal nongame) Act, instead of Pittman-
Robertson, and makes $100M-$350M available to the States for native 
fish and wildlife conservation, starting with $100M and ramping up over 
six years to $350M. The amendments to the 1980 Act replace the existing 
``nongame fish and wildlife'' language everywhere with ``native fish 
and wildlife,'' and add an additional purpose to preserve biological 
diversity by maintaining an assemblage of native fish and wildlife 
species. The definition of native fish and wildlife could be very 
problematic because it includes only species that currently or 
historically occur in an ecosystem, and are not there as a result of 
introduction. It also gives the Secretary of the Interior final 
decision authority as to what is a native species. It is virtually 
impossible to substantiate the origin of many of our indigenous fish 
species and this definition could exclude spending money on salmon 
restoration, for example. Also, the restoration of the Eastern 
peregrine falcon was from a captive-bred source of hybrid North 
American-European-African peregrine falcons, which under this 
definition in H.R. 798, would not be eligible for funding conservation 
activities therefor. It is not at all clear whether a project which 
would benefit native species plus other species of uncertain origin 
would be eligible for funding. We doubt that ``native'' is a workable 
legal definition because there are hundreds of species whose status as 
native is uncertain.
    Our third concern with this title of H.R. 798 is that, while the 
elaborate and rather prescriptive planning requirements in the 1980 Act 
may have been appropriate in 1980, most states have already recognized 
the need to look comprehensively at the resource base, habitat 
availability, land use activities, and user demand in their state, and 
have articulated a strategic plan for the fish and wildlife resources 
in their state, after due and appropriate public review and 
participation. We believe that the states do not need to be 
legislatively directed to do more planning, but are ready and prepared 
now to spend money on the ground to address conservation needs. Some 
have responded to these concerns of ours by suggesting that if the 
states already have a plan, it should facilitate quick approval. Our 
concerns is that with a fairly elaborate planning process requirement, 
if any entity disagrees with the Secretary's approval of the state 
plan, there are enough legal hooks to hang litigation on, which could 
cause significant delays in getting funds to the State for immediate 
on-the-ground conservation activities.
    Our fourth concern with this title of H.R. 798 is the availability 
of funds, which start at $100 million and are ramped up to $350M over 
six years. We know that our needs are much greater than even $350K and 
conclude that $100M is simply not adequate to address those needs. 
Funding commensurate with the States' significant needs should be 
available from the start-up, as we have outlined earlier in this 
statement.
    Our final concern with this title in H.R. 798 is that the 1980 Fish 
and Wildlife Conservation Act does not authorize funding for either 
conservation education or wildlife associated recreation. We have 
earlier stressed the needs in these two arenas also, and are 
disappointed that no funds are made available for those purposes in 
H.R. 798.
    Mr. Chairman, let me conclude my remarks by reiterating our strong 
support for H.R. 701. This could be the most comprehensive piece of 
conservation legislation in our lifetime. We sincerely appreciate the 
efforts of you and Cong. Dingell, Cong. Tauzin, Cong. John and the 
other cosponsors in bringing the legislation to this point, and pledge 
the support and effort of the State fish and wildlife agencies in 
working with you to enact this legislation this year.
    Thank you for the opportunity to appear before you today and I 
would be pleased to respond to any questions.
                                 ______
                                 
   STATEMENT OF SARAH CHASIS, SENIOR ATTORNEY, DIRECTOR OF WATER AND 
           COASTAL PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

    My name is Sarah Chasis and I am a Senior Attorney with the Natural 
Resources Defense Council (NRDC) and Director of its Water and Coastal 
Program. I appreciate this opportunity to testify today before the 
House Resources Committee on H.R. 701, The Conservation and 
Reinvestment Act (``CARA''), a bill introduced by Chairman Young, and 
H.R. 798, The Resources 2000 Act, a bill introduced by Congressman 
George Miller.
    My testimony on behalf of NRDC focuses on the Outer Continental 
Shelf (OCS) impact assistance Title of H.R. 701, The Living Marine 
Resources Title of H.R. 798, and the OCS revenues used to fund all 
titles of both bills.
    NRDC is a national environmental organization, with over 400,000 
members, dedicated to protecting natural resources and ensuring a safe 
and healthy environment. NRDC has a long history of involvement with 
the protection of ocean and coastal resources and has worked on a 
number of coastal and ocean issues, including offshore oil and gas 
drilling, coastal zone management and marine fish conservation.
    In our view, the overarching goal for the coast and ocean title of 
these bills should be protection and restoration of our nation's 
fragile, but extremely valuable coastal and marine resources which are 
increasingly under pressure from a variety of forces. In achieving that 
goal, 5 principles should be closely adhered to:

        <bullet> The legislation should provide no financial benefit to 
        states from the lifting of current moratorium or from new 
        leasing or new drilling. This should apply to all titles of the 
        legislation, not just the coastal or OCS Impact Assistance 
        Title.
        <bullet> The state or local share of money should not be tied 
        to the acceptance of new or closer leasing or drilling.
        <bullet> Money that goes to the states and local governments 
        must be spent on environmentally beneficial projects.
        <bullet> There should be Federal agency oversight of how money 
        is spent to ensure compliance with Federal environmental laws.
        <bullet> Any offsets should not come from existing 
        environmental programs.
    These same basic principles are set out in the February 2,1999 
letter to Chairman Young and other representatives from nineteen of the 
nation's major national conservation organizations that is attached to 
our testimony. This letter states that: ``Our organizations are 
strongly opposed to any financial incentives that promote offshore oil 
and gas development,'' identifies incentives included in earlier 
versions of the legislation and recommends ways of removing them.
    H.R. 701, while containing improvements over last year's bill (H.R. 
4717), still falls seriously short when measured against the above 
principles. In contrast, H.R. 798 adheres to these principles very 
closely. As a result, we support H.R. 798, but must continue to oppose 
H.R. 701 unless and until the concerns we have raised are 
satisfactorily resolved. We stand ready to work with the members of the 
Committee and their staff to do this.
    Following is our analysis of the two bills with respect to the 
principles enunciated above.
H.R. 701, THE CONSERVATION AND REINVESTMENT ACT

REVENUE SOURCE

    H.R. 701 includes revenues from new leasing and new drilling as a 
funding source for all titles of the bill, with one exception. excluded 
from revenues for Title I (``Impact Assistance Formula and Payments'') 
are revenues from leased tracts in areas under moratorium on January 1, 
1999 (unless the lease was issued prior to the establishment of the 
moratorium and was in production on January 1, 1999).
    While this latter language represents a definite improvement in the 
bill, it only affects Title I. In addition, it does not exclude 
revenues from new leasing and drilling in sensitive frontier areas not 
covered by the moratorium. The bill thus still falls short of meeting 
the first principle. The obvious concern is that if the many and varied 
beneficiaries of this legislation see that it is in their financial 
interest for new leasing and drilling to occur--in order to provide 
more funding for the legislation overall and for them in particular--it 
will erode support for the existing offshore oil and gas moratorium, 
which currently protects the east coast (with the exception of existing 
leases off Cape Hatteras), the coast of Florida (with the exception of 
existing leases off the Florida Panhandle), the central and northern 
California coast (with the exception of existing leases off the central 
California coast), Oregon, Washington and Bristol Bay in Alaska. It 
will also lead to support for new leasing and drilling on existing 
leases off North Carolina, the Florida Panhandle and central 
California, as well as in sensitive areas off Alaska--none of which are 
currently protected by moratoria and many of which, if not all, are 
extremely controversial.
    It is crucial to remember that the moratorium only exist because 
Congress each year reenacts it as part of the Interior Appropriations 
legislation. Presently, a one-year COngressional Outer Continental 
Shelf Moratorium Contained in the FY 1999 Department of Interior 
appropriations bill precludes the expenditure of funds for new Federal 
offshore oil and gas leasing in specific coastal areas until October 1, 
of this year (1999).
    This Congressional OCS moratorium prevents new leases for offshore 
drilling on any unleased tract along the entire U.S. West Coast, the 
East Coast, portions of Florida, and Bristol Bay in Alaska. Now in its 
seventeenth year, the moratorium must be renewed each year. As recently 
as the 104th Congress, the moratorium was removed in the House 
Subcommittee on Interior Appropriations, and was only narrowly 
reinstated after a big fight in the full House Appropriations 
Committee, in spite of strong opposition to the measure by then-
chairman Rep. Bob Livingston. There have been previous years in which 
the OCS moratorium has survived in the House Appropriations Committee 
by a narrow single-vote margin.
    Related actions have been taken by two successive presidents, which 
supplement, but do not replace, the protection granted by the 
Congressional moratorium. These ``Presidential Deferrals'' are 
political in nature and are not considered to be as dependable in 
providing assured protection over time. In 1991, former president 
George Bush announced that he was directing that any further OCS 
leasing within the areas protected by Congressional moratorium, except 
in Alaska, be deferred until after the year 2002. No formal executive 
order was issued by Mr. Bush, and it is considered that any subsequent 
president could reverse this decision.
    DUring the 1999 ``Year of the Ocean Conference'' in Monterey, 
California, President Clinton, accompanied by Vice-President Al Gore 
and four Cabinet Secretaries, announced that they were directing the 
Minerals Management Service of the Department of Interior to extend the 
previous Bush OCS deferrals until the year 2012. No formal Executive 
Order has been issued by the Clinton Administration since this 
announcement, and it is considered vulnerable to possible policy 
reversals by subsequent administrations.
    Even for Title I, the improvement is incomplete because revenu from 
new leasing and drilling in sensitive frontier areas not covered by the 
moratorium would still fund the Title. In addition, it is not clear 
from the language whether revenues from drilling on existing leases off 
North Carolina, the Florida Panhandle and Central California would be 
used to fund Title I. These leases are in moratoria areas but are not 
covered by leasing moratoria. Drilling on these leases is an extremely 
controversial issue in each of those states.
    To address the problem, the legislation should define the term 
``Qualified Outer Continental Shelf Revenues'' in the definitions 
section (Section 102) to exclude revenues from new leasing and new 
drilling after the date of enactment of the legislation, as the 
Resources 2000 legislation does. This would remove the financial 
incentive to support new leasing or drilling in moratoria and other 
sensitive coastal areas.

ALLOCATION OF STATE AND LOCAL SHARES

    The legislation ties a state's share of funding under Title I 
directly to the amount and proximity of OCS leasing and production off 
its coast. This provides a clear financial incentive to states to 
accept new leasing and drilling.
    Fifty percent of a state's allocable share is dependent on its 
being within 200 miles of a leased OCS tract. The more production on 
such tracts and the closer in to shore these tracts are, the more money 
the state gets. See Section 103 (c)(1) and (2). An improvement in this 
section of the bill is the exclusion of moratoria tracts from this 
calculation. Thus, even if moratoria tracts are leased or drilled, a 
state would not get more money. However, the language is ambiguous with 
respect to existing leases/production on tracts in moratoria areas. 
These tracts also should be excluded. Moreover, new leasing and 
drilling outside moratorium areas, including sensitive frontier areas 
off Alaska, would still be factored into the allocation formula, thus 
providing a significant incentive for allowing such activities to 
proceed.
    We believe that the formula for allocating funds under Title I 
should not be tied to OCS leasing and production, but instead should 
rest on shoreline miles and population alone. Alternatively, if OCS 
activity has to be a factor, it should be based on a fixed, flat 
percentage based on historic OCS activity, not new activity that occurs 
after passage of the legislation. This would acknowledge states that 
have suffered OCS impacts to date, without providing an incentive for 
new leasing, exploration or production.
    Another major concern with the bill concerns the method of 
allocating funds to local jurisdictions. Fifty percent of a state's 
share goes directly to eligible local political subdivisions. Section 
103(E). Eligible political subdivisions are defined to be those that 
lie within 200 miles of any leased tract (including tracts in moratoria 
areas). Section 102(6). As a consequence, a locality with OCS leasing 
off its coast is entitled to share in 50 percent of the state's 
allocable share, with its share increasing the closer the leased 
tract(s) are, localities with no leasing are not entitled to any part 
of the state's allocable share. Obviously, this creates a major 
incentive for localities to accept new OCS leasing.
    To address this problem the definition of eligible political 
subdivision should exclude tracts leased after enactment. Such tracts 
should also be omitted from the calculation of how much an eligible 
political subdivision receives.

USES OF THE MONEY

    It is extremely important that funds distributed to state and local 
governments be used to restore and enhance coastal and ocean resources 
and not to cause further environmental degradation. For this reason, we 
strongly recommend that uses be restricted to:
        Amelioration of adverse environmental impacts resulting from 
        the siting, construction, expansion, or operation of OCS 
        facilities, above and beyond what is required of permitted 
        under current law;
        Projects and activities, including habitat acquisition, that 
        project or enhance air quality, water quality, fish and 
        wildlife, or wetlands in the coastal zone;
        Administrative costs the state or local government incurs in 
        approving or disapproving or permitting OCS development/
        production activities under any applicable law including CZMA 
        or OCLSA; and/or
        Repurchase of OCS leases.
    The uses of the money authorized in Section 104 of H.R. 701 do not 
ensure that further environmental degradat10n do not take place. Their 
focus is not on restoring the environment or ensuring activities do not 
further degrade the environment. While states may use funds for such 
purposes, there is no requirement that they do so. Moreover, states and 
localities would be free to use the money for a huge array of purposes, 
including promoting more offshore drilling, highway construction and 
the like.
    We urge that our proposed language be substituted for that in the 
bill, or that the approach taken in H.R. 798, discussed below, be 
utilized.

OVERSIGHT

    To ensure that the Federal dollars are spent responsibly, in an 
environmentally sensitive manner that complies with Federal law, it is 
important that there be Federal oversight and approval of state plans 
for utilization of the funds.
    While the legislation requires the states to develop plans for use 
of the money and to certify the plans to the Secretary of Interior, the 
Secretary is given no authority to review and approve these plans. In 
addition, it is the state that determines consistency of local plans 
with Federal law, not the Federal Government! Section 105(c). The lack 
of Federal oversight combined with the broad uses to which the funds 
may be put and the large Federal dollars involved mean that 
environmentally damaging projects could well be funded under this 
legislation.

OFFSETS

    It is essential that OCS impact assistance not be funded at the 
expense of existing environmental programs.

H.R. 798, THE RESOURCES 2000 ACT

    We strongly support H.R. 798 because it adheres to the principles 
we support. It does not provide incentives for new offshore leasing or 
drilling. The bill specifically excludes revenues from new leasing and 
production as a funding source for the entire bill. See Section 4(4) 
definition of qualified OCS revenues.
    The bill also does not allocate revenues among states (or local 
jurisdictions) based on proximity to leased tracts or production.Title 
VI (``Living Marine Resources Conservation, Restoration, and Management 
Assistance'') makes financial assistance available to coastal states 
based on coastal population and shoreline miles. Section 602(B)(1).
    Finally, the bill requires that Title VI money be spent on the 
conservation of living marine resources, not on activities that could 
contribute to further environmental degradation. It provides 
significant new funding ($300 million) specifically for marine 
conservation.
    We recommend that consideration be given to having some portion of 
the money under Title VI go to help fund existing underfunded marine 
and coastal conservation programs, such as coastal zone management, 
marine sanctuaries, and essential fish habitat protection. A portion of 
the funding under this title could be used to assist in achieving the 
goals of at least some of these programs; however, it would not appear 
to directly fund them. Similarly, we would like the opportunity of 
working with Congressman Miller and the Committee on the standards that 
apply to the state conservation plans to ensure that these plans are 
effective as possible and on ways to encourage states to move from the 
planning phase to the implementation phase expeditiously.
    We appreciate this opportunity to testify and look forward to 
working with the Committee on this important legislation.

[GRAPHIC] [TIFF OMITTED] T6081.020

[GRAPHIC] [TIFF OMITTED] T6081.021

[GRAPHIC] [TIFF OMITTED] T6081.022

[GRAPHIC] [TIFF OMITTED] T6081.023

[GRAPHIC] [TIFF OMITTED] T6081.024

[GRAPHIC] [TIFF OMITTED] T6081.025

[GRAPHIC] [TIFF OMITTED] T6081.026

[GRAPHIC] [TIFF OMITTED] T6081.027

 STATEMENT OF MAYOR SAM KATHRYN CAMPANA, CITY OF SCOTTSDALE, ARIZONA, 
     AND VICE CHAIR, U.S. CONFERENCE OF MAYORS, ARTS, CULTURE, AND 
                          RECREATION COMMITTEE

    Mr. Chairman, members of the Committee, on behalf of the 
1,100 cities represented by the U.S. Conference of Mayors, I 
want to thank you for this opportunity to appear before you 
today to present testimony supporting the increased funding for 
the Land and Water Conservation Fund and the Urban Parks and 
Recreation Recovery Program (UPARR).
    For far too long the Federal Government has not fulfilled 
the commitment it made over 30 years ago when it created the 
Land and Water Conservation Fund program to ensure that all 
Americans would have access to nearby park and recreation 
resources. We applaud the leadership of you, Mr. Chairman, in 
forging a bipartisan bill that would restore funding to the 
stateside program of the Land and Water Conservation Fund and 
the UPARR. We also applaud the Ranking Minority Member, 
Congressman George Miller for his passionate leadership on this 
issue for many years and for the proposals he had made in his 
legislation.
    The benefits the Land and Water Conservation Fund and UPARR 
can deliver to local communities and neighborhoods across this 
great nation are endless. Urban parks, recreation areas, and 
open space are critical to the vitality of our nation's cities 
and the citizens we serve. Urban sprawl is threatening our 
natural open space, the demand for parks has skyrocketed, and 
the backlog of necessary maintenance and repairs continue to 
grow. The Land and Water Conservation Fund and UPARR will help 
provide for the park down the street where parents play ball 
with their sons and daughters, where toddlers explore a 
playground, where the neighborhood soccer team practices, where 
teenagers can go just to blow off steam, and where seniors can 
walk along the park paths.
    In my hometown of Scottsdale, Arizona, several examples of 
the direct community benefit resulting from the Land and Water 
Conservation Fund exist. As I travel through Scottsdale, I 
don't have to go to far without encountering these community 
amenities. For example, the Land and Water Conservation Fund 
provided funding for the park where Scottsdale's first 
community swimming pool is located. Since then Chestnut Park 
neighborhood park, Eldorado Park's Lake, Jackrabbit Park, 
Scottsdale Bikeways, Chapparral Tennis Court Lighting, and 
Vista Del Camino Spray Pads, were funded in part through Land 
and Water Conservation Fund. Scottsdale received 20 Land and 
Water Conservation Fund grants from 1965 through 1984, totaling 
$2.1 million, and leveraged these funds into $4.4 million. In 
Arizona alone, $46 million of Land and Water Conservation Fund 
accounted for $92 million of projects since the inception of 
the fund. These are only small examples of the many worthy 
projects throughout the country that have been supported by 
Land and Water Conservation Fund.
    Without question, the greatest current concern of the 
Scottsdale community, however, is the preservation of thousands 
of acres of pristine Sonoran Desert and mountains that are 
undeveloped and lie within Scottsdale City limits. Our citizens 
were so committed to preserving this beautiful land that in 
1995, they took the unprecedented step of approving by a wide 
margin a .2 percent sales tax increase to preserve over 16,000 
acres of the scenic McDowell Mountains and Sonoran Desert.
    Three years later, 80 percent of the proposed area has been 
preserved, using $132 million in voter-approved sales tax 
dollars. In November, the Scottsdale community overwhelmingly 
approved another measure to expand the current preserve 
boundary by 19,000 acres. Clearly, the preservation of this 
unique open space--with its scenic desert, majestic mountains, 
stately Saguaro cactus, and energetic wildlife--is a natural 
resource that Scottsdale citizens want to leave as a legacy for 
future generations.
    We urge you to revitalize the Land and Water Conservation 
Fund and UPARR programs, so that these Federal dollars can be 
matched with millions in local dollars. When the nation's 
mayors gathered for our 66th Annual Conference of Mayors last 
June in Reno, Nevada we unanimously passed a resolution in 
support of full funding of the Land and Water Conservation Fund 
and the UPARR programs.
    While we strongly support funding for the stateside program 
of the Land and Water Conservation Fund and the UPARR program 
as called for under H.R. 701 and H.R. 798, we also encourage 
Congress to allow cities to apply directly for these funds 
rather than relying on the states to pass them through. In 
addition, we would ask you to allow UPARR funds to be used for 
land acquisition and maintenance of local parks and recreation 
programs.
    In closing, I want to pass along a theory to which local 
officials subscribe. Former U.S. Conference of Mayors President 
and Knoxville Mayor Victor Ashe is fond of saying that our most 
important park is not Yellowstone, but the one down the street 
that serves our children every day. The importance of our parks 
and open spaces cannot be underestimated.
    The state and local assistance program of Land and Water 
Conservation Fund and UPARR are two resources we should pursue 
and utilize so that all Americans can continue to enjoy our 
nation's wonderful natural resources, and the outdoors.
    On behalf of the U.S. Conference of Mayors, we thank you 
for your interest in the revitalization of the Land and Water 
Conservation Fund and the UPARR programs and offer any 
assistance we can provide as you draft this important 
legislation.
    Thank you for the opportunity to appear before you today.
                                ------                                


STATEMENT OF PAUL W. HANSEN, EXECUTIVE DIRECTOR, IZAAK WALTON LEAGUE OF 
                                AMERICA

    Mr. Chairman and members of the House of Representatives 
Committee on Resources, My name is Paul Hansen; I appreciate 
the opportunity to present the views of the Izaak Walton League 
of America on the Conservation and Reinvestment Act and the 
Resources 2000 Act. These legislative proposals, taken together 
with other similar proposals being considered in the Senate and 
along with the administration's Lands Legacy initiative, offer 
a truly historic opportunity to significantly advance the 
conservation of important natural resources. The Izaak Walton 
League is now in it 77th year of grassroots conservation work. 
We have 50,000 members and supporters throughout the country 
working in their local communities and on national conservation 
and environmental issues in over 325 chapters. It is our 
members who set our conservation policy and it is on their 
behalf that I provide these comments.
    In our view, this is an especially critical and auspicious 
time to secure a reliable, long overdue financial commitment to 
our nation's natural resources. At the brink of a new 
millenium, with a strong and vibrant national economy producing 
budget surpluses at the Federal and state levels and with 
bipartisan support in both houses of Congress--now is the time 
to get it done. The legislative proposals that are the subject 
of this hearing demonstrate exactly the kind of leadership, 
determination and cooperation necessary to accomplish this 
task. I want to share with you my wish and that of our members 
to see all parties working together with the singular goal of 
achieving a major victory for natural resources in this session 
of Congress. We are deeply committed to working with you and 
others to that end.
    I am especially pleased, as you requested, to address the 
League's interests with respect to the Land and Water 
Conservation Fund (LWCF) provisions of these bills. The League 
has a long and abiding interest in LWCF. You may know that Joe 
Penfold, a former Conservation Director of the League, 
conceived of this program 35 years ago as part of his 
participation on the Outdoor Recreation Resources Review 
Committee. Our members fought hard for it then, and LWCF has 
had our determined and continuing support. However, League 
members have been over the years equally distressed to watch as 
the original promise of this program was robbed year after year 
in the appropriations process. We have watched in dismay as $13 
billion of important land conservation efforts have gone umnet 
while these funds were diverted for unintended purposes. I 
cannot overstate the importance to our members of full, 
permanent funding for this program.
    LWCF is a critical conservation tool that supports land 
stewardship in two ways. It provides for acquisition of Federal 
lands to complete National Wildlife Refuges and create 
important new refuges. These special lands are crucial to 
maintaining the nation's abundant wildlife resources. Much of 
the good that should flow from the recent passage of the 
organic act for the National Wildlife Refuge System will not be 
realized without a fully funded LWCF. We appreciate the pivotal 
role played by the leadership of this Committee in crafting and 
passing that landmark legislation--a model for the current 
effort before us.
    Other systems of Federal lands rely equally on LWCF to 
complete acquisition within their authorized boundaries and 
purchase in-holdings from willing and often eager sellers.
    Some of these willing sellers have been waiting for some 
time for provision of sufficient financial resources to 
accommodate their sales. Federal acquisition needs also include 
new lands of special conservation value. It is often not 
possible to predict when these lands will become available thus 
management agencies must have flexibility to respond to 
opportunities as they arise--this includes readily available 
financial resources.
    Our systems of public lands are assets of immeasurable 
value that we can and must pass on to future generations. They 
are the envy of the world and draw tourists from every part of 
the world to see and enjoy. Without securing, conserving and 
expanding these land resources, we foreclose future 
opportunities for our children and theirs as they seek to 
exercise wise stewardship of the legacy they will inherit.
    We fully support expanding Federal ownership of lands in 
the eastern half of the country. Expanded public lands would 
increase opportunities for outdoor recreation where demands 
from burgeoning population centers is high and fragmentation of 
natural habitats is impacting wildlife populations as well as 
wildlife-dependant recreation. In fact, League members are now 
working aggressively to restore a portion of the original 
50,000 acre Grand Kankakee marsh, on the border of Indiana and 
Illinois, now designated as the Grand Kankakee Marsh National 
Wildlife Refuge. This is a hugely important wetland restoration 
effort that would have major, far-reaching benefits for 
resident and migratory wildlife alike. Its ultimate success 
will depend on the LWCF.
    We understand the concern of western states regarding 
Federal land acquisition especially where some states already 
have large portions of their acreage in Federal ownership. 
However, we are concerned about the provision in Sec. 202 of 
H.R. 701 requiring that two-thirds of funds for Federal 
acquisitions be spent east of the 100th meridian. This 
provision creates an unwise, and we think unnecessary, 
restriction that could well result in lost opportunities to 
conserve important and critical western land resources. The 
Payment in Lieu of Taxes provision in Title II should alleviate 
some of the concerns relating to the financial impact of 
increased Federal land ownership in these states. We should 
also acknowledge that these public lands provide an economic 
resource to states and local communities. They contribute to 
the quality of life that draws visitors from around the country 
who support many local economies whether from hunting and 
fishing, other forms of outdoor recreation. Or simply 
vacationing.
    LWCF also provides for important state conservation and 
outdoor recreation needs. Funding for this part of LWCF has 
been particularly neglected in recent years. The stateside 
program can provide resources that states and localities need 
to help control and mitigate for urban sprawl. Sprawl, with its 
consequences to quality of life, is a growing concern across 
the country, a trend clearly identified in the last election 
cycle. Sprawl is, as shown in a study we just released, an 
important limiting factor to hunter access and other wildlife-
dependent recreation. Copies of this report have been provided 
for the Committee members and an Executive Summary is appended 
to this testimony.
    Time is against us in the battle to wisely manage land use 
and conserve open space across our country. Planning options 
for local communities increasingly are foreclosed. Now is the 
strategic time to address this problem, and financial resources 
must be provided to help. Once converted to developed uses, 
open space is lost and with it the wildlife and other amenity 
values it supports.
    For the record, it is fair to say that given a choice 
between the funding level provided for LWCF in H.R. 701 and H.R 
798, we would predictably choose the latter which provides more 
funding for both the Federal and state sides of the program. 
The need will continue to out-strip available resources. Every 
conservation dollar is important.
    For many years, the League has worked with groups around 
the country to secure a dedicated funding source for state fish 
and wildlife agencies. The agencies need these funds primarily 
for non-game wildlife management. This category of wildlife, 
unlike game and threatened and endangered species, has no 
specifically directed funding. We continue to feel that the 
Teaming With Wildlife funding mechanism that called for a small 
excise tax on outdoor equipment would have addressed an equity 
issue. Hunters and anglers have for decades willingly paid such 
a tax on their equipment and continue to provide the vast 
majority of funding for state fish and wildlife agencies. While 
we regret the loss of an opportunity to create equity in 
funding for wildlife, we do fully support the principle of 
reinvesting revenue from non-renewable resources in renewable 
natural resources--the concept embodied in LWCF and as provided 
for in these bills.
    The need for financial support of state fish and wildlife 
agencies is well documented. Support is long overdue, both from 
within the states and from a dedicated Federal source. We 
believe that Federal aid is a critical and appropriate 
component. Wildlife is oblivious to political boundaries. While 
states have a statutory responsibility for managing most 
wildlife, these populations can and do cross boundaries and are 
a part of the nation's commonly held assets. All citizens have 
an interest in the wellbeing of wildlife populations, 
regardless of geography.
    The states have the lion's share of responsibility to 
provide for the needs of wildlife under their stewardship. With 
a few notable exceptions, they have not met this 
responsibility. Twenty-one states currently contribute no 
general or dedicated funds to their fish and wildlife agencies, 
and another twenty-one provide less than 20 percent (based on 
fiscal 1995 data). These agencies are supported entirely by 
license fees and existing Federal aid programs--this at a time 
when nearly every state is experiencing a budget surplus. We 
are about to release a report detailing the relationship 
between economic benefits derived from and state reinvestment 
in fish and wildlife conservation. We will see that members of 
this Committee receive a copy of that report.
    The state matching provisions in Title III, Sec. 305(d) of 
H.R. 701 should provide a positive incentive for states to do 
better. However, we feel that the proposed 90:10, Federal:state 
initial matching ratio misses an opportunity. We would 
encourage a matching requirement on the order of 25 percent at 
the outset in order to challenge the states to do their fair 
share consistent with existing formula--not a Federal giveaway, 
but a partnership for wildlife. It is equally important that 
state matching funds not be diverted from existing fish and 
wildlife agency programs.
    Amending the existing Pittman-Robertson, Federal Aid in 
Wildlife Restoration Act to provide for allocation of these new 
funds to the states makes good sense, and the distribution 
formula is equitable. Our current Federal aid programs have a 
long track record of achievement and effective operation, and 
we support that approach for handling the distribution of this 
new revenue.
    With regard to Title I of H.R. 701, we continue to be 
concerned that the issue of possible incentives for increased 
oil and gas development is adequately addressed. We have been 
reassured with statements by the bill's sponsors' expressing 
their similar intentions. We remain willing to continue 
cooperative efforts to resolve this matter in bill language.
    Lastly, given the realities of budget constraints, we want 
to reiterate our opposition to seeking any budget offset that 
may be necessary from other important programs in Function 
300--Natural Resources and Environment. Robbing Peter to pay 
Paul is not an acceptable solution.
    Mr. Chairman and members of the Committee--let me end by 
challenging all of us to set aside politics and organizational 
and personal agendas to work together on this important 
initiative. We have a unique and fragile window of opportunity 
to accomplish a historic conservation measure. If we do it 
boldly, not shrinking from the size of the task or magnitude of 
the financial need, and if we do it right, not trading one 
valued resource for another, then we can do it now--and in a 
way that will allow us all to celebrate together.
    Thank you for your attention.
                                ------                                


 STATEMENT OF HURLEY J. COLEMAN, JR., WAYNE COUNTY DIVISION OF PARKS, 
                           WESTLAND, MICHIGAN

    I have wrestled with the best way to introduce my comments 
for this testimony, primarily because I am somewhat intimidated 
by the magnitude of this moment, and also because I have longed 
to be here doing just this for many years. I have been involved 
in the provision of leisure services for the past 23 years as a 
graduate of Eastern Michigan University. I walked out of 
college knowing that the career path I had chosen would give me 
the chance to make a difference in peoples lives.
    I chose public parks and recreation because I believed 
then, as I do now, that of all of the services that local 
government provides, recreation is the only one that touches 
people directly and personally. It is the service of choice, 
the creator of memories, and the barometer of the quality of 
life.
    I presently serve the sixth largest county in the United 
States. We are celebrating an 80 year history of providing 
leisure service to the residents of Wayne County. This history 
is there only because of a few pioneering visionaries who 
determined that to set aside park lands for the future was 
important. This sentiment can be echoed throughout the country, 
especially in our urban areas where the only park lands are 
those acquired through donations or grants.
    The Land and Water Conservation Fund and Urban Park and 
Recreation Recovery Program can be found at the center of the 
development of many of the great facilities in many areas of 
the country. In most of the major cities, parks programs were 
enhanced only when a source of funds outside of the normal 
financing process was identified. The evidence of this is the 
overwhelming number of grant applications to every dollar that 
is available, whether through Federal, state, private, or 
foundations.
    I took the opportunity to talk with some of my peers 
throughout the country and, quite frankly, was not surprised to 
find that most of us have the same opinion. In communities all 
across the country, large and small, city and county, regional 
and state parks systems; we all find ourselves in competition 
for funding with other agencies within our organizations. Many 
of us have the constant baffle to validate investment in 
recreation in comparison to commitments to public safety. It 
has even become fashionable to use terms like prevention and 
alternatives when describing law enforcement, when this is 
really the natural domain of the parks and recreation 
profession. It is the local recreation program that identifies 
the leadership qualities of the gang member and redirects it to 
a positive use, that mines the caves of the shy and withdrawn 
and inspires great talent. The most effective deterrent to 
negative leisure pursuits is the infusion of positive 
programming. The most aggressive deterrent to the negative 
social elements in a park is a family picnic.
    Nowhere is the impact of recreation more visible than in 
the local, county, and state parks. It is these areas that the 
study commissioned in 1985, by President Ronald Reagan's 
COMMISSION ON AMERICANS OUTDOORS, identified as the opportunity 
of first response to educate, break barriers, and enhance 
appreciation of the nation's natural resources. In fact, a 
great parallel was drawn showing that the recreational desires 
of residents of rural, suburban, urban areas was essentially 
the same. These desires changed with the cultures and 
exposures, but had the same essence of enjoyment at heart.
    This should come as no surprise, especially in these days 
of expanding urbanization. It is no secret that the definition 
of urban has changed significantly over the recent years. 
During this time period, the recognized value of greenspace as 
a component of healthy community environments has become a 
staple in community planning.
    In the late 1850's, when the Olmstead tradition of New 
York's Central Park became the icon of green space protection, 
the other major cities were following suit, Philadelphia's 
Fairmount Park, Chicago's South Park, and Detroit's Belle Isle 
were representative of good government leadership in providing 
for regional type facilities. This effort was followed by the 
development of playground in Boston and other large cities that 
recognized the need for recreation for urban youth.
    The growth of communities throughout the country followed 
the recipe of big cities, with large regional parks and smaller 
recreation programs on a localized basis. These were funded 
through gifts and donations. The communities were not providing 
services consistently until after World War II. Between the 
years of 1951 and 1974, the country experienced both explosive 
growth in services, however, it also became apparent that many 
of the older facilities were beginning to show deterioration 
and lack of investment. Communities were struggling to provide 
basic services as their audiences grew by leaps and bounds. It 
was evident that some assistance was necessary for these 
critical needs. Several agencies engaged in study of the 
situation and the following reports were produced:

1962-OUTDOOR RECREATION RESOURCES REVIEW COMMISSION REPORT 
established the Bureau of Outdoor Recreation (BOR) and the Land 
and Water Conservation Fund(LWCF).
    1970-BOR produced THE RECREATION IMPERATIVE, the first 
nationwide outdoor recreation plan. Supported by a special 
study of urban recreation in 1972 by HUD, this report suggested 
that ``up to 75 percent of the LWCF could be used to support 
the day use of major urban areas and at least 30 percent of the 
funds should serve the central city needs.'' This 
recommendation was not followed with action, but with more 
studies.
    1963-Department of Interior published the NATIONAL URBAN 
RECREATION STUDY, which chronicled serious deficiencies in 
urban recreation nationwide, within the most serious needs in 
the inner cores of the nations largest cities which had 
demonstrated an inability to meet these needs without outside 
assistance.
    I could continue with this mantra of painful recitations 
with studies that are as recent as last year, with much of the 
same results. However we find ourselves with an unprecedented 
opportunity. We, you, have the chance right now to take the 
place of the visionaries of the past and support a process that 
will provide for development, renovation, and enhancement of 
critical recreation resources in important living spaces 
throughout this country.
    A great value of the LWCF and UPARR funds is the fact that 
local agencies must make an appropriate commitment to the 
investment to take advantage of the funds. Most projects would 
only take place if there were dollars available outside of the 
normal funding process. These funds, along with local match, 
make for the most successful return on investment that 
government can make in the quality of life of the citizens of 
this country.
    A great example of this can be found in Wayne County, 
Michigan. The largest city in the county of Wayne is the City 
of Detroit. For it's entire eighty year history, Wayne County, 
as a result of it's development, only provided park facilities 
in suburban areas. This cannot be considered a criticism, 
considering that all of the parks had been donated or acquired 
as a result of county road development and expansion. The Wayne 
County Parks restoration story is a unique one, but significant 
to the moment because it included an effort, for the first time 
in it's history, to develop a dedicated source of funding. Part 
of this plan included a proposal to invest a substantial amount 
of the millage proceeds in the City of Detroit. The project was 
identified when City of Detroit Parks and Recreation Director 
Ernest Burkeen and I talked about possibilities in the city.
    Chandler Park is one of the oldest and largest parks in the 
city and rests in one of it's most impoverished areas. The park 
is bordered by one of the oldest housing developments in the 
country and both it and the park had fallen into grave 
disrepair. A study had been conducted to determine the most 
critical recreational need for the area. This study determined 
that some type of aquatic facility was necessary. The 
leadership of Wayne County, CEO Edward H. McNamara and his 
staff met with Mayor Dennis Archer and his staff, forging the 
plan to invest in a multimillion dollar family aquatic center 
in this park.
    The park was a magnet for inappropriate activities, ranging 
from substance abuses of all sorts, gang banging, and even nude 
dancing on hoods of cars. Needless to say, it was not a family 
park. Police calls were recorded at one of the highest levels 
in the city in Chandler Park. The neighborhood was up in arms 
and dissatisfaction was the name of the game.
    A number of community forums and neighborhood meetings 
suggested that there was overwhelming support for the project. 
The elected officials of Wayne County and the City of Detroit 
worked with us to lease a portion of the park and construct the 
aquatic center. Immediately after ground breaking, we began to 
notice a shift in the culture of activities that occurred in 
the park. What we see now is almost idyllic in nature, a 
complete culture change as a result of that facility, and 
police calls almost insignificant.
    This is a true success story that could not have happened 
if a source of funds outside of the normal funding process had 
not become available. There also had to be political will and a 
process to make it happen. These elements existed in Wayne 
County for that instance, and some others, but should exist all 
across America.
    In fact, the format and program is there. Since the 
inception of the LWCF and UPARR, these funds have served as a 
ray of hope for the providers of public recreation. There are 
not many sources outside of normal funding processes that are 
dedicated specifically for public parks and recreation. These 
not only do that, but inspired the same kind of activity in 
state and local government throughout the country. They served 
as catalysts for local investment in the quality of life of 
communities. Some projects would never happen without the 50 
percent match of the LWCF or UPARR. Some communities would have 
no recreation center, no sports fields, no open space. Historic 
areas would not be preserved, the legacy of a national 
recreation infrastructure would not be protected.
    I cannot impress upon you enough the intense needs for 
stateside funding at full levels, and if possible permanent 
status off budget. The number of projects would be 
overwhelming, so much that it would seem like creative writing 
101. For example, a 1995 survey by the National Recreation and 
Park association identified capital investment needs for parks 
and recreation from the period 1995-1999. Local agencies alone 
will require a nationwide total of $27.7 billion for 
rehabilitation, land acquisition, and new construction. Less 
than half of that sum is currently identified as potentially 
available.
    A recent national survey of local and state recreation and 
parks agencies yielded an immediate need for $1.7 billion to 
support 1,450 projects. This response occurred within a 6-week 
period. Last year in the Michigan there were $107 million in 
grant requests, but only $25 million were approved. This is not 
an atypical year for programs that the voters approved, and are 
very proud of. Nothing can underscore this need any more than a 
response like this. There are even more examples of unmet needs 
that we can cite:

          Illinois--the cost of land is skyrocketing, making it 
        difficult to protect valuable woodlands from development. 
        Nature preserves, forest preserves, and park districts are 
        losing the battle with developers because they can't compete 
        with their unlimited resources or their ability to quickly 
        respond to opportunities.
          Nebraska--a very rural state where most communities have a 
        population of less than 1,000 people. Their ballfields were 
        developed with LWCF funds in the early years without lights. 
        With only $100k allocated to the state, unlit ballfields was 
        the best that could be done. Unlike some communities, softball 
        is still one of the most important public recreation activities 
        in Nebraska. The unmet need there is to have those fields 
        lighted, but there are no ready funds to undertake that effort.
          Wisconsin--there is an unmet need in Wisconsin that register 
        somewhere near $8 million, according to some sources. A prime 
        example is a 15 year old project in Dane county that involves 
        the acquisition of some 3,500 acres of prime open space for 
        recreation purposes. The local appropriations process does not 
        include funds beyond day to day operations and normal 
        renovations.
    There is the assumption that states and local communities are 
enjoying budget surpluses and unlimited funding opportunities. In fact 
those surpluses are paper for the most part, and are managed by 
limiting tax exposure by placing ceilings and other restrictions. In 
fact, the issue of funding from the Federal level has been raised on 
the basis of responsibility. So then, there is the query of ``why 
should Federal dollars be spent on what seems clearly to be local and 
state responsibilities?''
    First of all, the Federal Government will benefit because this 
effort will take the pressure off of the Federal Government to create 
new Federal lands for open space protection and recreation. This comes 
at a time when the Federal programs are experiencing pressure in areas 
of maintenance, operations, and capital improvements.
    Secondly, the two biggest items facing the nation are crime 
prevention and health care costs. Investments in park and recreation 
facilities and programs is a direct counter to those expenditures. The 
evidence irrefutable. Consider this notion, the $35k that it will take 
to finance one incarceration will fund staff, equipment, and supplies 
for a small community recreation program.
    The President is talking about livability, especially in urban 
areas. Critical urban areas must be made livable, with recreation as a 
prime component in the decision making process for corporate and family 
relocation. There is no better investment for local government than in 
the quality of life. In many communities, youth assistance programs are 
becoming the best method of promotion for a communities status as a 
livable city.
    There are 43 communities in Wayne County. Some of them have 
experienced the highs and lows of urban renewal to the point that now 
they area struggling to stay alive. Many of these communities are 
looking to the county to provide support for their failing parks and 
recreation systems. We have all of the warm feelings and ideas that can 
be proffered at this time, however, resources are limited to what we 
can find allocated in our own budgets. This is the place, in the past, 
where the LWCF and UPARR have come to the rescue with grants that 
helped these communities. The most amazing thing is that each grant 
requires a substantial local match. This match encourages the initial 
investment as well as the long term allocation to maintain the 
facilities. Think of these programs as catalyst for local government 
investment in the quality of life enhancements that help these 
communities stay alive.
    Today, our nation is poised on one of those pinnacles that faced 
the millennium leaders of our past. This is a moment of destiny that 
will establish a real agenda for the quality of life of Americans. This 
is the initiative that we expected from President Reagan's Commission 
on Americans Outdoors, from the Bureau of Outdoor Recreation, from the 
legislation that created the Land and Water Conservation Fund and Urban 
Park and Recreation Recovery Program.
    This is the instance where the phrase ``CARPE DIEM-SIEZE THE DAY'' 
makes all of the sense in the world. I trust that you will make 
historic decisions for now and the future. Support funding these 
critical programs at their full levels for the first time in our recent 
history. Take the bold step for tomorrow, today.
                                 ______
                                 
  STATEMENT OF GROVER G. NORQUIST, PRESIDENT, AMERICANS FOR TAX REFORM

    Chairman Young, other members of this Committee, and ladies and 
gentlemen, thank you for the opportunity to address you this morning 
about the Conservation and Reinvestment Act (H.R. 701) and the 
Resources 2000 Act (H.R. 798).
    My name is Grover Norquist, and I am president of Americans for Tax 
Reform, an organization of over 90,000 individuals, taxpayer advocacy 
groups, corporations and associations that are deeply concerned with 
the high levels of taxation and government spending. I come before you 
today to oppose attempts of the Federal Government to purchase more 
private land.
    Federal royalties from onshore oil and gas production on Federal 
land are split with the States where the leases are. Federal royalties 
from Outer Continental Shelf (OCS) leases, are not shared with the 
States. The Conservation and Reinvestment Act is an attempt to build 
enough political support to send some of the OCS revenues to the States 
adjacent to offshore production, by spreading the funds across many 
other states. The real solution would be to send a portion of OCS 
revenues only to the six OCS States' general treasuries, just like 
onshore royalties.
    Title I of the legislation gains support from 34 Coastal Sates by 
divvying up 27 percent of OCS revenues according to several formulae. 
The Great Lake States are defined as Coastal states, even though there 
is no oil production in the region, simply because those states provide 
a lot of votes in Congress. The six states with OCS production will get 
more money than other States. Louisiana will get the most followed by 
Texas, Alaska and Florida.
    Title II of this legislation gains support from environmentalists 
by turning the Land and Water Conservation Fund of 1965 into a trust 
fund, not subject to further Congressional appropriation. This removes 
accountability and is a big concern of taxpayers. The trust fund would 
be generated by 23 percent of OCS revenues up to the authorized Land 
and Water Conservation Fund level of $900 million per year and would be 
used exclusively to purchase private land.
    In fact all three titles create trust funds. Title III siphons off 
10 percent of OCS revenues for the Pittman-Robertson Fund, which would 
provide funds to all states.
    There are good policy and budgetary reasons to oppose trust funds. 
They tie Congress' hands far into the future when spending priorities 
may shift drastically. Budgeting should be done so that all proposals 
must compete for limited funds. After all, it is the taxpayers money, 
not the government's. Either these proposed trust funds should be 
offset by reducing the Interior and Related Agencies appropriation by 
an equal amount, or the budget cap for Interior must be lifted by over 
$2 billion. Neither of these options are palatable.
    Lastly, turning over $900 million per year to the Land and Water 
Conservation Fund would be a massive increase in the purchase of 
private lands. The Federal Government already owns too much land as it 
is. Four Federal agencies control about 29 percent of the total acreage 
in the U.S. Other Federal agencies own a little more. No one has 
conducted a full study of how much land state and local governments 
own, but it's probably around 10 percent. This is too much. According 
to the Federal land agencies themselves, they have a backlog of over 
$12 billion in operations and maintenance on these federally held 
lands. But instead of addressing this problem, this bill would spend 
record amounts of money on buying more land and giving it to State fish 
and wildlife agencies, instead of taking care of the land that the 
government already owns.
    This bill would triple land acquisition. Historically, annual 
appropriations for LWCF have been around $300 million, but most of that 
has always been for Federal, not state, acquisitions. H.R. 701 
increases land acquisition spending to $756 million, $378 million each 
for state and Federal land acquisition. Part of the rapid increase in 
spending is due to the Urban Parks and Recreation Recovery Program, 
which will get $144 million annually of the $900 million total. This 
money may be used by the States and local to purchase additional land 
as well.
    Buying all of this land will hurt rural communities and local 
property tax bases. This is important because in almost all 
jurisdictions, local property taxes are the primary funding source for 
important services such as schools, police protection and fire 
departments. Also, once all of this land is bought, taxpayers will have 
to take care of it. This will add to overall Federal spending and 
increase the $12 billion in existing backlog in maintenance and 
operations of land the Federal Government already controls.
    As many on the Committee know Americans for Tax Reform asks 
congressional members and challengers to take the Taxpayer's Protection 
Pledge each year. Another of ATR's major projects is to calculate a 
Cost of Government Day as a follow-up to Tax Freedom Day. Cost of 
government takes into account all the costs of government such as 
regulation, not just taxation. This legislation would significantly add 
to Cost of Government Day.
    Finally, I would like to close by saying that taking tax money to 
increase government at all levels (state, local and Federal) and 
decreasing private property ownership is not consistent with the 
philosophy of greater freedom through limited government, and therefore 
should not be a part of the 106th Congress's agenda.
    Mr. Chairman, thank you for allowing me to address your Committee. 
I would be happy to address any questions that you might have.
                                 ______
                                 
STATEMENT OF EDWARD NORTON, VICE PRESIDENT FOR PUBLIC POLICY, NATIONAL 
                    TRUST FOR HISTORIC PRESERVATION

    Mr. Chairman and members of the Resources Committee, thank you for 
the opportunity to testify on behalf of the National Trust for Historic 
Preservation regarding efforts to safeguard funding to protect and 
conserve our nation's natural, historic and cultural resources.
    The National Trust for Historic Preservation's mission is 
``Protecting the Irreplaceable.'' In 1949, Congress created the 
National Trust as private organization and charged the organization to 
lead the public/private effort to preserve our national heritage. The 
National Trust provides leadership, education, and advocacy to save 
America's diverse historic places and revitalize our communities.
    Let me begin by commending both the Chainnan and Congressman Miller 
for recognizing the importance of dedicating revenue from Outer 
Continental Shelf fees and royalties to the purpose of protecting our 
nation's most valuable and irreplaceable resources. With the foundation 
created through the Chairman's Conservation and Reinvestment Act of 
1999--H.R. 701--and Representative Miller's Resources 2000 
legislation--H.R. 798, I believe this Committee can forge a 
constructive, vital piece of legislation that enhances efforts to 
protect these treasures.
    There is a critical difference between the Chairman's Outer 
Continental Shelf Impact Assistance bill and Congressman Miller's 
Resources 2000 bill. This difference causes the National Trust for 
Historic Preservation and the historic preservation community to favor 
very strongly the Resources 2000 bill. Resources 2000 provides full and 
permanent funding for the Historic Preservation Fund (``HPF''). 
Accordingly, the National Trust recommends that this provision be 
included in any legislation developed by this Committee.
    The Historic Preservation Fund, established under the National 
Historic Preservation Act, provides a crucial funding mechanism for 
protecting our nation's historic resources. The Historic Preservation 
Fund is the keystone of the partnership between the Federal Government, 
the state governments and the certified local governments, and the 
private sector created by the National Historic Preservation Act. This 
partnership has worked extraordinarily well for more than 30 years. The 
modest annual appropriations from the Historic Preservation Fund 
leverage hundreds of millions of matching dollars from state 
governments and the private sector. You can see and experience the 
benefits of this program in almost every community in the United States 
in great landmarks, buildings, and historic districts saved and 
communities revitalized.
    The Historic Preservation Fund was established by Congress in 1976 
with income from fees charged for offshore oil leases. The HPF provides 
matching grants to all 50 states and territories to survey districts, 
buildings and sites for listing in the National Register of Historic 
Places. It is also used to maintain and rehabilitate historic 
properties and to educate and inform the public. Prior to 1976 these 
funds came from general revenues of the U.S. Government.
    The financial assistance created by the Historic Preservation Fund 
is distributed following manner:

    The State Historic Preservation Offices. The HPF provides 
significant funding for the State Historic Preservation Offices (SHPOs) 
to pay half the cost of running the national preservation program. The 
National Historic Preservation Act requires the states to match the 
Federal share.
    The States use their HPF allocations to perform a number of 
invaluable services, such as helping local governments establish 
historic preservation programs and local preservation commissions; 
providing preservation grants; designing annual priorities to meet the 
preservation goals mandated by State legislatures; encouraging economic 
development through cultural tourism, administering the Federal 
rehabilitation tax credit; conducting heritage education programs for 
the general public; providing information on historic preservation 
techniques; working with citizens and government agencies to identify 
historic places; nominating significant places to the National Register 
of Historic Places; and working with Federal agencies to minimize harm 
to National Register properties.
    Federal funds are apportioned to the states based on a three-tiered 
formula that includes (1) a Tier One Base Award in which each State 
receives an equal share of funding per annum subject to inflation; (2) 
a Tier Two Award based on the noncompetitive factors of population and 
the area of the State [including water boundaries out to the three-mile 
limit]; and (3) the number of residences in each State over 50 years 
old as defined in the last U.S. Census.
    Certified Local Governments. Local governments that have 
established an historic preservation commission and program that meets 
certain Federal and state standards are eligible to participate in the 
Certified Local Government (CLG) program. Participation in the program 
allows CLGs to apply for earmarked grants (a minimum of 10 percent of a 
State's HPF allocation) to participate in the National Register 
nomination process and receive technical assistance and training.
    Tribal Preservation Offices. To preserve vanishing tribal 
languages, dialects and cultural practices, as well as to protect 
cultural artifacts on tribal lands.
    Historically black colleges and universities. For preservation and 
protection of landmarks that symbolize the hope of the civil rights 
struggle and the contributions that historically black colleges and 
universities have made in the education of our Nation's citizens.
    Save America's Treasures. This two year program was created to 
preserve and restore our nation's heritage as we enter the new 
millennium. The program allows appropriated funds to be transferred to 
Federal agencies toward preservation and restoration of endangered 
historic sites, artifacts, and documents identified by the National 
Park Service and other Federal agencies. All grants administered by the 
program must be matched, and the program includes a parallel private 
effort to raise money from corporations, foundations and individuals. 
It also includes a public education campaign highlighting the 
importance of preserving America's heritage.
    The National Trust strongly supports, of course, full and permanent 
funding for the Land and Water Conservation Fund. Acquisition of land 
for national, state, and local parks, and protection of open space and 
greenways for recreation, fish and wildlife habitat, and watershed 
protection should all rank as high national priorities. The Land and 
Water Conservation Fund takes public funds from a non-renewable 
resource and invests it in our renewable and sustainable resources.
    The same philosophy, and the same public purposes and policy 
underlie the Historic Preservation Fund. Our nation's historic and 
cultural resources stand equal to our natural resources. Our built 
environment, in which most Americans spend most of their daily lives is 
just as important as our natural environment. As we enter a new 
century, we should be devoting just as much thought about public policy 
and just as much public funding to the environment of our cities, 
towns, villages, communities and inhabited landscapes as we devote to 
protecting the natural environment.
    In preparing this testimony today, I had occasion to read again 
With Heritage So Rich: A Report of a Special Commission on Historic 
Preservation under the Auspices of the United States Conference of 
Mayors in 1966. This report provided the foundation for the National 
Historic Preservation Act of 1966. I commend it to your attention 
because it is just as relevant today as it was in 1966. The report, 
written in the wake of urban renewal and the destruction of stable 
communities by the interstate highway system in the 1950's and early 
1960's, concluded that ``the pace of urbanization is accelerating and 
the threat to our environmental heritage is mounting.'' Today, we read 
and hear the same alarm bells about ``sprawl'' and disinvestment in our 
cities, towns, and neighborhoods. The Historic Preservation Fund is a 
modest, highly efficient Federal program for investing in our existing 
communities. This investment from the Historic Preservation Fund saves 
and re-uses existing housing, commercial, and transportation 
infrastructure. The Historic Preservation Fund leverages funds from the 
private sector. Most important, it preserves the sense of identity and 
special character that binds communities together--and we cannot place 
a value on those qualities.
    In terms of authorized funding levels--$150 million, the Historic 
Preservation Fund is very modest compared to the Land and Water 
Conservation Fund. In terms of benefits conferred to the American 
people, the Historic Preservation Funds ranks at the very least as an 
equal.
    Indeed, the National Trust respectfully submits that the Historic 
Preservation Fund is underappreciated, under-valued, and under-funded. 
The National Trust respectfully asks that this Committee give full and 
permanent funding for the Historic Preservation Fund equal 
consideration in the legislation now under consideration.
                                 ______
                                 
 STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS FROM 
                           THE STATE OF IDAHO

    We are here to listen to testimony about the merits of H.R. 701, 
the Conservation and Reinvestment Act of 1999, and H.R. 758, the 
Resources 2000 Act. Although the supporters of these bills believe they 
are doing the right thing, I have some serious concerns.
    The essence of these bills is to infuse massive amounts of money 
into land acquisition and wildlife conservation at both a state and 
Federal level. We can sit around for days and debate the pros and cons 
of land acquisition and not persuade each other. However, it is a bed 
rock principle with me that this country is better served when land is 
in private ownership, with, of course, a few very narrow exceptions. 
The fact is, our land management agencies can't properly manage what 
they have now. We have a $12 billion maintenance backlog on public land 
infrastructure. We are closing campgrounds and other recreational 
facilities. Yet, people want to add more? The fact is, many counties in 
the Western United States are upwards of 95 percent publicly held. 
There is very little private land for a tax base to run schools and 
build roads. Yet people want to add more? Whether Federal, state, 
county or local, the ultimate result of this bill will take land out of 
private ownership and further erode a county's ability to provide for 
its citizens.
    I recognize the efforts of H.R. 701's authors to try to limit the 
use of these massive amounts of monies to certain areas. Indeed, I 
support the efforts to try to tighten up the use of the Land and Water 
Conservation Fund. Far too often we've seen the Fund used for purposes 
for which it was never intended. Since it's enactment, instead of the 
Fund being utilized by local units of government to enhance the urban 
quality of life, it has become a Federal land acquisition monster, 
spending hundreds of millions dollars annually to swallow up large 
tracts of land. H.R. 701 attempts to limit the Fund's Federal 
acquisitions to inholdings within congressionally designated units of 
land management. So long as a true willing seller, willing buyer 
relationship exists, this can be positive. I've been assured by the 
authors that this is their intent and that they will work with me to 
make sure the language is crystal clear.
    Another troubling aspect of H.R. 701 is the specific language 
furthering the Federal Government's already too broad of reach even 
into state and local affairs. H.R. 701 mandates that the Federal 
agencies are considered a partner of the local units of government when 
they consider local land use and planning. This is absolutely 
unacceptable.
    Taking land out of private ownership and local land control are 
only two of my concerns. I have serious problems about the funding 
mechanism of these proposals. H.R. 701 and H.R. 798 propose to use 
nearly a billion dollars per year of Outer Continental Shelf (OCS) oil 
and gas lease receipts. These monies, which currently go to pay down 
the principle on the national debt, would not be subject to 
appropriations, but rather would be directly expended by the Secretary. 
Like many other trust funds, this money is mandatory, not 
discretionary, and Congress has no choice in the matter. The land 
acquisition program then becomes an entitlement, which is completely 
unacceptable.
    Additionally, the Constitution clearly states, ``The Congress shall 
have [the] power to dispose of and make all needful rules and 
regulations respecting the territory or other property belonging to the 
United States.'' The net effect of providing a dedicated source of 
funds to the bureaucracy for land acquisition with virtually no 
congressional oversight is for the Congress to cede over its 
Constitutional responsibility to the Executive Branch. Congress would 
no longer be making the decisions about land acquisition; Executive 
Branch bureaucrats would.
    Finally, OCS receipts are currently dedicated to pay down the 
principle of the national debt. Now that some in Congress claim we have 
a balanced budget--without the use of Social Security we remain about 
$60 billion in the red--many members are finding ways to spend the 
``extra'' money. That's exactly what H.R. 701 and H.R. 798 does. What 
once were fiscal conservatives now are members who are rushing to spend 
money. By taking nearly a billion dollars off budget, we are increasing 
total Federal spending and reducing the rate by which we pay back our 
grand children. Some claim that we need to acquire this land to leave 
our children a legacy. In reality, the legacy that we leave behind is 
the $5.7 trillion national debt and a diminished taxable land base to 
provide for schools and roads.
    This proposal has been considered before, and fortunately defeated. 
But whether it's the 1980's American Heritage Trust, President 
Clinton's Lands Legacy, or other derivatives of the same proposal, to 
continue to spend money to take land out of the taxable land base is 
fiscally irresponsible on many levels. With only 5 percent of our land 
base developed, this proposal is an expensive solution in search of a 
problem--a solution that will violate property rights, states' rights 
and the balance of power between Federal and state government. The 
country simply cannot afford these proposals. Without substantial 
changes, I will continue to work to defeat these measures.

[GRAPHIC] [TIFF OMITTED] T6081.028

[GRAPHIC] [TIFF OMITTED] T6081.029

[GRAPHIC] [TIFF OMITTED] T6081.030

[GRAPHIC] [TIFF OMITTED] T6081.031

[GRAPHIC] [TIFF OMITTED] T6081.032

[GRAPHIC] [TIFF OMITTED] T6081.033

[GRAPHIC] [TIFF OMITTED] T6081.034

[GRAPHIC] [TIFF OMITTED] T6081.035

[GRAPHIC] [TIFF OMITTED] T6081.036

[GRAPHIC] [TIFF OMITTED] T6081.037

[GRAPHIC] [TIFF OMITTED] T6081.038

[GRAPHIC] [TIFF OMITTED] T6081.039

[GRAPHIC] [TIFF OMITTED] T6081.040

[GRAPHIC] [TIFF OMITTED] T6081.041

[GRAPHIC] [TIFF OMITTED] T6081.042

[GRAPHIC] [TIFF OMITTED] T6081.043

[GRAPHIC] [TIFF OMITTED] T6081.044

[GRAPHIC] [TIFF OMITTED] T6081.045

[GRAPHIC] [TIFF OMITTED] T6081.046

[GRAPHIC] [TIFF OMITTED] T6081.047

[GRAPHIC] [TIFF OMITTED] T6081.048

[GRAPHIC] [TIFF OMITTED] T6081.049

[GRAPHIC] [TIFF OMITTED] T6081.050

[GRAPHIC] [TIFF OMITTED] T6081.051

[GRAPHIC] [TIFF OMITTED] T6081.052

[GRAPHIC] [TIFF OMITTED] T6081.053

[GRAPHIC] [TIFF OMITTED] T6081.054

[GRAPHIC] [TIFF OMITTED] T6081.055

[GRAPHIC] [TIFF OMITTED] T6081.056

[GRAPHIC] [TIFF OMITTED] T6081.057

[GRAPHIC] [TIFF OMITTED] T6081.058

[GRAPHIC] [TIFF OMITTED] T6081.059

[GRAPHIC] [TIFF OMITTED] T6081.060

[GRAPHIC] [TIFF OMITTED] T6081.061

[GRAPHIC] [TIFF OMITTED] T6081.062

[GRAPHIC] [TIFF OMITTED] T6081.063

[GRAPHIC] [TIFF OMITTED] T6081.064

[GRAPHIC] [TIFF OMITTED] T6081.065

[GRAPHIC] [TIFF OMITTED] T6081.066

[GRAPHIC] [TIFF OMITTED] T6081.067

[GRAPHIC] [TIFF OMITTED] T6081.068

[GRAPHIC] [TIFF OMITTED] T6081.069

[GRAPHIC] [TIFF OMITTED] T6081.070

[GRAPHIC] [TIFF OMITTED] T6081.071

[GRAPHIC] [TIFF OMITTED] T6081.072

[GRAPHIC] [TIFF OMITTED] T6081.073

[GRAPHIC] [TIFF OMITTED] T6081.074

[GRAPHIC] [TIFF OMITTED] T6081.075

[GRAPHIC] [TIFF OMITTED] T6081.076

[GRAPHIC] [TIFF OMITTED] T6081.077

[GRAPHIC] [TIFF OMITTED] T6081.078

[GRAPHIC] [TIFF OMITTED] T6081.079

[GRAPHIC] [TIFF OMITTED] T6081.080

[GRAPHIC] [TIFF OMITTED] T6081.081

[GRAPHIC] [TIFF OMITTED] T6081.082

[GRAPHIC] [TIFF OMITTED] T6081.083

[GRAPHIC] [TIFF OMITTED] T6081.084

[GRAPHIC] [TIFF OMITTED] T6081.085

[GRAPHIC] [TIFF OMITTED] T6081.086

[GRAPHIC] [TIFF OMITTED] T6081.087

[GRAPHIC] [TIFF OMITTED] T6081.088

[GRAPHIC] [TIFF OMITTED] T6081.089

[GRAPHIC] [TIFF OMITTED] T6081.090

[GRAPHIC] [TIFF OMITTED] T6081.091

[GRAPHIC] [TIFF OMITTED] T6081.092

[GRAPHIC] [TIFF OMITTED] T6081.093

[GRAPHIC] [TIFF OMITTED] T6081.094

[GRAPHIC] [TIFF OMITTED] T6081.095

[GRAPHIC] [TIFF OMITTED] T6081.096

[GRAPHIC] [TIFF OMITTED] T6081.097

[GRAPHIC] [TIFF OMITTED] T6081.098

[GRAPHIC] [TIFF OMITTED] T6081.099

[GRAPHIC] [TIFF OMITTED] T6081.100

[GRAPHIC] [TIFF OMITTED] T6081.101

[GRAPHIC] [TIFF OMITTED] T6081.102

[GRAPHIC] [TIFF OMITTED] T6081.103

[GRAPHIC] [TIFF OMITTED] T6081.104

[GRAPHIC] [TIFF OMITTED] T6081.105

[GRAPHIC] [TIFF OMITTED] T6081.106

[GRAPHIC] [TIFF OMITTED] T6081.107

[GRAPHIC] [TIFF OMITTED] T6081.108

[GRAPHIC] [TIFF OMITTED] T6081.109

[GRAPHIC] [TIFF OMITTED] T6081.110

[GRAPHIC] [TIFF OMITTED] T6081.111

[GRAPHIC] [TIFF OMITTED] T6081.112

[GRAPHIC] [TIFF OMITTED] T6081.113

[GRAPHIC] [TIFF OMITTED] T6081.114

[GRAPHIC] [TIFF OMITTED] T6081.115

[GRAPHIC] [TIFF OMITTED] T6081.116

[GRAPHIC] [TIFF OMITTED] T6081.117

[GRAPHIC] [TIFF OMITTED] T6081.118

[GRAPHIC] [TIFF OMITTED] T6081.119

[GRAPHIC] [TIFF OMITTED] T6081.120

[GRAPHIC] [TIFF OMITTED] T6081.121

[GRAPHIC] [TIFF OMITTED] T6081.122

[GRAPHIC] [TIFF OMITTED] T6081.123

[GRAPHIC] [TIFF OMITTED] T6081.124

[GRAPHIC] [TIFF OMITTED] T6081.125

[GRAPHIC] [TIFF OMITTED] T6081.126

[GRAPHIC] [TIFF OMITTED] T6081.127

[GRAPHIC] [TIFF OMITTED] T6081.128

[GRAPHIC] [TIFF OMITTED] T6081.129

[GRAPHIC] [TIFF OMITTED] T6081.130

[GRAPHIC] [TIFF OMITTED] T6081.131

[GRAPHIC] [TIFF OMITTED] T6081.132

[GRAPHIC] [TIFF OMITTED] T6081.133

[GRAPHIC] [TIFF OMITTED] T6081.134

[GRAPHIC] [TIFF OMITTED] T6081.135

[GRAPHIC] [TIFF OMITTED] T6081.136

[GRAPHIC] [TIFF OMITTED] T6081.137

[GRAPHIC] [TIFF OMITTED] T6081.138

[GRAPHIC] [TIFF OMITTED] T6081.139

[GRAPHIC] [TIFF OMITTED] T6081.140

[GRAPHIC] [TIFF OMITTED] T6081.141

[GRAPHIC] [TIFF OMITTED] T6081.142

[GRAPHIC] [TIFF OMITTED] T6081.143

[GRAPHIC] [TIFF OMITTED] T6081.144

[GRAPHIC] [TIFF OMITTED] T6081.145

[GRAPHIC] [TIFF OMITTED] T6081.146

[GRAPHIC] [TIFF OMITTED] T6081.147

[GRAPHIC] [TIFF OMITTED] T6081.148

[GRAPHIC] [TIFF OMITTED] T6081.149

[GRAPHIC] [TIFF OMITTED] T6081.150

[GRAPHIC] [TIFF OMITTED] T6081.151

[GRAPHIC] [TIFF OMITTED] T6081.152

[GRAPHIC] [TIFF OMITTED] T6081.153

[GRAPHIC] [TIFF OMITTED] T6081.154

[GRAPHIC] [TIFF OMITTED] T6081.155

[GRAPHIC] [TIFF OMITTED] T6081.156

[GRAPHIC] [TIFF OMITTED] T6081.157

[GRAPHIC] [TIFF OMITTED] T6081.158

[GRAPHIC] [TIFF OMITTED] T6081.159

[GRAPHIC] [TIFF OMITTED] T6081.160

[GRAPHIC] [TIFF OMITTED] T6081.161

[GRAPHIC] [TIFF OMITTED] T6081.162

[GRAPHIC] [TIFF OMITTED] T6081.163

[GRAPHIC] [TIFF OMITTED] T6081.164

[GRAPHIC] [TIFF OMITTED] T6081.165

[GRAPHIC] [TIFF OMITTED] T6081.166

[GRAPHIC] [TIFF OMITTED] T6081.167

[GRAPHIC] [TIFF OMITTED] T6081.168

[GRAPHIC] [TIFF OMITTED] T6081.169

[GRAPHIC] [TIFF OMITTED] T6081.170

[GRAPHIC] [TIFF OMITTED] T6081.171

[GRAPHIC] [TIFF OMITTED] T6081.172

[GRAPHIC] [TIFF OMITTED] T6081.173

[GRAPHIC] [TIFF OMITTED] T6081.174

[GRAPHIC] [TIFF OMITTED] T6081.175

[GRAPHIC] [TIFF OMITTED] T6081.176

[GRAPHIC] [TIFF OMITTED] T6081.177



    HEARING ON H.R. 701, TO PROVIDE OUTER CONTINENTAL SHELF IMPACT 
ASSISTANCE TO STATE AND LOCAL GOVERNMENTS, TO AMEND THE LAND AND WATER 
 CONSERVATION FUND ACT OF 1965, THE URBAN PARK AND RECREATION RECOVERY 
    ACT OF 1978, AND THE FEDERAL AID IN WILDLIFE RESTORATION ACT TO 
ESTABLISH A FUND TO MEET THE OUTDOOR CONSERVATION AND RECREATION NEEDS 
   OF THE AMERICAN PEOPLE, AND FOR OTHER PURPOSES. CONSERVATION AND 
                        REINVESTMENT ACT OF 1999



 H.R. 798, TO PROVIDE FOR THE PERMANENT PROTECTION OF THE RESOURCES OF 
             THE UNITED STATES IN THE YEAR 2000 AND BEYOND

                              ----------                              


                       WEDNESDAY, MARCH 10, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11 a.m., in Room 
1324, Longworth House Office Building, Hon. William J. Tauzin, 
presiding.
    Mr. Tauzin. [presiding] The Committee will please come to 
order. We ask our guests to take available seats and to get 
comfortable. We have some distinguished friends and witnesses 
here that we would like to accommodate as best we can.
    Thank you very much.
    [The bills H.R. 701 and H.R. 798 may be found at end of 
hearing.]
    Mr. Tauzin. Today we begin our second hearing on the twin 
proposals, H.R. 701 and H.R. 798, the CARA bill and the 
Resource 2000 bill, and we are very honored to have with us 
United States Senator Barbara Boxer, who will lead this panel, 
and the Honorable Jim McGovern, and Saxby Chambliss will also 
be here, I think, in just a few minutes.
    Senator Boxer, we want to welcome you, and appreciate your 
making a long trek over to the House side, and this is a 
Committee you are very familiar with. We have missed you here 
on the Committee, and so glad to see you again today. I would 
be happy to yield to my friend, Mr. Miller, for a welcome.
    Mr. Miller. Mr. Chairman, thank you. Just to welcome the 
panel and to welcome my lead Senate co-sponsor on this 
legislation, and Mr. McGovern, who has been so helpful in 
helping us to draft this legislation, to say that I want to 
apologize to later witnesses. I may be in and out of this 
hearing. It was my intent to sit through the whole hearing, but 
we are doing the EDFLEX bill on the floor today, and I have an 
amendment to that legislation, but hopefully I will have some 
time here before I have to go to the floor. And I want to thank 
all of the witnesses for coming today.
    Mr. Tauzin. Thank you, Mr. Miller. And now we are pleased 
to welcome Senator Boxer, who will lead it off and, Senator 
Boxer, you are pleased to go forward at your convenience.

 STATEMENT OF HON. BARBARA BOXER, A UNITED STATES SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman. It is very 
nice to see you and, of course, the rest of your colleagues on 
this Committee, several of whom are from California. It is nice 
to be here.
    I am very pleased that your Committee is holding this 
hearing. It is an issue that I think means a lot to all 
Americans who want to see us protect and defend the beauty and 
history of our Nation, who want to see us be fair to our 
farmers. I think this is an opportunity for us to join hands 
across party lines and do something good for the people.
    Congressman Miller and I introduced the Permanent 
Protection for America's Resources 2000 Act. I want to let you 
know that in the Senate, that just by a little calling around, 
I already have as co-sponsors Senators Biden, John Kerry, 
Feinstein, Senator Lautenberg, Senator Schumer, and Senator 
Torricelli.
    Now, I know there are a good many bills out there and I 
think this is good. On both sides of the aisle, we are finally 
talking about making a permanent commitment to America's 
resources.
    I want to say, on a personal note, Mr. Chairman, that 
during the impeachment trial over in the Senate, one speaker 
after the other got up and said, ``You know, this is the most 
important vote we are ever going to cast.''
    And I sat back and thought, I don't want this to be the 
most important vote I ever cast, I want to do something for the 
legacy of this country, and I can think of nothing more 
important that we can do at this point, going into the next 
century, than making a commitment to permanently protect our 
natural resources.
    If we go back to the beginning of the 20th century, one of 
the greatest conservationists of all time, Theodore Roosevelt, 
was our President. From 1901 to 1909, Teddy Roosevelt set aside 
places that millions of Americans still enjoy today. If not for 
Teddy Roosevelt's leadership, we might have lost such national 
treasures as the Grand Canyon, Muir Woods, and Crater Lake. 
These natural monuments stand as a lasting testament to TR's 
foresight in pioneering work in environmental preservation.
    As the 21st century approaches, it is our turn. We must 
renew our commitment to our natural heritage. And that 
commitment must go beyond the piecemeal approach. It must be a 
comprehensive, long-term strategy to ensure that when our 
children's children enter the 22nd century, they can herald our 
actions today, as we revere those of President Roosevelt.
    Today, our natural heritage is disappearing at an alarming 
rate. Each year, nearly 3 million acres of farmland and more 
than 170,000 acres of wetlands disappear. Each day, over 7,000 
acres of open space are lost forever. In California, in the 
year 2020, we are projected to have about 50 million people. We 
simply cannot lose every inch of open space at the rate it is 
disappearing.
    Across America, parks are closing, recreational facilities 
are deteriorating, open spaces are vanishing, and historic 
structures are crumbling. Why is this happening? Because there 
is no dedicated funding source for all these noble purposes, a 
source which can be used only for these noble purposes.
    The Miller-Boxer bill offers the most sweeping commitment 
to protecting America's natural heritage in more than 30 years. 
It will establish a dedicated funding source for resource 
protection.
    We know a major funding source for resource protection 
already exists because each year the oil companies pay the 
Federal Government billions of dollars in rents, royalties, and 
other fees in connection with offshore drilling in Federal 
waters. In 1998 alone, the government collected over $4.6 
billion from oil and gas drilling on the Outer Continental 
Shelf.
    The Miller-Boxer bill would allocate only half of these 
revenues. We are not talking about all of these revenues, just 
half of these revenues every year for permanent protection.
    Mr. Chairman, we fund permanently eight trust funds, and 
I'll go very quickly: $100 million every year for urban parks 
and recreational facilities; $350 million to restore native 
fish and wildlife; $250 million to restore Federal lands that 
are polluted or damaged; $300 million to protect and restore 
the health of our oceans; $150 million to protect our vanishing 
farmlands and open space; $100 million to purchase habitat to 
help endangered species recovery which will greatly help our 
farmers, and $150 million every year to restore and protect our 
historical and cultural heritage through fully funding the 
Historic Preservation Fund.
    Mr. Chairman, I see that my yellow light is on. Could I ask 
unanimous consent for one additional minute over the five?
    Mr. Tauzin. I don't think that will be a problem and, 
without objection, so ordered.
    Senator Boxer. Thank you, and I will try to talk as fast as 
I can. I want to point out that the Historic Preservation Fund 
was established by Congress in 1977, to provide a dedicated 
source of funding to preserve our significant historic 
properties. The problem is, we have not funded this noble 
purpose. If you take a look at San Francisco, for example, the 
Old Mint Building which was given by the Federal Government as 
a gift to welcome California into the Union in 1850, that 
building is a beautiful building. It cannot be torn down. It is 
historic. The rats have infested that building. That building 
is empty, and I think to myself, if this was Paris, this would 
never happen. The bottom line is, we are losing these 
buildings, and they are present in your state, Mr. Chairman, 
and all over the country.
    I did not mention the eighth trust fund, Land and Water 
Conservation Fund, which we fully fund at $900 million. The 
good news is the fund has collected over $21 billion since 
1965. The bad news is only $9 billion of this amount has been 
spent. As you know, we have used that Land and Water 
Conservation Fund to kind of hide the deficit, and we have 
shorted that fund dramatically. We have shifted $16 billion to 
other accounts.
    Mr. Chairman, I will not take anymore of your precious time 
and that of the Committee. I am very pleased that there are 
several bills on this subject matter. I have great confidence 
that working across party lines we can protect our Nation's 
natural heritage, and leave a lasting legacy for future 
generations.
    Thank you so very much, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]

 STATEMENT OF HON. BARBARA BOXER, A SENATOR IN CONGRESS FROM THE STATE 
                             OF CALIFORNIA

    Mr. Chairman, I want to thank you for the opportunity to 
testify before this Committee. This is an issue for all 
Americans who want to see us protect and defend the beauty and 
history of our nation.
    That is why Congressman George Miller and I introduced the 
Permanent Protection for America's Resources 2000 Act. Co-
sponsors in the Senate include Senator Joe Biden, Senator John 
Kerry, Senator Dianne Feinstein, Senator Frank Lautenberg, 
Senator Chuck Schumer and Senator Bob Torricelli.
    I know there are many bills out there and this is good. On 
both sides of the aisle--we are finally talking about making a 
permanent commitment to America's natural resources.
    As the 20th Century began, one of the greatest 
conservationists of all time, Theodore Roosevelt, was our 
President. From 1901 to 1909, Teddy Roosevelt set aside places 
that millions of Americans still enjoy today.
    If not for Teddy Roosevelt's leadership, we might have lost 
such national treasures as the Grand Canyon, Muir Woods, and 
Crater Lake. These natural monuments stand as a lasting 
testament to TR's foresight and pioneering work in 
environmental preservation.
    As the 21st Century approaches, we must renew our 
commitment to our natural heritage. That commitment must go 
beyond a piecemeal approach. It must be a comprehensive, long-
term strategy to ensure that when our children's children enter 
the 22nd Century, they can herald our actions today, as we 
revere those of President Roosevelt.
    Today, our natural heritage is disappearing at an alarming 
rate. Each year, nearly 3 million acres of farmland and more 
than 170,000 acres of wetlands disappear. Each day, over 7,000 
acres of open space are lost forever.
    Across America, parks are closing, recreational facilities 
deteriorating, open spaces vanishing, historic structures 
crumbling.
    Why is this happening? Because there is no dedicated 
funding source for all these noble purposes--a source which can 
be used only for these noble purposes.
    The Miller-Boxer bill offers the most sweeping commitment 
to protecting America's natural heritage in more than 30 years. 
It will establish a dedicated funding source for resource 
protection.
    A major funding source for resource protection already 
exists. Each year, oil companies pay the Federal Government 
billions of dollars in rents, royalties, and other fees in 
connection with offshore drilling in Federal waters. In 1998 
alone, the government collected over $4.6 billion from oil and 
gas drilling on the Outer Continental Shelf.
    The Miller-Boxer bill would allocate a total of $2.3 
billion every year from oil drilling revenues for permanent 
protection of America's resources. It provides:

        <bullet> $100 million every year for urban parks and 
        recreational facilities
        <bullet> $350 million to restore native fish and wildlife
        <bullet> $250 million to restore Federal lands that are 
        polluted or damaged
        <bullet> $300 million to protect and restore the health of our 
        oceans
        <bullet> $150 million to protect our vanishing farmlands and 
        open space
        <bullet> $100 million to purchase habitat to help endangered 
        species recovery
        <bullet> And $150 million every year to restore and protect our 
        historical and cultural heritage through fully funding the 
        Historic Preservation Fund.
    The Historic Preservation Fund was established by Congress in 1977, 
to provide a dedicated source of funding to preserve our significant 
historic properties. And although Congress is authorized to spend $150 
million from OCS revenues annually for this purpose, less than 29 
percent of funding has been appropriated since 1977. That is more than 
$2 billion that could have been used to help restore the treasures of 
our nation scattered across the many states. In California, there's the 
Old Mint Building in San Francisco, Manzanar National Historic Site, 
and Mission San Juan Capistrano. Our bill would ensure that funds would 
be spent on their designated purpose.
    Finally, the bill designates $900 million each year to purchase 
land by fully funding the Land and Water Conservation Fund as 
envisioned by Congress in 1965 when the Fund was established. Half 
would go to the States.
    The good news is that Fund has collected over $21 billion since 
1965. The bad news is that only $9 billion of this amount has been 
spent on its intended uses. More than $16 billion has been shifted into 
other Federal accounts.
    The funding Congress has made available has allowed us to purchase 
some key tracts of land, but we have missed golden opportunities to buy 
critical open space because the Land and Water Conservation Fund was 
critically underfunded.
    Thank you, Mr. Chairman, for holding this series of hearings. I 
look forward to working with you and other members of the Committee on 
this critical issue. This is necessary and important legislation that 
will benefit our Nation's natural heritage, and leave a lasting legacy 
for future generations.
    Mr. Chairman, it's a chance to work across the aisle for all the 
people.

    Mr. Tauzin. Thank you, Senator Boxer, and with all the 
deference we accord to you, if you would like to stay you are 
more than welcome; if you need to get back to the Senate, we 
will make accommodations at this time.
    Any member who wants to engage Senator Boxer at all?
    [No response.]
    Then we thank you, Senator Boxer.
    Senator Boxer. Thank you so very much, and anytime you need 
help on this, Mr. Chairman, I am at your disposal. And thank 
you, Mr. McGovern, as well.
    Mr. Tauzin. Again, Barbara, we want to thank you and wish 
you the best on the Senate side. We, again, as I said, missed 
your presence here in the Committee for a few years.
    Senator Boxer. Well, thank you. You should have told me 
that when I was here, Billy. You should have told me that when 
I was here. I didn't get that message.
    [Laughter.]
    Mr. Miller. Better late than never.
    Mr. Tauzin. We couldn't miss you when you were here, just 
couldn't do it.
    Thank you very much, Senator.
    Now we are pleased to welcome Congressman Jim McGovern.

STATEMENT OF HON. JAMES McGOVERN, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you very much, Mr. Chairman, and I 
appreciate the opportunity to present testimony before this 
Committee, and I also want to pay tribute to our colleague in 
the Senate, Senator Boxer, for her leadership on this issue and 
on so many other issues that are important to our environment.
    I particularly want to thank this Committee for taking up 
the cause of funding for the Land and Water Conservation Fund. 
In addition to you, Mr. Chairman, I want to especially thank 
Congressman Miller and my other colleagues for drawing 
attention to this important issue. Mr. Miller has been at the 
forefront of our efforts to protect the environment, and I am 
proud to stand with him in support of his bill, H.R. 798.
    Senator Boxer has kind of already gone over the history of 
the Land and Conservation Fund, and I am not going to do that. 
I am here today to urge you to support full and permanent 
funding of the state-side Land and Water Conservation Fund and 
independent OCS funding for UPARR provided by H.R. 798.
    Both the state-side program of the LWCF and UPARR give 
states the ability to determine their own needs and set their 
own priorities. State-side funding of these programs states and 
local communities to preserve their neighborhood parks, ball 
fields, scenic trails, nature reserves, and historical sites.
    State-side LWCF is a necessary tool in the effort to 
mitigate the effects of suburban sprawl. The rapid and 
unplanned growth which we have been experiencing over the past 
decade is leaving an indelible mark on our suburban landscapes.
    As large undifferentiated developments spread out into 
countrysides, communities are losing both their geographic 
cohesiveness and their sense of identity. State-side LWCF 
funding will enable states to compensate for vanishing farmland 
and rural landscapes as development extends outward from older 
central cities and new edge cities.
    Mr. Chairman, the children of our cities need safe green 
spaces to play in. Unused open space in a city is a vacant lot, 
with garbage, glass, oftentimes with dirty needles, and drug 
dealing. Without safe, healthy parks, our children go from home 
to school and back without ever interacting with a natural 
area. State-side LWCF and UPARR will help neighborhoods 
transform dangerous vacant lots into stabilizing and 
inspirational green spaces or playgrounds.
    State-side LWCF and UPARR legislation has a broad base of 
support which cuts through both suburbs and cities. I also 
believe it has broad bipartisan support here in the Congress.
    Last year, I had an amendment to the Interior appropriation 
bill to put funding back into the state-side Land and Water 
Conservation Fund Program, which only failed by a handful of 
votes. I think if we had a better offset, it would have been 
successful. It is environmentalism which walks hand-in-hand 
with development. Last November, 10 states, 22 counties, and 93 
towns voted on open space initiatives. Eighty-seven percent of 
these initiatives passed, triggering $4 billion in state and 
local conservation spending.
    Further, in December, the United States Conference of 
Mayors sent a letter to the Clinton Administration requesting 
funding for the Land and Water Conservation Fund. One hundred 
fifteen mayors signed the letter.
    Throughout my own district, I have been approached by 
mayors, town officials, business leaders, law enforcement 
officials, children's advocates, education leaders, and 
environmental advocates who have urged me to continue 
supporting the Land and Water Conservation Fund and UPARR 
funding. Projects for which Federal conservation assistance is 
needed vary from a long overdue city park in Worcester to open 
space preservation in the nearby town of Shrewsbury.
    I was at a meeting with the Board of Selectpeople in 
Shrewsbury, Massachusetts, on Saturday, to talk about their 
local concerns. The first issue that they brought up was the 
Land and Water Conservation Fund. Shrewsbury is one of those 
suburbs that is one of the fastest growing communities in 
Massachusetts, and they are facing real financial constraints 
in their attempt to obtain open space land. We in Congress must 
respond to what everyone outside the beltway is asking for, 
full funding of state-side LWCF and UPARR programs.
    For these reasons, I am asking the Committee to approve 
full funding for the stateside programs, and I will do whatever 
I can to assist the Committee in the deliberations. I thank you 
very much for the opportunity to be here.
    [The prepared statement of Mr. McGovern follows:]

STATEMENT OF HON. JAMES P. MCGOVERN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF MASSACHUSETTS

    Good Morning Mr. Chairman,
    I want to thank you for this opportunity to present 
testimony before your Committee. I would also like to thank you 
for taking up the cause of funding the Land and Water 
Conservation Fund.
    Additionally, I would like to thank Congressman George 
Miller and my other colleagues for drawing attention to this 
important issue. Congressman Miller has been at the forefront 
of our efforts to protect the environment, and I am proud to 
stand with him on H.R. 798.
    As many of you already know, the Land and Water 
Conservation Fund (LWCF) trust account was created over thirty 
years ago. During that period it has been the principle source 
of Federal money to acquire new Federal and state recreational 
lands. More than 37,000 park and recreation projects have been 
developed since the Fund was established. Unfortunately, in the 
last ten years less than 25 percent of the $900 million taken 
into the Fund from offshore drilling receipts has been 
appropriated for Fund purposes. Further, the ``state-side'' 
matching grant program has been virtually unfunded since Fiscal 
Year 1995.
    I am here today to urge you to support full and permanent 
funding of the state-side LWCF and independent OCS funding for 
UPARR provided by H.R. 798. Both the state-side program of the 
LWCF and UPARR give states the ability to determine their own 
needs and set their own priorities. State-side LWCF and UPARR 
empower states and local communities to preserve their 
neighborhood parks, ball fields, scenic trails, nature 
reserves, and historical sites.
    State-side LWCF is a necessary tool in the effort to 
mitigate the effects of suburban ``sprawl.'' The rapid and 
unplanned growth which we have been experiencing over the past 
decade is leaving an indelible mark on our suburban landscapes. 
As large undifferentiated developments spread out into 
countrysides, communities are losing both their geographic 
cohesiveness and their sense of identity. State-side LWCF 
funding will enable states to compensate for vanishing farmland 
and rural landscapes as development extends outward from older 
central cities and new ``edge cities.''
    Mr. Chairman, the children of our cities need safe green 
spaces to play in. Unused open space in a city is a vacant lot, 
with garbage, glass, dirty needles, and drug dealing. Without 
safe, healthy parks, our children go from home to school and 
back without ever interacting with a natural area. State-side 
LWCF and UPPAR will help neighborhoods transform dangerous 
vacant lots into stabilizing and inspirational green spaces or 
playgrounds.
    State-side LWCF and UPARR legislation has a broad base of 
support which cuts through both suburbs and cities. It is 
environmentalism which walks hand in hand with development. 
Last November, 10 states, 22 counties, and 93 towns voted on 
open space initiatives. Eighty-seven percent of these 
initiatives passed, triggering $4 billion in state and local 
conservation spending. Further, in December the United States 
Conference of Mayors sent a letter to the Clinton 
Administration requesting funding for the LWCF and UPARR. 115 
mayors signed the letter.
    Throughout my own district, I have been approached by 
mayors, town officials, business leaders, and environmental 
advocates who have urged me to continue supporting LWCF and 
UPARR funding. Projects for which Federal conservation 
assistance is needed vary from a long overdue city park in 
Worcester to open space preservation in the nearby suburb of 
Shrewsbury. We in Congress must respond to what everyone 
outside the beltway is asking for, full funding of state-side 
LWCF and UPARR.
    For these reasons, I ask the Committee to approve full 
funding for the stateside programs of the Land and Water 
Conservation Fund and OCS funding for UPARR, and to support 
H.R. 798.
    Thank you, Mr. Chairman.

    Mr. Hansen. [presiding] Thank you. We appreciate our 
colleague's statement, and you are welcome to stay and join us 
on the dais if you are so inclined.
    I'll recognize our colleague from Georgia, the Honorable 
Saxby Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Chambliss. Thank you, Mr. Chairman, it is a pleasure 
for me to be here today to have an opportunity to talk to you 
about something that I think is one of the most important 
pieces of legislation that certainly this Committee and the 
whole Congress has had an opportunity to deal with since I have 
been here.
    I particularly want to thank the Chairman, Mr. Young, for 
the efforts that he has done every day to benefit wildlife and 
preserve the fish, the right and opportunity of all Americans 
to hunt, fish, trap, and enjoy our great outdoors.
    I am pleased to have the opportunity to join the Committee 
today to express my support for the bipartisan efforts 
encompassed within H.R. 701, the Conservation and Reinvestment 
Act, or CARA. As Co-Chairman of the Congressional Sportsmen's 
Caucus, I applaud Chairman Young for crafting a bill that 
absolutely and positively gives our state fish and wildlife 
agencies the resources to adequately address the wildlife 
conservation funding problems. Specifically, I come before you 
today to applaud Title III of Chairman Young's bill, Wildlife-
Based Conservation.
    Primarily, I wear my hat as Chairman of the Congressional 
Sportsmen's Caucus today, but I also am here as Vice Chairman 
of the Budget Committee. As we are in the midst of preparing to 
markup our Fiscal Year 2000 Budget Resolution in committee, I 
must tell you that there are high hurdles that this bill faces 
with regard to our budgetary constraints, specifically the 
mandatory spending provisions.
    While these constraints concern the Budget Committee and me 
greatly, I have expressed my support for this bill to the 
Budget Committee in no uncertain terms. I believe the merits 
outweigh the obstacles, and look forward to working with the 
Chairman and others to try to craft solutions to the concerns.
    I am pleased that the Committee has heard testimony from 
David Waller, the Director of the Wildlife Resources Division 
of the Georgia Department of Natural Resources. David has been 
involved in the process of addressing the needs of his 
colleagues throughout the country for a number of years.
    He has shown great leadership and flexibility to work 
within this budget-driven Congress to assist in crafting 
legislation that will address the vacuum of funding that state 
fish and wildlife directors face in addressing wildlife-based 
conservation and education projects, and by wildlife I mean 
conservation projects for both game and nongame species.
    Mr. Chairman, it is clear that we must work to ensure we 
have an abundance of wildlife and habitat to enjoy, and that we 
continue to promote multiple-use habitat management for our 
wildlife and fisheries. The Chairman's bill goes a long way in 
ensuring these goals are achieved.
    I want to share with you an example of how ordinary fish 
and wildlife departments can do extraordinary things given the 
resources not only by the state but also by the Federal 
Government.
    My State of Georgia is home to the Nation's most successful 
wildlife turkey restoration program, which incidentally took 
Georgia's wild turkey population from 17,000 birds in 1973, to 
more than 400,000 birds today. In fact, Georgia has the 
country's largest harvest record of more than 80,000 birds in 
1996, and this is just one example of how every state can be 
successful given the proper resources.
    Our Federal-state partnerships are the key to continuing to 
preserve these type of opportunities in Georgia as well as 
around the country.
    The Congressional Sportsman's Caucus, I believe, has an 
obligation to heighten its commitment to ensure that these 
Federal-state partnerships are strengthened. One step in that 
direction would be the passage of H.R. 701. It is important for 
all of us to recognize that we enjoy the great outdoors in 
different ways. I appreciate that not all Americans hunt and 
fish. Some take pictures, some watch, some hike, and some bike, 
but hunting and fishing does not diminish the natural wonders 
that we all enjoy. In fact, as everyone in this room knows, 
hunting and fishing and trapping are valuable conservation 
management tools. In fact, hunting and fishing has been enjoyed 
throughout the ages.
    The Bible is full of quotations and citations to hunting 
and fishing that took place back in Biblical times. And that is 
why it is so important to help fund hunting and fishing related 
wildlife conservation and education programs. That is why we 
must ensure that the age of hunters does not continue to rise 
as it is doing right now nationwide.
    The reason the age has risen in many states is a direct 
reflection of our inability to educate our children and offer 
them outdoor activities beyond the baseball diamond, the 
basketball court, and the playground.
    I believe that Title III of the Chairman's legislation can 
help fill that gap. For too long, the Federal Government and 
private industry have not adequately addressed the needs of 
state fish and wildlife departments with regard to wildlife 
conservation and education projects. I believe both need to 
step up to the plate.
    Mr. Chairman, I submitted to you a letter back in September 
of 1998 regarding your commitment to working to address 
concerns in Title III raised by some in the conservation 
community. I believe your comments demonstrate your commitment 
to working with the individual state fish and wildlife agencies 
to adequately address their needs.
    I would like to submit your letter for the record and at 
this time to read a few key sentences. Your letter to me, dated 
September 9, 1998, reads in part as follows:
    ``Congressman Chambliss, your letter aptly points out that 
while the goal of our proposal is similar to Teaming With 
Wildlife, our approach and funding mechanism are different. I 
share your interest in increasing funding to our state fish and 
wildlife departments for conservation and education efforts as 
TWW purported to achieve. However, I also share your pragmatic 
concerns with the way TWW obtained funding to achieve that end.
    ``The proposal contained within Title III of our proposal, 
in my opinion, not only achieves the goals contained within 
TWW, but surpasses them. This proposal gives a state fish and 
wildlife department broad discretion in achieving the 
individual goals to conserve wildlife within their state. 
Pittman-Robertson was chosen because it is an existing 
statutory mechanism which has successfully distributed funds to 
states for almost 60 years. Also, Pittman-Robertson currently 
contains language which allows a state the latitude to fund 
both game and nongame programs. However, we all recognize that 
this money has been primarily focused on programs directly 
supporting game species. It is for that reason that our 
proposal contains language to make it clear that these new 
funds are to be used on wildlife, both game and nongame.''
    And that ends my quote from your letter, Mr. Chairman.
    I read your letter in a speech last year at the 88th Annual 
Conference of the International Association of Fish and 
Wildlife Agencies, which was held in my state, in Savannah. I 
think your position was clear then as it is today. I am 
thankful that the conservation community recognizes that 
wildlife conservation and education projects should be decided 
at the state level, and that state agencies should be given the 
flexibility to use funds for game or nongame purposes, rather 
than have the Federal Government make that decision for them.
    I know folks in Georgia and around the country will benefit 
from this legislation because it provides a steady, dependable 
revenue stream. It helps fund both game and nongame wildlife 
conservation programs, and it provides the states the 
flexibility to tailor their funding priorities to suit their 
individual needs.
    One of the most exciting parts of this bill that I am going 
to be working on is the wildlife associated education. We need 
to ensure that our future generations are educated about 
wildlife, and recognize that hunting and fishing are valuable 
conservation management tools.
    I look forward to working closely with Chairman Young on 
this issue to ensure that the criteria for such wildlife 
education projects will accomplish this. Helping replenish 
renewable resources with funds derived from nonrenewable 
resources is good policy, and CARA accomplishes this while not 
raising taxes one penny.
    Thank you again, Mr. Chairman, for allowing me to testify 
before your Committee today.
    [The prepared statement of Mr. Chambliss follows:]

 STATEMENT OF HON. SAXBY CHAMBLISS, A REPRESENTATIVE IN CONGRESS FROM 
                          THE STATE OF GEORGIA

    Thank you Mr. Chairman. And thank you for all the efforts 
you do everyday to benefit wildlife and preserve the right and 
opportunity of all Americans to hunt, fish, trap and enjoy our 
great outdoors. I am pleased to have the opportunity to join 
the Committee today to express my support for the bipartisan 
efforts encompassed within H.R. 701, The Conservation And 
Reinvestment Act (CARA).
    As co-chairman of the Congressional Sportsmen's Caucus, I 
applaud Chairman Young for crafting a bill that absolutely, 
positively gives our state fish and wildlife agencies the 
resources to adequately address their wildlife conservation 
funding problems.
    Specifically, I come before you today to applaud Title III 
of Chairman Young's bill, Wildlife-based Conservation.
    Primarily, I wear my hat as chairman of the Congressional 
Sportsmen's Caucus today; however, I am also joining you as the 
vice chairman of the House Committee on the Budget. As we are 
in the midst of preparing to mark up our FY 2000 Budget 
Resolution in Committee, I must tell you that there are high 
hurdles that this bill faces with regard to our budgetary 
constraints, specifically the mandatory spending questions. 
While these constraints concern the Budget Committee and me 
greatly, I have expressed my support for this bill to the 
Budget Committee in no uncertain terms. I believe the merits 
outweigh the obstacles and look forward to working with the 
chairman and others to try and craft solutions to the concerns.
    I am pleased that the Committee has heard testimony from 
David Waller, the Director of the Wildlife Resources Division 
at the Georgia Department of Natural Resources. David has been 
involved in the process of addressing the needs of his 
colleagues throughout the country for a number of years. He has 
shown great leadership and flexibility to work within this 
budget-driven Congress to assist in crafting legislation that 
will address the vacuum of funding that state fish and wildlife 
directors face in addressing wildlife-based conservation and 
education projects--and by ``wildlife'' I mean conservation 
projects for both game and non-game species.
    Mr. Chairman, it is clear that we must work to ensure we 
have an abundance of wildlife and habitat to enjoy and that we 
continue to promote multiple-use habitat management for our 
wildlife and fisheries. Your bill goes a long way in ensuring 
these goals are achieved.
    I want to share with you an example of how ordinary Fish 
and Wildlife Departments can do extraordinary things given the 
resources not only by the state, but also by the Federal 
Government. My state of Georgia is home to the nation's most 
successful wild turkey restoration program--which incidentally 
took Georgia's wild turkey population from 17,000 birds in 1973 
to more than 400,000 birds today. In fact, Georgia had the 
country's largest harvest record of more than 80,000 birds in 
1996. This is just one example.
    Our Federal-state partnerships are the key to continuing to 
preserve these type of opportunities in Georgia and around the 
country. The Congressional Sportsmen's Caucus, I believe, has 
an obligation to heighten its commitment to ensure that these 
Federal-State partnerships are strengthened. One step in that 
direction would be passage of H.R. 701.
    It is important for all of us to recognize that we enjoy 
the great outdoors in different ways. I appreciate that not all 
Americans hunt and fish. Some take pictures, some just watch, 
some hike, and some bike. But hunting and fishing does not 
diminish the natural wonders we all enjoy. In fact, as everyone 
in this room knows, hunting, fishing and trapping are valuable 
conservation management tools.
    In fact, fishing and hunting has been enjoyed throughout 
the ages--even biblical times.
        Matthew 4:18
        As Jesus was walking beside the Sea of Galilee, he saw two 
        brothers, Simon called Peter and his brother Andrew. They were 
        casting a net into the lake, for they were fishermen.
        Genesis 25:27
        The boys grew up, and Esau became a skillful hunter, a man of 
        the open country, while Jacob was a quiet man, staying among 
        the tents.
    As you can see we have a long and storied history of sportsmen-
related activities; however, everyday those traditions are threatened 
by those in the conservation community who are ill-informed and spread 
misinformation about the facts of hunting, fishing, and other sporting-
related activities.
    That's why it is so important to help fund hunting and fishing 
related wildlife conservation education programs; that's why we must 
ensure that the age of hunters does not continue to rise. The reason 
the age has risen in many states is the direct reflection of our 
inability to educate our children and offer them outdoor activities 
beyond the baseball diamond and the playground.
    I believe that Title III of your legislation can help fill the gap. 
For too long, the Federal Government and private industry have not 
adequately addressed the needs of State Fish and Wildlife Departments 
with regard to wildlife conservation and education projects. I believe 
both need to step up to the plate.
    Mr. Chairman, I submitted to you a letter back in September of 1998 
regarding your commitment to working to address concerns in Title III 
raised by some in the conservation community. I believe your comments 
demonstrate your commitment to working with the individual state fish 
and wildlife agencies to adequately address their needs.
    I would like to submit your letter for the record and read a few 
key sentences:
        Young Letter to Chambliss, September 9, 1998:
        ``. . . [Congressman Chambliss] your letter aptly points out 
        that while the goal of our proposal is similar to Teaming with 
        Wildlife (TWW), our approach and funding mechanism are 
        different. I share your interest in increasing funding to our 
        State Fish and Wildlife departments for conservation and 
        education efforts, as TWW purported to achieve. However, I also 
        share your pragmatic concerns with the way TWW obtained funding 
        to achieve that end.
          The proposal contained within Title III of our proposal, in 
        my opinion, not only achieves the goals contained within TWW, 
        but surpasses them. This proposal gives a State Fish and 
        Wildlife Department broad discretion in achieving the 
        individual goals to conserve wildlife within their state. 
        Pittman-Robertson was chosen because it is an existing 
        statutory mechanism which has successfully distributed funds to 
        states for almost 60 years. Also, Pittman-Robertson currently 
        contains language which allows a state the latitude to fund 
        both game and non-game programs. However, we all recognize that 
        this money has been primarily focused on programs directly 
        supporting game species. It is for that reason that our 
        proposal contains language to make it clear that these new 
        funds are to be used on wildlife (both game and non-game).''
    I read your letter in a speech to the 88th Annual Conference of the 
International Association of Fish and Wildlife Agencies. I think your 
position was clear then as it today. I am thankful that the 
conservation community recognizes that wildlife conservation and 
education projects should be decided at the state level and the state 
agencies should be given the flexibility to use funds for game or non-
game purposes rather than have the Federal Government make that 
decision for them.
    I know folks in Georgia and around the country will benefit from 
this legislation because it provides a steady, dependable revenue 
stream; it helps fund both game and nongame wildlife conservation 
programs; and it provides the states' the flexibility to tailor their 
funding priorities to suit their individual needs.
    One of the most exciting parts of this bill I'll be working on is 
wildlife-associated education. We need to ensure that our future 
generations are educated about wildlife and recognize that hunting and 
fishing are vital conservation management tools. I look forward to 
working closely with Mr. Young on this issue to ensure that the 
criteria for such wildlife education projects will help accomplish 
this.
    Helping replenish renewable resources with funds derived from 
nonrenewable resources is good policy--and CARA accomplishes this while 
not raising taxes one penny!
    Thank you again Mr. Chairman for allowing me to testify before your 
Committee today.

                 Letter from Mr. Young to Mr. Chambliss

The Honorable Saxby Chambliss
1019 Longworth Building
Washington, DC 20515

Dear Congressman Chambliss:
    Thank you for your September 4, 1998-letter regarding the proposed 
Conservation and Reinvestment Act of 1998, specifically Title III.
    As you know, this proposal is currently in the discussion stage 
where we are soliciting comments to better the proposal as we move this 
important legislation forward. To date, we have received numerous 
comments regarding the wildlife conservation provisions contained 
within Title III. I appreciate your participation in this important 
effort and the efforts of Mr. Waller, whose insights have been 
invaluable while working with the stakeholders to the Teaming with 
Wildlife (TWW) proposal. I hope that with your and Mr. Waller's 
assistance we can keep the TWW coalition whole and work together as we 
move forward to achieve our common goals.
    Your letter aptly points out that while the goal of our proposal is 
similar to TWW, our approach and funding mechanism are different. I 
share your interest in increasing funding to our State Fish and 
Wildlife departments for conservation and education efforts, as TWW 
purported to achieve. However, I also share your pragmatic concerns 
with the way TWW obtained funding to achieve that end.
    The proposal contained within Title III of our proposal, in my 
opinion, not only achieves the goals contained within TWW, but 
surpasses them. This proposal gives a State Fish and Wildlife 
Department broad discretion in achieving the individual goals to 
conserve wildlife within their state. Pittman-Robertson was chosen 
because it is an existing statutory mechanism which has successfully 
distributed funds to states for almost 60 years. Also, Pittman-
Robertson currently contains language which allows a state the latitude 
to fund both game and non-game programs. However, we all recognize that 
this money has been focused primarily on programs directly supporting 
game species. It is for that reason that our proposal contains language 
to make it clear that these new funds are to be used on wildlife (both 
game and non-game).
    I recognize that most states are requesting additional funding to 
address non-game funding demands. This proposal allows these states to 
utilize this new funding for those purposes. The proposal takes the 
approach that an individual state knows what is best for its wildlife 
conservation efforts and should be given the flexibility to address 
their needs. Additionally, we are currently in the discussion phase and 
look forward to working with the states as well as the conservation 
community to make changes to accomplish our common goals.
    We are currently in an important process in shaping a wildlife 
program for the benefit of our Nations' valuable wildlife resource. I 
look forward to working with you and appreciate your correspondence and 
insight on this issue.
            Sincerely,
                                                 Don Young,
                                                           Chairman

    Mr.  Young. Thank you, Saxby, and welcome to the witness 
table after yesterday's snow delayed you, we're glad to have 
you here. We have a small problem in this legislation, I want 
everybody in this room to know, concerning the budget. I know 
you have been working very closely to try to explain the 
importance of this to the leadership, and we will continue to 
try to build fires to make sure this becomes a reality. You 
have done quite well, and I do appreciate your testimony and 
support of this legislation. If it was not for you and Mr. 
Waller, I probably would not have become so enthusiastic about 
this project. You have educated me well, and so I do thank you.
    Mr. McGovern, I also thank you. I would like to say, 
though, before I continue and pass it over to the gentleman 
from California, Governor Geringer could not make it today, his 
flight was canceled, but I will submit his written testimony in 
support of the bill.
    [The information may be found at end of hearing.]
    Mr.  Young. Governor Carper has been delayed, he will be 
here about two o'clock, and he will be able to testify at that 
time. And I do apologize for everybody that expected the 
Governors to be here, but we can't also control the weather. 
But, thanks, both of you. The gentleman from California.
    Mr. Miller. Thank you, and I just want to thank both of our 
witnesses and our colleagues for being here. I think it shows 
the breadth of support that we have in the House for this 
legislation, and I think we can overcome some of the hurdles 
that we have before us. And I want to thank you both for your 
effort in helping to draft these proposals, and look forward to 
continuing to work with you.
    Mr.  Young. Any other comments, statements, questions?
    [No response.]
    If not, I want to thank the panel again for being here. 
Thank you very much.
    The second panel will be the Honorable Malcolm Wallop, and 
he is not here yet but he will show up; the Honorable Ron 
Marlenee, Safari Club International from Bozeman, Montana. The 
Honorable Javier M. Gonzales, Commissioner, Santa Fe County, 
Representing The National Association of Counties, Washington, 
DC Pietro Parravano is not here. He will be here, hopefully, 
later on, and we will put him on the witness list then. Sarah 
Chasis, are you here? Why don't you come on down. It is amazing 
what eight inches of snow will do to the East Coast. I mean, we 
only had 54 inches in Anchorage this last month.
    Mr. Miller. This is a mixed and matched panel this time.
    Mr.  Young. That is all right, this makes it fun. All 
right.
    This is Panel II and, Mr. Gonzalez, we will let you go 
first, if you are ready. Welcome.

 STATEMENT OF HON. JAVIER M. GONZALES, COMMISSIONER, SANTA FE 
  COUNTY, REPRESENTING THE NATIONAL ASSOCIATION OF COUNTIES, 
                         WASHINGTON, DC

    Mr. Gonzales. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Committee, my name is Javier Gonzales. I am a 
Commissioner from Santa Fe County, New Mexico, and I am here 
today representing the National Association of Counties in my 
capacity as Second Vice President. I will summarize my prepared 
statement focused on CARA 1999, and I ask that the full text be 
included in the record.
    Mr. T4 Young. Without objection, so ordered.
    Mr. Gonzales. NACo is pleased to testify on behalf of this 
important bipartisan bill that, if enacted, will have a very 
positive effect on our Nation's counties and communities. This 
bill present an exciting opportunity because of the genuine 
support from such a broad range of interests and the fact that 
the Administration, the U.S. Senate, and this Committee have 
very similar proposals. Each bill uses OCS revenue as the 
source for funding the distribution proposed by this 
legislation, and each has similar uses in mind. I need not 
remind you that the potential budget pitfalls are significant 
and creative solutions need to be found.
    At our recent Legislative Conference, our Board of 
Directors adopted a resolution in support of the concepts 
embodied in the CARA legislation. Our resolution states: ``NACo 
strongly supports the principles of the Conservation and 
Reinvestment Act of 1999 that would reallocate Outer 
Continental Shelf oil and gas revenues to the LWCF, a coastal 
state revenue sharing program, add funding to the Urban Park 
and Recreation Recovery program and establish an innovative 
procedure for adding funding for the Payments In Lieu of 
Taxes--that is the PILT program--in addition to annual 
appropriated funds.
    NACo will advocate a change in the stateside program to 
allow counties to directly apply for LWCF grants and provide 
authority for innovative and flexible methods for utilization 
of these grants such as ``a leasing program, rather than 
outright purchase of land that removes them from tax roles.'' I 
believe this statement of policy is very unambiguous.
    We also have another resolution, Mr. Chairman, one that was 
passed in July 1998, supporting OCS revenue sharing with 
coastal states, and one of our key principles for 
reauthorization of the Endangered Species Act parallels H.R. 
701's section on Habitat Reserve Program. I believe it is clear 
why NACo supports the concepts of this legislation.
    Let me take a few moments to comment on some of the issues 
surrounding this legislation. First, NACo is very pleased that 
the authors have chosen to recognize the significant impact OCS 
development can have on coastal counties and have taken steps 
to assure that any shared revenue from OCS development is 
shared with coastal counties.
    Second, the bill acknowledges the need to fund the 
stateside portion of the LWCF and would assure that counties 
would share the revenues set aside of the states. It would be 
preferable to have counties be able to utilize their share of 
the Fund without having to work within the mandated structure 
of a state plan, but we believe an acceptable approach can be 
worked out during deliberations on the bill. We also believe we 
need to look at innovative approaches, such as conservation 
leasing to meet the goals of the LWCF without removing land 
from the tax roles.
    Third, the innovative approach to adding money to the PILT 
program in Titles I and II should be applauded and the authors 
should be commended for recognizing the need to fund the PILT 
program at reasonable levels. Let me share with you some 
interesting facts from a soon-to-be-released PILT study by the 
Federal Government:
    Overall PILT payments are about $1.31 per acre less than 
the property taxes that would be generated. PILT entitlement 
lands in the sample counties would have generated an average of 
$1.48 per acre if taxed by the county, but PILT payments only 
amount to an average of 17 cents, only 11 percent of the 
potential tax bill.
    To fully fund PILT another $200 million would have to be 
added to the $125 million currently appropriated. Mr. Chairman, 
at this time, there was a typo in the text testimony that we 
presented. I would ask that the $100 million be changed to $200 
million for the record.
    Third, to achieve overall PILT/tax equivalency, another 
$696 million would have to be added to full funding of the PILT 
program and, even then, 18 percent of the counties would not be 
equivalent.
    In the case of the East, taxes would exceed PILT payments 
by over 1,000 percent. Counties in the Interior West responded 
that moderate or substantial costs were imposed by the presence 
of Federal lands, particularly in the areas of search and 
rescue, law enforcement and road maintenance.
    Fourth, NACo, through its Large Urban County Caucus, 
applauds the inclusion of funding for the Urban Parks and 
Recreation Recovery Act. Parks and open space are important 
factors in improving the quality of life in America's urban 
counties.
    Fifth, NACo also supports the additional funding for the 
Pittman-Robertson Act, but we believe counties should play a 
larger role in the allocation and utilization of the 
disbursements.
    Mr. Chairman, this concludes my testimony. I would like to 
thank you and the Members of the Committee for your interest in 
the needs and concerns of America's counties. We stand ready to 
work with the Committee, the Senate, and the Administration to 
hammer out an acceptable bill that will set the tone for 
conservation in the 21st century. Thank you.
    [The prepared statement of Commissioner Gonzales may be 
found at the end of the hearing.]
    Mr.  Young. Thank you. Mr. Marlenee, because you are on the 
second panel, you will go next.

  STATEMENT OF HON. RON MARLENEE, SAFARI CLUB INTERNATIONAL, 
                        BOZEMAN, MONTANA

    Mr. Marlenee. Well, Mr. Chairman, and Ranking Member George 
Miller and Committee Members, it is a pleasure to be here with 
you once again.
    SCI is an organization of several thousand sportsmen across 
the United States and the world. We are as concerned with 
conservation and propagation of wildlife as we are with 
hunting. We know that there has to be habitat in order that we 
have wildlife of all sorts.
    We have examined both bills before you. Let me say that in 
our opinion, not since Pittman-Robertson and Wallop-Breaux has 
legislation been considered that would have such a profound and 
long-term effect on wildlife. Sportsmen and women have been 
pouring millions of dollars in the past into wildlife and 
wildlife habitat. It has resulted in one of the greatest 
success stories known to outdoor recreation.
    In recent years, this effort has been diluted and drained 
of funds by mandates and requirements of the Federal 
Government. Trying to keep up with funding the Endangered 
Species, Coastal Protection, and other programs, state wildlife 
agencies are having shortfalls that force them to dip into 
funds that sportsmen have paid into to enhance wildlife 
populations.
    Bill 701 by Congressmen Young and Dingell and others could 
well be termed a partial solution for unfunded Federal 
mandates. These new funds that H.R. 701 creates will be 
available to state fish and wildlife agencies for conservation 
of game and non-game wildlife, endangered species, as the 
states deem appropriate.
    Using OCS money, Title III of H.R. 701 will expand state 
wildlife conservation efforts and allow state agencies to work 
with all types of government and private landowners to achieve 
specific goals in virtually all areas of wildlife conservation, 
healthy habitat, and a diversity of wildlife.
    During the 104th and 105th Congress, a concept to increase 
funds available to states for wildlife conservation was 
conceived as a new and additional excise tax on all outdoor 
recreation equipment. However, this idea, called ``Teaming with 
Wildlife,'' was never introduced as legislation.
    Although SCI supported the general concept of providing 
funds to the state agencies for wildlife conservation, we could 
not support the TWW approach. A new tax of any kind was 
unlikely to become law. In addition, the TWW draft would have 
forced the states to use most of the funds for non-game 
wildlife and outdoor recreation activities, regardless of state 
needs. We feel that it is critical to leave the decision to the 
state wildlife agencies. The TWW proposal would have been an 
incentive to spend valuable taxpayer money on unwanted, or 
perhaps even unnecessary, programs. However, H.R. 701, 
introduced by Young and Dingell, corrects that.
    In the 105th Congress, Chairman Young found a way to 
achieve the important goals of state funding for wildlife 
conservation without imposing the excise tax, or without 
robbing the state fish and wildlife agencies of the discretion 
to make professionally sound decisions.
    As one of the leading organizations representing sportsmen, 
SCI supports Mr. Young and the co-sponsors of the Conservation 
and Reinvestment Act. H.R. 701 is a focused and carefully 
crafted effort. It is an effort to solve a few important needs 
whereas H.R. 798, although well intentioned, is an 
inappropriate approach that reaches into new programs and 
appears to expand other programs. It circumvents the committee 
process by pouring money into programs that have not been 
authorized, approved, or debated.
    And I could name a few of those programs. Both bills deal 
with the acquisition of property. While this is not the primary 
expertise or interest of SCI, many concerns about these 
provisions have been expressed to us both from within and 
without our organization.
    Mr. Chairman, we appreciate your sensitivity to those 
concerns, and we feel that your Bill 701 contains provisions 
intended to guard against undue infringement on private 
property rights. As a matter of fact, Mr. Chairman--as a matter 
of fact--the League of Private Property Voters has published a 
rating of Members of Congress for 1998, and I am sure you will 
remember that rating because your beaming face shines out from 
the inside pages as a 100-percent protection of private 
property rating with the League of Private Property Voters. I 
would hope, Mr. Chairman, that this publication would be 
included in the record along with my statement.
    Mr.  Young. Without objection.
    [The information may be found at the end of the hearing.]
    Mr. Marlenee. In closing, Mr. Chairman, we would like to 
congratulate you for recognizing the need to provide more 
funding for the state fish and wildlife agencies and for 
finding an inventive way to accomplish that goal. We believe 
your bill appropriately recognizes the primary role of the 
states and their professional wildlife agencies in wildlife 
conservation.
    [The prepared statement of Mr. Marlenee may be found at the 
end of the hearing.]
    Mr.  Young. I thank my good friend, Ron Marlenee, for his 
testimony, and it was all handwritten, I want everybody to 
notice that. It was not typed out or used on a fancy machine, 
so there is a little bit of sincerity put in this, which I 
deeply appreciate.
    Ms. Chasis, you are next.

 STATEMENT OF SARAH CHASIS, SENIOR ATTORNEY, NATURAL RESOURCES 
              DEFENSE COUNCIL, NEW YORK, NEW YORK

    Ms. Chasis. Thank you, Mr. Chairman, and I would ask that 
my full written statement be accepted into the record.
    Mr.  Young. Without objection, so ordered.
    Ms. Chasis. I also wanted to thank you, Mr. Chairman, for 
accommodating me. I tried like the devil to get here yesterday. 
It took me eight hours to get from New York to Washington, and 
I appreciate your putting me on a panel today.
    My testimony focuses on the Outer Continental Shelf Impact 
Assistance Title of H.R. 701, and the Living Marine Resources 
Title of H.R. 798.
    In our view, the overarching goal for the Coast and Ocean 
Title of these bills should be protection and restoration of 
our Nation's fragile, but extremely valuable, coastal and 
marine resources which are increasingly under pressure from a 
variety of forces. In achieving that goal, five principles 
should be closely adhered to.
    First, the legislation should not provide incentives for 
new leasing or new drilling. This should apply to all Titles of 
the legislation, not just the coastal or OCS impact assistance 
Title.
    Second, the state or local share of money should not be 
tied to the acceptance of new or closer leasing or drilling.
    Third, money that goes to the states and local governments 
should be spent on environmentally beneficial projects.
    Fourth, there should be Federal agency oversight of how 
money is spent to ensure compliance with Federal environmental 
laws.
    Fifth, any offsets should not come from existing 
environmental programs.
    While we very much appreciate, Mr. Chairman, the 
improvements that you have made to Title I of H.R. 701, we feel 
still that the principles enunciated just now have not been 
fully complied with.
    In contrast, H.R. 798 adheres to these principles very 
closely. As a result, we support H.R. 798, but must continue to 
oppose H.R. 701 unless and until the concerns we have raised 
are satisfactorily resolved.
    H.R. 701 includes revenues from new leasing and new 
drilling as a funding source for all Titles of the bill, except 
that revenues from leased tracts in areas under moratorium are 
excluded from Title I. That is a crucial improvement, and we 
appreciate that.
    However, that same language needs to apply to both Titles 
II and III, and we are in receipt of a letter from the Chairman 
indicating an interest and willingness to work on correcting 
that for Titles II and III, and we appreciate that and look 
forward to working with you on that.
    The improvement in Title I, however, remains incomplete 
because revenue from new leasing and drilling in sensitive 
frontier areas, such as Alaska, would be used to fund the 
Title. In addition, revenues from drilling on existing leases 
off North Carolina, the Florida Panhandle, and Central 
California, may possibly be used to fund Title I. The bill is 
not clear on this point, and we seek clarification.
    We believe that to address this problem, the legislation 
should define the term ``qualified Outer Continental Shelf 
revenues'' in the definition section, to exclude revenues from 
new leasing and new drilling after the date of enactment of the 
legislation. This is contained in Mr. Miller's bill, the 
Resources 2000 legislation.
    Fifty percent of the state's allocable share under H.R. 701 
is dependent on its being within 200 miles of a leased OCS 
tract. The more production on such tracts and the closer in to 
shore these tracts are, the more money the state gets. An 
improvement in this section of the bill is the exclusion of 
moratoria tracts from this calculation. However, the language 
is ambiguous with respect to whether existing leases in 
moratorium areas that are not covered by the moratorium would 
be also excluded. These tracts, development of which is very 
controversial, should be excluded, in our view.
    Moreover, new leasing and drilling outside moratorium 
areas, including sensitive frontier areas off Alaska, would 
still be factored into the allocation formula, thus providing a 
significant incentive for allowing such activities to proceed.
    We favor a formula that is based on population and 
shoreline miles. If OCS activity is to be a factor in the 
allocation formula, we think it should be based on past 
historic activity and not tied to new leasing and drilling.
    Another concern is the method of allocating funds to local 
jurisdictions. Fifty percent of a state's share goes directly 
to eligible local political subdivision. A locality with OCS 
leasing off its coast is entitled to share in 50 percent of the 
state's share, with its share increasing the closer the leased 
tracts are. Localities with no leasing are not entitled to any 
share of the state's allocable share. Obviously, this creates a 
major incentive for localities to accept new OCS leasing.
    The uses of the money in H.R. 701 authorized in section 104 
do not ensure that environmental degradation does not take 
place. Their focus is not on restoring the environment or 
ensuring activities do not further degrade the environment. 
While states may use funds for such purposes, there is no 
requirement that they do so.
    The Secretary is given no authority to review and approve 
state plans. The lack of Federal oversight combined with the 
broad uses to which the funds may be put and the large Federal 
dollars involved mean that environmentally damaging projects 
could well be funded under this Title of the legislation.
    With respect to H.R. 798, we strongly support it because it 
adheres to the principles we think should govern this 
legislative initiative. The bill specifically excludes revenues 
from new leasing and production as a funding source for the 
bill. In Title VI, the bill does not allocate revenues among 
states or local jurisdictions based on proximity of leased 
tracts or production.
    Finally, the bill requires that the money be spent on the 
conservation of living marine resources, not on activities that 
could contribute to further environmental degradation.
    We very much appreciate this opportunity to testify and 
look forward to working with the Committee on this important 
legislation.
    Thank you.
    [The prepared statement of Ms. Chasis may be found at the 
end of the hearing.]
    Mr. Tauzin. [presiding] Thank you, Ms. Chasis.
    The Chair thanks the panel for their testimony, and the 
Chair will now recognize himself and other Members for five 
minutes.
    Let me first thank you, Mr. Gonzales, on behalf of the 
sponsors of our legislation, and NACo, for their support. You 
mentioned some recommended changes to the Land and Water 
Conservation Fund, and in that context you mentioned 
``conservation leasing.'' Are there other changes you would 
recommend?
    Mr. Gonzales. Mr. Chairman, at this point, no, we don't 
have any other changes, but we would work with the Committee 
for any proposed other changes that you would recommend.
    Mr. Tauzin. Again, we thank you for your support, and we 
will continue that dialogue if there are other discussions you 
would like to have.
    Mr. Gonzales. Thank you, Mr. Chairman.
    Mr. Tauzin. Mr. Marlenee, we have been requested by a 
number of organizations to restrict the emphasis in Title III 
funds in their use on non-game programs. I understand you 
disagree with this. Could you give us an explanation of why you 
feel this is not in the best interest of the states?
    Mr. Marlenee. I am sorry, Mr. Chairman. Having forgotten my 
hearing aids, I have not been listening intently.
    [Laughter.]
    I am sure it is not the first time somebody did not listen 
to you.
    Mr. Tauzin. It is an old habit you have retained from your 
membership in this body. I was asking you, in regard to the 
requests we have gotten from several organizations to restrict 
the emphasis, that Title III funds should be used on non-game 
programs. I understand you disagree with that, and I just 
wanted to get your take on it.
    Mr. Marlenee. We feel that the states should have the 
opportunity to make the decision--game, non-game--and not have 
the Federal Government or not have legislation mandate that 
non-game species be singled out for a funding-specific funding. 
So, we feel that H.R. 701 does the balance and allows the 
states to do that.
    Mr. Tauzin. Ms. Chasis, let me engage you a bit. I want to 
thank you for, first of all, your acknowledging that there has 
been a great deal of work and conversation between the Chairman 
and the sponsors and your organization.
    In the first Green Group letter, the only request made, I 
understand, of the sponsors of our legislation, was for the 
language prohibiting the use of ``no funds from areas under 
drilling moratorium'' under Title I, and that is now in the 
bill, as I understand it.
    Since that time, we understand that the Green Group 
indicated they would like similar language regarding the other 
three titles of the bill. I want to emphasize the Chairman and 
the other sponsors have agreed to work that with you. If we do 
that, if we have all this language that says from Title I 
through Title III no funds are going to come from areas under 
drilling moratoria, how does the bill possibly serve as an 
incentive for lifting moratoria?
    Ms. Chasis. Well, if the correction is made for Titles II 
and III, that would be a big help. The allocation formula is 
also a problem, although the change made there is also very 
helpful. But for example, for local jurisdictions, they get to 
share in 50 percent automatically of the state's allocable 
share if they are within 200 miles of a leased tract. That does 
not exclude moratoria tracts.
    So, that is another part of the bill that needs fixing in 
terms of the moratorium.
    Mr. Tauzin. In that area of your concern about proximity to 
production in the allocation of funding, you also make, I 
think, a very correct statement that Title I funds should be 
used to mitigate the OCS production. Obviously, in our own 
state, we argue about how much of a deterioration of coastal 
wetlands is attributable to natural forces, how much is 
attributable to canals and other pipelines that have been laid 
to support the Offshore industry. But there clearly is--in 
fact, Jack Caldwell, yesterday, when you were not here, 
presented some pictures indicating some very clear ties between 
that development and the loss and degradation of those lands.
    If, in fact, the money should be used to mitigate problems 
associated with near-shore production, I am having a great deal 
of difficulty understanding your concern that the money should 
be distributed on that basis. If, in fact, it is going to be 
used for that purpose, should it not be distributed on that 
basis?
    Ms. Chasis. Our concern is we think where there has been 
past harm that has occurred from OCS activity, it is 
appropriate for funds to go to mitigate those impacts, 
particularly if it is done in an environmentally sensitive way. 
We do not want the availability of the money, though, to serve 
as an incentive----
    Mr. Tauzin. You do not want the incentive problem.
    Ms. Chasis. Exactly.
    Mr. Tauzin. I understand. Finally, you mentioned the 
Federal Government oversight. As I read the bill, the Federal 
Government is involved in every Title. I mean, obviously, the 
Federal Government does not have a veto power over the state's 
use, but it is involved in every Title, in some cases by 
partnership with the state and local governments, in other 
areas as the advisor to the state and local government. That is 
not enough for you? You want the Federal Government to tell the 
states exactly what they have to do? What is your complaint 
there?
    Ms. Chasis. We think in Title I, all that happens is the 
state certifies the plan to the Secretary of Interior. There is 
no opportunity for the Secretary to review and approve the 
plan, and there is a huge amount of money involved, a broad 
array of uses, and we think to ensure that Federal 
environmental laws are adhered to, there needs to be that kind 
of review.
    Mr. Tauzin. I understand. I just make the point that the 
states have to obey Federal law just like we do. And I would 
find it rather strange that the states would submit a plan to 
the Secretary that would be violative of the Federal law, but 
we can discuss that as we move along.
    The Chair now yields to the gentleman from Louisiana, Mr. 
John.
    Mr. John. I just have a couple of brief comments and a 
question for Mr. Gonzales. You mentioned an interesting concept 
that is not in either one of the bills and, if you could 
explain it a little further, it may give me a better 
understanding and the Committee a better understanding, of what 
exactly you are talking about when you refer to conservation 
leasing.
    Neither one of our bills address that and, obviously, one 
of the concerns of both of our bills is the fact of the 
addition of more land through the Land and Water Conservation 
Fund, has been opposed by lots of groups. Tell me a little bit 
about your experiences with conservation leasing.
    Mr. Gonzales. Mr. Chairman, Congressman John, conservation 
leasing is an innovative approach to where you do not, 
hopefully, remove lands from the tax roles. As you know, in 
local government we are very dependent, especially at the 
county level, and reliant on property taxes as a means for us 
to generate revenues and there, in turn, supply services to our 
communities. So, the hope would be as we move possibly to 
looking at acquiring some of these lands, that we would do it 
through the Lease Conservation Program so we do not take them 
off the private tax roles and onto the public where we cannot 
generate any taxes.
    Mr. John. That is a real interesting concept because the 
goal in both scenarios, whether the purchase of land or the 
actual leasing of it, is to conserve open spaces. This is an 
interesting concept that I will take to heart and maybe factor 
into some of the other discussions we have thoughout the day.
    My next question is addressed to Ms. Chasis. You made 
several interesting comments, but most of them were directed 
toward your concerns about drilling incentives. I think that it 
is apparent in both bills in a lot of ways that we have gone 
very far to make sure that this legislation is in no way, shape 
or form about drilling incentives, and we have really talked a 
lot about that because we believe that in the past the 
incentives issue has been the nail in the coffin for other 
pieces of legislation that have focused on reserve sharing and 
impact assistance.
    Your comments talked about the new leasing and the 
moratoria, and you talked about only past leases in history. 
Does that mean to me that only the production and the royalties 
and the leases in the Gulf of Mexico would be contributing to 
Title I?
    Ms. Chasis. Well, our position is that revenues from new 
leasing and production should be excluded from the revenue 
stream.
    Mr. John. But does that mean that only monies from the Gulf 
of Mexico drilling would be deposited as Mr. Miller suggests in 
his proposal, H.R. 798?
    Ms. Chasis. That is not how we have articulated it. It 
would be whatever existing leasing and production there is as 
of the date of enactment.
    Mr. John. In the present situation of the Land and Water 
Conservation Fund as it is today, do you believe that the LWCF 
has proven to be an incentive for drilling because that is tied 
to OCS funds?
    Ms. Chasis. I do not believe so, but the amount of money 
that has actually been appropriated there, as you know, has 
been much less than what is authorized, or than what would be 
spent under this bill. I mean, this bill is talking, for 
example, about $1.4 billion, according to MMS, for Title I 
alone. So, we are talking about a lot more money, and when we 
are talking about a lot more money there is the much greater 
potential for incentives.
    Mr. John. And, finally, as a follow-up, do you believe that 
a motivating factor in an oil and gas business' decision to 
invest multi-million dollars into drilling and OCS production, 
would be the fact that the state would receive some money from 
Title I of CARA 701? Would that lead an oil company to say, 
``Well, I think I am going to go drill because the state wil 
receive funding''--or the state says, ``I think we are going to 
do this because we receive some Federal dollars''--and that 
will be a determining factor in whether the drilling company 
decides to spend hundreds of millions of dollars to go out and 
explore for oil?
    Ms. Chasis. I think our principal concern is the incentive 
to state and local governments saying, ``The only way you are 
going to get a significant amount of money is to accept new 
drilling and leasing.'' We would rather see the money spent for 
the uses, but not tied to that incentive.
    Mr. John. So your concern is that a state or--maybe not a 
local government, but a state--may somehow, in their state 
legislature, provide some kind of drilling incentives, whether 
it is tax incentives or something--in some kind of way entice 
companies to come into that area because the state may benefit 
with some of that.
    Ms. Chasis. Yes, but I think local governments are also an 
important component because often a relatively small amount of 
money can make a big difference to them. And if they see that 
they are going to get double the money they would otherwise get 
by accepting new leasing, then that is going to be a 
temptation.
    Mr. John. Well, it is my past experience that when an oil 
production company makes a decision to drill, there are a lot 
of other factors, and I do not believe that this will be one of 
them in any kind of way. And, secondly, we have worked very 
hard with a variety of environmental organizations because we 
understand the sensitivity of that issue.
    And we will be glad to work with you as we go through this 
bill, to make sure that that is done because in no way, shape 
or form do we want to provide this as an incentive because, 
frankly, the oil and gas companies do not have a dog in this 
fight. I mean, this is about the dollars that they are 
presently paying, and this is about whether we use these funds 
to save our coastline, which NRDC should support as a top 
priority; especially when in Louisiana we are losing lands that 
are of great environmental value.
    Mr. Tauzin. The gentleman's time has expired. The Chair 
recognizes the gentleman from Maryland, who I think wants to 
yield to the gentleman from California.
    Mr. Gilchrist. I yield to the gentleman from California.
    Mr. Miller. Thank you very much. I wanted to ask a quick 
question because I am afraid I am going to have to offer my 
amendment on the floor after this vote.
    Sir, I want to thank you for being here. I know it took you 
over eight hours or something to get here to Washington.
    One of the differences in the two bills is we have a set-
aside fund, if you will, for marine resources, and I wonder if 
you just might address that, the importance and what 
alternative funding there would be if you did not have this 
kind of set-aside.
    Ms. Chasis. We think that is extremely important. The 
living marine resources, those are the resources that are under 
tremendous pressure now from a variety of sources, offshore 
drilling being one of them, but also pollution, over-fishing, 
habitat degradation, and we think having a specific set-aside 
of $300 million, which is in your bill, is extremely important 
in terms of enhancing and ensuring the long-term sustainability 
of those resources. And there currently is not the kind of 
funding available through the appropriations process to----
    Mr. Miller. There is really no dedicated----
    Ms. Chasis. There is no dedicated money to do that, as 
compared to on-shore with wildlife and other programs. So, I 
think we see that as an absolutely crucial part of the overall 
approach, and would urge the Committee to look to that and take 
that.
    Mr. Miller. Thank you. And, again, thank you very much for 
all your effort to get here and to testify, it has been 
helpful. Thank the other panelists.
    Mr. Tauzin. The Chair would equally emphasize our 
appreciation. Cajuns have a hard time getting through snow, 
maybe even harder than New Yorkers.
    We have two 15-minute votes on the floor. I can do one of 
two things: We can dismiss this panel and move to the next, or 
I can hold the panel until we get back. I am seeking some 
guidance from the Members. What would you like? Mr. Udall? The 
gentleman is recognized.
    Mr. Udall of New Mexico. Thank you. I would just, first of 
all, thank the panel for your testimony here today, and 
recognize the County Commissioner, Javier Gonzales, from the 
Third Congressional District in New Mexico. He is a rising 
young star in New Mexico politics and now, as I see, is going 
to be in two years the President of the National Association of 
Counties----
    Mr. Tauzin. I predict a future Congressman, myself.
    Mr. Udall of New Mexico. Well, that could be. That worries 
me every now and then, Bill, it worries me every now and then, 
but I want to say one thing. His comments--he is very 
consistent in terms of what he has done locally. In this last 
election, they had a $12 million bond issue to protect wildlife 
and create parks, so I think that effort was very important, 
and we look forward to working with you on these bills.
    And I would just like to say to your association, I know as 
you meet you are going to look further at both of the bills 
that are under consideration, and we hope that you will give us 
specific comments about how they can be improved and how we can 
partner with you in terms of these issues that are being 
addressed. Thank you very much, Mr. Chairman.
    Mr. Tauzin. Thank you. Any other Member, quickly, we have 
got to move to the vote. Mr. Udall?
    Mr. Udall of Colorado. Thank you, Mr. Chairman. That is not 
the first time my cousin has stolen all my time, but I just 
wanted to put a word behind this concept of agricultural 
easements and looking to NACo to help us understand this. In 
Colorado, there is a lot of pressure to maintain productive 
farmland and productive ranchland, and I think that is one of 
the very, very important parts of these bills. So, thank you 
very much for being here, to the whole panel.
    Mr. Tauzin. Thank you, Mr. Udall. Mrs. Christensen.
    Mrs. Christian-Christensen. Just to add my thanks to the 
panel for being here, and my support for the bill and my 
interest in working with you to make sure that this bill 
becomes a reality. And I would like to just enter my formal 
statement for the record.
    Mr. Tauzin. Without objection, so ordered.
    [The prepared statement of Mrs. Christian-Christensen 
follows:]

    Statement of Hon. Donna M. Christian-Christensen, a Delegate in 
             Congress from the Territory of Virgin Islands

    Thank you, Mr. Chairman for the opportunity to make a few 
opening remarks in general support of the bills before the 
Committee today. I want to begin by applauding you Mr. Chairman 
and Ranking Democrat Miller for once again recognizing and 
acknowledging the significant need for funding for recreation 
programs through the Urban Parks and Recreation Recovery 
Program (UPARR). While I am an original cosponsor of H.R. 798, 
I am pleased to note that even your bill, Mr. Chairman, would 
provide more than $100 million annually for this important 
program.
    I have always been a strong believer in the importance of 
providing recreational outlets for our young people. Because of 
this, I have been very disappointed that over the past several 
years no funds have been appropriated for the UPARR program. 
Two years ago, both this Committee as well as its Senate 
counterpart, held oversight hearings on the lack of funding, 
since FY95, for state grants. In my district, our local parks 
are in very serious disrepair and our young people have no 
where to go for recreation. Because the Virgin Islands 
government is laboring under severe financial constraints, 
there are no local funds available to address this situation. 
That is why I am excited and very hopeful about the prospects 
of the two bills before us today and I look forward to working 
with you Ranking Democrat Miller to make sure that we are 
successful in securing funding for the UPARR program this 
Congress.
    Thank you Mr. Chairman and I look forward to hearing from 
the witnesses.

    Mr. Tauzin. I thank the gentlelady. I want to submit for 
the record, without objection, the letter that Ms. Chasis 
referred to, to the Green Group, indicating our comments on the 
issue she has raised.
    [The information may be found at the end of the hearing.]
    Mr. Marlenee.
    Mr. Marlenee. I ask permission that my written text be 
included in the record.
    Mr. Tauzin. Absolutely, without objection. Mr. Marlenee, by 
the way, my dad had a hearing aid, and he used to turn it off 
on me a lot, too.
    [Laughter.]
    Mr. Tauzin. Again, thank you for your patience. We will 
reconvene as soon as these two 15-minute votes are over. The 
Committee stands in recess.
    [Recess]
    Mr. Tauzin. The Committee will come to order. We are going 
to try to move along in the hopes that other Members will 
arrive as we proceed. We will assemble the next panel which 
will consist of the Honorable David Cobb, Mayor of the City of 
Valdez, Alaska. Welcome, Mayor. I know Congressman Young would 
like to be here to welcome you. I think he is on extraordinary 
business right now. It must be serious stuff.
    We also have Mr. Mark Van Putten, President and CEO of 
National Wildlife Federation, Vienna, Virginia; Mr. Alan Front, 
Senior Vice President of The Trust for Public Land, San 
Francisco, California; and Mr. Thomas Cove, Sporting Goods 
Manufacturers Association in Washington, DC. Gentlemen, thank 
you for your patience. I apologize for the absence of Members. 
When we get in an afternoon session, when there is floor 
activity, it just gets difficult, I hope you understand, but 
your testimony will be made a public record, of course, the 
written testimony, and we would like you to engage 
conversationally as much as you can.
    We will begin with the Honorable David Cobb, Mayor of the 
City of Valdez. Welcome, Mayor.

  STATEMENT OF HON. DAVID COBB, MAYOR, CITY OF VALDEZ, ALASKA

    Mayor. Cobb. Thank you, Mr. Chairman. I first want to 
apologize for the weather yesterday.
    Mr. Tauzin. Is that Alaskan weather?
    Mayor. Cobb. I do want to thank the Honorable Mayor of 
Washington, DC for providing that weather so that we could feel 
right at home.
    Mr. Tauzin. Mayor, I want you to know I have seen Valdez. I 
have been to Alaska many times with my dear friend, Don Young, 
and it was never in Alaska as bad as it was here in Washington, 
DC.
    Mayor. Cobb. Mr. Chairman, my name is Dave Cobb, Mayor of 
Valdez, Alaska, home of the Trans-Alaska Pipeline Terminal. My 
testimony today is in support of H.R. 701, the Conservation and 
Reinvestment Act of 1999. This piece of legislation addresses 
the fundamentally important issues of enhancing the 
conservation and management of coastal areas, providing revenue 
for the Land and Water Conservation Fund, and for making 
funding available to enhance fish and game resources and 
management in all states.
    Today, I represent not only Valdez, Alaska, but Mayor Hank 
Hove, from the North Star Borough, Fairbanks, and also Mayor 
Naqeak, Mayor of North Slope Borough. Collectively, we three 
Mayors are what is fondly called in Alaska as ``The Trans-
Alaska Pipeline Corridor Communities.'' We have the entire 
pipeline within our jurisdictions.
    The City of Valdez supports this legislation to provide 
coastal impact assistance to state and local governments, to 
revitalize the Land and Water Conservation Fund Stateside 
Program, and to aid wildlife programs. We believe it is wise to 
re-invest revenues from all non-renewable natural resources in 
the resources that provide long-term public value.
    What is more important to me is the coastal impact 
assistance issue. The Federal Government has a responsibility 
to the states and local governments affected by the development 
of Federal mineral resources to mitigate adverse environmental 
and public service impacts incurred due to that development.
    While Valdez sets some 800 miles from the Outer Continental 
Shelf oil and gas developments, nevertheless, every drop of oil 
that comes off of those leases passes through our community. 
The impacts are real not only for water and sewer, for schools, 
this is the 20th anniversary--last year was--of the oil find on 
the North Slope. We will have the tenth anniversary this year 
of the infamous Exxon Valdez oil spill. The impacts continue. 
After 20 years, we still have major impacts on our communities.
    The revenues that come to Valdez in particular, and the 
other pipeline corridor communities, are based on ad valorem 
property taxes assessed on the pipeline itself. Those property 
taxes have declined by about 51 percent since 1990.
    What does that mean to a small community like Valdez of 
4,500 people? Within the next two years, my community will lose 
$1.2 million in revenues from those declines. The oil industry 
in Valdez, Alaska makes up about 80 percent of my tax base.
    Back during construction of the pipeline, Valdez was 
impacted with as much as 2,500 people to approximately 10,000 
people. That happened again in 1989 after the oil spill. We 
went, in a two-week time period, from about 2,800 people to 
10,000 people. You have to have infrastructure in place to take 
care of those situations. We put our infrastructure in place to 
support the industry. Now we must maintain and operate that 
infrastructure. We have spent approximately $150 million in 
infrastructure to mitigate public service impacts from the 
results of oil development in Alaska.
    The cost to maintain infrastructure and public service 
needs do not rise and fall with the price of oil. As I have 
stated, the property tax base has fallen 51 percent since 1990. 
Oil and gas properties are declining at a rate of 7 percent 
annually. I do not know of any other community, certainly in 
the State of Alaska, but pretty much anywhere else, where your 
annual revenues will decline at 7 percent.
    We have been frugal. We have tried to make the best of a 
bad situation. The upside, however, is the population of Valdez 
has increased 25 percent since 1980. We still provide services, 
port and dock services, police services, specialty training in 
bomb unit, terrorism and other security issues associated with 
the pipeline and the terminal. We provide fire service and 
equipment, petroleum firefighting apparatus. We have joint 
firefighting agreements between the Terminal because they sit 
inside the city limits of Valdez.
    In addition, under Title II the City of Valdez supports 
full funding of the Land and Water Conservation Fund at $900 
million, and full funding of the Stateside Program.
    State and local governments are integral components in 
meeting the Nation's outdoor recreation needs. It is 
unbelievable that even in Alaska we have recreational needs. We 
have a vast, humongous state with two of the largest national 
parks in the Nation. Primarily, one is fairly well developed, 
the other is undeveloped at all. We still have recreational 
needs for the millions of tourists visiting Alaska every year. 
Public access to recreation opportunities and facilities 
depends on a combined system of local, state and Federal sites 
and services.
    More than 367 projects have been constructed in 45 
different Alaskan communities and on state parks lands since 
the Land and Water Conservation Fund was established. Each of 
these projects plays a key role in meeting the outdoor 
recreation needs not only of our local citizens in our state, 
but our Nation as well.
    Valdez has more than $1 million of outdoor recreation 
projects that are eligible for LWCF Stateside funding. These 
projects include campground renovation, winter recreation 
facilities, parks, and beachfront access developments.
    One of the things that greatly affects Alaska, and in 
particular Valdez, is that we do not have much private land. 
Prince William Sound is pretty much all controlled and owned by 
the Forest Service. Some Native corporations own land but, for 
the most part, very little private land in Alaska.
    Other Alaskan communities such as Fairbanks, Unalaska, 
Sitka, Anchorage, Barrow and Juneau have more than $60 million 
in projects that need to be funded.
    Mr. Tauzin. Mayor, we ask you to kind of begin wrapping up, 
we are going to try to get other witnesses in. Mr. Pombo will 
sit in the chair just temporarily.
    Mr. Pombo. [presiding] Go ahead.
    Mayor. Cobb. I will go ahead and close. Our local 
communities have a long history of impacts on our communities, 
and the provisions provided under Title I are greatly needed.
    Thank you.
    [The prepared statement of Mr. Cobb may be found at the end 
of the hearing.]
    Mr. Pombo. Thank you.
    Mr. Van Putten.

STATEMENT OF MARK VAN PUTTEN, PRESIDENT/CEO, NATIONAL WILDLIFE 
                  FEDERATION, VIENNA, VIRGINIA

    Mr. Van Putten. Thank you, Mr. Chairman and Members of the 
Committee. I appreciate this opportunity to testify this 
afternoon on behalf of the National Wildlife Federation, 
America's largest conservation advocacy and education 
organization.
    I want to begin by congratulating the sponsors of H.R. 701 
and H.R. 798 for their tremendous leadership in introducing the 
two bills that are now pending before this Committee. If 
successful in passing a permanent conservation funding bill, 
your contribution would be a conservation milestone comparable 
to the passage of landmark laws like the Clean Air and Clean 
Water Acts, and the original Land and Water Conservation Fund.
    The National Wildlife Federation has made it our top 
priority to work with you to ensure that this victory is 
accomplished. One caveat: To realize the tremendous possibility 
posed by these bills, as Representative John pointed out 
earlier, it is vital that the final bill does not create 
perverse incentives for negative environmental impacts, the 
nail in the coffin, as he put it earlier.
    We are greatly heartened by the significant improvements 
that have been made to Title I of H.R. 701 to exclude areas 
currently covered by the oil and gas moratoria from the revenue 
stream. We thank you for that progress, and we look forward to 
working with you to ensure that any remaining incentives for 
increased oil and gas drilling are addressed before the 
Committee marks up the bill.
    As my written testimony indicates, the Federation has an 
active interest in many of the major issues associated with 
this bill, but I am going to focus my oral remarks on the 
wildlife component of the two funding bills because this has 
been a priority to the Federation since our role in the 
creation of the Teaming With Wildlife Coalition.
    Historically, fish and wildlife agencies have been 
responsible for managing and protecting the fish and wildlife 
that inhabit their borders. These efforts have yielded 
remarkable results, including the restoration of wild turkey, 
elk, black bear, and striped bass, to their native habitat; 
yet, the funds available to these agencies do not typically 
reflect their broad mandate, and the agencies must fill too 
often these difficult programmatic goals based on a limited 
budget.
    Traditionally, much of the funding for wildlife management 
has come from the support of sportsmen and women through excise 
taxes on hunting and fishing equipment and through the sale of 
sporting licenses. Consequently, it is not surprising that the 
vast majority of these resources have been used to manage game 
species; yet, roughly 90 percent of species, those that are not 
hunted or fished or federally listed as threatened or 
endangered--commonly referred to as ``nongame'' wildlife--
receive significantly less reliable and less financial support. 
Annual funding for all state nongame wildlife programs amounts 
to less than $100 million compared to the more than $1 billion 
spent for state game programs.
    It makes sense to prioritize the funding available under 
these bills to prevent the decline of nongame wildlife species 
before they reach a crisis point where most costly options are 
required.
    We greatly appreciate the efforts by the sponsors of both 
bills to include substantial and reliable funding for these 
agencies that would be dedicated to on-the-ground state 
wildlife conservation. We strongly urge you to prioritize this 
funding for the historically underfunded nongame wildlife 
programs.
    I would like to make a few observations specific to each of 
the pending bills. With respect to H.R. 701, I already 
mentioned our strong belief in the need to prioritize the 
funding for nongame wildlife bills. Given the longstanding 
emphasis state and wildlife agencies have placed on game 
species, this legislation should include that prioritization.
    Second, H.R. 701 does not provide a clear mechanism to 
ensure public participation in the process, and the bill should 
be amended to include language that provides for public 
meetings and citizen advisory committees.
    Third, and finally, we are concerned about some of the 
restrictions in Title II on the Land and Water Conservation 
Fund.
    With respect to H.R. 798, we commend the drafters for their 
creativity, but we are concerned that channeling these funds 
through the Fish and Wildlife Conservation Act rather than the 
Pittman-Robertson Act would create some administrative 
disadvantages. It may require the creation of a new 
administrative infrastructure for distributing the funds and 
may make it more difficult to provide oversight and 
accountability. We recommend using the proven mechanism of 
Pittman-Robertson.
    Second, this bill would not reach full funding of $350 
million per year until five years out. Delaying the funds for 
wildlife conservation will impair the ability of states to 
develop effective programs.
    Third, we recommend that funding levels for these state 
programs be increased by approximately $100 million to match 
the higher level in H.R. 701.
    Mr. Chairman and Members of the Committee, the National 
Wildlife Federation is resolved to work with you in crafting a 
final legislation that assures reliable, permanent funding for 
wildlife conservation, adequate emphasis on those species that 
have the greatest need and have historically been shortchanged, 
an effective mechanism for distributing funds, and reasonable 
Federal oversight and public participation. You have the 
opportunity to make a historic contribution to wildlife 
conservation in America, and we are dedicated to work with you 
to achieve that end. Thank you very much.
    [The prepared statement of Mr. Van Putten may be found at 
the end of the hearing.]
    Mr. Tauzin. Thank you very much, Mark, and, indeed, we will 
continue to dialogue as we go forward on the bills.
    Next is Mr. Alan Front, Senior Vice President for The Trust 
for Public Land, San Francisco, California. I am reminded, 
Alan, of your assistance to us in Louisiana on the black bear 
conservation issues, and I want to thank you for that. By the 
way, you are not related to Allen Funt, are you, with Candid 
Camera?
    Mr. Front. No, this is the correct spelling.
    Mr. Tauzin. Mr. Front.

 STATEMENT OF ALAN FRONT, SENIOR VICE PRESIDENT, THE TRUST FOR 
             PUBLIC LAND, SAN FRANCISCO, CALIFORNIA

    Mr. Front. Thank you very much, Mr. Chairman. I am pleased 
to be here today to represent The Trust for Public Land, a 
national not-for-profit land conservation organization that 
works with communities, landowners, and public agencies across 
the country, with diverse constituencies, willing sellers, and 
public agencies, to secure important lands of public interest 
and to make those lands available for public use and enjoyment.
    Mr. Chairman, if you can bear the weight of some additional 
appreciative laurels this afternoon, I would like to begin by 
expressing the Trust for Public Land's appreciation for your 
work and for the work of Chairman Young, the Ranking Member, 
Mr. Miller, your many respective co-sponsors, and the Members 
of this Committee, for advancing this important legislation at 
a time of critical need and particularly ripe opportunity.
    There has never been a more challenging time for our 
Nation's public lands either at the Federal level or at the 
state and local level, and the inclusive process that you and 
the Committee have engaged in really holds great promise for 
enacted legislation that we hope to be able to embrace and see 
you at the signing ceremony for.
    You have heard this morning on several panels about the 
need for additional conservation funding through the Land and 
Water Conservation Fund, through UPARR, and through some of the 
other mechanisms of these bills. I will not beat that horse, 
but I will share with you that with the Trust for Public Land's 
work on the ground with those communities, we have seen that 
need in the backlog of land acquisition, land protection, land 
restoration need.
    We have seen those needs expressed at the local level 
across the country, from the forest lands of Maine to the 
beaches of the Gulf Coast and Florida, and elsewhere, to the 
Swann Valley in Montana, to the watershed lands of the Wasatch 
Front, all the way to Hawaii where public lands are the life's 
blood and the mainstay of the tourist economy that keeps that 
state going.
    We are very pleased that both of these proposals, CARA and 
Resources 2000 which, I believe, in the Silicon Valley is 
called ``R2K''--we are pleased that both of those bills, both 
of the bills that you are considering today, meaningfully seek 
to address the shortfall in funding in these conservation 
programs to bridge the gap between the express need in 
communities around the Nation and the annual funding that 
Congress has diligently tried to provide but has not met the 
needs.
    I would like to talk about some of the differences between 
those two proposals, but, first, I would love to celebrate for 
just a moment some of the commonalities between the two. 
Obviously, these bills are not identical, but even if they are 
not identical twins, there is a certain family resemblance that 
is very, very encouraging.
    Both the bills provide permanent funding for the Land and 
Water Conservation Fund at its congressionally authorized 
level. Both of the bills restore a substantial commitment to 
state and local recreation through a meaningful recreation of 
the Stateside program, and both of these bills make an equally 
meaningful commitment to the Urban Parks and Recreation 
Recovery Act program, by putting, again, guaranteed funding 
into that program.
    We do celebrate those, and those three items are critically 
important not only to the Trust for Public Land and its 
conservation work, but to the many willing sellers that we work 
with around the country who ought not to have to wait for 
compensation if they are willing to sell their priority public 
lands, and to the communities that depend on these lands not 
just for recreation, but also, in many cases, for their 
economic stability and sustainability.
    Given those similarities and appreciating them, we also 
recognize that there are some differences, and in a few 
specific cases in the conservation titles of the bills, 
specifically in Title II of CARA, we are concerned about some 
of the limitations of the use of the Land and Water 
Conservation Fund that my tablemate made some reference to.
    First, there is a geographic limitation that would steer a 
set percentage of the money to the eastern states, east of the 
100th Meridian, and while we recognize the pressing needs on 
both sides of the 100th Meridian, we also recognize that 
Congress and the Administration, in their dual wisdom, have 
reckoned out for years how on a case-by-case basis to respond 
to the needs on either side of the line, and that is a 
flexibility that we would dearly love to see sustained in any 
successor to the Land and Water Conservation Fund.
    The bill also limits Federal acquisition with respect to 
exterior boundaries, and while that is a particularly key issue 
for some of the Members on the Committee, we have also seen 
that many landowners own property that straddles the line 
between the public jurisdictions and the areas just outside the 
boundary, or own properties that are outside the boundaries but 
are necessary for programmatic initiatives that the agencies 
are pursuing. And so we would like to see that flexibility 
maintained as well.
    Lastly, there is an additional restriction that would 
require new authorizing legislation for any project that was 
funded through this fund over a set amount. And all of the 
acquisitions that take place currently are already authorized, 
and we believe that a duplicative authorization requirement 
would delay projects in a real estate marketplace that is very 
dynamic, and cost communities their resources, and cost 
landowners excessive time.
    Finally, I would like to ask that whatever bill is reported 
out also consider one budgetary dynamic, and that is that there 
obviously will need to be offsets identified for this new 
spending, and full and fair disclosure is that it is new 
spending for an old obligation, for a historic partnership but 
new spending. It would be a tragedy to see that funding come 
out of the hide of the land management agencies that are trying 
to sustain their programs, and so however the mechanism is 
arrived at, we look forward to working with the Committee to 
make sure that offsets can be identified that will not close 
the Washington Monument while we try to protect additional 
parklands.
    With that, I do appreciate the Committee's openness, and I 
appreciate this opportunity to speak to you, and I look forward 
to working with you up until that signing ceremony.
    Thank you so much.
    [The prepared statement of Mr. Front may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you very much, Mr. Front. By the way, in 
your earlier comments about thanking those who worked on the 
bill, I do not want to leave out the excellent work of my 
colleague from Louisiana, Chris John, who has been a key player 
in the early drafting and many discussions that have led to a 
bill that is getting closer and closer to a consensus product. 
We, by the way, affectionately call Resource 2000 not Y2K, but 
``Y2CHAOS''.
    [Laughter.]
    Mr. Tauzin. We are now pleased to welcome Mr. Thomas Cove, 
of the Sporting Goods Manufacturers Association of Washington, 
DC.
    Mr. Cove.

    STATEMENT OF THOMAS COVE, SPORTING GOODS MANUFACTURERS 
                  ASSOCIATION, WASHINGTON, DC

    Mr. Cove. Thank you, Mr. Chairman. Sporting Goods 
Manufacturers Association is the national trade association for 
producers and distributors of athletic equipment, footwear and 
apparel. We have about 2,000 member companies.
    I associate myself with the same remarks about commending 
the Chairman, you, Mr. Tauzin, you, Mr. John, as well as Mr. 
Miller. We have been at this table a couple of times.
    I testified two years ago, it was a message of lament, we 
had little to look forward to. Four or five years ago, I was on 
the National Park Service Committee to address the state and 
local side of the Land and Water Fund, and while we produced a 
wonderful report, we generated very little activity where it 
mattered, which is up here fundamentally in this Committee.
    So, we start with a tremendous optimism about the energy on 
this issue and profound appreciation for the leadership that 
all of you, as well as your staffs, have brought to this table.
    I recognize there are substantive differences between H.R. 
701 and H.R. 798, and I might look to my friend, Mr. Front, and 
take the same position he articulated. I would like to talk, 
first, about those parts of the bill that are close or, as he 
said, are members of the same family. I am not as articulate as 
Alan Front, but I try hard.
    What we see on the Land and Water Stateside and on the 
UPARR program is a tremendous need in America today that we can 
fund. We can fundamentally address a quality of life concern 
with America's families and communities.
    Today, the sports and recreation infrastructure shows 
basically an equation out of balance. Demand outstrips supply 
across the Nation. Ball fields, courts, trails, rivers, 
greenways, bike paths, lakes, nature preserves, they are being 
taxed, taxed every day, and conflicts amongst our citizens are 
springing up and causing conflicts.
    Let me just talk briefly about how it cuts across America, 
and I would reiterate that the bills' provisions with regard to 
UPARR and Land and Water speak directly to these needs.
    First, it is an urban issue. Let me give you just some 
quick examples. In the city of Minneapolis, Minnesota, 
literally thousands of young girls and boys in the city want to 
but will not get to play soccer this year because there are no 
playing fields there.
    Mr. Tauzin. I thought wrestling was the big sport.
    [Laughter.]
    Mr. Cove. Well, we love the new Governor, but lots of folks 
want to do other things as well. There is one public soccer 
field in the entire city, there are 341 soccer fields in the 
Minneapolis suburbs.
    With inner-city programs that we work with like Reviving 
Baseball in the Inner City, Soccer in the Streets, this is a 
common complaint. They've got kids coming out of everywhere to 
come play, and there is no place to play.
    It is a suburban issue. Let me identify one Maryland 
county, in this county, 25,000 girls and boys play organized 
soccer, 74 fields to serve them. Last year in one age-specific 
league, 550 children were turned away, no space. In the next 
two years, county officials estimate that 60 to 120 additional 
fields in one county need to be built. Forty thousand kids are 
going to be in the soccer program in four years.
    In Ft. Lauderdale, there are 1,000 kids on the waiting list 
to sign up for soccer in the American Youth Soccer Organization 
League.
    The problem is not unique to soccer. Hopewell, New Jersey, 
they have not had football there for years because there are no 
fields. This year, parents wanted to start a youth football 
league, Pop Warner. One hundred and thirty kids signed up in 
the spring without any hope of having a field. Now they have a 
problem because they have to go out and raise money to start to 
buy equipment, which we love, but without a field there will be 
lots of children there, and parents as well, left unfulfilled.
    It is a gender equity issue. In Georgia, for example, girls 
and women's softball league administrators do battle with the 
baseball folks, softball versus baseball. In one typical 
Georgia city, there are five fields for 800 boys and some girls 
who play baseball. There is one field for 300 girls who play 
softball. Girls do not get the chance to play.
    Title IX has opened doors for girls and women to play 
nontraditional field sports like lacrosse, soccer, rugby, and 
field hockey. This is great, but the conflicts over field usage 
only get worse.
    It is a cultural issue. We are seeing more and more youth 
sports leagues having to play on Sundays. Parents do not like 
having to make a choice between church, family time, and youth 
sports.
    It is a socio-economic issue. One response to what people 
are facing out there is parents are starting to raise money and 
build their own facilities. But these are fee-based facilities, 
so only the people that can pay get to play. Only the people 
that are fully committed to that particular sport get to play, 
and the intramural athlete does not get to. It is not right to 
make basic recreation access limited by financial 
considerations.
    Health and safety. A recent CDC study established that 
people living in unsafe neighborhoods are less likely to get 
outside for physical activity--no surprise. Almost 40 percent 
of people living in ``not safe'' neighborhoods reported no 
physical activity or exercise in the past month.
    For older Americans, it is particularly important. The 
study found 63 percent living in unsafe areas got no exercise, 
compared with 38 percent in safer areas. I offer these examples 
just to put a human face on the problem, and I see my time is 
up. Let me speak just quickly to the two bills. Let me be clear 
as to what we think.
    I said we think both of them are good. We generally support 
H.R. 701 because it will provide a permanent, dedicated, 
sustainable funding source for Federal and state Land and Water 
Conservation Fund and UPARR. This is the heart of the bill for 
us, and lots of America's families and kids.
    SGMA supports H.R. 798 as well, but there are areas in the 
Chairman's bill, H.R. 701, that can be improved. I have listed 
them in my testimony. In fact, we have concerns about the 
allocation only within the exterior boundaries because there 
are trails that people use all the time, and willing sellers 
want to make that land available; they should be able to be 
accommodated. The two-thirds issue east of the meridian is a 
concern for us.
    Let me make two points about other titles and I will close. 
First, I do need to say that my industry is against the use of 
coastal impact assistance as an incentive to promote offshore 
gas and oil drilling. We are not in a position to make that 
decision, whether it is an incentive or not, but we would ask 
that whatever final language is agreed to would be incentive-
neutral to the most people as possible.
    With regard to Title III, the sporting goods industry 
supports Title III and supports the dedicated revenue stream to 
provide funds for wildlife management. You may know that the 
previous option to tax products to pay for Teaming With 
Wildlife was not a big favorite of my industry. We are very 
happy and commend the Committee for taking an innovative 
approach, and we look to work with you to pass this bill. Thank 
you.
    [The prepared statement of Mr. Cove may be found at the end 
of the hearing.]
    Mr. Tauzin. Thank you very much. The Chair will recognize 
himself and other Members for five minutes. Let me begin by 
pointing out that, indeed, in past Congressional sessions, we 
have offered all sorts of bills to incentivize drilling. Coming 
from Louisiana, you can imagine how our citizens feel, like we 
have opened up the Gulf to drilling and accepted many of the 
consequences of that, including pretty severe impacts on our 
communities, as the Mayor of Valdez has pointed out.
    We have been appalled that in some places other people have 
not accepted what we think is their responsibility. In fact, I 
remember when we had a five-year leasing discussion here, when 
the Secretary of the Energy Department testified that some 
tracts were in moratoria and not because of environmental 
concerns. They were low in environmental concerns, and they 
were high in hydrocarbon potential, they were just off because 
of politics.
    So we have had those battles, but I want to make it clear, 
we do not make this battle here. We have attempted to try to 
make this incentive neutral and make sure that it is a program, 
however, that is well funded in the future, that is why we 
include both old and new revenues, and to make sure that it 
permanently provides for the many concerns that all of you have 
discussed today--Mayor, in terms of impacts, and the rest of 
you in terms of wildlife preservation and wetland preservation 
and recreational needs of our communities. You made a great 
case in terms of the human--all of you--in terms of the human 
elements here, the human elements of the community impacted by 
the declining tax base, Mayor, in Valdez. By the way, I chaired 
the first hearing after the Exxon Valdez disaster in Valdez. I 
was the Chairman of the Coast Guard Committee. So, I am keenly 
aware of what you have gone through, and how the community now 
continues to suffer with the declining tax base.
    And for all of you, we, of course, are equally troubled by 
this or that provision in our bill and Mr. Miller's bill, as we 
try to balance these things out. Understand, I am a big 
property rights advocate, and so we are trying to make sure our 
property rights coalitions are not terribly offended by what we 
do here, that we protect property rights.
    Mr. Front, I know that is a concern of your group, that 
private property rights are protected and respected throughout 
this effort. At the same time, I understand your concerns that 
if there is a need for additional trails or park space in a 
given community, that we want to make sure that that can 
happen. Tough balances, I hope you see that. And we are trying 
to find the right mix, and that is why we keep this dialogue 
going throughout the process.
    For example, Mr. Front, you did mention your concerns about 
protections for private--could you expand on your concerns, and 
give us any suggestions how we might make sure that we are not 
offending the private property rights concerns of legitimate 
private property owners in America?
    Mr. Front. I will be glad to, Mr. Chairman. First, I should 
note that we are certainly in favor of accountability and 
responsible use of these funds and appropriate deliberation. 
And what we recognize is that in the process that Congress and 
the Administration have engaged in over the years, there seems 
to have been exactly that sort of give-and-take, exactly those 
sorts of checks-and-balances. When the Hill has been overly 
concerned about an acquisition that the Administration has 
proposed, it has seen fit to put restrictions, or to cancel 
outright, the Administration's capacity to pursue that 
acquisition.
    Mr. Tauzin. Or at least to require willing sellers, as we 
have always tried to do.
    Mr. Front. Yes. And my organization's perspective may be 
somewhat limited because not having imminent domain authority, 
not really wanting imminent domain authority, with the 
challenges that brings, all of our relationships with all the 
sellers that we work with--Black Bear owners in Louisiana and 
elsewhere--are on a very willing seller basis.
    Mr. Tauzin. Is there something wrong with our bill in that 
regard that you can recommend any improvement?
    Mr. Front. Yes. The concerns that I have about the bill, 
and I believe that they can be worked out to the satisfaction 
of property rights advocates, are that the specific 
limitations, ironclad limitations, about how that money will be 
spent--two-thirds of it must be spent of the 100th Meridian, 
the money cannot be spent on exterior boundary acquisitions--
and the delays inherent in requiring additional legislative 
authorization----
    Mr. Tauzin. Your concerns are more in the place where 
willing sellers cannot make----
    Mr. Front. If there are willing sellers who would like to 
pursue acquisitions, but unfortunately they happen to lie 
outside of the framework of the restrictions----
    Mr. Tauzin. Let me move around quickly. Mayor, you said 
your tax base is declining on the pipeline. Is that because of 
depreciation?
    Mr. Cobb. Yes, it is, property tax devaluation of the 
pipeline itself.
    Mr. Tauzin. So you still have all the problems, your 
communities are growing, you still have all that fire 
protection and safety concerns, and yet your base is declining. 
The impact assistance is pretty critical to you.
    Mr. Cobb. Yes, sir.
    Mr. Tauzin. Quickly, Mr. Van Putten, you mention that 
public land is eroding. I can tell you big time in Louisiana, 
as Mr. John has pointed out with me. Congressman Regula 
recently said there is a $12 billion backlog in the maintenance 
of Federal lands. Would you support allowing the Federal Land 
and Water Conservation Fund to be used for rehabilitation and 
maintenance of public lands?
    Mr. Van Putten. Congressman, that is an issue that I have 
not focused my attention on, and I will respond to you on 
behalf of the Federation in writing, if I may.
    Mr. Tauzin. That would be very, very good, I appreciate 
that, sir, because that is a big discussion here, how much 
should go into new acquisitions, how much should go into simply 
taking care of what we already have, and rehabilitating it 
where we are losing it. That is something we want to hear more 
on, if you do not mind coming back to us on.
    Mr. Van Putten. Yes, sir, I will send you a letter.
    Mr. Tauzin. Mr. Cove, my time is out, but I did want to ask 
you one very quick question. Your statistics seem to indicate 
that the needs are not for a great deal more public land 
acquisition, except in the area of fields perhaps, but tell 
me--we keep hearing from other Members that what people are 
going to use this money for is to go out and buy great new 
swatches of land out there.
    You seem to indicate the real needs in this area are for 
small acquisitions for new fields and new recreational 
opportunities for underserved women and underserved kids, 
particularly, and elderly people for safety purposes in urban 
communities, is that right?
    Mr. Cove. Well, that is exactly what I said, and we have 
identified the Stateside Land and Water as a great success that 
has been lost--the investment has been broken for the last 15 
years, and it is time to pay the price.
    I would not want to give the impression, though, 
particularly from our business interests, that the Federal land 
issues are resolved. Purely on the business of recreation, 
there are tremendous needs out there, and we fundamentally 
believe that there is a considerable amount of land that would 
need to be purchased with regard to protecting it for 
conservation purposes for the good of the country.
    Mr. Tauzin. Thank you, gentlemen. The Chair yields to my 
friend from Louisiana, Mr. John.
    Mr. John. Thank you, Mr. Chairman. First, let me thank all 
of the panelists, especially the Mayor of Valdez, who traveled 
several time zones to get here. I have been up to your 
beautiful city, and we need to make sure that we do everything 
to help.
    I also appreciate your testimony and your comments earlier, 
and also agree with them, that I do believe that the Federal 
Government has an obligation to help the states and local 
governments to mitigate the impacts of oil and gas development. 
So, I really appreciate you coming and sharing those thoughts 
with us.
    Mr. Van Putten, you mentioned in your testimony a little 
earlier about the differences and similarities of our bills. 
One of the biggest differences, I believe, in R2K, as one of 
you called it, and H.R. 701, is that it limits the sources of 
these funds to come only from Gulf of Mexico leases that were 
in production as of January 1st. Obviously, this limits the 
available funding under H.R. 798, and denies some of the 
programs access to these resources. Do you see a reason why we 
should limit the funds for these programs to just from the Gulf 
of Mexico? Especially if the language in the bill we are going 
to continue to work on, prohibits any drilling in moratoria 
areas?
    Mr. Van Putten. Well, Congressman, our goal is, as Ms. 
Chasis described it this morning, to assure that the bill is 
incentive-neutral with respect to oil and gas drilling. We 
think there are ways to do that while still addressing what 
Representative Tauzin alluded to, the need to assure there is 
long-term funding. One approach would be a snapshot approach as 
of a point in time. That is what Ms. Chasis suggested this 
morning would work. That could be revisited by the Congress at 
appropriate opportunities in the future.
    Frankly, I do not see how the geographically focused 
approach that you suggest works any better in balancing those 
two goals of being incentive-neutral while at the same time 
assuring that the money will be there for the long-term to 
satisfy the identified needs.
    Mr. John. I am not suggesting that just the revenues come 
out of the Gulf of Mexico. To the contrary, that is not what 
H.R. 701 attempts to do--that is what H.R. 798 does. So, I just 
wanted your thoughts on that. And, also, you talked about your 
concern about prioritizing the money in the nongame portion of 
our bill. I assume that is Title III, right?
    Mr. Van Putten. Yes, sir.
    Mr. John. Expand on that, please. Are you suggesting that 
the Federal Government, in this legislation, actually slot out 
different dollars for different programs in priority fashion?
    Mr. Van Putten. We are suggesting that this legislation 
clearly articulate a priority in the use of the Title III funds 
for nongame wildlife needs. Historically, because of the source 
of the funding in Pittman-Robertson and Dingell-Johnson is the 
excise tax on equipment used by hunters and anglers, they have 
been a very effective constituency for assuring that those 
funds are focused on those uses. The original Teaming With 
Wildlife approach, because it had an excise tax on equipment 
used by other wildlife enthusiasts, would have relied on the 
same dynamic. As my colleague to the left from the 
manufacturers alluded to, it has proven to be politically 
pragmatic not to pursue that funding approach. We accept that, 
but what we are looking for is the same kind of targeting then 
of this revenue to meet those historically unfunded needs of 
nongame wildlife and their habitat. We have broken the linkage 
in terms of the funding source and the use that has proven so 
effective with Dingell-Johnson and Pittman-Robertson, we accept 
that. All we are looking for then is the same kind of focus and 
targeting and prioritization for the uses of the Title III 
funds for nongame wildlife that was in the Teaming With 
Wildlife proposal.
    Mr. John. Thank you. Mr. Front, earlier today, we had a 
witness with NACo, National Association of Counties, and he 
brought an interesting concept to us about conservation leases 
in lieu of, or as an alternative to, outright purchase of land. 
And that was an interesting concept because it is in neither 
one of our bills. Could you maybe elaborate your position on 
that concept. Is that something we need to think about? Does it 
calm the fears of some of the property rights guys?
    Mr. Front. Well, it is certainly an interesting concept, 
Congressman, and the real question. And it is a question that 
has not been adequately tested, in our view, out in the world, 
is whether or not there is a sufficient nexus of landowners in 
the landowning community who are interested in pursuing that as 
a way of offering up property while still paying the taxes and 
allowing it to be used for recreation or other public purposes.
    Currently, the existing authorization of these conservation 
programs does allow for not so much for conservation leasing, 
but does allow for limited interest acquisition. Generally, the 
language in these programs is acquisition of lands or interest 
in lands. And so conservation easements and other innovative 
approaches are used now but, with respect to conservation 
leasing, we can look at this a little further and get back to 
you but, right now, our jury is still out as to how widespread 
its utility might be.
    Mr. John. Right. And I would like for you to articulate 
that to your association because I think it is something that 
may have potential, or it may not. And I know I am out of time 
but, finally, Mr. Cove, you had mentioned not only in your 
written testimony, but earlier in your testimony at the table, 
that you do not want to see drilling incentives, but in your 
testimony you do not take that one step further and say that 
there are drilling incentives in the bill, but you suggest that 
you do not want to see them.
    I guess my question is, are there concerns in our bill that 
suggest to you that there may be some drilling incentive 
language in there, as you suggested, you do not want to see.
    Mr. Cove. You are making me say things that I probably 
wanted not to say in the course of the testimony but, frankly, 
we are not in a position to know--and we have been battered by 
our friends on both sides to take a position. In the industry, 
it is important. We are an industry that relies on the ongoing 
protection of our natural resources. When we hear from folks 
there are incentives, we take note, but we are in no way in a 
position to determine that, and would just ask that----
    Mr. John. I did not mean to put you on the spot, but it is 
a very sensitive issue for me and this Committee, that we 
address that issue to the best of our ability. And I understand 
that we are going to, at some point, have to draw a line in the 
sand about what is an incentive, and there will be some groups 
that will not agree with that.
    Mr. Cove. As we say in the football business, I will punt 
on that.
    Mr. Tauzin. We cannot. Unfortunately, we cannot. The Chair 
yields to Mr. Pombo.
    Mr. Pombo. Thank you. I think we punt all the time. Mayor 
Cobb, I, too, have had the opportunity to visit your city, and 
it is a very interesting place, and I appreciate what you are 
trying to do.
    I do want to ask you in terms of your tax base, do you have 
a property tax on private property held within your city now?
    Mr. Cobb. Yes, we do.
    Mr. Pombo. What percentage of your budget is made up of 
that property tax versus the tax that you currently receive off 
of the pipeline?
    Mr. Cobb. Well, each year, as our major property owner, the 
pipeline itself, declines, that money has to be made up 
somewhere, and so the non-oil side of the property tax has been 
on a steady increase. It will increase this year about 3.5 
percent.
    Mr. Pombo. You have had to increase that tax?
    Mr. Cobb. Yes.
    Mr. Pombo. How would you feel if some of the current 
private property that is held within your city were bought by 
the government, whether it was state or Federal Government, to 
be used for some conservation purpose, or other purpose, that 
this Act deemed suitable?
    Mr. Cobb. An incident like that just happened. We just had 
a 100-acre parcel of waterfront property that borders on Port 
Valdez that was a joint effort between the city of Valdez, the 
State of Alaska, and the Exxon Valdez Oil Spill Trustees, we 
purchased that 100 acres, the city of Valdez threw in an 
additional 350 acres of wetlands, in a partnership effort to 
conserve that land.
    I think the reason the land is being purchased is the key 
for me. And we have had $900 million worth of oil spill funds 
and about 50 percent of that has been spent on land 
acquisition. I am not crazy about some of those land 
acquisitions. I think if it is for the purpose of protecting 
the environment, a specific endangered species, I am all for 
that, but I would hate to see what small amount of private 
property we have in our community turned over to either a state 
or the Federal Government and take it off the tax rolls.
    Mr. Pombo. You come from a state that is approximately 98-
percent-owned by Federal, state, or Native Alaskan groups, 
local government groups. You have heard questions raised about 
two-thirds of this funding being spent in the east. Do you have 
concerns about land acquisitions being done in the State of 
Alaska?
    Mr. Cobb. I do not have real concerns of that. I think 
while there may be some private inholdings within some of the 
Federal leases and stuff like that, I do not see them as being 
very large. I do not have problems with----
    Mr. Pombo. You do not have a lot of property to buy.
    Mr. Cobb. We do not, not much of it at all.
    Mr. Pombo. Mr. Front, I am familiar with your organization 
and a lot of the work that they do. Do you see yourself, if 
this legislation is adopted, working with the state and Federal 
Government to identify lands that should be held and help to 
put that forth?
    Mr. Front. Congressman, in the identification of the lands 
to be acquired, we really do not. My organization does not set 
priorities. We do not determine what the public ought to 
acquire or ought not to acquire. Rather, we provide what I 
would consider a very technical service where, if there are 
landowners who have immediate needs for compensation and there 
are public jurisdictions that would acquire their properties, 
but the process is too slow or cumbersome to get to those needs 
as quickly as possible, we step in and serve as sort of a 
bridge role, but that does not extend to determining which 
lands ought to be acquired.
    Mr. Pombo. So they identify the lands and you step in and 
buy them?
    Mr. Front. Yes, or in some cases we may respond to 
landowner or community needs in advance of a government agency 
identifying anything, and create an opportunity and make that 
property available by buying some time with the landowner.
    Mr. Pombo. In those cases where the government has not 
identified the acquisition but others have and you step in and 
buy that, do you then approach the Federal agencies or the land 
management agencies about the purchase of what you now have?
    Mr. Front. Yes. We may approach Federal, or state, or local 
jurisdictions. We may talk to nonprofit groups that might have 
an interest in acquiring the lands. And we may look at private 
purchasers who would put the property to a conservation 
purpose.
    Mr. Pombo. So, a substantial amount of this money would go 
into the kind of things that your organization does.
    Mr. Front. Possibly. That would be subject, again, to 
whether the opportunities that we were taking advantage of were 
aligned with the opportunities that this body and the 
Administration identified.
    Mr. Pombo. Mr. Chairman, my time has expired. I do have 
further questions.
    Mr. Tauzin. The Chair would be glad to extend the 
gentleman's time, if you so request. Without objection, so 
ordered.
    Mr. Pombo. Thank you. One of the concerns that a number of 
people have with this legislation, or this kind of legislation, 
is that a focus of the land purchases has predominantly been in 
the West, over the past several decades, and a substantial 
portion of the Western states is already owned by the state and 
Federal Government. How much is too much? California, which I 
know you are very familiar with, how much of California should 
be owned by the state and Federal Government?
    Mr. Front. That is a question I was not quite prepared to 
answer today, I will admit, and I am not sure that there is an 
objective standard. As a couple of my co-panelists have 
mentioned, some of these opportunities arise--Mayor Cobb had 
mentioned that it really is on a case-by-case basis, whether it 
is a 100-acre parcel in Valdez, or whether it is a few thousand 
acres in the bayous of Louisiana.
    Mr. Tauzin. Would the gentleman yield for a second?
    Mr. Pombo. Sure.
    Mr. Tauzin. The number I have for California is 44.5, 
approximately, public owned.
    Mr. Pombo. Federal
    Mr. Tauzin. Federal-owned, that is correct.
    Mr. Pombo. Fifty-six percent, if you include the state 
government--56 percent of California. Now, thankfully, we are 
not on the level of Alaska, but 56 percent, over half of the 
State of California, is currently owned by state and Federal 
Government. That does not include local government ownership, 
which is substantial as well. And there is a huge concern over 
where it stops. The Mayor of Valdez was talking about how 
difficult it is to finance his infrastructure, his budget, 
there. We have counties in California that have filed 
bankruptcy because they are heavily owned by the Federal 
Government, and they cannot pay for their infrastructure costs, 
their schooling, all of the basic necessities that a county 
depends on. And that is why I ask the question, how much is too 
much?
    Mr. Front. I guess the only answer I can give is, right now 
there is a deliberative process in which the counties have, I 
hope and believe, a very influential voice in whether or not 
land should come off their tax rolls. And the Administration 
and this Congress has the capacity either to direct funds 
towards projects that make sense to you all, or to suggest that 
those projects not proceed and that conservation take a 
backseat to local economic interests. In some instances, there 
are counties who take a look at a property coming off the tax 
rolls, and nonetheless favor the acquisition because of the 
economic and other benefits that the public land base might 
provide. And, so, because of that case-by-case dynamic, I guess 
what we would suggest, rather than drawing the line in the sand 
and saying the right number is 2 percent or 82 percent, is, 
rather, to say that we favor a deliberative process in which 
the counties and other interests do have a voice and in which 
good decisions can be made by you all.
    Mr. Pombo. Well, unfortunately, in the real world, that is 
not the way it works. I do know of one specific Federal 
purchase that was done in my district that was opposed by the 
county, by the local government, by the elected Representatives 
from that area, including myself, that the Federal Government 
purchased land, over my objections and over the objections of 
local government, is a part of a wildlife refuge. It is a 
decision that was made before I was elected to Congress that 
they wanted that, and they did it anyway, even though people 
objected to it. It is precedence like that that makes me very 
leery of opening this process in this way where we have an 
additional billion dollars to spend on land acquisition. I am 
very, very leery of being able to do that.
    I do want to ask Mr. Cove a question. You said in your 
statement that you were concerned, or your organization was 
concerned, about directing two-thirds of these purchases to the 
eastern part of the United States. Now, a lot of property 
owners in the east are not wild about that either, but from 
your perspective, why? Why are you concerned about this? Over 
half of the west is already owned by the Federal Government. 
Why are you concerned about focusing the attention on the 
eastern two-thirds?
    Mr. Cove. Well, fundamentally, I am concerned that it takes 
away from the flexibility of Congress to determine those 
priorities, but let me give you the more specific example. As 
you know, Mr. Pombo, many parts of the west are quickly 
becoming urbanized and suburbanized as well. If you look at 
places like Las Vegas, one of the fastest growing urban centers 
in the country, and Phoenix and Boise, Idaho. Those places are 
taking on the same problems of urban sprawl as in the East. 
They are seeing some of the older parts of the city becoming 
dilapidated. They need some of the same support that the 
eastern older cities do as well. That is our fundamental 
premise, there is enough work--and I can give you example after 
example through the western states and Texas--where the kinds 
of pressures I identify, the urban, suburban, the gender equity 
issues, the health and safety issues, are just as real in the 
west as they are in the east.
    Mr. Pombo. I do not disagree with that, but I think that we 
are talking about different things. You know, in the State of 
Nevada, Las Vegas is the fastest growing city in the country 
right now. At the same time, it is in a state that over 80 
percent of it the Federal Government owns. Not all 80 percent 
of that is environmentally sensitive land that should be held 
by the Federal Government. Could we not sell part of that 
federally owned land in the State of Nevada, and take that 
money and pay for urban parks?
    Mr. Cove. That is a different question, and one which the 
officials within the Congress as well as in the State and 
county areas of Nevada should take up. Our concern is that we 
need to provide places for folks to recreate near where they 
live. UPARR and the Stateside of the Land and Water 
Conservation Fund do exactly that. I do not know of other ways, 
and I am well aware of the tensions about land exchanges, et 
cetera, but clearly we need to be able to find places near 
where folks live for us to protect, and not only for recreation 
but just to give them an ability to touch their natural world. 
We need to enable kids in the cities to go out and go fishing, 
to go out and understand what makes flowers bloom. We need to 
protect those places for the good of all of us. That is why we 
support across-the-board greater flexibility, rather than the 
two-third/one-third.
    Mr. Tauzin. Thank you, Mr. Pombo. Don't you ever tell me 
that you are not as articulate as Mr. Front--touching nature 
and watching flowers bloom.
    Just a couple of points. We do have the $1 million 
limitation, as you all know, in the bill. It requires 
acquisitions of that nature to at least come before this 
Committee again, we try to put some protections in.
    Mayor, also, a final point, we also fully fund PILT, 
Payment In Lieu of Taxes. I should hope that would have a 
serious and profound effect and assistance on communities like 
yours where property taxes are being lost. Comment?
    Mr. Cobb. It does. The PILT payments to Valdez I think 
roughly come in at about $130,000 a year. It is significant for 
a small community. As long as those continue to be funded, we 
fully support that.
    Mr. Tauzin. And we funded them at 60 percent. This bill 
takes it up to 100 percent.
    Mr. Cobb. Correct.
    Mr. Tauzin. So, again, it is a recognition that when 
communities do lose taxes because of acquisitions of land to 
the public domain, that the Federal Government owes some 
obligation to reimburse, and we provide 100 percent 
reimbursement.
    Gentlemen, thank you. Mr. John, do you have any further 
comments or questions of this panel?
    Mr. John. No, Mr. Chairman.
    Mr. Tauzin. Mr. Pombo?
    Mr. Pombo. No.
    Mr. Tauzin. Again, we thank you very much for your 
contributions, and we will assemble the next panel and get on 
with it. Thank you.
    The next panel will consist of Mr. Kevin Paap, Vice 
President, Minnesota Farm Bureau, representing the American 
Farm Bureau Federation, Washington, DC; Mr. Mark Shaffer, Vice 
President, Defenders of Wildlife here in Washington, DC; third, 
Mr. Ralph Grossi, President of the American Farmland Trust, of 
Washington, DC, and Mr. Pietro Parravano, President, Pacific 
Coast Federation of Fishermen's Association, San Francisco, 
California. If you gentlemen would kindly assemble, and we will 
begin with Mr. Kevin Paap. Kevin, welcome, and we appreciate 
your oral testimony. Remember, your written testimony is a part 
of our record. If you will summarize and engage us in 
conversation, if you will.
    Mr. Paap.

STATEMENT OF KEVIN PAAP, VICE PRESIDENT, MINNESOTA FARM BUREAU, 
 REPRESENTING THE AMERICAN FARM BUREAU FEDERATION, WASHINGTON, 
                               DC

    Mr. Paap. Thank you. Good afternoon. My name is Kevin Paap. 
My wife and I operate a fourth generation farm in Garden City, 
Minnesota, where we raise corn, soybeans and boys. I am Vice 
President of the Minnesota Farm Bureau Federation. Minnesota is 
a coastal state identified in H.R. 701. I am appearing today on 
behalf of the American Farm Bureau Federation.
    We appreciate the opportunity to appear before the 
Committee today to testify. We will direct our comments to the 
Land Acquisition and Wildlife Habitat Enhancement Programs. If 
funding is to be provided for Federal and state lands, we 
strongly urge that any such funds be first earmarked for repair 
and maintenance to existing lands before being authorized to 
purchase additional land. The Federal land management agencies 
have a significant backlog of repairs and maintenance to their 
lands that totals billions of dollars. We should first use any 
funds to take care of lands that we have. If our national parks 
are considered ``American jewels,'' America would be better 
served to have fewer jewels that are high quality and polished, 
rather than more lower quality, unpolished and imperfect ones.
    Because farmers and ranchers own much of the remaining 
privately-owned open space in the country, they are natural 
targets for having their land appropriated by governmental 
entities for various purposes. We are naturally skeptical, 
therefore, about any bill or action that involves or authorizes 
the acquisition of land by government.
    We are pleased that H.R. 701 contains such safeguards with 
respect to the Federal component of the Land and Water 
Conservation Fund amendments. By limiting Federal purchases 
only to existing inholdings and to willing sellers, H.R. 701 
prevents the runaway and uncontrolled acquisition of Federal 
lands that many people fear, unlike similar positions in H.R. 
798 and other bills. However, the state component of the bill 
contains no such safeguards. We urge that the bill be amended 
to incorporate the same safeguards for state land acquisitions 
as exist for Federal acquisitions.
    Also, unlike H.R. 798 and similar bills, H.R. 701 provides 
that for any money collected above the maximum authorized for 
the LWCF, the excess shall be applied to the Farm Bureau 
supported Payment In Lieu of Taxes program. We support the 
effort of H.R. 701 to give this program a needed shot in the 
arm.
    No less significant are the provisions that seek to further 
the partnership between private landowners and the government 
to enhance wildlife and its habitat. Privately owned farm and 
ranch lands provide a significant amount of the food and 
habitat for our Nation's wildlife. The agencies must have the 
cooperation of farmers, ranchers and private property owners if 
our wildlife is to thrive.
    The American Farm Bureau Federation believes that an 
appropriate balance between the needs of a species and the 
needs of people can be struck. Given the proper assurances, 
farmers and ranchers can play a significant role in management 
of species on their property.
    We are therefore very pleased that both H.R. 701 and H.R. 
798 contain programs that acknowledge and seek to implement 
such a partnership.
    H.R. 798 provides a definite source of funding for its 
program whereas H.R. 701 does not.
    H.R. 701 would create the Habitat Reserve Program, a 
program that provides those assurances and achieves that 
balance between species and landowner that is necessary for the 
well being of both.
    Under this section, farmers and ranchers would enter into 
contracts for the protection of habitat for species listed 
under the Endangered Species Act. This program will enhance the 
conservation of species because it provides for their active, 
on-the-ground management by affected landowners while at the 
same time it provides landowners with the flexibility to manage 
their property. The HRP thus provides benefits for both the 
species and the landowner, the type of win-win scenario that is 
needed.
    In conclusion, we believe that H.R. 701 provides more 
overall balance than H.R. 798 and similar bills thus far 
introduced. We look forward to working with the Committee on 
the issues we have addressed in our testimony today.
    [The prepared statement of Mr. Paap may be found at the end 
of the hearing.]
    Mr. Tauzin. Thank you very much, Mr. Paap.
    Now we welcome Mr. Mark Shaffer, Vice President of 
Defenders of Wildlife, here in Washington, DC.
    Mr. Shaffer.

  STATEMENT OF MARK L. SHAFFER, VICE PRESIDENT, DEFENDERS OF 
                    WILDLIFE, WASHINGTON, DC

    Mr. Schaffer. Thank you very much, Mr. Chairman. Thank you 
for the opportunity to be here today and address the Committee 
on H.R. 701 and H.R. 798. My name is Mark Shaffer. I am Vice 
President for Program for Defenders of Wildlife. Defenders of 
Wildlife is a national nonprofit organization. We have nearly 
300,000 members and supporters, and you may be aware that we 
are advocates for the conservation of our native wildlife and 
natural habitats.
    We would very much like to thank Mr. Young and his co-
sponsors and Mr. Miller and his co-sponsors and the entire 
Committee for your leadership in working to secure dedicated 
funding to conserve our Nation's natural resources. We hope the 
following comments will prove useful to you as these bills work 
their way through the Committee legislative process.
    Defenders' highest priority this Congress is to see the 
passage of legislation that will provide dedicated funding to 
aid in the conservation of our Nation's wildlife legacy. Of the 
two bills under consideration here today, we believe that H.R. 
798, the Resources 2000 Act, would accomplish this goal more 
effectively. We have that view for three reasons.
    First, H.R. 798 would assure that monies directed to state 
fish and game agencies to bolster wildlife management at the 
state level would be for all wild plant and animal species. 
Also, it would require that each state undertake a thoughtful 
and thorough assessment of all their wildlife species, their 
habitat needs, the threats to these species and their habitats, 
and the management actions necessary to address those threats.
    It is, after all, habitat that is the key to conservation 
success. Eighty-five percent of the more than 1,000 native 
species currently listed as threatened or endangered by the 
Federal Government are in that condition, at least in part, 
because of the loss or alteration of habitat. Without proper 
habitat protections, game and nongame species alike can become 
threatened or endangered in short order. We believe that such 
comprehensive conservation planning as is called for in H.R. 
798, focused on habitat needs, is absolutely essential to 
assure the effective and efficient conservation of our wildlife 
heritage.
    We would like to point out to the Committee that at least 
two states, Florida and Oregon, have undertaken such habitat-
focused planning exercise. I have brought copies of each plan, 
and I offer them for the record and for your consideration.
    Each of these efforts has its own unique features, but each 
serves as a prototype for the sort of comprehensive 
conservation planning that will be necessary to maintain our 
Nation's wildlife legacy. Properly done, such plans could be 
the blueprints for conservation success and could provide a 
common framework for effective coordination of conservation 
programs at the Federal, state and local levels.
    The second reason we favor H.R. 798 is that, like H.R. 701, 
it provides dedicated funding for the LWCF, but unlike H.R. 701 
we do not believe it provides any new incentives to expand 
offshore drilling, nor does it place undue restrictions on the 
Federal part of LWCF. I would just echo some of the concerns 
that some of the other witnesses on the previous panel 
expressed about restrictions on the Federal portion of LWCF, 
namely, the need for authorizing legislation on any 
acquisitions of $1 million or more, requiring that two-thirds 
of the yearly funding be spent east of the 100th Meridian, and 
the prohibition on the acquisition of properties outside of 
current boundaries to existing Federal land management units.
    We have noted in our written testimony some examples of the 
problems that restrictions could create for addressing real 
conservation needs.
    The third reason we favor H.R. 798 is that it includes 
significant dedicated funding for incentives to private 
landowners to help them be better stewards for threatened and 
endangered species. Private lands will play a critical role in 
our Nation's efforts to conserve its wildlife legacy.
    After all, over 40 percent of currently listed species are 
not even known to occur on Federal lands. We know that many 
private landowners are good stewards of their land and want to 
do the right things to help maintain our Nation's wildlife 
heritage. We also know that some affirmative stewardship 
activities have a real cost. In those instances where 
landowners need assistance with positive actions on behalf of 
listed species, we believe it is appropriate for the government 
to provide that assistance.
    By providing $100 million per year for endangered species 
recovery actions on private lands, H.R. 798 would enable the 
Fish and Wildlife Service and the National Marine Fisheries 
Service to support private initiatives that would serve the 
public good. We believe such an approach to endangered species 
management is long overdue, and we support it strongly.
    Once again, thank you, Mr. Chairman, for your leadership in 
working for dedicated funding for conservation of our natural 
resources, and for providing this forum to hear our views.
    [The prepared statement of Mr. Shaffer may be found at end 
of hearing.]
    Mr. Tauzin. Thank you, Mr. Shaffer. Mr. Ralph Grossi, 
President, American Farmland Trust, Washington, DC.
    Mr. Grossi.

STATEMENT OF RALPH GROSSI, PRESIDENT, AMERICAN FARMLAND TRUST, 
                         WASHINGTON, DC

    Mr. Grossi. Thank you, Mr. Chairman.
    Mr. Chairman, American Farmland Trust appreciates this 
opportunity to provide your Committee with our views on the 
merits of H.R. 701 and H.R. 798. I am the President of AFT and 
the managing partner of a family farm that has been in the 
dairy, cattle and grain business in northern California for 
more than 100 years. AFT is a national, nonprofit organization 
working to stop the loss of productive farmland and promote 
farming practices that lead to a healthy environment.
    I want to suggest to the Committee today that it is long 
past time that conservation policy be based on working with 
private landowners. H.R. 798 contains provisions that move us 
in that direction. AFT supports the Resources 2000 Act because 
this bill recognizes the important role that private landowners 
play in the stewardship of our natural resources, protecting 
their property rights while compensating them for the 
environmental goods they produce for the public.
    At this time, we cannot support H.R. 701 because except for 
the Habitat Reserve Program provisions, it does not contain the 
provisions needed to address the critical needs of farmers and 
ranchers. My comments today will focus primarily on the 
specific provisions in H.R. 798 that direct conservation 
incentives toward private landowners.
    For the past quarter century, conservation and 
environmental objectives in our country have been largely 
achieved by either imposing regulations or through government 
purchase of private land. However, these actions have failed to 
resolve conflicts over important environmental problems, like 
species and farmland protection, that rely on the participation 
of thousands of private landowners. At AFT, we very strongly 
believe that in the 21st century new approaches to land 
conservation will be needed that address the concerns of 
private landowners.
    The farmland protection provisions of the Resources 2000 
Act recognize that America cannot--indeed, should not--buy all 
the land that needs protecting. Instead, it acknowledges that 
America's private landowners play a vital role in producing 
conservation benefits for all Americans to enjoy, and 
rightfully offers to provide $150 million annually for the 
protection of the best farmland, ranchland, and forestland, 
while leaving it in private ownership.
    I would urge you to consider similar provisions in H.R. 
701, or whatever consensus bill emerges from the Committee. The 
easement acquisition or purchase of development rights approach 
proposed by 798 provides an innovative voluntary opportunity 
for appropriate local agencies to work with landowners by 
offering them compensation to protect the most productive 
farmland, farmland that is critical to both the agricultural 
economic base of our rural and suburban communities and the 
environmental values provided by well managed farms. It would 
also provide important matching funds to the many local and 
state efforts now underway to protect farmland.
    Under the bill's provisions, protected lands would remain 
on the local tax rolls contributing to the local economy. The 
value of this approach to local communities should not be 
understated. In every case, the studies that AFT has conducted 
around the country have shown that farmland provides more 
property tax revenue than it demands in public services, while 
sprawling residential development almost always requires more 
in services than it pays in taxes.
    Conservation policy does matter to farmers and ranchers, 
who are strong believers in individual freedom and private 
property rights. Their support for conservation policies is 
absolutely critical because they own the land that is at stake 
in the increasing competition for land. But as competition for 
land has increased, so has disagreement over how to balance 
economic use with conservation of natural resources and the 
increasing demands being placed on private landowners to 
achieve objectives whose benefits accrue largely to the public.
    The fact remains that for most landowners the equity in 
their land represents the hard work and savings of at least 
one, if not numerous, generations of the farm family. Their 
land is their 401(k).
    As farmers, we are proud of the abundant supply of food and 
fiber we have provided Americans and millions of others around 
the world, and we are pleased that we also produce scenic 
vistas, open spaces, wildlife habitat and watershed integrity 
for our communities to enjoy.
    In many cases, our farms and ranches serve as crucial 
buffers around our parks, battlefields and other important 
resources. These are tangible environmental goods and services 
that farmers should be encouraged to produce and appropriately 
rewarded for. It is only fair that the cost of producing and 
maintaining these goods that benefit so many Americans be 
shared by them.
    The recent surge in local and state efforts to protect 
farmland suggests rapidly rising national concern over the loss 
of farmland and the environmental benefits it provides.
    In last November's elections, 72 percent of 240 initiatives 
to protect farmland and open space were approved by voters 
across the Nation. In recent years, Governors Engler, 
Voinovich, Ridge, Pataki, Wilson, Whitman, Weld, Glendenning 
and others have supported or initiated farmland protection 
initiatives to protect their important farmland.
    I see that my time is up. I can wrap up in about a minute 
and a half, if I might.
    Mr. Tauzin. Proceed, sir.
    Mr. Grossi. An AFT 1997 AFT study found that over the past 
decade over 400,000 acres of prime and unique farmland were 
lost to urban uses each year. The loss of soil to asphalt, like 
the loss of soil to wind and water erosion, is an issue of 
national importance.
    However, food security is not the reason farmland 
protection has emerged as a national issue. Communities across 
the Nation are working to protect farmland because farmland 
protection is seen as an inexpensive way to protect those other 
values associated with the working landscape, and keeping land 
on local tax roles.
    The Resources 2000 Act achieves that balance by adding 
carrots to the existing sticks of regulation among the tools 
available to local communities to protect their farmland.
    Mr. Chairman, during this Congress you will have 
unprecedented opportunities to develop policies to encourage 
and reward stewardship on this Nation's private lands, and to 
redirect financial resources in a way that shares the cost of 
protecting our great natural resources between the taxpayers 
who enjoy them and the landowners who steward them. While it is 
not the domain of this Committee, in closing I call your 
attention to the Federal farm programs.
    At a time when the public is demanding more of private 
landowners every day, I ask you and all of Congress to consider 
a major shift of commodity support payments into conservation 
programs such as farmland protection that will help farmers 
meet those demands that the American taxpayers and the public 
are putting on them.
    Thank you very much for providing me with this opportunity 
today.
    [The prepared statement of Mr. Grossi may be found at the 
end of the hearing.]
    Mr. Tauzin. Thank you very much, sir.
    Finally, on this panel, Mr. Pietro Parravano, of the 
Pacific Coast Federation of Fishermen's Associations, San 
Francisco.
    Welcome, Mr. Parravano.

    STATEMENT OF PIETRO PARRAVANO, PRESIDENT, PACIFIC COAST 
    FEDERATION OF FISHERMEN'S ASSOCIATIONS, SAN FRANCISCO, 
                           CALIFORNIA

    Mr. Parravano. Thank you, sir. Good afternoon, Members of 
the Committee.
    My name is Pietro Parravano, and I am a commercial 
fisherman from HalfMoon Bay, California, and President of the 
Pacific Coast Federation of Fishermen's Associations, 
representing working men and women in the West Coast commercial 
fishing fleet. Thank you very much for the opportunity to be 
here today to talk about Resources 2000 and the Conservation 
and Reinvestment Act of 1999.
    The lives of the fishing men and women my organization 
represents are impacted every day by the health of our Nation's 
fisheries and, in particular, by the many species of salmon. 
Unfortunately, a number of these salmon stocks have been listed 
or are now candidates for listing under the ESA. Those of us 
that are coastal family fishermen, salmon has historically been 
the most important fishery.
    The legislation we are discussing here today brings us 
optimism and hope for our future and that of our Nation's 
resources. It is time that we began putting money in instead of 
just taking it out of the fisheries. It is time that we begin 
funding fish habitat restoration instead of destroying it. That 
is why our Federation is vitally interested in the legislation 
being addressed here today, specifically Resources 2000.
    Resources 2000 has two titles that are of particular 
importance to the fishing industry. The first is the title that 
establishes a permanent trust fund for the conservation and 
restoration of living marine resources and fish habitat. Much 
of this money will be allocated to the states to develop and 
implement conservation and management programs for living 
marine resources and their habitats. This will be especially 
important to states developing conservation and management 
plans for the myriad of nonfederally managed fisheries. Two 
examples are the following: One, legislation which was authored 
by Mr. Young and Mr. Miller that extends the state's 
jurisdiction of the Dungeness crab fishery into Federal waters, 
and the second example is California's passage of AB 1241, 
which implements research, conservation and management program 
for its fisheries. The permanent funding source in Resources 
2000 could assist states such as California in working and 
promoting sustainable fisheries.
    The permanent funding source in Resources 2000 could also 
be used to complement existing Federal programs. Two examples 
are CalFed and the President's proposed $100 million program 
for salmon on the West Coast. The permanent funding source in 
Resources 2000 clearly defines that this money goes out to the 
states and specifies the areas that it is needed.
    The second title of Resources 2000, also of great 
importance to us, is the one which establishes the endangered 
and threatened species recovery fund. We all know that listing 
a species under the ESA, by itself, does not guarantee species 
protection or recovery. Species protection and recovery, as we 
have seen on the West Coast with the number of salmon, requires 
political will on the part of the agencies to enforce the law 
and funding to implement protection and recovery programs. In 
the West, species such as Coho salmon that once supported major 
economic activities are now listed in California and Oregon. It 
is not enough that we merely stabilize the populations or get 
them to some threshold above listing qualification, but that we 
fully recover these fish so that they may once again support 
commercial and recreational fisheries, fish processing, tourism 
and coastal communities, but to do this will take political 
will and permanent funding.
    The problem is not the ESA, but our failure to fund 
recovery of listed species. The quicker we develop and fund 
recovery programs, the sooner we can lift restrictions on other 
interests. Moreover, this fund will be invaluable for assisting 
landowners and water districts in making changes or taking 
actions, such as installing effective fish screens or fencing 
riparian areas to help protect and recover listed fish.
    We appreciate the fact that H.R. 701 includes a provision 
that addresses endangered species, however, our preference is 
for the current language in Resources 2000 for a number of 
reasons. First, it provides an identified source and dedicated 
amount of money that will be spent annually to contribute to 
the recovery of endangered species. The current language in the 
proposed Conservation and Reinvestment Act does not do this.
    Second, Resources 2000 uses this money specifically for 
recovery of species, a focus that has been missing all too long 
from existing ESA programs. If we do not recover salmon on the 
West Coast, they will never be removed from the Endangered 
Species list and our industry itself will never recover.
    Third, Resources 2000 will only provide grants for recovery 
activities that are beyond the requirements of the law. The 
provision in H.R. 701 could potentially pay landowners to 
merely comply with the law. We do not think this is fair. As 
fishermen, we do not get paid when we are told we cannot 
harvest salmon that has been listed due to a loss of habitat 
which is out of our control. We do not think others should be 
paid to merely comply with the law. Resources 2000 provides 
incentives to those who want to go beyond the law to recover 
our threatened and endangered species. We think this is the 
right approach.
    Mr. Chairman, we appreciate the fact that some of the money 
allocated to the states in H.R. 701 could also be used for the 
purposes I have mentioned, but we are concerned that there is 
no guarantee that the money would be targeted directly to 
salmon and other marine fisheries and their habitats. The 
deliverables are just not there.
    Mr. Chairman, I have about a minute left. Thank you.
    Mr. Tauzin. Proceed, sir.
    Mr. Parravano. We feel that this could once again force 
fisheries to compete with numerous other state programs and get 
the short end of the stick, as they have done for so many 
years. Therefore, we believe that it is imperative that the 
Marine Resources Fund found in Resources 2000 be part of any 
legislation that is supported by this Committee. Only then can 
we guarantee these resources will get funding that they 
desperately need and deserve.
    In summary, we support Resources 2000 because it is 
comprehensive and it defines mechanisms with which altered and 
damaged habitat can recover. I want to express the gratitude of 
the working fishing men and women that I represent to you, Mr. 
Chairman, for your vision in introducing your two bills. 
Utilizing receipts from nonrenewable resource extraction from 
the marine environment to reinvest in renewable marine and fish 
resources is, we believe, good public policy.
    Fishing is America's oldest industry. It is a wonderful 
calling. The members of my organization take pleasure in 
deriving our livelihoods on the beauty and bounty of the ocean. 
We take pride in providing the public wonderful and wild 
sources of healthy food. But our fish stocks and their habitats 
need investment desperately to be conserved and rebuilt. 
Members of my organization have dug deep in their own pockets 
to pay for fishery programs, but we cannot do it all by 
ourselves. We cannot, and should not, pay for damage done by 
others. That is why we need a permanent source of public 
funding to invest in and recover our public fishery resources. 
Thank you so much.
    [The prepared statement of Mr. Parravano may be found at 
the end of the hearing.]
    Mr. Tauzin. Thank you very much, sir.
    I don't have to tell you that, coming from Louisiana, where 
fishing is not just a profession, it is a way of life. We call 
ourselves sportsmen, that is fair, but we also have commercial 
fisheries as an industry. But I am very empathetic to your 
concerns.
    By the way, I want to put into the record with unanimous 
consent, a letter from the West Coast Seafood Processors 
Association, which is endorsing the CARA Bill, for the very 
reason that it authorizes monies to be spent on marine 
research, which is a deep concern. I think we share that 
concern.
    I understand you may prefer one language over the other, 
but we share that concern. Without objection, this will be made 
part of the record.
    [The information may be found at end of hearing.]
    Mr. Tauzin. Let me point out, as David Waller testified 
yesterday, that the reason in CARA that we have created the 
state flexibility in how it spends its money in these areas is 
because the ``one size fits all`` may not work. It may be that 
in California, for example, where the legislature has already 
established programs for marine research and assistance and 
marine habitats, that that state will, using the authority of 
CARA and the state guaranteed program, direct more money into 
that area than perhaps another state in the Great Lakes, which 
may have a different set of problems to deal with.
    It is the state flexibility in this area that we have tried 
to capture in our bill, and I hope you understand, Mr. 
Parravano, it is not that we care less about the marine 
ecosystems or marine biologies, it is simply that flexibilities 
give our state some chance to actually make their programs fit.
    Let me also address what, Mr. Paap and Mr. Grossi, you both 
talked about here, which is the issue of private property 
rights and the different versions of the bill as they apply to 
conservation easements and purchases of land and what have you. 
Let me first inform you that I think the Land and Water 
Conservation Fund can be now used for conservation easement 
type work.
    There is controversy over that, however. There is 
controversy within our support group as to whether we ought to 
clarify it in the law. I think we ought to, frankly; I like the 
idea, and I think it makes good sense for us to encourage 
private owners to, indeed, go beyond the law, if you will--not 
only do what the law requires, but assist in creating habitat 
for species that are either threatened or endangered, or to 
help prevent them from ever getting there because that, indeed, 
impacts farmers and communities a great deal if that is allowed 
to happen.
    So, we have some differences to the language and how we 
treat it, but I want to point out that in our bill we do have 
provisions in the last section for assistance to landowners 
with ESA problems. I caught an argument today that might argue 
against it, but we intend hopefully to fund that in the process 
of going through this Committee work.
    So, funding the assistance to encouraging landowners to not 
only obey the law, but actually to take aggressive action to 
increase and encourage the propagation of species on their 
property that either are threatened or endangered or scheduled 
one day to be there if we do not do something now. It makes 
good sense, and I think you are going to see as we work the 
process of these bills we continue that effort.
    The final thing I wanted to point out is that we keep 
hearing from a lot of folks about the incentives in this bill 
that might incentivize oil and gas drilling or something. I 
want to point out that interior states now share 50 percent of 
the revenues from the Federal Government from interior 
drilling, interior mining, interior production of minerals. In 
a perverse way, you could argue that that is an incentive for 
the states to encourage those activities inside the state. 
Again, we are trying to be as neutral on that proposition as 
possible so that that argument does not come back to bite us as 
we move this bill forward.
    It is not a bill to try to encourage more offshore 
drilling, it is a bill that captures a permanent fund, some of 
those revenues to do the wildlife preservation that we have 
lacked for too many years, in too many areas, and to preserve 
marine ecologies and do research that might help us in the 
future.
    We have also been joined today by Governor Carper, who has 
finally made it, so I do not want to prolong this panel, but if 
any of you have a comment to make in regard to my statement, I 
will be happy to receive it now. Any of you want to come back 
to me? Mr. Parravano.
    Mr. Parravano. I really appreciate your comments, and I 
feel that too long our public policy has been directed by this 
one-size-fits-all, and it is something that there are a lot of 
entities that suffer from that attitude.
    It is time that somebody takes the lead in addressing the 
problems that are facing America's natural resources. I know in 
California we have been doing a lot of work with a lot of 
different groups, a lot of different agencies, in trying to 
promote sustainable fisheries and coastal communities because, 
if it was not for the natural resources that we find out in the 
ocean, our coastal communities would not exist.
    Mr. Tauzin. I only ask you to take that into consideration 
as you look at the two bills because instead of directing 
funding, we are trying to give the states flexibility in that 
area. And, again, my assumption is that California regards its 
fisheries as extraordinarily important, as we do in Louisiana. 
My assumption is California is going to make the right 
decisions when it comes to applying the marine research funds, 
et cetera.
    Mr. Grossi. On that front, Mr. Chairman--and I certainly do 
not mean to imply that H.R. 701 does not have incentives, 
clearly there are a number of incentives for private 
landowners, particularly in the habitat section--but I suggest 
that you consider taking Title IV from H.R. 798 and 
incorporating it in a final bill. Title IV is the title that 
deals specifically with the efforts that local communities and 
states are trying to put together to purchase development 
rights and keep good land in farming by making up some of the 
difference between its development and its farm value.
    Mr. Tauzin. Yes, and, again, it is something that I have 
great affinity for. I just want you to know that there are some 
differences of opinion among the co-sponsors on that somewhat 
controversial issue, but we are trying to get there.
    Mr. Grossi. I would just close that point by saying that 
Title IV in H.R. 798 is the companion piece to Senate Bill 333 
that has very bipartisan support over in the Senate to 
reauthorize the Farmland Protection Program that was part of 
the 1996 Farm Bill. So, this would be in keeping with what is 
going on in other areas of policy.
    Mr. Tauzin. Thank you very much. Mr. Paap, thank you very 
much, too, for your statements in support of our efforts to 
preserve private rights in this thing.
    Mr. Shaffer, I cannot argue at all with your comments, they 
have been very excellent. Thank you.
    Mr. John.
    Mr. John. Very quickly, Mr. Grossi, just, I guess, a point 
of clarification in my mind and in the minds of the Members 
that are at the desk today, as it relates to conservation 
easements. Do you feel that they will reduce the value of 
property, or devalue property, thus eroding the tax base for 
local government?
    Mr. Grossi. No. In fact, I think there always is a concern 
when there is the removal of certain value off the property 
that is going to impact local property taxes in the local 
community. In fact, in the case of farmland protection, almost 
every state already has use-value taxation on farmlands so that 
the property taxes are based on that use-value.
    Putting an easement on the land rarely has any additional 
impact on the property but, to the contrary, if the easement is 
purchased, it provides the landowner with significant liquid 
capital. And our survey showed that they spend this money, that 
some of them put it in savings like any other American would, 
but a lot of it goes right back into improving their farm 
operations, buying new equipment, buying more land.
    So, the money used to buy the easements turns over in the 
community quite rapidly. In fact, about 85 percent of it turns 
over in the community within 24 months, according to our 
surveys.
    Mr. John. Thank you for that clarification because I agree 
with that observation also.
    Final question to Mr. Parravano. In your testimony you 
mentioned funding of aquatic research. Obviously, that is very 
important to all of us, especially in Louisiana where we 
actually represent about 35 percent of the domestic seafood 
industry in the lower 48 states.
    Mr. Tauzin. Most in my district, by the way.
    Mr. John. Well, I have a few in my district, too. We have 
the bigger fish over on our side. We send them all to you guys. 
You do not have anything left, it is all eroding. So, we are 
very, very interested in aquatic research, and obviously 
coastal erosion impacts those estuaries, so that is something 
that is very, very dear to myself as I represent 300-plus miles 
of coastline. You specifically talked about two measures in 
California, about two laws that address fishing research.
    I just would like to bring your attention to the language 
in H.R. 701, the CARA bill, on page 13, when it talks about the 
uses of the funds in section 104. It specifically says--and let 
me read this to make sure that it calms your fear about 
research. It says: Funds received pursuant to this title shall 
be used by the coastal states and eligible political 
subdivisions for--and it enumerates--air quality, water 
quality, fish and wildlife (including cooperative and contract 
research on marine fish).
    So we do provide funding for research, although it is not 
mandated. As my colleague from Louisiana said, I think this 
language is consistent with the State of California and their 
concerns. I believe that a healthy coastline, a healthy 
estuary, is good for fishermen, and I know you would agree with 
that.
    Mr. Parravano. I certainly do, sir, and I appreciate those 
comments. One of the things we have been able to undertake in 
California is a partnership program that we have initiated with 
universities, with various colleges, where they utilize the 
resources of the fishermen in going after research programs 
because what we have seen too many times is that somebody does 
a study, or will go out and do some research, and the actual 
resources, the people that spend their time on the ocean, are 
never invited to participate in the programs.
    So, that is one of the things we have found has worked out 
really well, that in order to really get proper research and 
proper analysis done of the resources, one has to incorporate 
the uses of the user groups.
    Mr. John. That is one of the reasons why you are sitting at 
this table today, to make sure that we have input of guys that 
have actually gotten their hands bitten a couple of times as 
they were grabbing all those fish. Thank you very much.
    Mr. Parravano. I would also like to express my thanks to 
the Committee for the flexibility in my presentation. My flight 
was canceled coming here, so I literally just got here. I do 
not even have my baggage. It is probably going to be waiting 
for me at the airport when I return.
    Mr. Tauzin. As a seafaring man, I know this has been rough 
on you. We appreciate you coming.
    We also have an honored visitor who came a long way, so I 
want to thank this panel for your participation and 
contributions. Again, we will continue this dialogue to see if 
we can't get as perfect a product as we can, understanding that 
we have a lot of interests to balance here. Thank you very 
much.
    We are now very pleased to welcome Governor Thomas Carper, 
who himself has spent many years with us here in the Congress 
and who we are pleased to see again.
    Governor Carper, we often look back on those days with 
great affection and memory, and appreciate seeing you again, 
and have been very aware and following your career in Delaware, 
and want to congratulate you for the great job you are doing 
for the great people of Delaware. Governor Carper.

STATEMENT OF HON. THOMAS R. CARPER, GOVERNOR, STATE OF DELAWARE

    Governor Carper. Mr. Chairman--and I am really not sure if 
you are the Chairman of this Committee or Subcommittee. You 
used to be my Chairman when we were on the Merchant Marine and 
Fisheries Committee.
    Mr. Tauzin. I have moved around a lot since you were here.
    Governor Carper. Old habits die hard, so I am happy to call 
you ``Mr. Chairman,'' and other Members of the Committee. We 
used to meet just down the hall there at the old Merchant 
Marine and Fisheries Hearing Room. In fact, that is where I 
went first, looking for all of you, and glad to have found you 
here.
    I appreciate very much the chance to be back and to share 
some thoughts with each of you. I have a prepared testimony 
here, I am not about to ask you to let me go through it, given 
how long you have been here already, but I would ask for 
permission to have it entered into the record.
    Mr. Tauzin. Without objection, so ordered.
    Governor Carper. Let me just make three or four points, and 
I will be done and you all can be on to what you need to do. I 
understand there is a bill up on the House floor today, maybe 
expansion of education flexibility that my Congressman Mike 
Castle along with Tim Roemer from Indiana are pushing, and I 
hope that it will do well. It is important to the Governors and 
to the states.
    Just a few points, if I could, Mr. Chairman and Members of 
the Committee. One is some thoughts on sort of the basic theory 
that underlies these bills that you are considering. The notion 
that finite resources, nonrenewable resources, gas and oil, as 
those resources are depleted, what should we do with the money.
    And what we would suggest, as Governors, is that those 
dollars be used to invest in things of lasting value, to 
provide in some cases permanent resources such as recreational 
areas, park improvements, to help us with preserving open space 
AG land habitat, wildlife, and fishery resources as well. We 
would urge that as you go forward, this theory that seems to 
underlie both pieces of legislation that you are dealing with. 
That is a sound theory, and we would certainly support that.
    Second is who ought to be involved in the decisionmaking as 
how any monies that come to the state are invested. 
Surprisingly, as Governor and Chairman of the National 
Governors Association, I would suggest the Governors should 
have a role in that. I understand that at least one of the 
bills provides for a more direct role for Governors.
    Having said that, I would not say for a moment that 
Governors are omniscient and have the ability to know how all 
these dollars should be invested. It is one of those deals 
where we were actually better off, I think, for the 
decisionmakers to come up from the bottom, and from folks who 
live in the communities, live in the counties in the coastal 
areas, to have them be very much involved in the 
decisionmaking, and for Governors and other elected leaders in 
our states to recruit and to welcome that kind of input.
    When I sat where you sit, I was more interested in making 
those decisions from Washington, but I hope not blindly so. 
Sitting where I sit today, I still remember how I felt when I 
was here, and would acknowledge that, but I would just ask you 
to keep in mind that some of the local folks have a real good 
feel for what their needs are, and we need to be mindful of 
that and remember that.
    Another point I would make is there are some concerns that 
if we are not careful, the monies that flow back to the states 
might somehow provide a perverse incentive for us to go out and 
do more offshore development and activities. As Governors, we 
would say we are big boys and girls, we are not interested in 
doing that, we do not believe that perverse incentives lie 
there, certainly that is not our intent or spirit, and we would 
not use the financial resources in that way. In fact, we just 
adopted an NGA when we were in town here a couple of weeks ago, 
the policy that says that is not what we are about and that is 
not what we want to see happen.
    The other point I want to make--this is kind of on a 
personal note. I used to run when I was down here. I used to go 
out and run a lot on the Mall and work out in the House gym 
just next door in the Rayburn Building. I do not get to do that 
much anymore, but I still work out pretty regularly. And every 
Sunday morning I go for a run usually before my family wakes 
up, before we go to church, I go out and run five or six miles. 
And I run through a park called Bellevue.
    And that was a park that was bought I want to say 25 years 
ago, and it was bought with monies from Land and Water 
Conservation Fund.
    Over the years, those monies have been used to build 
bicycle paths, bicycle trails, other recreational amenities, 
and those monies have come from the Land and Water Conservation 
Fund. It has been a couple of years, several years, since 
monies have flowed to the states for those purposes.
    But I just wanted to tell you on a very personal level, 
that I see on a weekly basis as I get out on Sunday mornings 
right after daylight, what we can do and what states can do 
with these kind of financial resources.
    I do not know if you have ever been to our beaches in 
Delaware, but we have some places called Rehobeth, and Dewey, 
and Bethany, just wonderful places. And if you go through the 
parking lots at the Delaware beaches, you find the license tags 
on the cars--there is a bunch from Delaware, of course--but 
there is a bunch from Virginia, from the District of Columbia, 
from Maryland, from New Jersey, Pennsylvania, they come from 
all over. And people not just from our state enjoy those 
recreational assets, but people from throughout the region and 
actually throughout the country, actually throughout the world.
    That park I mentioned, Bellevue State Park, not far from my 
home, where I like to run, if you go through the parking lot 
there on a weekend in the spring, summer or fall, you see 
license tags on the cars, they are not just from Delaware. We 
are only five miles from Pennsylvania. We have people from PA 
there, New Jersey, Maryland, and from all over the Eastern 
Seaboard, and we use these resources--that is just a great case 
in point where we have used these resources, financial 
resources, through the Land and Water Conservation Fund in ways 
that benefit not just the people in our own state, but people 
from throughout our region.
    The last thing I would mention, when I was down here, a 
bunch of us were concerned about deficit reduction and 
balancing budgets--in fact, some of us worked together on that 
stuff for a number of years--and I commend you on the good work 
you are doing now with the President to get the budget under 
control.
    I would just say, as you go through this process and there 
is some give-and-take, I understand, with the Budget Committee, 
you make a permanent source of funding without ongoing 
appropriations, a question of offsets, and you come to 
Governors and say, ``What offsets would you be willing to live 
with?''
    One Governor is going to say one thing, another will say 
another, depending on what our needs are. And I would just ask 
as we get to that point, if we are looking for permanent 
reauthorization and without going back for appropriations that 
are offsets that are needed, that we just continue to have a 
conversation on that point and we would welcome that.
    The last thing I would say, just kind of looking back to 
when, Mr. Chairman, you and I served together, that Merchant 
Marine and Fisheries Committee always amazed me. Our Chairman 
was Walter Jones, and walking by the hearing room I saw his 
name over the hearing room and it made me smile.
    Chairman Jones and Members of the Committee were uncommonly 
good at taking different points of view--in some cases a 
Democratic proposal or Republican proposal--and working them 
through, and being able to set aside our differences to work 
things out and to go over to the floor and get our bills 
passed, almost without exception. In fact, it was in some ways 
the most productive Committee here, and was one of the smallest 
committees and one of the least known committees.
    You have a couple of good proposals here from people that I 
have served with, you have obviously served with, and people I 
certainly respect, and I hope at the end of the day that kind 
of bipartisan spirit that used to characterize so much of what 
we did in Merchant Marine and Fisheries can come to the fore 
here and help you to work this out and, if you do, in ways that 
we will have a chance to provide some input, and we appreciate 
that chance today.
    [The prepared statement of Governor Carper may be found at 
the end of the hearing.]
    Mr. Tauzin. Governor, thank you very much.
    Obviously you know Merchant Marine and Fisheries Committee 
is gone, it has sort of merged with the Interior Committee, 
which has not always been as bipartisan as our old Merchant 
Marine and Fisheries Committee, but we are reaching for that 
here. As you know, Mr. Miller and Mr. Young have a lot of 
commonalities in the two bills we are going for, and I thank 
you for that message again, that we need to go back to those 
days.
    I know when you mentioned Walter Jones, my young colleague 
from Louisiana, Chris John, said, ``Walter Jones, he was 
Chairman?'' His dad was Chairman. As you know, his son is now 
serving with us. Just to indicate how old we are all getting, I 
served with Chris' father in the state legislature, and I 
hunted with his grandfather. You know how old I feel right now?
    [Laughter.]
    Mr. Tauzin. Again, Governor Carper, thank you for those 
comments. Indeed, it is true that we are trying to focus 
decisions on more of the states and local governments in many 
of these areas. We got a complaint this morning, someone wanted 
us to have all the decisions made here in Washington, the 
Federal Government overseeing and deciding all these questions. 
I think you bring the other perspective to us, that there are 
folks back home who have a better sense of what the needs in 
Delaware are.
    Finally, Thomas Cove was here earlier, speaking for the 
Sporting Goods Manufacturers, and he put a real human face on 
how communities, like those in Delaware, are tested because 
there is not enough space for all the young ladies to play 
their sports and fields that are reserved for other sports that 
perhaps they are not as interested in, and how soccer fields 
are not available to kids who want to play soccer in many 
places in America. So, I think we have had some great testimony 
coming from others.
    Finally, I would just mention to you that we heard one 
witness, Mr. Jack Caldwell, our Secretary of Natural Resources 
in Louisiana, who testified that without this bill, without 
help somewhere soon, that in Louisiana we are about to lose in 
land acreage, acreage the size of the State of Delaware, to 
coastal erosion. That is how huge a problem we have. So, I 
guess that puts in perspective how big a problem it is for us 
and how much we appreciate your coming to urge us on in this 
effort. My good friend, Mr. John.
    Governor Carper. That also puts into perspective how big 
Delaware is.
    [Laughter.]
    Mr. John. Thank you, Mr. Tauzin. I appreciate that when you 
were talking about age and serving with my Dad and Grandfather, 
I did a little figuring here as it relates to the bill, of what 
we are trying to address--the coastal erosion in Louisiana. If 
we, in fact, lose about 35 square miles every year, then we 
have lost, since you have been in Congress, about 1,750 square 
miles.
    Mr. Tauzin. The size of Rhode Island. Yes, I know.
    Mr. John. Actually, as it relates to age, it might be the 
size of Texas. No, I am just kidding. Governor Carper, thank 
you so very much for being here today. As I read your 
testimony, I was very encouraged by the bipartisanship and the 
geographical pull that is pulling everyone together and is 
really alive and well; How someone from your state and 
Louisiana can think so very much alike because we are brought 
together with the problems of our coastlines that are so 
important to us economically in a lot of ways. However, some 
Members of Congress question whether states that do not have 
any OCS production off their coast, should receive funding or 
have a need for coastal assistance.
    Do you believe that any comprehensive bill that comes out 
of this Congress, whether it is this bill or any other bill, 
must provide funding for coastal restoration as part of that 
piece of legislation?
    Governor Carper. I believe it should be. Having said that, 
the lands that are off of our coasts and under the oceans, the 
question is who do they belong to, do they belong to the states 
alongside which they are located, or do they really belong to 
all of us? And we, as Governors, are convinced that they really 
belong to all of us, and we are a coastal state, you are a 
coastal state, but the idea that folks in Kansas and Iowa and 
Minnesota as well have some claim on those lands and the 
revenues derived from them, we believe that is an important 
point.
    Mr. John. I happen to agree, thank you very much for that. 
Also, would you clarify that the State of Delaware really does 
not have, as it relates to incentives, any plans of putting any 
oil rigs off its shores in exchange for any coastal revenues, 
is that a fact?
    Governor Carper. You got it.
    Mr. John. And, lastly, I do not believe that I would 
anticipate that you would come up and lobby the Congress to 
eliminate the Federal leasing moratorium just to get some of 
these funds up here as an incentive measure, isn't that true?
    Governor Carper. No, we would not do that. Actually, I 
think it is the----
    Mr. John. I'm sorry, I make light of that because I am 
trying to make a point about drilling incentives; We are trying 
to address those concerns as much as possible. I appreciate 
your answers to those questions.
    Governor Carper. Thank you. Can I make one other quick 
point? In Delaware, we have spent over the last four years 
almost $100 million of our own money--in fact, probably more 
than that--for open space preservation, ag-land preservation, 
for parks--and for our state, that is a huge amount of money. 
It is money spent out of our own pockets, so we are not just 
coming to the Federal Government and saying we want the Federal 
Government, with these revenues from the Outer Continental 
Shelf, to do this work for us. I just want you to know that we 
are putting our own money where our mouths are as well, and we 
feel that that is our obligation and we are trying to meet that 
obligation.
    Mr. John. We are hoping we can help you. Thank you for 
coming.
    Mr. Tauzin. Thank you, Chris. Governor Carper, you know the 
call, we have got to go. Deeply appreciate your coming and 
sharing your time with us, and great seeing you again. Good 
luck to you, sir.
    The hearing stands adjourned.
    [Whereupon, at 3:15 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
     Statement of Javier Gonzales, NACo Second Vice President and 
               Commissioner, Santa Fe County, New Mexico

    Mr. Chairman and members of the Committee, my name is 
Javier Gonzales. I am a Commissioner from Santa Fe County, New 
Mexico and I am here today representing the National 
Association of Counties (NACo)\1\, in my capacity as Second 
Vice President.
---------------------------------------------------------------------------
    \1\ The National Association of Counties is the only national 
organization representing county government in the United States. 
Through its membership, urban, suburban and rural counties join 
together to build effective, responsive county government. The goals of 
the organization are to: improve county government; serve as the 
national spokesman for county government; serve as a liaison between 
the nations counties and other levels of government; achieve public 
understanding of the role of counties in the Federal system.
---------------------------------------------------------------------------
    NACo is pleased to testify on behalf of these important 
bills that, if enacted, will have very positive effects on our 
Nation's counties and communities. These bills present an 
exciting opportunity because of the genuine support from such a 
broad range of interests and the fact that the Administration, 
the U.S. Senate and this Committee have very similar proposals. 
It is important to note the bipartisan nature of these 
proposals and the distinct possibility that something will be 
done in this arena in this Congress. Each bill uses OCS revenue 
as the source for funding the distribution proposed by this 
legislation, and each has similar uses in mind. I need not 
remind you that the potential budget pitfalls are significant 
and creative solutions need to be found.
    Today I will focus my remarks primarily on the Conservation 
and Reinvestment Act of 1999, (CARA), but will comment on H.R. 
798 during my remarks.
    At our recent Legislative Conference, our Board of 
Directors adopted a resolution in support of the concepts 
embodied in the CARA legislation. Our resolution states: ``NACo 
strongly supports the principles of the Conservation and 
Reinvestment Act of 1999 (CARA'99) that would reallocate Outer 
Continental Shelf (OCS) oil and gas revenues to the LWCF, a 
coastal state revenue sharing program, add funding to the Urban 
Park and Recreation Recovery (UPARR) program and establish an 
innovative procedure for adding funding for the Payments In 
Lieu of Taxes (PILT) program, in addition to annual 
appropriated funds. NACo will advocate a change in the 
`stateside' program to allow counties to directly apply for 
LWCF grants and provide authority for innovative and flexible 
methods for utilization of these grants such as a leasing 
program, rather than outright purchase of land that removes 
them from tax roles.''
    We also have another resolution, one that was passed in 
July 1998, supporting OCS revenue sharing with coastal states, 
and one of our key principles for reauthorization of the 
Endangered Species Act parallels H.R. 701's section on Habitat 
Reserve Program. We believe it is clear why NACo supports the 
approaches in this legislation.
    Let me take this opportunity to comment on some of the 
issues surrounding this legislation.
    First, NACo is very pleased that the authors have chosen to 
recognize the significant impact OCS development can have on 
coastal counties and have taken steps to assure that any shared 
revenue from OCS development is shared with coastal counties.
    Second, the bill acknowledges the need to fund the 
stateside portion of the LWCF and would assure that counties 
would share the revenues set aside of the states. It would be 
preferable to have counties be able to utilize their share of 
the Fund without having to work within the mandated structure 
of a state plan, but we believe an acceptable approach can be 
worked out during deliberations on the bill. We also believe we 
need to look at innovative approaches, such as conservation 
leasing to meet the goals of the LWCF without removing land 
from the tax roles.
    Third, the innovative approach to adding money to the PILT 
program in Titles I and II should be applauded and the authors 
should be commended for recognizing the need to fund the PILT 
program at reasonable levels. Let me share with you some 
interesting facts from a soon-to-be-released PILT study by the 
Federal Government:

        <bullet> Overall PILT payments are about $1.31 per acre LESS 
        than the property taxes that would be generated. PILT 
        entitlement lands in the sample counties would have generated 
        an average of $1.48 per acre if taxed by the county, but PILT 
        payments only amount to an average of 17 cents, only 11 percent 
        of the potential tax bill.
        <bullet> To fully fund PILT another $2OO million would have to 
        be added to the $125 million currently appropriated.
        <bullet> To achieve overall PILT/tax equivalency another $696 
        million would have to be added to full funding of the PILT 
        program, and even then 18 percent of the counties would not be 
        equivalent.
        <bullet> In the case of the East, taxes would exceed PILT 
        payments by over 1,000 percent.
        <bullet> Counties in the Interior West responded that moderate 
        or substantial costs were imposed by the presence of Federal 
        lands, particularly in the areas of search and rescue, law 
        enforcement and road maintenance.
        <bullet> The presence of Federal lands in a county provide 
        virtually no direct fiscal benefits (other than PILT and 
        existing revenue sharing programs) to counties.
    NACo is the only national organization advocating for additional 
funding for the PILT program, and we appreciate this attempt to do 
something about this shortfall.
    NACo, through its Large Urban County Caucus, applauds the inclusion 
of funding for the Urban Parks and Recreation Recovery Act (UPARR). 
Parks and open space are important factors in improving the quality of 
life in America's urban counties. We believe improving our parks and 
preserving and acquiring additional open space will assist our efforts 
to attract new economic opportunities for our counties. The synergism 
created by inclusion of this provision helps bring together urban, 
suburban and rural counties in support of this legislation. It also 
brings to the debate on resources other interest groups, such as The 
U.S. Conference of Mayors, that have not traditionally been involved 
with legislation of this type.
    NACo also supports the additional funding for the Pittman-Robertson 
Act, but we believe counties should play a larger role in the 
allocation and utilization of the disbursements.
    On other matters, NACo is confident that this legislation does not 
adversely effect private property rights without due process and local 
involvement. This is an important consideration as this bill moves 
through the process. We believe there are adequate protections built 
into the bill to preclude an incentive for opening new areas for OCS 
oil and gas development. While supporting this bill approaches, NACo 
will make every effort to assure there are no unfunded mandates or 
requirements that would effectively preclude counties from 
participating and enjoying the benefits of this legislation.
    H.R. 798, the Resources 2000 Act, has a role to play in the 
consideration of legislation in this area, however, we do not believe 
it is as ``county friendly'' as the CARA proposal and it attempts to 
fund a much broader array of programs that could reduce the amount of 
money available for counties to meet local needs. It also does not make 
any provision to assist the PILT program, which again is very important 
to the hundreds of counties nationwide that receive payments from this 
program. Title VIII speaks to the concept of incentives for the 
conservation and recovery of endangered species, as mentioned in our 
resolution on the subject, however, we would defer judgment at this 
time on the specifics of the Title.
    I would like to take this opportunity to touch on specific 
provisions of H.R.701. Title Section 103 (a)(2) addresses the issue of 
incentives for new OCS development, the Committee may want to be even 
clearer in its intent. We applaud Section 103(a)(3) for its innovative 
approach to adding money for the PILT program. Section 103(e) assures 
that counties will benefit from OCS revenue sharing and we believe this 
is a critical element of the bill. In Section 105(a) dealing with state 
plans, the role for counties needs to be strengthened and expanded and 
subsections (b) and (c) need further review and fine tuning. Section 
202 (a) needs clarification where it refers to the utilization of any 
excess revenue above $900 million where the excess would be available 
without further appropriation to the PILT program or the Migratory Bird 
Act of 1935, but does not make clear what entity decides where the 
money shall be allocated. I specifically wanted to note that the 
legislation in Section 202(b)(1) requires that 2/3 of the Federal LWCF 
be spent east of the 100th Meridian. Many county officials in the west 
would wholeheartedly support this requirement because, as you well 
know, the bulk of the Federal lands inventory is in the west. I wanted 
to reiterate our concern about mandates and Section 202(g) may present 
some concern. Section 205 establishing a voluntary Habitat Reserve 
Program is consistent with the principles of NACo's resolution on 
reauthorization of the Endangered Species Act. Section 205(c) 
specifically limits lands eligible for the program to no more than 25 
percent of the land or water of any county at any one time unless a 
determination is made that exceeding that level would not adversely 
affect the local economy of the county. While in concept this is a good 
idea, the provision allows a state agency to make the economic 
determination rather than the local county commission. This needs to be 
changed. My final comment about the specifies is that counties need a 
larger role throughout Title III.
    Mr. Chairman, this concludes my testimony. I have attached copies 
of the relevant policy resolutions adopted by the NACo Board of 
Directors. I would like to thank you, and members of the Committee for 
your interest in the needs and concerns of America's counties. We stand 
ready to work with the Committee, the Senate and the Administration to 
hammer out an acceptable bill that will set the tone for conservation 
in the 21st century.
    Thank you Mr. Chairman for the opportunity to testify on this 
important legislation.

                              Attachments:

RESOLUTION TO RE-ALLOCATE STATESIDE FUNDING FOR THE LAND AND WATER 
CONSERVATION FUND

    Issue: Support for additional funding for the Land and Water 
Conservation Fund (LWCF) and for other purposes.
    Adopted Policy: NACo strongly supports the principles of the 
Conservation and Reinvestment Act of 1999 (CARA'99) that would 
reallocate Outer Continental Shelf (OCS) oil and gas revenues to the 
LWCF, a coastal state revenue sharing program, add funding to the Urban 
Park and Recreation Recovery (UPARR) program and establish an 
innovative procedure for adding funding for the Payments In Lieu of 
Taxes (PILT) program, in addition to annual appropriated funds. NACo 
will advocate a change in the ``stateside'' program to allow counties 
to directly apply for LWCF grants and provide authority for innovative 
and flexible methods for utilization of these grants such as a leasing 
program, rather than outright purchase of land that removes them from 
tax roles.
    Background: The Federal Land and Water Conservation Fund was 
created in 1965 to provide matching funds to encourage and assist local 
and state governments in urban and rural areas to develop parks and 
ensure accessibility to local outdoor recreation resources.
    In the past several years Congress has diverted Land and Water 
Conservation monies to programs unrelated to parks, conservation and 
recreation. This action has resulted in total elimination of state 
grant programs to assist counties to meet the needs of our rapidly 
increasing populations, and has created a backlog of upgrades, 
renovations and repairs to outdoor recreation facilities.
    Past benefits to counties have been accessing, through a grant 
process, dedicated monies to provide important economic, social, 
personal and resources benefits to our citizens. Outdoor recreation 
reduces crime by providing positive alternatives and experiences for 
our citizens. Millions of state and county dollars have been invested 
in outdoor recreation and have been matched by local funds in the form 
of donated labor and materials and community force accounts.
    Fiscal/Urban/Rural Impacts: Coastal state counties, both urban and 
rural, would receive substantial payments from the OCS revenue sharing 
program should this legislation be passed. Urban counties would benefit 
from additional funds for the UPARR program, rural public land counties 
would benefit from additional funds for PILT and all counties would 
potentially benefit from LWCF grants.
Adopted by: NACo Board of Directors
February 28, 1999

         RESOLUTION IN SUPPORT OF OCS COASTAL IMPACT ASSISTANCE

    Whereas, the coastal regions of the United States are fragile 
environmentally and under intense pressure from storms and natural 
disasters, population growth and, in some counties and states, from 
onshore support activities that are necessitated by the development of 
the nation's oil and natural gas resources on the Federal outer 
continental shelf; and
    Whereas, each year the Federal Government receives billions of 
dollars in revenues from the development of oil and natural gas 
resources on the Federal outer continental shelf, a capital asset of 
this nation; and
    Whereas, the Federal Government does not share directly with the 
coastal states or counties a meaningful share of these revenues, while 
the Federal Government share with states 50 percent of the revenues 
from onshore Federal mineral development; and
    Whereas, at least a portion of the revenues from this capital asset 
of the national should be reinvested in infrastructure and 
environmental restoration in the coastal regions of this nation; and
    Whereas, states and counties that host onshore activities in 
support of offshore Federal OCS mineral development should receive a 
share of these revenues to offset state and county impacts of this 
development; and
    Whereas, the OCS policy committee of the United States Department 
of the Interior has recommended that all states and the territories 
should receive a portion of these revenues as an automatic payment 
annually pursuant to a formula based on proximity to offshore 
production, miles of shoreline and population; and
    Whereas, members of Congress representing coastal states are 
preparing Federal legislation to enact the proposal to share a portion 
of Federal OCS revenues with all coastal states and the territories:
    Therefore, Be it resolved, that the national association of 
counties (NACo) commends the members of Congress that are pursuing this 
initiative and the OCS policy committee for their recommendations; and
    Be it further resolved, that NACo supports Federal legislation to 
share a meaningful portion of Federal OCS mineral revenues with all 
coastal states, their counties and territories pursuant to the formula 
recommended by the OCS policy committee.
Adopted by: NACo Board of Directors
July 21, 1998

        RESOLUTION ON THE ENDANGERED SPECIES ACT REAUTHORIZATION

    Issue: Provide for increased participation in the listing and 
recovery of endangered species by local officials and increase 
flexibility and innovation in responding to the need to recover 
species.
    Adopted Policy: NACo shall petition Congress to amend the 
Endangered Species Act through its reauthorization process to provide:
        1. A recognition that if it is in the national interest to 
        protect species, then it must be a national priority to attempt 
        to forestall listing by aggressively providing for pre-listing 
        incentives to affected governments, public land lessees and 
        private property owners to avoid the negative impacts of the 
        Act by entering into conservation agreements with the Secretary 
        of the Interior.
        2. For greater involvement by local governments in planning and 
        management decisions affecting the listing process.
        3. For a significant improvement in the scientific review 
        process by including verifiable peer review by a qualified 
        agency other than the U.S. Fish and Wildlife Service.
        4. The effects on the economic, social and cultural aspects of 
        human activity, and their communities, must be fully studied, 
        and taken into account in all decisions made pursuant to the 
        Act.
        5. Provisions should be adopted to require the U.S. Fish and 
        Wildlife Service to use professionally trained specialists to 
        rescue and remove threatened or endangered species within 120 
        days whenever it is necessary to maintain, repair and 
        rehabilitate critical structures that provide for human health 
        and safety.
        6. Provisions should be included to require previously adopted 
        habitat recovery plans for threatened and/or endangered species 
        that were not developed in consultation with affected county 
        governments, to be reviewed and modified to reflect genuine 
        consultation with the affected county government.
        7. A full partnership for the affected state, its local 
        governments, public land lessees and affected private property 
        owners in the post-listing consultation and decision making 
        process, including critical habitat, habitat conservation plans 
        and full-scale recovery plans.
        8. Adequate protection of private and public property rights.
        9. Prior to a listing, no action shall be taken to restrict or 
        interfere with the use of private or public property without 
        consultation with the affected land owner. Every effort should 
        be made by the Secretary and the affected land owner to 
        establish voluntary agreements for species conservation and 
        habitat protection.
    Following a listing, no action shall be taken to diminish the use 
of property until full consultation has taken place with affected 
landowners, or lessees, and full compensation is agreed upon between 
the landowner, or lessee, and the Secretary. If the Secretary refuses 
to act or limits the compensation to below fair market value, the 
affected landowner is granted status to pursue due process in the 
appropriate Federal District Court.
    NACo believes that the land and wildlife management agencies must 
make a full accounting of funds spent since 1985 for mitigation, 
research, habitat studies and land acquisition, including private fund 
expenditures, and economic losses from land uses diminished or 
cancelled by agencies.
    Background: After 22 years of experience in implementing of the 
Endangered Species Act, there now appears to be ample evidence of the 
need for reauthorizing and revising the Act. It should be the policy of 
the United States to avoid the need for listing threatened and 
endangered species, by involving all affected parties in pre-listing 
conservation activities and by providing a range of incentives to those 
affected parties to enter into conservation agreements to avoid the 
need for listing. Counties can be involved to a much greater extent in 
sustaining of species, through the management of lands, and in making 
decisions which affect their habitat.
    The Federal Government needs better verifiable peer review of the 
science that leads to listing of species, and the identification of 
critical habitat. There needs to be greater emphasis on the affects of 
listing of a species and designation of critical habitat on human 
individuals, their communities, and on the economic, social and 
cultural aspects of such a listing and/or designation of habitat. All 
affected parties should be involved in the postlisting decision and 
consultation process to assure that all concerns are raised, if not 
addressed.
    The current Act provides too little flexibility for the Secretary 
of the Interior to utilize creative and innovative management 
approaches to address the conservation of the species, and does not 
provide for the full participation of state and local governments in 
the recovery process. Protection of some species has led to substantial 
loss of jobs, property loss due to natural disasters, (such as fire, 
flood, etc.) and economic hardship and reduced county revenues.
    In many instances, the burden of protection of species has fallen 
on private property owners, who have been forced to provide habitat 
without adequate compensation for use of their land, while the 
decisions are made in Washington, DC, and the current Act lacks 
provisions for a full and complete analysis of proposed listings on the 
economic, social, and cultural values of humans and their communities. 
It does not contain provisions for adequately compensating affected 
private property owners for losses incurred by listing.
    Counties depend upon a healthy economy to maintain viable 
communities and to produce revenues to provide needed services and 
counties have a strong interest in maintaining community sustainability 
while protecting natural biodiversity because reputable scientific 
evidence suggests that long-term stability for those communities that 
are natural resource dependent is directly related to adequate 
biodiversity:
    Fiscal/Urban Rural Impacts: There are substantial costs to counties 
of all sizes from implementation of recovery plans under the ESA. 
Changes proposed by this policy would provide more flexibility and 
potentially reduce costs. More participation by county officials could 
improve recovery plans and avoid potential economic losses.
Adopted by: NACo Board of Directors
February 28, 1999
                                 ______
                                 
 STATEMENT OF HON. RON MARLENEE, ON BEHALF OF SAFARI CLUB INTERNATIONAL

    Mr. Chairman, I want to thank you for giving Safari Club 
International (SCI), the opportunity to testify before this Committee 
on H.R. 701 and H.R. 798. We have reviewed both bills.
    SCI has verified the need for additional money for state fish and 
wildlife agencies. State agencies have been forced to spend money, 
raised by sportsmen, on the Endangered Species Act (ESA) and other 
Federal mandates not related to sportsmen's interests. This has 
resulted in a tremendous drain on Federal Aid to Wildlife Restoration 
Act funds, otherwise known as Pittman-Robertson funds.
    SCI strongly supports H.R. 701 and the wildlife conservation that 
it will accomplish with the broad-based support of fish and wildlife 
agencies, implementing essential wildlife preservation. By creating a 
sub-account under ``Pittman-Robertson,'' and funding it with a 10 
percent draw on the Outer Continental Shelf (OCS) revenues, H.R. 701 
will effectively expand the species restoration efforts which, in the 
past, have largely been funded by hunters and anglers nationwide.
    These new funds will be available to State fish and wildlife 
agencies for conservation of game and non-game wildlife; endangered 
species conservation; conservation education; and other aspects of 
wildlife conservation, as the individual states deem appropriate.
    As you know, over 60 years ago, Congress passed the Pittman-
Robertson law and created a wildlife conservation and restoration 
program that is among the most successful Federal programs ever 
instituted. It has also become one of the most successful wildlife 
conservation programs in the world and has been responsible for the 
restoration of many species, such as white-tailed deer, elk, and wild 
turkey, which were rare or on the brink of extinction a century ago. 
Since then, Congress has added the Dingell-Johnson and Wallop-Breaux 
laws, to provide a complete program for fish and wildlife species. 
Under the provisions of these bills, sportsmen have willingly paid user 
fees, in the form of excise taxes, on hunting and fishing equipment for 
six decades.
    Using OCS money, Title III of H.R. 701 will expand state wildlife 
conservation efforts and allow state agencies to work with the Federal 
Government, tribal governments, private landowners and interested 
organizations to ensure achievement of state specific goals in 
virtually all areas of wildlife conservation, healthy habitat 
conservation, and a diversified variety of wildlife, as well as 
conservation education.
    During the 104th and 105th Congresses, a concept to increase funds 
available to States for wildlife conservation was conceived as a new 
and additional excise tax on all outdoor recreation equipment. However, 
this idea, called ``Teaming with Wildlife (TWW),'' was never introduced 
as legislation.
    Although SCI supported the general concept of providing funds to 
the State fish and wildlife agencies for wildlife conservation, we 
could not support the TWW approach. To begin with, in the newly 
conservative political climate of Congress, a tax of any kind was 
unlikely to ever become law. In addition, the TWW draft would have 
forced the States to use most of the funds for non-game wildlife and 
outdoor recreation activities, regardless of state needs. We feel that 
it is critical to leave the decision to the State wildlife agencies as 
to how best to use any additional funds for wildlife conservation. Like 
a lot of Federal legislation, the TWW proposal would have been an 
incentive to spend valuable taxpayer money on unwanted, or perhaps even 
unnecessary programs. However, H.R. 701, introduced by Representatives 
Don Young and John Dingell, corrects that.
    In the 105th Congress, Chairman Young wisely saw a way to achieve 
the important goals of increasing state funding for wildlife 
conservation without imposing an unpopular tax, and without robbing the 
State fish and wildlife agencies of the discretion to make 
professionally-sound decisions on directing wildlife conservation funds 
to where they are needed most. This bill has been reintroduced in the 
106th Congress as H.R. 701.
    As one of the leading organizations representing sportsmen 
nationwide, SCI supports Mr. Young and the co-sponsors of the 
Conservation and Reinvestment Act. H. R. 701 is a focused and carefully 
crafted effort. By contrast, H.R. 798 scatters its funds on issues, and 
thinly distributes the OCS revenues. H.R. 701 is an effort to solve a 
few important needs; whereas H.R. 798, although well intentioned, is an 
inappropriate approach that reaches into new programs and appears to 
expand other programs. It circumvents the committee process by pouring 
money into programs that have not been authorized, approved, or 
debated.
    H.R. 701 enhances the time-tested mechanisms of the Pittman-
Robertson program to increase the funds available to the States for 
wildlife conservation. Under Pittman-Robertson, both game and nongame 
species have benefited dramatically. Species, which were nearly 
extinct, from the white-tailed deer to the beaver in the Eastern United 
States, are now back in force. By contrast, H.R. 798 would put a 
smaller amount of OCS revenues into the Fish and Wildlife Conservation 
Act of 1980, a law that has never been implemented and in which the 
``Findings'' section fails to recognize a need for funding the full 
diversity of wildlife needs by emphasizing only those species called 
``non-game'' wildlife.
    Both bills deal with the acquisition of property. While this is not 
the primary expertise or interest of SCI, many concerns about these 
provisions have been expressed to us, both from within and from outside 
of our organization and so we would like to make a comment on the 
subject. We appreciate Mr. Young's sensitivity to those concerns and we 
feel that Congressman Young's bill, H.R. 701, contains provisions 
intended to guard against an undue infringement on private property 
rights. As a matter of fact, the League of Private Property Voters has 
published a rating of the members of Congress for 1998. Attached to 
this statement is the rating, which indicates that Congressman Young 
had a 100 percent ``protection of private property'' rating in 1998. 
With this kind of record, I'm sure Congressman Young will support 
provisions which strengthen private property rights even further.
    In closing, Mr. Chairman, we would like to congratulate you for 
recognizing the need to provide more funding for the State fish and 
wildlife agencies and for finding an inventive way to accomplish that 
goal. We believe your bill appropriately recognizes the primary role of 
the States and their professional wildlife agencies in wildlife 
conservation.
    We encourage the States to seek local and regional management 
solutions to wildlife conservation problems and we think that the funds 
provided by H.R. 701 can be an important part of that effort. We would 
rather see States using the funds provided by H.R. 701 to work together 
to manage various wildlife species and their associated habitats, than 
to see an escalation of Federal listings of endangered species. We feel 
that the States have both the proper interests and qualifications 
needed to manage and conserve wildlife, and we do not favor unnecessary 
Federal intrusions on the lives and properties of people throughout the 
country.
    Much of what the States have lacked in order to accomplish their 
conservation mission has been adequate funding to conserve wildlife 
before it reaches the point of endangerment. H.R. 798 does not provide 
enough funds and attempts to use an untried mechanism for distributing 
those funds. Its focus on wildlife conservation is watered down by its 
efforts to be all things to all people. H.R. 701 is a much better 
vehicle for the important work of wildlife conservation.
                                 ______
                                 
 STATEMENT OF SARAH CHASIS, SENIOR ATTORNEY AND DIRECTOR OF WATER AND 
           COASTAL PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

    My name is Sarah Chasis and I am a Senior Attorney with the Natural 
Resources Defense Council (NRDC) and Director of its Water and Coastal 
Program. I appreciate this opportunity to testify today before the 
House Resources Committee on H.R. 701, The Conservation and 
Reinvestment Act (``CARA''), a Bill introduced by Chairman Young, and 
H.R. 798, the Resources 2000 Act, a Bill introduced by Congressman 
George Miller.
    My testimony on behalf of NRDC focuses on the Outer Continental 
Shelf (OCS) Impact Assistance Title of H.R. 701, the Living Marine 
Resources Title of H.R. 798, and the OCS revenues used to fund all 
Titles of both Bills.
    NRDC is a national environmental organization, with over 400,000 
members, dedicated to protecting natural resources and ensuring a safe 
and healthy environment. NRDC has a long history of involvement with 
the protection of ocean and coastal resources and has worked on a 
number of coastal and ocean issues, including offshore oil and gas 
drilling, coastal zone management and marine fish conservation.
    In our view, the overarching goal for the coast and ocean Title of 
these Bills should be protection and restoration of our nation's 
fragile, but extremely valuable coastal and marine resources which are 
increasingly under pressure from a variety of forces. In achieving that 
goal, 5 principles should be closely adhered to:

        <bullet> The legislation should provide no financial benefit to 
        states from the lifting of current moratorium or from new 
        leasing or new drilling. This should apply to all Titles of the 
        legislation, not just the coastal or OCS impact assistance 
        Title.
        <bullet> The state or local share of money should not be tied 
        to the acceptance of new or closer leasing or drilling.
        <bullet> Money that goes to the states and local governments 
        must be spent on environmentally beneficial projects.
        <bullet> There should be Federal agency oversight of how money 
        is spent to ensure compliance with Federal environmental laws.
        <bullet> Any offsets should not come from existing 
        environmental programs.
    These same basic principles are set out in the February 2,1999 
letter to Chairman Young and other representatives from nineteen of the 
nation's major national conservation organizations that is attached to 
our testimony. This letter states that: ``Our organizations are 
strongly opposed to any financial incentives that promote offshore oil 
and gas development,'' identifies incentives included in earlier 
versions of the legislation and recommends ways of removing them.
    H.R. 701, while containing improvements over last year's Bill (H.R. 
4717), still falls seriously short when measured against the above 
prjnciples. In contrast, H.R. 798 adheres to these principles very 
closely. As a result, we support H.R. 798, but must continue to oppose 
H.R. 701 unless and until the concerns we have raised are 
satisfactorily resolved. We stand ready to work with the members of the 
Committee and their staff to do this.
    Following is our analysis of the two Bills with respect to the 
principles enunciated above.

H.R. 701, THE CONSERVATION AND REINVESTMENT ACT

REVENUE SOURCE

    H.R. 701 includes revenues from new leasing and new drilling as a 
funding source for all Titles of the Bill, with one exception. Excluded 
from revenues for Title I (``Impact Assistance Formula and Payments'') 
are revenues from leased tracts in areas under moratorium on January 1, 
1999 (unless the lease was issued prior to the establishment of the 
moratorium and was in production on january 1, 1999).
    While this latter language represents a definite improvement in the 
Bill, it only affects Title I. In addition, it does not exclude 
revenues from new leasing and drilling in sensitive frontier areas not 
covered by the moratorium. The Bill thus still falls short of meeting 
the first principle.
    The obvious concern is that if the many and varied beneficiaries of 
this legislation see that it is in their financial interest for new 
leasing and drilling to occur--in order to provide more funding for the 
legislation overall and for them in particular--it will erode support 
for the existing offshore oil and gas moratorium, which currently 
protects the east coast (with the exception of existing leases off Cape 
Hatteras), the coast of Florida (with the exception of existing leases 
off the Florida Panhandle), the central and northern California coast 
(with the exception of existing leases off the central California 
coast), Oregon, Washington and Bristol Bay in Alaska. It will also lead 
to support for new leasing and drilling on existing leases off North 
Carolina, the Florida Panhandle and central California, as well as in 
sensitive areas off Alaska--none of which are currently protected by 
moratoria and many of which, if not all, are extremely controversial.
    It is crucial to remember that the moratorium only exist because 
Congress each year reenacts it as part of the Interior Appropriations 
legislation. Presently, a one-year congressional Outer Continental 
Shelf Moratorium contained in the FY 1999 Department of Interior 
appropriations Bill precludes the expenditure of funds for new Federal 
offshore oil and gas leasing in specific coastal areas until October 1, 
of this year (1999).
    This congressional OCS moratorium prevents new leases for offshore 
drilling on any unleased tract along the entire U.S. west coast, the 
east coast, portions of Florida, and Bristol Bay in Alaska. Now in its 
seventeenth year, the moratorium must be renewed each year. As recently 
as the 104th Congress, the moratorium was removed in the House 
Subcommittee on Interior Appropriations, and was only narrowly 
reinstated after a big fight in the full House Appropriations 
Committee, in spite of strong opposition to the measure by then-
chairman Rep. Bob Livingston. There have been previous years in which 
the OCS moratorium has survived in the House Appropriations Committee 
by a narrow single-vote margin.
    Related actions have been taken by two successive presidents, which 
supplement, but do not replace, the protection granted by the 
congressional moratorium. These ``Presidential Deferrals'' are 
political in nature and are not considered to be as dependable in 
providing assured protection over time. In 1991, former President 
George Bush announced that he was directing that any further OCS 
Leasing within the areas protected by congressional moratorium, except 
in ALASKA, be deferred until after the year 2002. No formal executive 
order was issued by Mr. Bush, and it is considered that any subsequent 
president could reverse this decision.
    During the 1999 ``Year of the Ocean Conference'' in Monterey, 
California, President Clinton, accompanied by Vice-President Al Gore 
and four Cabinet Secretaries, announced that they were directing the 
Minerals Management Service of the Department of Interior to extend the 
previous Bush OCS Deferrals until the year 2012. No formal executive 
order has been issued by the Clinton Administration since this 
announcement, and it is considered vulnerable to possible policy 
reversals by subsequent administrations.
    Even for Title I, the improvement is incomplete because revenues 
from new leasing and drilling in sensitive frontier areas not covered 
by the moratorium would still fund the Title. In addition, it is not 
clear from the language whether revenues from drilling on existing 
leases off North Carolina, the Florida Panhandle and central California 
would be used to fund Title I. These leases are in moratoria areas but 
are not covered by leasing moratoria. Drilling on these leases is an 
extremely controversial issue in each of those states.
    To address the problem, the legislation should define the term 
``Qualified Outer Continental Shelf Revenues'' in the definitions 
section (section 102) to exclude revenues from new leasing and new 
drilling after the date of enactment of the legislation, as the 
Resources 2000 legislation does. This would remove the financial 
incentive to support new leasing or drilling in moratoria and other 
sensitive coastal areas.

ALLOCATION OF STATE AND LOCAL SHARES

    The legislation ties a state's share of funding under Title I 
directly to the amount and proximity of OCS leasing and production off 
its coast. This provides a clear financial incentive to states to 
accept new leasing and drilling.
    Fifty percent of a state's allocable share is dependent on its 
being within 200 miles of a leased OCS tract. The more production on 
such tracts and the closer in to shore these tracts are, the more money 
the state gets. See section 103 (c)(1) and (2). An improvement in this 
section of the Bill is the exclusion of moratoria tracts from this 
calculation. Thus, even if moratoria tracts are leased or drilled, a 
state would not get more money. However, the language is ambiguous with 
respect to existing leases/production on tracts inmoratoria areas. 
These tracts also should be excluded. Moreover, new leasing and 
drilling outside moratorium areas, including sensitive frontier areas 
off Alaska would still be factored into the allocation formula, thus 
providing a significant incentive for allowing such activities to 
proceed.
    We believe that the formula for allocating funds under Title I 
should not be tied to OCS leasing and production, but instead should 
rest on shoreline miles and population alone. Alternatively, if OCS 
activity has to be a factor, it should be based on a fixed, flat 
percentage based on historic OCS activity, not new activity that occurs 
after passage of the legislation. This would acknowledge states that 
have suffered OCS impacts to date, without providing an incentive for 
new leasing, exploration or production.
    Another major concern with the Bill concerns the method of 
allocating funds to local jurisdictions. Fifty percent of a state's 
share goes directly to eligible local political subdivisions. Section 
103(e). Eligible political subdivisions are defined to be those that 
lie within 200 miles of any leased tract (including tracts in moratoria 
areas). Section 102(6). As a consequence, a locality with OCS leasing 
off its coast is entitled to share in 50 percent of the state's 
allocable share, with its share increasing the closer the leased 
tract(s) are, localities with no leasing are not entitled to any part 
of the state's allocable share. Obviously, this creates a major 
incentive for localities to accept new OCS leasing.
    To address this problem the definition of eligible political 
subdivision should exclude tracts leased after enactment. Such tracts 
should also be omitted from the calculation of how much an eligible 
political subdivision receives.

USES OF THE MONEY

    It is extremely important that funds distributed to state and local 
governments be used to restore and enhance coastal and ocean resources 
and not to cause further environmental degradation. For this reason, we 
strongly recommend that uses be restricted to:
    Amelioration of adverse environmental impacts resulting from the 
siting, construction, expansion, or operation of OCS facilities, above 
and beyond what is required of permitted under current law;
    Projects and activities, including habitat acquisition, that 
project or enhance air quality, water quality, fish and wildlife, or 
wetlands in the coastal zone;
    Administrative costs the state or local government incurs in 
approving or disapproving or permitting OCS development/production 
activities under any applicable law including CZMA or OCLSA; and/or 
repurchase of OCS leases.
    The uses of the money authorized in section 104 of H.R. 701 do not 
ensure that further environmental degradation do not take place. Their 
focus is not on restoring the environment or ensuring activities do not 
further degrade the environment. While states may use funds for such 
purposes, there is no requirement that they do so. Moreover, states and 
localities would be free to use the money for a huge array of purposes, 
including promoting more offshore drilling, highway construction and 
the like.
    We urge that our proposed language be substituted for that in the 
Bill, or that the approach taken in H.R. 798, discussed below, be 
utilized.

OVERSIGHT

    To ensure that the Federal dollars are spent responsibly, in an 
environmentally sensitive manner that complies with Federal law, it is 
important that there be Federal oversight and approval of state plans 
for utilization of the funds.
    While the legislation requires the states to develop plans for use 
of the money and to certify the plans to the Secretary of Interior, the 
Secretary is given no authority to review and approve these plans. In 
addition, it is the state that determines consistency of local plans 
with Federal law, not the Federal Government! Section 105(c). The lack 
of Federal oversight combined with the broad uses to which the funds 
may be put and the large Federal dollars involved mean that 
environmentally damaging projects could well be funded under this 
legislation.

OFFSETS

    It is essential that OCS impact assistance not be funded at the 
expense of existing environmental programs.

H.R. 798, THE RESOURCES 2000 ACT

    We strongly support H.R. 798 because it adheres to the principles 
we support. It does not provide incentives for new offshore leasing or 
drilling. The Bill specifically excludes revenues from new leasing and 
production as a funding source for the entire Bill. See section 4(4) 
definition of qualified OCS revenues.
    The Bill also does not allocate revenues among states (or local 
jurisdictions) based on proximity to leased tracts or production. Title 
VI (``Living Marine Resources Conservation, Restoration, and Management 
Assistance'') makes financial assistance available to coastal states 
based on coastal population and shoreline miles. Section 602(B)(1).
    Finally, the Bill requires that Title VI money be spent on the 
conservation of living marine resources, not on activities that could 
contribute to further environmental degradation. It provides 
significant new funding ($300 million) specifically for marine 
conservation.
    We recommend that consideration be given to having some portion of 
the money under Title VI go to help fund existing underfunded marine 
and coastal conservation programs, such as coastal zone management, 
marine sanctuaries, and essential fish habitat protection. A portion of 
the funding under this Title could be used to assist in achieving the 
goals of at least some of these programs; however, it would not appear 
to directly fund them. Similarly, we would like the opportunity of 
working with Congressman Miller and the Committee on the standards that 
apply to the state conservation plans to ensure that these plans are 
effective as possible and on ways to encourage states to move from the 
planning phase to the implementation phase expeditiously.
    We appreciate this opportunity to testify and look forward to 
working with the Committee on this important legislation.
                                 ______
                                 

 STATEMENT OF ALAN FRONT, SENIOR VICE PRESIDENT, TRUST FOR PUBLIC LAND

    Mr. Chairman and members of the Committee, my name is Alan Front, 
and I am pleased to appear before you today representing the Trust for 
Public Land (TPL)--a national nonprofit land conservation organization 
that works with communities, landowners, and public agencies across the 
country to secure recreational, scenic, historic, or other important 
resource lands for public use and enjoyment--as you consider the much-
needed establishment of a truly dedicated Federal funding source for 
land conservation.
    First, I would like to express TPL's gratitude and my own to 
Chairman Young and to Congressman Miller, along with their respective 
cosponsors, for their leadership in introducing legislation addressing 
this vital need and for their expeditious handling of these bills. We 
appreciate the inclusive process the sponsors of both bills have 
pursued from the outset, and particularly want to commend Chairman 
Young and his staff for considering diverse input from the conservation 
community. Given this cooperative spirit--and given the common threads 
in both proposals, the positive budgetary climate in which you will 
consider them, and the time-sensitive nature of many willing-seller 
resource land conservation opportunities now confronting us--we are 
extremely hopeful that today's hearing will be an important early step 
on the path to enacted permanent-funding legislation.
    We are encouraged that both The Permanent Protection of America's 
Resources 2000 Act (H.R. 798) and The Conservation and Reinvestment Act 
of 1999 (H.R. 701) propose to reinvigorate, and to amend the 
distribution and uses of, the Land & Water Conservation Fund (LWCF), 
which for 35 years has stood as the principal Federal engine for 
parkland protection at all levels of government as well as for state 
and local recreation projects. Both bills also restore the Federal 
Government's partnership, through a revitalized and modified Urban 
Parks and Recreation Recovery Act (UPARR) program, in metropolitan park 
projects.
    H.R. 701 and H.R. 798 differ significantly, though, in their 
approaches to these programs, and in provisions regarding other 
programs. Based on these differences, as I will describe further, The 
Trust for Public Land supports Resources 2000 as introduced, but is 
unable to support The Conservation and Reinvestment Act at this time.
    From the standpoint of TPL's on-the-ground work in the real estate 
marketplace, I would like to offer some perspective on the land 
conservation titles of these bills and some specific modifications we 
suggest, particularly regarding Title II of H.R. 701. First, I will 
share a few thoughts as to why the permanent funding approach 
envisioned by both bills is so urgently needed.

The Need for Increased, Improved, Permanent Conservation Funding

    The Land & Water Conservation Fund was established in 1964 to 
enable priority additions to Federal conservation areas and grants to 
states and localities for land acquisition and recreational facilities 
projects. LWCF was founded on a simple, elegant premise of finance: a 
portion of Federal revenues from the sale of non-renewable assets are 
reinvested in other irreplaceable assets for the nation's benefit. I 
would be pleased to provide the Committee with a recitation of 
statistics on annual Outer Continental Shelf (OCS) receipts and annual 
LWCF levels, though I suspect these all are known to you; for today's 
purpose, suffice it to say that the fund's unappropriated balance 
exceeds $12 billion.
    Many members of Congress have worked to sustain LWCF through 
challenging budgetary times and have advocated for specific projects 
and programmatic uses of the fund. But because LWCF, despite its 
elegant logic, was not truly set aside from OCS receipts but rather is 
addressed annually within the Interior Appropriations allocation, 
funding has varied widely from year to year and has fallen far short of 
the needs in America's parks, forests, refuges, and other public 
landscapes. Consequently, there is an immense backlog of willing-seller 
acquisition needs, support to state and local agencies essentially has 
dried up, and key opportunities are lost each year.
    The shortage of LWCF dollars has posed extreme challenges to 
resources, effective public management, landowner needs, and community 
needs. The inability to acquire lands as they become available often 
leads to private inholding development that can take a toll on resource 
quality and recreational opportunities of adjacent public lands. Where 
inconsistent uses occur on private lands amid protected parklands, the 
true costs of ``managing the holes'' in public ownership can drain 
agency budgets, and in fact can far outstrip the cost of acquisition. 
The paucity of purchase funding can place willing-seller property 
owners in a difficult and unjust position; those who have public-
spirited aims for their lands, or face excessive controversy over 
proposed private uses due to the public resources they host, often have 
to wait years for the just compensation that acquisition provides. For 
communities that depend on public land protection not only for 
recreation but also to provide safe drinking water, support tourism, or 
meet other local needs, the inability to secure public lands can have 
severe economic consequences.

Revitalizing LWCF and UPARR

    Recognizing these challenges, both Resources 2000 and The 
Conservation and Reinvestment Act would provide reliable, permanent 
funding to fulfill the original purposes and expectations of LWCF. H.R. 
701 and H.R. 798 would set aside a portion of OCS revenues each year, 
without further appropriation, to fund LWCF at its currently authorized 
level. In both bills, this substantial, predictable annual commitment 
affords the opportunity to restore LWCF's stateside program, striking 
an important and overdue balance between essential funding of Federal 
needs and appropriate investment in state and local conservation and 
recreation. From our work with constituencies, landowners, and agencies 
on both sides of this equation, the Trust for Public Land applauds this 
big-picture approach.
    In a number of salient details where the two bills diverge, 
however, TPL has substantial concerns regarding provisions in The 
Conservation and Reinvestment Act that we believe would result in undue 
restrictions and delays. Among these are the following:

        --H.R. 701 would limit Federal LWCF funds to lands exclusively 
        within exterior conservation area boundaries. But while most 
        acquisition currently takes place inside these lines, our work 
        with such agencies as the U.S. Forest Service sometimes takes 
        us near but outside the boundaries to secure priority lands 
        that contribute to established agency programs. In some cases, 
        single ownerships are transected by agency boundaries. Congress 
        and the agencies now pursue these sorts of ``outholdings'' with 
        LWCF funds; hemming in this already-existing flexibility would 
        be counterproductive.
        --H.R. 701 would direct 2/3 of Federal LWCF to the eastern 
        United States. There are pressing needs in these states, but 
        the needs are no less pressing elsewhere. Currently, annual 
        Congressional direction of LWCF and Administration budget 
        proposals can focus dollars on priority projects when and where 
        properties become available, irrespective of geography. To 
        remain responsive to communities and property owners in these 
        priority areas, Congress needs to retain this existing 
        flexibility.
        --H.R. 701 would require enactment of new law for any LWCF 
        project whose Federal cost exceeds $1 million. Such a 
        requirement would create enormous and often insuperable 
        obstacles to timely project completion. Congress routinely 
        deliberates and appropriates funds substantially in excess of 
        this proposed limit with no new enabling legislation; in fact 
        all acquisitions rely not only on those deliberations but also 
        on existing authorizing statutes that already provide for these 
        land purchases.
          TPL firmly believes that this provision mandates duplicative 
        enabling legislation and threatens to overload the apple-cart 
        of this Committee's workload. Moreover, the resulting 
        inevitable delays are certain to leave landowners and 
        communities hanging, and in many cases to doom win-win projects 
        that happen (as is so often the case) to be on short fuses. We 
        therefore believe it is absolutely essential that you retain 
        the kind of project scrutiny that the Hill and the 
        Administration now exercise, as H.R. 798 provides for, but that 
        you not unnecessarily add to it.
          TPL appreciates the inclusion in H.R. 701 of Indian Tribes 
        and Alaska Native Corporations as eligible recipients of 
        stateside LWCF funds. We are now working in a number of areas 
        on tribal land conservation projects. To foster that work, we 
        ask that this eligibility be extended, as it is to other 
        stateside recipients, to include tribal land acquisition.
    Both H.R. 701 and H.R. 798 also guarantee restoration of meaningful 
funding levels to the Urban Parks and Recreation Recovery Act program. 
As an organization dedicated to meeting community conservation and 
recreation needs, particularly where people live and work, TPL 
witnesses daily and first-hand the urgent backlog of urban park 
protection and reclamation needs. We therefore strongly support the 
proposed recommitment to this vital program. We also are grateful for 
the prposed updating of the program to better address the facilities 
and land protection demands facing our urban partners.
    Given the demonstrated need across the nation for a fully-funded 
LWCF and for adequate UPARR investment, we urge the Committee to fund 
UPARR from OCS revenues beyond those intended for LWCF, as proposed in 
Resources 2000, rather than relying on LWCF funds for both programs as 
provided for in The Conservation and Reinvestment Act.

Other Conservation Provisions

    Beyond LWCF and UPARR, Resources 2000 also includes a number of 
other titles that TPL fully endorses, and to which we hope the 
Committee will give its full attention and support. Taken together, 
these provisions would establish a strong and integrated family of 
funds for resource protection, restoration, and management. We 
appreciate this holistic approach to the nation's environmental 
infrastructure.
    Among the important threads in this fabric of stewardship is Title 
IV of the bill (Farmland, Ranchland, and Forestland Protection), which 
extends the conservation reach of the bill in extremely important ways. 
It provides for a steady investment in the Forest Legacy Program, which 
TPL has participated in extensively and which has done much to preserve 
working timber landscapes in a number of areas. Similarly, it provides 
critically needed funding to protect agricultural lands from loss to 
urban sprawl or other conversion. We hope the legislation the Committee 
advances will include this exceptionally useful, voluntary mechanism 
for sustaining traditional resource-based livelihoods and lifestyles.

The Road Ahead

    TPL greatly appreciates the opportunity to share these perspectives 
with you as you review this landmark legislation. We look forward to 
providing any additional help we can to assist the Commmittee's 
consideration, and we hope that the 106th Congress will take advantage 
of this unprecedented chance to restore and enhance its commitment to 
conservation.
                                 ______
                                 
  STATEMENT OF THOMAS J. COVE, VICE PRESIDENT, GOVERNMENT RELATIONS, 
                SPORTING GOODS MANUFACTURERS ASSOCIATION

    Good morning, Mr. Chairman. My name is Thomas Cove. I am Vice 
President of the Sporting Goods Manufacturers Association (SGMA). SGMA 
is the national trade association for producers and distributors of 
athletic equipment, footwear and apparel. We have more than 2,000 
member companies.
    I welcome the opportunity to testify this morning and would like to 
start by commending both the Chairman and Ranking Member for the 
leadership they have shown in calling for greater resources to be 
devoted to our nation's conservation and recreation programs. Both 
bills under consideration by the Committee this morning represent bold 
initiatives in an area that vitally needs visionary thinking and 
commitment. My industry and the broader recreation community are deeply 
encouraged by the introduction of these bills. We believe it is high 
time to debate how to reestablish the promise made to the citizens of 
this country 35 years ago to invest in natural, cultural and 
recreational resource protection with the proceeds of offshore oil and 
gas drilling. We have seen the unique promise of the Land and Water 
Conservation Fund cheapened for too many years.
    A well-funded and widely supported LWCF will provide the tools for 
stewardship of our public lands, and, for the first time in years, is 
attainable. The recreation community sees this as an unprecedented 
opportunity and we intend to play whatever role we can to ensure the 
legislative process results in bold, breakthrough, bipartisan 
legislation that will indeed rekindle the auspicious LWCF vision. We 
need to get to work.
    I recognize there are substantive differences between H.R. 701 and 
H.R. 798. The two proposals raise several important policy issues that 
must be addressed. These hearings are serving to highlight many of 
them. I share some of these concerns, and will speak to them later in 
my testimony. But initially, I would like to focus on provisions of the 
proposed bills that are quite similar, and are critically important to 
my industry and to America's families and communities, namely the state 
assistance program of the LWCF and the UPARR program.
    Almost two years ago to this day, I testified before Chairman 
Hansen's National Parks and Public Lands Subcommittee in an oversight 
hearing on the state grants program of the Land and Water Conservation 
Fund. At that time I brought a message of lament. The stateside program 
had been virtually eliminated due to lack of funding. UPARR also was 
getting no appropriations. The Federal side of LWCF had to scratch for 
every dollar it could, and was annually funded at hundreds of millions 
of dollars below authorized levels. Backlog was increasing. More 
important, precious resources at the local, state, regional and Federal 
levels were being lost. Never to be recovered.
    Today, it is with great expectation that I come before the 
Committee again. In place of lament, there is hope. In place of 
indifference, there is leadership. In place of a moribund program, 
there is new legislation. And, in place of tired claims of empty 
coffers, there is a real possibility for mandated spending of the 
incoming OCS revenues.
    What has not changed, and what I would like to spend a moment 
addressing this morning, is the tremendous need in America today for 
the kinds of resources the Land and Water Conservation Fund and the 
UPARR program can protect and make available to the people.
    In inventory of America's sports and recreation infrastructure 
today shows a simple equation way out of balance. The demand for 
accessible, safe, clean, recreation facilities--ball fields, courts, 
trails, rivers, greenways, bike paths, lakes, nature preserves and the 
like--is far outstripping supply. The problem is particularly acute, 
not surprisingly, near major metropolitan centers, but it is truly a 
nationwide concern. It is a basic quality of life issue that full 
funding of LWCF and UPARR would go a long way to alleviate.
    Let me explain how the problem manifests itself around the country.
    It is an urban issue. In the city of Minneapolis, Minnesota, it is 
estimated that literally thousands of young girls and boys want to but 
will not get to play soccer this year, due to lack of playing fields in 
their neighborhood. There is only one public soccer field in the entire 
city, (a second one is now under construction), while there are 341 
soccer fields built and maintained in the Minneapolis suburbs.
    Inner-city focused programs like Reviving Baseball in the Inner 
City (RBI), Soccer in the Streets, and Boys and Girls Clubs Housing 
Project program all report lack of fields and facilities as constraints 
to serving greater numbers of at-risk youth. Just last month at a 
meeting of mayors and large urban county executives, securing 
additional Federal support for urban parks was identified as the top 
priority of the group.
    Images of unscathed community gardens and parks adjacent to torched 
buildings after the 1992 Los Angeles riots offer a powerful 
illustration of the value urban communities place on protected open 
space.
    It is a suburban issue. The explosion of soccer participation is 
America is well established and the trend is continuing. Let me cite 
the example of a single Maryland county. In this county, 25,000 girls 
and boys play organized soccer, with only 74 soccer fields to serve 
them. Last year in one age-specific league, 550 children were turned 
away due to lack of field space. In the next two years, county 
officials estimate 60-120 fields will be required to meet recreational 
demand. By the year 2005, 40,000 county kids are expected to register 
for soccer. This is a single, not atypical, county.
    In Ft. Lauderdale, Florida, there is a waiting list of 1,000 
children to play in the American Youth Soccer Organization League. 
According to AYSO officials, the reason is that sub-divisions are being 
constructed without zoning requiring open space and parks.
    Nationally, the United States Soccer Foundation has received 1,050 
formal grant applications to build soccer fields in urban, suburban and 
rural areas in the past four years. The Foundation believes this 
represents a small fraction of the actual demand for more fields. The 
Foundation has been able to award grants to only 7 percent of the 
applicants.
    The problem is not unique to soccer. There is no football field in 
Hopewell, New Jersey and the surrounding area. This year, after ten 
years without football, Hopewell parents decided to gauge interest in 
setting up a local Pop Warner league. More than 130 kids signed up at 
the first call. Now this community is scrambling to find a usable space 
for its youth football program, while simultaneously raising thousands 
of dollars to buy equipment and supplies, hire referees and pay 
operating expenses. Lack of a field may yet keep those Hopewell kids 
from playing youth football.
    It is a gender equity issue. In Georgia, girls and women's softball 
league administrators are forced to do battle with baseball officials 
over allocation of scarce fields. In one fairly typical Georgia city, 
there are five fields for the 800 boys (and several girls) who play 
baseball, while there is only one field for the more than 300 girls who 
play softball. Already at capacity, this girls softball program would 
expand substantially if more fields were made available. Such conflicts 
are documented across the country.
    As Title IX has opened doors for girls and women to play non-
traditional field sports like lacrosse, rugby and field hockey, 
conflicts over field usage have risen. With the United States hosting 
the Women's World Cup this summer, and the American women favored to 
gain international soccer's ultimate prize, we envision even greater 
rates of participation in girls and women's soccer, further 
complicating the field dilemma.
    It is a cultural issue. Field scarcity forces many youth sports 
leagues to schedule games on Sundays, often from early morning until 
dusk. This presents a serious conflict for many parents who want to 
take their families to religious services or keep Sunday devoted to 
``family time.'' Many Pop Warner football leagues use the local high 
school football field for games. On any Saturday when the high school 
hosts a home game, the Pop Warner kids must play on Sunday. Frazzled 
league administrators are left with little choice but to schedule 
Sunday games, even though they know substantial numbers of would-be 
players won't be able to participate.
    It is a socio-economic issue. One response to these field conflicts 
among local parents and supporters has been to develop and operate 
private, fee-based sports facilities. This market-based approach has 
produced some of the nation's finest fields, courts and support 
facilities, truly first-class athletic complexes. They are serving a 
valid purpose, especially for the elite athlete. But use of these 
facilities comes with a price, and often the price of admission 
effectively excludes large segments of the community from 
participation. The development of private fee-based facilities is 
welcome news for many, but it is not the fix to the widespread 
challenge of providing affordable recreation to all Americans. We 
should not allow a family's financial resources to limit young people's 
basic access to sports and recreation.
    Economics also play a role in allocation of many public parks and 
ball fields. Cash-strapped public recreation departments establish fees 
for field rentals that only adult leagues can comfortably pay. Many 
youth leagues, already challenged to provide registration scholarships 
and equipment donations, cannot raise sufficient funds and are left 
with less desirable fields, or time slots.
    It is a health and safety issue. A recently-released study by the 
Centers for Disease Control established that people living in 
neighborhoods they perceive as unsafe are demonstrably less likely to 
get outside for physical activity. Almost 40 percent of people ages 18 
to 64 living in ``not at all safe'' neighborhoods reported no physical 
activity or exercise the previous month. The impact on older Americans 
is severe. The study found 63 percent living in unsafe areas got no 
exercise, compared with 38 percent in safer areas. The provision of 
safe, clean, nearby parks would provide vitally needed opportunities 
for Americans of all ages to get out and appreciate their natural 
environment.
    Similarly, quality recreation facilities and programs offer safe 
haven to thousands of at-risk urban youth and their parents. Police 
Athletic League, Boys and Girls Clubs, public recreation departments in 
every major city in this country--they all provide recreation 
opportunities for young people during after-school and summer hours 
where few desirable alternatives exist. These safe haven programs often 
serve to reduce rates of violent crimes, teen pregnancy and truancy. 
Just ask the local police officers and social workers.
    It is an educational issue. One of LWCF's greatest legacies is the 
preservation of the natural environment for generations to learn about 
in a hands-on, experiential manner. Scores of LWCF sites have served to 
awaken young people's awareness of, and appreciation for, the natural 
world around them. We are concerned that unabated sprawl and unchecked 
urban degradation may lead to generations of Americans who have no 
connection to the wonders of our country's vast natural legacy. We must 
ensure that refuges, parks, and nature centers are protected in places 
close to where people live, thereby guaranteeing children and families 
the chance to learn environmental ethics on their own terms.
    I provided anecdotes to put a human face on the tremendous needs 
facing America's communities. The stories truly represent a nationwide 
challenge. The National Council of Youth Sports represents more than 53 
national youth sport organizations, whose membership consists of more 
than 45 million children participating in organized sports programs. In 
its 1997 Member Survey, NCYS reported that 97 percent of its members 
organizations conduct outdoor programs and believe there is an 
immediate need to advocate for Federal support for LWCF-type 
legislation. At the same time, NCYS reported that up to that point in 
time 98 percent of its membership maintained no advocacy capability in 
Washington. The National Recreation and Park Association estimates the 
backlog of capital investment needs for state and local parks exceeds 
$25 billion.
    State and local parks are where the vast majority of Americans 
recreate day in and day out. Though most Americans might love to visit 
our showcase national parks regularly, they are unable to for reasons 
of economics, geography, or competing leisure alternatives. Most 
Americans recreate close to home--in local, regional and state parks. 
Whether for toddlers in a playground, teenagers on a ball field or 
senior citizens on a nature trail, easily accessible recreation 
opportunities contribute significantly to quality of life for 
individuals, families and communities across the country. Participation 
in recreation is valued not just for enjoyment, but because Americans 
know it leads to improved physical and mental health, better 
appreciation of nature and the environment and stronger, shared values.
    As such, the recreation industry and community regards LWCF (both 
Federal and Stateside) and UPARR, when funded, as an unqualified 
success story. The Land and Water Conservation Fund was a promise made 
to the American people beginning in 1965 that has delivered a return on 
investment that any Wall Street financier would be proud to call his/
her own, even in today's high flying market.
    The problem is that the investment was drastically reduced in the 
1980's and early part of this decade. Today, we are feeling the impact. 
We cannot continue to pass on these needs to the next generation 
without action.
    Which brings me back to the bills under consideration by the 
Committee.
    Let me be clear. We generally support H.R. 701 because it will 
provide a permanent, dedicated, sustainable funding source for Federal 
and state LWCF and UPARR. This is the heart of the bill for us. SGMA 
supports H.R. 798 as presented. But the provisions I am about to 
address represent areas where H.R. 701 can be improved. We sincerely 
hope the Committee can address these concerns before the bill is 
brought to mark-up.
    I want to raise specific legislative concerns we see in Title II, 
as they relate to the administration of the Land and Water Conservation 
Fund. The ``Allocation'' provision in Section 202 is unnecessarily 
restrictive in its limitation of purchases to lands solely within the 
exterior boundaries of Federal land management units. This poses a 
particular problem for my community because it will exclude many 
important recreation lands that fall outside a designated management 
unit. We strongly believe willing sellers of land on Utah's Bonneville 
Shoreline Trail or on the Ice Age Trail in Wisconsin should be able to 
be accommodated in order to protect valuable recreation resources.
    Similarly, we oppose the requirement that 2/3 of Federal moneys be 
spent east of the 100th meridian. We believe Congress annually takes 
very seriously its obligations to determine priority uses of LWCF. We 
see this provision as overly constraining the flexibility of Congress 
to determine the nation's land acquisition priorities.
    We believe that a $1 million cap on Federal contributions to 
individual projects is redundant and therefore, unnecessary. We believe 
there exists adequate control over the potential expenditures, through 
State Action Plans and congressional committee oversight.
    With regard to Title I, my industry is strongly against the use of 
coastal impact assistance as an incentive to promote increased offshore 
oil and gas drilling. We are not in a position to adequately assess 
what might serve as an incentive, so we urge that all consideration be 
given to ensuring that final language represents as clearly as possible 
the notion that any funds distributed according to the three titles be 
incentive-neutral.
    With regard to Title III, the sporting goods industry supports the 
need to develop a dedicated revenue stream to provide funds for 
wildlife and habitat management. We applaud the drafting work of this 
title, particularly as it moves away from previous proposals to impose 
excise taxes on sports products to produce the desired revenue stream. 
This appears to be an ideal resolution to a longstanding problem.
    We believe one element of Title III should be changed. We would 
like to see modified the state matching requirements for the Title III 
funds so as to conform to mandated state matching requirements in Title 
II. It is illogical for recipient state and local park agencies to be 
required to match 50 percent funding under Title II, while recipient 
state wildlife agencies are required to match as little as 10 percent.
    In closing, Mr. Chairman, we applaud your leadership in proposing a 
bold return to the original promise of the Land and Water Conservation 
Fund and UPARR. We recognize competing interests hold strong views 
about how these funds should be administered. My message today is these 
programs will deliver immeasurable value and enjoyment to millions of 
American communities and families. We need to find a way to fund them. 
We urge the Committee to work together to develop a broadly supported, 
bipartisan bill that can be passed by the House and Senate, and signed 
into law. We stand ready to work with you to this end.
    Thank you.
                                 ______
                                 
 STATEMENT OF KEVIN PAAP, VICE PRESIDENT, FOR THE AMERICAN FARM BUREAU 
                               FEDERATION

    Good afternoon. My name is Kevin Paap. I am a dairy farmer from 
Garden City, Minnesota, and serve as Vice President of the Minnesota 
Farm Bureau Federation. Minnesota is a coastal state identified in H.R. 
701. I am appearing today on behalf of the American Farm Bureau 
Federation.
    We appreciate the opportunity to appear before the Committee today 
to testify on H.R. 701, the Conservation and Reinvestment Act of 1999. 
The bill provides a dedicated source of funding from revenues derived 
from Outer Continental Shelf (OCS) leases for a variety of programs 
such as OCS impact assistance, land acquisition, payment in lieu of 
taxes, urban parks and recreational development, and wildlife 
enhancement. We will direct our comments to those programs that involve 
land acquisition and wildlife habitat enhancement.
    One section of the bill provides a dedicated source of funding to 
the Land and Water Conservation Fund, which has been used primarily for 
the purchase of land by state and Federal Government agencies. This 
Fund has a Federal component, which provides money directly to Federal 
agencies, and also has a state component, which provides matching funds 
for use by state agencies.
    If funding is to be provided for Federal and state lands, we 
strongly urge that any such funds be first earmarked for repair and 
maintenance of existing lands before being authorized to purchase 
additional land. The Federal land management agencies have a 
significant backlog of repairs and maintenance to their lands that 
totals billions of dollars. The U.S. Forest Service recently issued a 
moratorium on further road building in the National Forests because it 
could not keep up with maintenance of existing roads, which has an 
estimated $8 billion backlog.
    We should first use any funds to take care of the lands that we 
have. If our national parks are considered ``American jewels,'' America 
would be better served to have fewer jewels that are high quality and 
polished, rather than more lower quality, unpolished and imperfect 
ones.
    Because farmers and ranchers own much of the remaining privately-
owned open space in the country, they are natural targets for having 
their land appropriated by governmental entities for various purposes. 
In addition, condemnation of private lands by governmental entities 
results in the removal of those lands from the tax rolls, thereby 
increasing the tax burden for the remaining private landowners in the 
area. Farmers and ranchers have experienced numerous problems with 
different levels of government condemning their property for whatever 
purpose. We are naturally skeptical, therefore, about any bill or 
action that involves or authorizes the acquisition of land by 
government. We carefully review such proposals to ensure that there are 
adequate safeguards for private landowners.
    We are pleased that H.R. 701 contains such safeguards with respect 
to the Federal component of the Land and Water Conservation Fund 
amendments (LWCA). By limiting Federal purchases only to existing 
inholdings and to willing sellers, the bill prevents the runaway and 
uncontrolled acquisition of Federal lands that many people fear. Other 
bills such as H.R. 798 do not contain these safeguards. Unlike similar 
provisions in H.R. 798 and other bills, we feel that the conditions 
placed on the expenditure of Federal LWCA funds in H.R. 701 adequately 
protect private property interests.
    The state component of the bill contains no such safeguards. We 
urge that the bill be amended to incorporate the same conditions on the 
use of Federal matching funds for state purchases as exist for Federal 
acquisitions.
    Also unlike H.R. 798 and similar bills, H.R. 701 provides that for 
any money collected above the maximum authorized for the LWCA, the 
excess shall be applied to the Payment In Lieu of Taxes program. This 
Farm Bureau supported program, which seeks to make up for lost local 
tax base resulting from the presence of Federal lands by making 
payments for use in local areas, has been traditionally underfunded. We 
support the effort of H.R. 701 to give this program a needed shot in 
the arm.
    No less significant are the provisions that seek to further the 
partnership between private landowners and the government to enhance 
wildlife and its habitat. Privately owned farm and ranch lands provide 
a significant amount of the food and habitat for our nation's wildlife. 
For example, over 90 percent of plants and animals listed under the 
Endangered Species Act (ESA) have some of their habitat on nonfederal 
lands, with 78 percent occupying privately owned lands. Approximately 
34 percent of all listed species occur entirely on nonfederal lands. 
The agencies must have the cooperation of farmers, ranchers and private 
property owners if the ESA is going to work. Private landowners are 
clearly the key to the Act's success.
    The American Farm Bureau Federation believes that an appropriate 
balance between the needs of a species and the needs of people can be 
struck. We agree with the basic goals of wildlife enhancement. No one 
wants to see species become extinct, yet at the same time no one wants 
to see people lose the capacity to produce food or to be without 
essential human services. Given the proper assurances, farmers and 
ranchers can play a significant role in management of species on their 
property.
    We are therefore very pleased that both H.R. 701 and H.R. 798 
contain programs that acknowledge and seek to implement this 
partnership. Both of these programs contain positive elements. Both 
programs provide for agreements between agency and landowner to benefit 
species on their property. H.R. 798 provides a definite source of 
funding for its program, whereas H.R. 701 does not.
    H.R. 701 would create the Habitat Reserve Program (HRP). The HRP is 
the type of program that provides those assurances and achieves that 
balance between species and landowner that is necessary for the well-
being of both. Farm Bureau is committed to making this type of program 
work.
    Under this section, farmers and ranchers would enter into contracts 
for the protection of habitat for listed species. The private landowner 
would be paid for managing and protecting species habitat, similar to 
the way that the Conservation Reserve Program works. This program 
effectively recognizes the public benefit that private landowners 
provide for listed species, and responds in an appropriate manner. It 
encourages landowners to voluntarily provide needed management for 
species and habitat while at the same time allowing the landowner to 
productively use the land through payments received through the 
program.
    This program will enhance the conservation of species because it 
provides for their active on-the-ground management by affected 
landowners instead of the current passive government management 
practices of easements and land use restrictions. At the same time, it 
provides landowners with flexibility to manage their property. The HRP 
thus provides benefits for both the species and the landowner--the type 
of ``win-win'' scenario that is needed.
    In conclusion, we believe that H.R. 701 provides more overall 
balance than H.R. 798 and similar bills thus far introduced. We also 
believe that is offers the best chance of achieving any sort of 
consensus on the issues contained therein, so long as appropriate 
amendments as suggested in our testimony are incorporated.
    We look forward to working with the Committee on the issues we have 
addressed in our testimony today.
                                 ______
                                 
     STATEMENT OF RALPH GROSSI, PRESIDENT, AMERICAN FARMLAND TRUST

    Mr. Chairman, American Farmland Trust (AFT) appreciates this 
opportunity to provide your Committee with our views on the merits of 
H.R. 798. I am Ralph Grossi, president of AFT and the managing partner 
of a family farm that has been in the dairy, cattle and grain business 
in northern California for over 100 years. American Farmland Trust is a 
national, non-profit organization with 31,000 members working to stop 
the loss of productive farmland and to promote farming practices that 
lead to a healthy environment.
    Mr. Chairman, I want to suggest that it is time that working with 
private landowners be the foundation of future conservation policy. 
H.R. 798 contains provisions that move us in that direction. American 
Farmland Trust supports the Resources 2000 Act because this bill 
recognizes the role that private landowners play in the stewardship of 
our natural resources, protecting their property rights, while 
compensating them for the environmental goods they produce for the 
public.
    My comments today will focus on the specific provisions in H.R. 798 
that direct conservation incentives toward private landowners. For the 
past quarter century conservation and environmental objectives in our 
country have been largely achieved by either imposing regulations or 
through government purchase of private land. However, these actions 
have failed to resolve conflicts over important environmental problems 
like species or farmland protection, for example--that rely on the 
participation of thousands of private landowners. At AFT we very 
strongly believe that the in the 21st century new approaches to land 
conservation will be needed that address the concerns of private 
landowners.
    The farmland protection provisions of the Resources 2000 Act 
recognize that America cannot--indeed should not--buy all the land that 
needs protecting. Instead it acknowledges that America's private 
landowners play a vital role in producing conservation benefits for all 
Americans to enjoy, and rightfully compensates them by providing $150 
million annually for the protection of America's best farmland, 
ranchland and forestland while leaving it in private ownership.
    The easement acquisition, or purchase of development rights, 
approach proposed by the bill provides an innovative, voluntary 
opportunity for appropriate local agencies to work with landowners by 
offering them compensation to protect the most productive farmland--
farmland that is critical to both the agricultural economic base of our 
rural and suburban communities and the environmental values provided by 
well-managed farms. It would also provide important matching funds to 
the many local and state efforts working to protect farmland.
    Under the bill's provisions, protected lands would remain on the 
local tax rolls contributing to the local economy. The value of this 
approach to local communities should not be understated. AFT has 
conducted more than forty Cost of Community Services Studies around the 
country. In every case, these studies have shown farmland provides more 
property tax revenue than it demands in public services, while 
sprawling residential development almost always requires more in 
services than it pays in taxes.
    Conservation policy does matter to farmers and ranchers, who are 
strong believers in individual freedom and private property rights. 
Their support for conservation policies is absolutely critical because 
they own the land that is at stake in the increasing competition for 
its use. But as competition for land has increased, so has disagreement 
over how to balance economic use with conservation of natural resources 
and the increasing demands being placed on private landowners to 
achieve objectives whose benefits accrue largely to the public. Debate 
over land use has focused on private property rights and the 
appropriate role of government in protecting resources while 
polarization on this issue has in many cases stalemated effective 
policymaking.
    Landowners often complain that government regulations infringe on 
their freedom and force them to bear an unfair share of the cost of 
protecting the environment, while the public argues that landowners 
have a duty to conserve resources for future generations.
    But the fact remains that for most landowners the equity in their 
land represents the hard work and savings of at least one if not 
numerous generations of the farm family. Their land is their 401(k)! As 
farmers we are proud of the abundant supply of food and fiber we have 
provided Americans and millions of others around the world; and we are 
pleased that we also ``produce'' scenic vistas, open spaces, wildlife 
habitat and watershed integrity for our communities to enjoy. And in 
many instances, our farms and ranches serve as crucial buffers around 
our parks, battlefields and other important resources. These are 
tangible environmental goods and services that farmers should be 
encouraged to produce and appropriately rewarded for. It is only fair 
that the cost of producing and maintaining these goods that benefit so 
many Americans be shared by them.
    Farmers are the caretakers of the land, and voters are starting to 
realize this fact. The recent surge in local and state efforts to 
protect farmland suggests rapidly rising national concern over the loss 
of farmland and the environmental benefits it provides.
    In last November's elections 72 percent of 240 initiatives to 
protect farmland and open space were approved by voters across the 
nation. In recent years Governors Engler, Voinovich, Ridge, Pataki, 
Wilson, Whitman, Weld, Glendening and others have supported or 
initiated farmland protection efforts to address this problem. Nearly 
every day this year major newspapers have carried articles about sprawl 
and ``smart growth,'' frequently citing farmland protection as one of 
the key components of the latter. And the President highlighted the 
need to help communities protect ``farmland and open space'' in his 
State of the Union speech.
    Recent studies by American Farmland Trust have documented that more 
than 80 percent of this nation's fruits, vegetables and dairy products 
are grown in metropolitan area counties or fast growing adjacent 
counties--in the path of sprawling development. And a 1997 AFT study 
found that over the past decade over 400,000 acres of prime and unique 
farmland were lost to urban uses each year. The loss of soil to 
asphalt--like the loss of soil to wind and water erosion--is an issue 
of national importance.
    But one should not get caught up in the ``numbers game.'' The fact 
is that every year we continue to squander some of this nation's most 
valuable farmland with the expectation that this land can be replaced 
with other land in this country or abroad, or with new technologies 
that promise to help maintain the productivity gains of the past half 
century. The reality is that we don't know whether new technologies 
will keep pace. What we do know is that whatever those technologies 
will be, it is likely that they will be more efficiently applied on 
productive land than on marginal land where higher levels of energy, 
fertilizer, chemicals and labor per unit of output are required. Simply 
put, it is in the nation's best interest to keep the best land for 
farming as an insurance policy against the challenge of feeding an 
expanding population in the 21st century.
    However, food security is not the reason farmland protection has 
emerged as a national issue. Communities all across the nation are 
working to protect farmland because it produces a lot more than food 
and fiber.
        <bullet> In many regions of the nation, enough farmland is 
        being paved over to place the remaining farms at risk, due to 
        the lack of a critical mass of land and services to support 
        agriculture--farm machinery, supplies, marketing outlets, etc. 
        Too often, while local leaders work to bring new business to a 
        community they overlook agriculture as a true ``wealth 
        generator''--an industry that brings value to the community 
        from renewable natural resources. In many traditional farm 
        communities citizens are awakening to the prospect that this 
        important, consistent economic base is at risk; and they 
        recognize that one of the solutions is to ensure that the land 
        base is protected. This calculus has little to do with the 
        global food supply and everything to do with the value of 
        farming to local economies.
        <bullet> Residents increasingly frustrated with long commutes, 
        deteriorating public services and a loss of the scenic views, 
        watershed protection and wildlife habitat, that is so much a 
        part of their quality of life, are among the strongest 
        advocates for farmland protection. The working landscape around 
        our cities adds value to the life and property of all the 
        residents of a given community. And in some cases, farms that 
        are far from the city add critical values; for example, the 
        protection of farms hundreds of miles from New York City is 
        helping improve the water quality and reduce water treatment 
        costs for the residents of Manhattan.
    Increasingly, farmland protection is seen as an inexpensive way to 
protect scenic vistas that enhance the community for both residents and 
visitors while keeping the land in productive use on local tax roles. 
Farmers are ``producing'' a valuable product for their new suburban 
neighbors--environmental quality; and farmland protection programs such 
as purchase of development rights and the use of conservation easements 
proposed by H.R. 798 have become mechanisms to compensate them for 
these ``products.''
    As more communities struggle with the problems of suburban sprawl, 
private lands protection is emerging as a key strategy of smart growth. 
The techniques proposed by the Resources 2000 Act add an element of 
fairness to the difficult challenge of achieving public goals while 
balancing private property rights, by providing a means of compensation 
for value received by the community at large. They are a reasonable 
balance to the regulations that often lack fairness when applied alone.
    The findings of a recent AFT survey show that most landowners are 
willing to share the responsibility of protecting the environment with 
the public through ``hybrid'' programs that combine reasonable 
regulations with adequate financial incentives. The Resources 2000 Act 
helps to achieve this balance by adding carrots to the sticks of 
existing regulation.
    This bill will help protect the working agricultural landscape of 
America, and do it in a manner that shares the responsibility of 
stewardship between private landowners and the public at large by 
fairly compensating for value received. The Resources 2000 Act is an 
excellent example of how to govern in a better way, a way that involves 
communities and local and State government, a way that empowers farmers 
rather than imposing on them.
    Mr. Chairman, during this Congress you will have unprecedented 
opportunities to develop policies to encourage and reward stewardship 
on this nation's private lands; and to re-direct financial resources in 
a way that shares the cost of protecting our great natural resources 
between the taxpayers who enjoy them and the landowners that steward 
them. While it is not the domain of this Committee, in closing I call 
your attention to the Federal farm programs. At a time when the public 
is demanding more of private landowners every day, I ask you and all of 
Congress to consider a major shift of commodity support payments into 
conservation programs such as farmland protection that help farmers 
meet those demands in a way that is fair to all.
    Thank you for providing me with this opportunity to testify today, 
and I look forward to working with you to establish a truly farmer-
friendly conservation policy.
                                 ______
                                 
STATEMENT OF HON. BARBARA CUBIN, A REPRESENTATIVE IN CONGRESS FROM THE 
                            STATE OF WYOMING

    Mr. Chairman, thank you for holding two days of hearings on this 
legislation. I appreciate the fact that you and the key sponsors of 
H.R. 701 have shown a willingness to work with members of the Committee 
and others on various provisions of this bill.
    While I certainly share your interest in making sure that those 
States affected by offshore resource development are provided the 
necessary Federal revenues to mitigate those impacts, I remain 
concerned that this legislation should be subject to annual 
appropriations. In my view, if the bill does indeed create a dedicated 
fund, not subject to Congressional appropriation, we will be leaving 
the door open to possible land acquisitions by all levels of 
government. As I understand it, that is not the specific intent of 
Title I of your bill. However, absent specific barriers to land 
acquisition, my fear is that it is bound to happen. For example, there 
are too many instances of members on both sides of the aisle 
introducing legislation to establish a national park or monument in 
someone's honor. We in Congress are infamous for doing just that. 
Unfortunately, we don't always provide the money to pay for these new 
areas. As a result, we have a tremendous backlog of acquisitions 
already on the books. And, sadly, the Federal Government has far too 
difficult a time managing and maintaining the lands already in its 
possession.
    In my own State of Wyoming, we have an overwhelming backlog of 
maintenance problems in Yellowstone National Park alone--from road 
construction to sewer system repairs--and it has become a priority of 
mine to address those needs. From that perspective, I'd like to 
reiterate my intent to work with you, Representative Tauzin and members 
of the Appropriations Committee to fashion a provision in H.R. 701 
which would combat those problems. They are substantial and I 
personally would feel remiss in my responsibilities to my constituents 
if I failed to attempt to resolve them.
    Aside from that, I would like to applaud your efforts to fund the 
Payments in Lieu of Taxes (PILT) program at the fully authorized level.
    This has been another priority of mine for quite some time and I am 
hopeful that with your assistance we can convince the appropriators how 
vitally important these funds are to local communities. As I'm sure you 
are no doubt aware, the oil and gas industry throughout the West has 
been experiencing a severe downturn in production, resulting in a 
cumulative loss of 41,000 jobs and the shut-down of more than 136,000 
oil wells and 57,000 natural gas wells since prices crashed in 
November, 1997. States like Wyoming rely heavily on those royalties for 
their school systems, not to mention fire and rescue and public safety 
funding. Absent those revenues and a PILT program that is not 
adequately funded, local counties have been struggling in recent years 
to make ends meet. So I look forward to working with you on that aspect 
of this legislation as well to see if we can provide some much need 
economic assistance to municipal activities and programs.
    Again, thank you for holding this second day of hearings. I see we 
have some distinguished panels of witnesses and I welcome their 
testimony and the opportunity to seek their views on how we can improve 
upon H.R. 701.
                                 ______
                                 
  STATEMENT OF SENATOR MALCOLM WALLOP (RET.), CHAIRMAN, FRONTIERS OF 
                                FREEDOM

    Chairman Young, thank you for inviting Frontiers of Freedom to 
testify today on these important issues. My name is Malcolm Wallop, and 
I am chairman of Frontiers of Freedom. From 1977 until 1995, I 
represented Wyoming in the Senate, where I served on the Energy and 
Natural Resources Committee. As a rancher near Big Horn, Wyoming, I 
have a lifetime's experience of private stewardship and of Federal land 
management practices. I founded Frontiers of Freedom to defend the 
constitutional rights of all Americans and to restore constitutional 
limits on government at all levels.
    Frontiers of Freedom opposes enactment of the Conservation and Re-
investment Act, the Permanent Protection for America's Resource's 2000 
Act, and other similar proposals, such as the Clinton-Gore 
Administration's Lands Legacy Initiative. While my remarks today are 
directed at H.R. 701, most of them apply just as well to H. R. 798 and 
the Lands Legacy program.
    Before discussing our objections to the bill, I would like to urge 
you, Mr. Chairman, and distinguished members of the Committee to hold 
extensive field hearings before you proceed to mark-up. This is major 
legislation, which would have serious consequences far into the future 
for a great many people. But from what I could see from the witness 
list released last Friday, nearly all the witnesses at these hearings 
represent institutions that would be financial beneficiaries of this 
legislation. I really don't think you need two days of hearings to find 
out that those who are to receive large sums of money from the Federal 
treasury are generally in favor of it.
    There are people all across the country, however, who will be the 
targets rather than the beneficiaries of H.R. 701. It seems to me that 
you should at least listen to them. In 1988 when this Committee 
considered similar legislation, Chairman Udall's American Heritage 
Trust Act, Representative Vento's subcommittee heard testimony from a 
number of prominent opponents who have not been invited to testify at 
these hearings. I therefore urge you to hold field hearings, not in 
places such as Louisiana that stand to gain hundreds of millions of 
dollars a year from Title I, but in places where you can hear from 
people whose livelihoods and ways of life may be destroyed by enactment 
of H.R. 701. In particular, I hope you will travel to the Northern 
Forests of Maine, upstate New York, New Hampshire, and Vermont, which 
are now under assault by the preservationists; and to an area in the 
West, such as my own State of Wyoming, where the Committee can learn 
about the negative environmental and economic consequences of massive 
government land ownership.
    Frontiers of Freedom agrees that revenues from Outer Continental 
Shelf oil and gas production should be shared with the States. However, 
we believe that it should be shared only with the States that actually 
have OCS production off their shores and in the same way that revenues 
from onshore Federal leases are shared with those States in which they 
are located--that is, fifty-fifty. We urge you to introduce legislation 
that would do that in a straightforward way and would enthusiastically 
support your efforts to pass such a bill. The method that H.R. 701 
adopts is in our view much less satisfactory because it will send much 
less money to the six OCS States than the 50 percent that they should 
be receiving and because the funds distributed will be earmarked for a 
specific purpose rather than going into the States' general treasuries.
    These shortcomings are insignificant compared to the way H.R. 701 
ties OCS revenue sharing to a massive increase in government 
acquisition of private land. Simply put, Frontiers of Freedom believes 
that the land acquisition provisions are much too high a price to pay 
for any benefit's the bill may contain.
    I have noticed that H.R. 701's proponents, when they have mentioned 
it at all, have downplayed the magnitude of land acquisitions mandated 
in Title II. Thus proponents have claimed that the $378 million per 
year for Federal land acquisition is only $50 or $60 million dollars 
per year higher than the historic average for Land and Water 
Conservation Fund acquisitions appropriated by Congress. Further, they 
seem to assume that state and local acquisitions are somehow more 
acceptable to private property owners. And they suggest that because 
the $378 million per year for state and local acquisitions can be spent 
on development projects, it therefore will be spent mostly on 
development projects.
    If only this line of obfuscation were true. The fact is that H.R. 
701 would vastly increase the rate of socialization of private land in 
this country. Title II turns the Land and Water Conservation Fund into 
a dedicated fund--that is, not subject to further congressional 
appropriation. Twenty-three percent of OCS revenues would be deposited 
into the fund up to the authorized level of $900 million per year. Of 
this $900 million, $378 million would go to the four Federal land 
agencies for land acquisition and $378 million to the States (of which 
50 percent would then be distributed to local governments) for land 
acquisition and related development costs.
    Two key facts are regularly not mentioned by H.R. 701's supporters. 
First, the bill would require that all Federal funds for state and 
local acquisitions be matched fifty-fifty by state and local 
governments. This means that the total available for buying land is 
twice times $378 million, or $756 million per year. The leveraging of 
Federal grants in this way is designed to make it very attractive for 
state and local governments to spend a lot of money buying private 
land, regardless of what their taxpayers might think.
    Add this $756 million to the $378 million for Federal acquisitions 
for a grand total of $1.134 billion per year for land acquisition. But 
this is not all. The second fact not mentioned by the bill's proponents 
is that Title I funds can also be spent on buying land. According to 
the Committee's own projections, Title I would distribute $1.24 billion 
in FY 2000 to the 34 ``coastal States.'' It is likely that a large 
chunk of this money will be used to buy land.
    As evidence, I would point to the fate of the Exxon Valdez trust 
fund. At the time that Exxon agreed to put $900 million into a fund to 
remediate the harmful environmental effects of the oil spill, few 
people thought that a lot of the money would be used to buy land. Yet, 
this is precisely what has happened. According to Senator Frank 
Murkowski, to date $380 million from the trust fund has been used to 
buy over 700,000 acres of private land, some of it far removed from 
Prince William Sound. Senator Murkowski recently complained that the 
trust had purchased 16 percent of the private land in Alaska ``and they 
aren't done yet.''
    There is an obvious reason why Federal, state, and local land 
management agencies like to buy land. It increases the size of their 
empires, which leads to increases in agency budgets and staffs.
    Thus I conclude that several hundred millions of dollars per year 
from Title I will likely be spent on land acquisition. This could well 
bring the total from Titles I and II to over $1.5 billion per year. 
This would represent approximately a five-fold increase in funds for 
land acquisition over the historic average of LWCF appropriations.
    This is an appalling possibility. Before you lead Congress down 
this path, I urge you to consider how much land government already 
owns, the environmental condition it is in, and the political and 
economic consequences of that ownership.
    According to the BLM, the Federal Government controls about 676 
million acres of the nation's land. This constitutes just under 30 
percent of the total. I don't have any idea how much land is owned by 
state and local governments, and I don't think anybody else does 
either, including state and local officials. The Cascade Policy 
Institute did a study of how much property just one county in Oregon 
owned. The total was staggering and came as a complete surprise to the 
county commissioners.
    My point is this. All levels of government already own an enormous 
amount of land--far too much in my view and unquestionably far more 
than they can take care of adequately. Therefore, before embarking on a 
land-buying spree, it seems to me that this Committee could do a great 
service to the nation by initiating an inventory and assessment of the 
extent and nature of government land ownership in this country. Then 
the question needs to be asked, What is the public purpose for 
government to own this particular piece of land? I suspect that in many 
cases no plausible reason can be given.
    Preservationists will undoubtedly reply that the purpose of all 
this government land ownership is to protect the environment. Can 
anyone who has first-hand knowledge of the poor condition of many of 
the Federal lands really take this claim seriously?
    Private property ownership is widely recognized as the source of 
our economic well being and as the keystone of our system of limited 
government and individual liberty. Insofar as H.R. 701 lessens private 
property ownership, it thereby harms our prosperity and threatens our 
liberty. H.R. 701 should be defeated for that reason alone.
    But it must also be recognized that private property ownership 
provides a higher level of environmental protection than does public or 
common ownership. This is simply because private property owners have 
an incentive--their own self interest--to take care of what is theirs. 
That incentive is usually lacking with public or common ownership. We 
had recent confirmation of this fact when the Iron Curtain fell. The 
preservationists who tout government ownership as an environmental 
panacea led us to believe that we would find a Garden of Eden in the 
land of socialized property. Instead, we saw one environmental horror 
after another--dead lakes, poisoned land, vanishing wildlife.
    In this country, public accountability has prevented some of the 
worst consequences of socialization. But we must not be blind to the 
degradation caused by public ownership. Even Representative Ralph 
Regula, a staunch defender of Federal land ownership, has opposed major 
land acquisition increases simply because the Federal Government 
already owns far more land than it can manage properly. Representative 
Regula recently pointed to the fact that the four Federal land agencies 
have themselves identified a $12 billion backlog in maintenance and 
operations.
    Adding land to the Federal inventory at a $378 million per year 
clip can only increase this colossal figure. This in turn can only lead 
to the further environmental degradation of our great national parks, 
forests, and refuges. In terms of stewardship of resources, H.R. 701 is 
irresponsible in the extreme. Nonetheless, proponents claim at every 
turn that the opposite is true: H.R. 701 ``. . . represents a 
responsible re-investment of revenue from non-renewable resources into 
renewable resources of conservation and recreation.'' This claim 
overlooks that fact that buying the land is just the beginning. After 
buying it, government must then take care of it. And that costs a lot 
of money and is annual expense in perpetuity.
    Where is all the money to manage these new government lands going 
to come from? As far as I am aware, none of the bill's supporters has 
said a word about that crucial issue. It appears there are only two 
choices: either the budget caps for Interior must be increased by 
nearly two billion dollars per year; or Interior's budget must be 
slashed by nearly two billion dollars per year.
    The first choice would be bad news for American taxpayers. The 
second choice would be catastrophic for the environmental condition of 
the Federal lands. With a current backlog in maintenance and operations 
of $12 billion, cutting $2 billion out of the Interior budget simply 
cannot be done without destroying the Federal land agencies.
    The situation with respect to the state and local land acquisition 
side of Title II is even more troubling and raises serious federalism 
concerns. Removing hundreds of millions of dollars of private land from 
productive uses each year will significantly reduce economic activity 
in many States and local jurisdictions and consequently reduce the tax 
base. After all that is accomplished, these state and local governments 
will then be burdened with the cost of maintaining their new public 
lands. In effect, H.R. 701 encumbers state and local governments with 
an unfunded liability that will never end. This should be a serious 
objection to anyone who values federalism.
    Finally, I would like to touch on the effects H.R. 701 will have on 
people whose land is targeted for acquisition. The fact that several 
provisions have been included to try to protect landowners signifies 
that you, Mr. Chairman, are aware of the real nature of land 
acquisition. For its advocates, the purpose of land acquisition has 
little to do with preserving the environment. Rather, it has everything 
to do with acquiring and using power over people and their resources. 
Land acquisition is used, in conjunction with the whole panoply of 
environmental regulations, to stop economic activity and to destroy 
local communities, to deny recreational access and to block 
transportation and utility corridors. It is also used as a weapon to 
threaten and control private landowners.
    Prohibiting condemnation for Federal purchases and requiring 
congressional approval for acquisitions over one million dollars will 
help to curb some of the worst of these abuses, and so I commend you 
for including them in your bill. However, the efficacy of either of 
these provisions should not be overestimated. Government agencies have 
perfected techniques using environmental regulations to turn unwilling 
sellers into willing sellers. Moreover, this protection is given only 
to targets for acquisition by Federal agencies. State and local 
governments should also be required to purchase land only from willing 
sellers. Requiring congressional authorization for acquisitions over 
one million dollars is fine as far as it goes for protecting the rights 
of people who own property worth more than one million dollars. But I 
cannot understand why one class of citizens should be given more 
protection than another class of citizens. Indeed, it seems to me that 
small landowners are more in need of congressional protection from 
rapacious and unscrupulous land agencies than are big landowners. We 
would therefore suggest that congressional authorization be required 
for all acquisitions.
    For all these reasons, I urge the Committee to abandon and defeat 
this unfortunate relic from the era of command-and-control 
environmentalism. Mr. Chairman, this concludes my testimony. I would be 
happy to answer any questions that you or other members of the 
Committee may have.
                                 ______
                                 
   STATEMENT OF MARK DAVIS, EXECUTIVE DIRECTOR, COALITION TO RESTORE 
                           COASTAL LOUISIANA

    My name is Mark Davis and I am the executive director of the 
Coalition to Restore Coastal Louisiana. On behalf of the Coalition, I 
would like to express our appreciation to the Committee and the 
Chairman for inviting us to come here today. The Coalition to Restore 
Coastal Louisiana is a broad based not-for-profit organization 
comprised of local governments, businesses, environmental and 
conservation groups, civic groups, recreational and commercial 
fishermen, and concerned individuals dedicated to the restoration and 
stewardship the lower Mississippi River delta and Louisiana's chenier 
plain.
    We welcome this opportunity because the matters before the 
Committee today are of vital concern to anyone interested in the future 
and stewardship of this nation's waters, coasts, wildlife, and public 
lands. They are certainly of vital concern to those of us who live at 
the southern end of the Mississippi River for whom the ability to be 
better stewards of our coastal resources is vital to the survival of 
those things we hold most dear. Indeed for years, the Coalition has 
striven to raise awareness of the need to protect and restore the vast 
but threatened system of wetlands and barrier shorelines that define 
coastal Louisiana culturally, ecologically, and economically. For that 
reason we have followed with great hope and interest the proposals now 
before this Committee and before the Senate to invest in the 
stewardship of this nation's natural treasures and to address the 
coast-side impacts of the production of OCS oil and gas.
    In considering the bills that are the subject of this hearing, this 
Committee and this Congress are undertaking the laudable task of 
determining how best to invest in future of our invaluable natural 
heritage--our waters and coasts, our wildlife, and our public lands. 
Both bills, even with their differences, represent an important step 
forward in the stewardship of those resources and we commend their 
authors and sponsors for taking up this challenge. There is much hard 
work ahead as the bills are refined and reconciled as they must be if 
they are to deliver on the promise of better stewardship. As that work 
proceeds, we believe it is essential that it be guided by clear goals 
and policies so the end result is measured not primarily in dollars 
devoted to issues and locales but to the achievement of positive 
conservation and stewardship results.
    While we strongly support the public lands and wildlife initiatives 
embraced by both Chairman Young's and Representative Miller's bills, it 
is the issue of coastal stewardship to which I will direct the bulk of 
my comments to today. Specifically, I would like to address the issue 
of the need to ameliorate the damages to coastal environments and 
communities as a result of their hosting the transportation, 
processing, and servicing facilities associated with OCS oil and gas 
activity. Apart from a few dollars provided under the Section 8g 
program, little has been done recognize those impacts, much less to 
address them. It is time to take them seriously and it needs to be an 
integral part of any legitimate effort to refocus the use of Federal 
OCS revenues.
    Before wading too far into the issues of OCS revenues and coastal 
impact assistance it is important to note a couple of points. First, 
the impacts are very real. To anyone who has visited coastal 
Louisiana--which, along with Texas, supports in a logistical sense 
virtually all of the existing OCS activity in this country--those 
impacts on the natural resources, communities, and public 
infrastructure are undeniable. To anyone who hasn't, they are largely 
unimaginable.
    The second point to be made is that those impacts deserve real 
solutions, not merely money and programs. The two great fears we hear 
from people who live in affected areas are (a) that nothing will be 
done and (b) that the impacts will be used to justify large infusions 
of cash that are not sufficiently directed toward effective solutions 
and that, if fact, could further exacerbate the problem. Of course the 
fear of many people who live in states that do not have OCS activity 
off their shores is that the availability of impact assistance funds 
could serve as an incentive to state and local governments to acquiesce 
to new OCS leasing and development. The challenge facing those 
wrestling with the coastal impact issue is how to define and address 
those impacts legitimately associated with oil and gas activity while 
not creating more problems elsewhere. We understand that will not be 
easy. You must understand that it must, nonetheless, be done.
    Because if it is not, areas of vital natural, cultural, and 
economic importance are not to be lost forever--areas like the great 
Mississippi River delta and its neighboring coastal plain. Areas of 
that have already lost more than 1 million acres of coastal wetlands 
and barrier islands this century and that continue to disappear at the 
rate of nearly 30 square miles each year. This is serious stuff and it 
demands serious attention. Indeed, a failure to act may well be judged 
by not too distant generations as one of the greatest failures our 
time.
    But knowing that one must act and knowing what to do are very 
different things. Various efforts have been mounted before, based on 
everything from amorphous fairness claims to fine spun legal arguments 
and none have worked. And the problems continue to get worse. If this 
history teaches anything it is that solutions to this coastal crisis 
will continue to be elusive until the nature of the problem and the 
nature of the solutions are better explained. Indeed, to approach it is 
any other way would be irresponsible.
    With that in mind, the balance of my testimony will lay out in 
brief terms the range and scope of coastal impacts that the coast of 
Louisiana has incurred as a function of its role in serving as a 
support base for the offshore oil and gas industry. Obviously, that oil 
and gas activity does not occur in a vacuum. Other forces have been at 
play in our coast as well and they will also be noted to provide 
context. Indeed, it is probably impossible to pigeon-hole causes and 
effects. Flood control, navigation and oil and gas activity have 
combined to so completely alter the face of coastal Louisiana as to 
render it unsustainable without major corrective action.
    I have chosen to focus on Louisiana for several reasons beyond the 
obvious one of it being the place that I know best. First, the vast 
majority of OCS activity in this country takes place off Louisiana's 
coast and is supported by on shore facilities and service providers. 
Second, as home to the mouth of the Mississippi River and its 
associated coastal plain, Louisiana contains the largest expanse of 
coastal wetlands in the lower 48 states, comprising more than 25 
percent of the nation's coastal wetlands and 40 percent of its salt 
marshes. In short, the area most impacted by the OCS activity is also 
the most unique and productive wetland and estuarine system in North 
America. Any effort to address coastal impacts that does work for this 
case is fatally flawed, as is any effort to earmark a portion of OCS 
revenues for environmental and conservation purposes that fails to 
address the impacts associated with the generation of those revenues.

Nature and Coastal Louisiana

    To understand what is happening in coastal Louisiana it is crucial 
to have some understanding of its natural and geologic history. The 
geology, biology, and culture of coastal Louisiana are defined by the 
Mississippi River and the deltas it has built over the years. The 
eastern half of Louisiana's coastal zone is a deltaic plain comprised 
of deltas created over thousands of years of seasonal flooding by the 
river. The western half of the coastal zone, the chenier plain, was 
built in large part by river borne sediments that were transported west 
by Gulf currents and deposited along the coast. The result of this 
process is a vast area of coastal wetlands unmatched in size and 
productivity anywhere in this nation. To put this in perspective 
consider the following:

        <bullet> Coastal Louisiana contains over 25 percent of the 
        nation's coastal wetlands and 40 percent of its salt marshes.
        <bullet> Louisiana's coastal wetlands support the largest 
        fisheries in the lower forty-eight states.
        <bullet> Its coastal wetlands are a vital nursery and feeding 
        area for millions of birds and waterfowl that traverse the 
        Mississippi flyway.
    Even under the best of conditions, land tends to be ephemeral stuff 
in Louisiana's coastal region. Through compaction and subsidence it, in 
essence, sinks. Only through the natural process of freshwater influx 
and deposition of new sediment from the Mississippi which would spread 
in a sheet-flow manner across the vast swamps and marshes was it 
possible to offset the losses attributable to compaction and 
subsidence. Coastal Louisiana is in fact not so much a place as it is a 
process, a process in which land building must balance land loss just 
to maintain a ``no net loss'' situation.

The Causes of Coastal Impacts on Coastal Louisiana

    The fundamental problem facing the region today is the loss of that 
balance. Human activities such as levee construction, and 
channelization have to a large extent shut down the land building part 
of the process. Millions of tons of land-building sediment are now 
dumped into the deep waters of the Gulf of Mexico rather than into the 
marsh where they could create or stabilize land.
    At the same time the land-building process was effectively halted, 
human activities were also altering or stressing existing wetlands to 
the point that, during the twentieth century, more than one million 
acres have been lost. Lost not primarily to actual development but to 
open water. Thousands of miles of oil and gas canals and navigation 
channels have carved up the coastal marshes, changing their hydrology 
and making them vulnerable to saltwater intrusion.
    It is critical to highlight these impacts in order to counter two 
widely held misconceptions. First, that land loss in coastal Louisiana 
is primarily a natural phenomenon. It is not. The pace and scale of 
coastal collapse is entirely out of synch with the natural cycles of 
even a geologically dynamic area such as the Mississippi River delta. 
And second, that the human induced impacts were largely the doings of 
local residents for their enrichment or benefit. They aren't. The vast 
bulk of navigation, flood control and oil and gas activity in the 
region have been pursued as part of national programs to facilitate 
interstate commerce, develop oil and gas resources, and control 
Mississippi River flooding. To be sure, locals benefited to some 
extent, but, without a doubt, the primary beneficiaries of all this 
activity lay outside of the state of Louisiana.
    Nowhere is this more evident than in the area of oil and gas 
activity. Oil and gas exploration and production have been part of 
Louisiana's history for more than a century. It developed over the 
course of many years. It began in an era when wetlands were considered 
``worthless'' and continues today in an era when many now view them as 
priceless. It saw the very first successful OCS rig erected 10 miles 
off its coast by Kerr-McGee in 1947. No one knew how to drill for oil 
in such depths then, much less how to manage the impacts--not that such 
impacts were at that time even really been much of a concern. And in 
the 25 years between the first production from that rig and the First 
Earth Day in 1970 (and the Santa Barbara spill that preceded it) more 
than 8,800 wells were in place in the Federal OCS waters off 
Louisiana's coast. By last count, Louisiana had more than 30,000 oil 
and gas wells in its coastal zone with another 20,000 in its offshore 
OCS area. The Federal OCS of its shores area are more than 50 percent 
leased and its coastal area is criss-crossed by tens of thousands of 
miles of pipelines that serve coastal and OCS facilities (more than 
20,000 miles of pipelines offshore alone). Pipelines that run through 
its marshes, swamps and barrier islands. Pipelines that leave behind 
canals up to 70 feet wide and run for miles. Pipelines whose spoil 
banks serve as dams that disrupt the natural sheet-flow that is 
essential to the survival of the wetlands. Pipelines whose canals serve 
as conduits for salt water to penetrate deep into fresh water habitats. 
Pipelines that, in the case of a 24 inch pipe, can spill 2.5 million 
gallons of oil in an hour if ruptured.
    In many other parts of the country, the effect of this scale of 
activity would be significant but limited in time and space. That is 
not the case in the coastal regions of Louisiana. Here they accumulate 
and magnify. That is why today, when the annual direct impacts of newly 
permitted projects measure often only in the hundreds of acres, the 
overall landloss rate continues to exceed 25 square miles per year. 
That is why the risk of major oil spills increases as the coast 
deteriorates thereby exposing literally thousands of older wells, 
pipelines, and production facilities that once were protected by miles 
of buffering marsh and barrier islands to open bay and open Gulf 
conditions. The impact genie is out of the bottle.
    And it is critical to emphasize that even with the protection 
afforded by the Clean Water Act and the Coastal Zone Management Act the 
impacts continue. Indeed, new pipelines are being laid each day. 
Crewboats and immense platforms ply the dredged bayous and canals to 
service and expand the OCS industry. Waterways that were once fifty 
feet wide now span hundreds of feet from the wakes of these boats. The 
Calcasieu Ship Channel long has been identified as one of the main 
causes of the loss of nearly 80,000 acres of wetlands in southwestern 
Louisiana. And for the residents of the coastal zone, the worst part is 
that they get little or nothing from this OCS related activity. It 
produces relatively few jobs (and even fewer with growth potential), it 
produces no direct revenue for the state or local governments although 
it does require them to support the industry with roads, police and 
emergency services, and--when the inevitable down times come--to cope 
with the social cost of unemployment and family stress.
    It has also become dramatically clear, as demonstrated during the 
1998 hurricane season, that the future effects of these landscape and 
community pressures will be worse than in the past unless action is 
taken soon. The combined effects of subsidence, sea level rise and 
coastal wetland loss will directly threaten population centers such as 
New Orleans, transportation arteries, and the viability of the greatest 
estuarine fishery in the nation. Tropical Storm Francis, which did not 
even make landfall in Louisiana, left the main east-west highway in 
coastal Louisiana--a major evacuation corridor--under water for more 
than a week. Gulf waters that once were kept at bay by miles of marsh, 
lapped at the base of levees in towns such as Golden Meadow and 
Leeville. Indeed, so much has changed in recent years that the children 
of the Isle de Jean Charles community now miss as much as two weeks of 
school each year because the road to their town is too flooded to pass.

Conclusions and Solutions

    In offering this testimony my purpose is not to sound a Cassandra 
warning, cast blame, or merely stake a claim to a pot of money. Rather 
it is to make the simple point that a coastal crisis is at hand as is 
the opportunity do something significant about it. And both deserve 
very serious attention. This is especially true since, for most 
Americans, the impacts to the Louisiana and Gulf coasts are 
abstractions if they are aware of them at all. And one cannot 
prioritize that which one is not aware of.
    Because once one comes to terms with the extent of the unremedied 
impacts to coastal regions that support our nation's coastal and 
offshore petroleum activity, it should become clear that delay is not 
an option and that without prompt action the next generation of impacts 
will only be worse in terms of ecological, cultural, and economic 
consequences.
    It should also become clear that these impacts deserve a committed 
national response--not merely a Federal or state response. The impacts 
resulted from activities that benefited the entire nation and that, by 
and large, reflected national priorities and values.
    And finally, it should be clear that responses to the problems 
should be aimed at restoring sustainable function to our natural 
coastal ecosystems and addressing essential storm protection, drinking 
water, and transportation infrastructure that is already compromised. 
Elevating an evacuation route that now floods and serves to impede 
natural water flows is one thing, widening a road to allow new 
development in flood prone areas is something else. In sum, any 
response that puts more people in harms way, encourages more 
destructive impacts, or becomes essentially a general purpose block 
grant is not a solution. While we do not understand either of the bills 
being heard today to intend such an interpretation, additional 
clarification may be necessary. We would urge that the best way to 
ensure that any coastal impact assistance is used in the way the 
drafters intend would be to expressly build upon any existing 
watershed, coastal management plans, or restoration plans that may 
already be in existence. Many hours and taxpayer dollars have been 
spent under a multitude of authorities such as the Coastal Zone 
Management Act, the National Estuary Program, the Coastal Wetlands 
Planning, Protection and Restoration Act, and others to produce 
strategies and plans for improving coastal resources and waters. The 
planning provisions of any new legislation should build on that history 
rather than competing with them.
    These suggestions are offered in the spirit of advancing this 
historic opportunity to safeguard our posterity. We may never have such 
a good opportunity again. We appreciate the efforts of the bills 
sponsors--we are particularly grateful to the members of Louisiana's 
delegation--who have taken up this cause. The Coalition to Restore 
Coastal Louisiana pledges to be of whatever assistance we can be in 
this effort.
    Again, we appreciate the opportunity to appear here today and share 
our thoughts with the Committee.

[GRAPHIC] [TIFF OMITTED] T6081.178

[GRAPHIC] [TIFF OMITTED] T6081.179

[GRAPHIC] [TIFF OMITTED] T6081.180

[GRAPHIC] [TIFF OMITTED] T6081.181

[GRAPHIC] [TIFF OMITTED] T6081.182

[GRAPHIC] [TIFF OMITTED] T6081.183

[GRAPHIC] [TIFF OMITTED] T6081.184

[GRAPHIC] [TIFF OMITTED] T6081.185

[GRAPHIC] [TIFF OMITTED] T6081.186

[GRAPHIC] [TIFF OMITTED] T6081.187

[GRAPHIC] [TIFF OMITTED] T6081.188

[GRAPHIC] [TIFF OMITTED] T6081.189

[GRAPHIC] [TIFF OMITTED] T6081.190

[GRAPHIC] [TIFF OMITTED] T6081.191

[GRAPHIC] [TIFF OMITTED] T6081.192

[GRAPHIC] [TIFF OMITTED] T6081.193

[GRAPHIC] [TIFF OMITTED] T6081.194

[GRAPHIC] [TIFF OMITTED] T6081.195

[GRAPHIC] [TIFF OMITTED] T6081.196

[GRAPHIC] [TIFF OMITTED] T6081.197

[GRAPHIC] [TIFF OMITTED] T6081.198

[GRAPHIC] [TIFF OMITTED] T6081.199

[GRAPHIC] [TIFF OMITTED] T6081.200

[GRAPHIC] [TIFF OMITTED] T6081.201

[GRAPHIC] [TIFF OMITTED] T6081.202

[GRAPHIC] [TIFF OMITTED] T6081.203

[GRAPHIC] [TIFF OMITTED] T6081.204

[GRAPHIC] [TIFF OMITTED] T6081.205

[GRAPHIC] [TIFF OMITTED] T6081.206

[GRAPHIC] [TIFF OMITTED] T6081.207

[GRAPHIC] [TIFF OMITTED] T6081.208

[GRAPHIC] [TIFF OMITTED] T6081.209

[GRAPHIC] [TIFF OMITTED] T6081.210

[GRAPHIC] [TIFF OMITTED] T6081.211

[GRAPHIC] [TIFF OMITTED] T6081.212

[GRAPHIC] [TIFF OMITTED] T6081.213

[GRAPHIC] [TIFF OMITTED] T6081.214

[GRAPHIC] [TIFF OMITTED] T6081.215

[GRAPHIC] [TIFF OMITTED] T6081.216

[GRAPHIC] [TIFF OMITTED] T6081.217

[GRAPHIC] [TIFF OMITTED] T6081.218

[GRAPHIC] [TIFF OMITTED] T6081.219

[GRAPHIC] [TIFF OMITTED] T6081.220

[GRAPHIC] [TIFF OMITTED] T6081.221

[GRAPHIC] [TIFF OMITTED] T6081.222

[GRAPHIC] [TIFF OMITTED] T6081.223

[GRAPHIC] [TIFF OMITTED] T6081.224

[GRAPHIC] [TIFF OMITTED] T6081.225

[GRAPHIC] [TIFF OMITTED] T6081.226

[GRAPHIC] [TIFF OMITTED] T6081.227

[GRAPHIC] [TIFF OMITTED] T6081.228

[GRAPHIC] [TIFF OMITTED] T6081.229

[GRAPHIC] [TIFF OMITTED] T6081.230

[GRAPHIC] [TIFF OMITTED] T6081.231

[GRAPHIC] [TIFF OMITTED] T6081.232

[GRAPHIC] [TIFF OMITTED] T6081.233

[GRAPHIC] [TIFF OMITTED] T6081.234

[GRAPHIC] [TIFF OMITTED] T6081.235

[GRAPHIC] [TIFF OMITTED] T6081.236

[GRAPHIC] [TIFF OMITTED] T6081.237

[GRAPHIC] [TIFF OMITTED] T6081.238

[GRAPHIC] [TIFF OMITTED] T6081.239

[GRAPHIC] [TIFF OMITTED] T6081.240

[GRAPHIC] [TIFF OMITTED] T6081.241

[GRAPHIC] [TIFF OMITTED] T6081.242

[GRAPHIC] [TIFF OMITTED] T6081.243

[GRAPHIC] [TIFF OMITTED] T6081.244

[GRAPHIC] [TIFF OMITTED] T6081.245

[GRAPHIC] [TIFF OMITTED] T6081.246

[GRAPHIC] [TIFF OMITTED] T6081.247

[GRAPHIC] [TIFF OMITTED] T6081.248

[GRAPHIC] [TIFF OMITTED] T6081.249

[GRAPHIC] [TIFF OMITTED] T6081.250

[GRAPHIC] [TIFF OMITTED] T6081.251

 STATEMENT OF PIETRO PARRAVANO, PRESIDENT, PACIFIC COAST FEDERATION OF 
                        FISHERMEN'S ASSOCIATIONS

    Good morning Mr. Chairman and Congressman Miller. My name 
is Pietro Parravano and I am a commercial fisherman from 
HalfMoonBay, California and president of the Pacific Coast 
Federation of Fishermen's Associations (PCFFA), representing 
working men and women in the west coast commercial fishing 
fleet. Thank you very much for the opportunity to be here today 
to talk about Resources 2000 and other legislation drafted to 
use offshore oil and gas receipts to protect marine resources 
and endangered species.
    The lives of the fishing men and women my organization 
represents are impacted every day by the health of our nation's 
fisheries and, in particular, the many species of salmon, a 
number of which have been listed or are now candidates for 
listing under the Endangered Species Act. Salmon, as you know, 
has historically been the single most important fishery for 
commercial, recreational and tribal purposes along the Pacific 
Coast from Santa Barbara to Southeast Alaska. It has become 
readily apparent to me and my membership that a source of 
permanent funding is needed for the conservation and recovery 
of many salmon and marine fish stocks. For those of us who are 
coastal family fishermen, there are no foreign fisheries for us 
to buy quotas for, there are no fish for us to import; we 
depend directly on the fish stocks off our shores.
    My industry--America's oldest industry--depends directly on 
the health of our nation's fish stocks. Healthy fish 
populations and their habitats for us is not about ``being 
green,'' it's about greenbacks in our wallets and our bank 
accounts. And it is high time we begin looking at our fish 
resources as a financial investment. It is time we begin 
putting money in, instead of just taking it out of, fisheries; 
it is time we begin funding fish habitat restoration, instead 
of destroying it. That is why my organization is vitally 
interested in the legislation being addressed here today and, 
specifically, Resources 2000.
    Resources 2000 has two titles that are of particular 
importance to the fishing industry. The first is the title that 
establishes a permanent trust fund for the conservation and 
restoration of living marine resources and fish habitat. Much 
of this money will be allocated to the states to develop and 
implement conservation and management programs for living 
marine resources and their habitats. This will be especially 
important to states developing conservation and management 
plans for the myriad of non-federally managed fisheries.
    One example, is the Dungeness crab fishery, which last 
year, you Mr. Chairman and you Congressman Miller co-authored 
successful legislation, supported by the states of California, 
Oregon and Washington and the fishing industry, to extend state 
jurisdiction over this fishery into Federal waters. This first 
title in Resources 2000 could augment state funding for the 
management of this fishery. And, in the past two years, the 
State of California, for example, has embarked on an ambitious 
program with the passage of state legislation (SB 346 and AB 
1241) to develop a research, conservation and management 
program for its fisheries beginning with squid, nearshore 
rockfish, white sea bass, and emerging fisheries. This fund in 
Resources 2000 could assist states such as California that have 
begun working for sustainable fisheries.
    We strongly support the way the funding for this program in 
Resources 2000 is designed to get money out to the states and 
on the ground where it is needed. We do not want this money to 
be used to fund existing Federal programs. Instead, we think it 
should compliment existing programs. In California, for 
example, these funds could compliment programs, such as 
CalFed--aimed at restoring the state's Bay-Delta ecosystem and 
fisheries (Central Valley fall-run chinook are now the main 
population of salmon harvested offshore California, Oregon and 
Washington) and providing the state a safe water supply, as 
well as the President's proposed $100 million program for 
coastal salmon stocks in Alaska, Washington, Oregon and 
California. These funds would also compliment state funding 
programs, such as the California Commercial Salmon Stamp 
program, which uses money from an industry derived--and 
supported--fee to fund necessary salmon propagation and 
restoration efforts. It is important to remember, too, that 
while salmon is finally beginning to get the funding it needs, 
many other fisheries also need attention.
    Mr. Chairman we appreciate the fact that some of the money 
allocated to the states in your bill could also be used for the 
purposes I have mentioned above, but we are concerned that 
there is no guarantee that the money would be targeted directly 
to salmon and other marine fisheries and their habitats. We 
feel that this could once again force fisheries to compete with 
numerous other state programs and get the short end of the 
stick as they have for so many years. Therefore, we believe 
that it is imperative that the marine resources fund found in 
Resources 2000, that allocates $300 million for marine species 
and their habitat be part of any legislation that is supported 
by this Committee. Only then, can we guarantee these resources 
will get the funding they so desperately need and deserve.
    The second title of Resources 2000, also of great 
importance to us, is the one which establishes the endangered 
and threatened species recovery fund. Listing species under the 
Endangered Species Act by itself does not guarantee species 
protection or recovery. Species protection and recovery, as we 
have seen on the west coast with a number of salmon and other 
anadromous fish listings, requires political will on the part 
of the agencies to enforce the law and funding to implement 
protection and recovery programs. As you know, Mr. Chairman and 
Mr. Miller, listed species are not just snail darters and 
spotted owls. In the west, species such as coho salmon, that 
once supported major economic activities, are now listed in 
California and Oregon. It is not enough that we merely 
stabilize the populations or get them to some threshold above 
listing qualification, but that we fully recover these fish so 
they may once again support commercial and recreational 
fisheries, fish processing, tourism and coastal communities. 
But to do this will take political will and money.
    Let me also point out that the funding in Resources 2000 
for threatened and endangered species is not just important to 
the fishing industry. Many private landowners, water districts, 
farmers and others are seeing the use of their land or 
resources restricted in order to provide some measure of 
protection for listed species. The problem is not the 
Endangered Species Act, but our failure to fund recovery of 
listed species. The quicker we develop and fund recovery, the 
sooner we can lift restrictions on other interests. Moreover, 
this fund will be invaluable for assisting landowners and water 
districts in making changes or taking actions, such as 
installing effective fish screens or fencing riparian areas, to 
help protect and recover listed fish.
    We appreciate the fact, Mr. Chairman, that your bill 
includes a provision that addresses endangered species, however 
our preference is for the current language in Resources 2000 
for a number of reasons. First, it provides an identified 
source and dedicated amount ($100 million) of money that will 
be spent annually to contribute to the recovery of endangered 
species. The current language in the proposed Conservation & 
Reinvestment Act, does not do this.
    Second, Resources 2000 uses this money specifically for 
recovery of species, a focus that has been missing all too long 
from existing ESA programs. If we do not recover salmon on the 
west coast, they will never be removed from the Endangered 
Species list and our industry itself will never recover.
    Third, Resources 2000 will only provide grants for recovery 
activities that are beyond the requirements of the law. The 
provision in your bill, Mr. Chairman, could potentially pay 
landowners to merely comply with the law. We do not think this 
is fair. As fishermen, we do not get paid when we are told we 
cannot harvest endangered salmon and we do not think others 
should be paid to merely comply with the law. Resources 2000 
provides incentives to those who want to go beyond the law to 
recover our threatened and endangered species. We think this is 
the right approach.
    I want to express the gratitude of the working fishing men 
and women I represent to you Mr. Chairman and you Congressman 
Miller for your vision in introducing your two bills. Utilizing 
receipts from non-renewable resource extraction from the marine 
environment to reinvest in renewable marine and fish resources, 
is we believe, good public policy. Fishing is America's oldest 
industry. It is a wonderful calling. The members of my 
organization take pleasure in deriving our livelihoods on the 
beauty and bounty of the ocean; we take pride in providing the 
public wonderful and wild sources of healthy food. But our fish 
stocks and their habitats need investment desperately to be 
conserved and rebuilt. Members of my organization have dug deep 
in their own pockets to pay for fishery programs, but we cannot 
do it all by ourselves; we cannot pay for damage done by 
others. That is why we need a permanent source of public 
funding to invest in and recover our public fishery resources. 
Thank you. I will be happy to answer any questions Committee 
members of staff may have.

                                <greek-d>

</pre></body></html>
